<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-100, Part 6]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 111-100 Pt. 6
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1390

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2010 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                        MAY 20 AND JUNE 3, 2009


         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
52-625                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                 E. BENJAMIN NELSON, Nebraska, Chairman

EDWARD M. KENNEDY, Massachusetts     LINDSEY GRAHAM, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
  Active Component, Reserve Component, and Civilian Personnel Programs
                              may 20, 2009

                                                                   Page

Rochelle, LTG Michael D., USA, Deputy Chief of Staff G-1, United 
  States Army....................................................    15
Ferguson, VADM Mark E., III, USN, Chief of Naval Personnel, 
  Deputy Chief of Naval Operations (Manpower, Personnel, 
  Training, and Education), United States Navy...................    22
Newton, Lt. Gen. Richard Y., III, USAF, Deputy Chief of Staff for 
  Manpower and Personnel, United States Air Force................    31
Coleman, Lt. Gen. Ronald S., USMC, Deputy Commandant for Manpower 
  and Reserve Affairs, United States Marine Corps................    36
Barnes, Master Chief Joseph L., USN (Ret.), National Executive 
  Director, Fleet Reserve Association; and Co-Chair, The Military 
  Coalition......................................................    59
Puzon, Captain Ike, USNR (Ret.), Director of Legislation, Naval 
  Reserve Association; and Co-Chair, Guard/Reserve Committee, The 
  Military Coalition.............................................    95
Holleman, Deirdre Parke, Executive Director, The Retired Enlisted 
  Association; and Co-Chair, Survivor Committee, The Military 
  Coalition......................................................    96
Strobridge, Col. Steven P., USAF (Ret.), Director, Government 
  Relations, Military Officers Association of America; and Co-
  Chair, The Military Coalition..................................    98
Snyder, Captain Bradley J., USA (Ret.), Past President, Armed 
  Forces Services Corporation....................................    99

    Support for Military Family Programs, Policies, and Initiatives
                              june 3, 2009

Casey, Sheila L., Wife of General George W. Casey, Jr., USA, 
  Chief of Staff, United States Army.............................   116
Mancini, Jennifer A., Wife of Chief Petty Officer Steven F. 
  Mancini, USN...................................................   118
Smith, Colleen K., Wife of Colonel Andrew H. Smith, USMC, 
  Commanding Officer, Marine Barracks, Washington, DC............   119
Davis, Patricia, Wife of Chief Master Sergeant James E. Davis, 
  USAF, Command Master Chief Sergeant, 316th Wing, Andrews Air 
  Force Base.....................................................   122
Moakler, Kathleen B., Director, Government Relations, National 
  Military Family Association....................................   123
Myers, Arthur J., Principal Director and Acting Deputy Under 
  Secretary of Defense for Military Community and Family Policy, 
  Department of Defense..........................................   152
Marin, Kathleen, Director, Installation Services, Office of the 
  Assistant Chief of Staff for Installation Management, United 
  States Army....................................................   161
Rau, Terri J., Ph.D., Deputy Director for Research and 
  Development and Performance Measurement, Navy Installations 
  Command, United States Navy....................................   169

                                 (iii)

Larsen, Maj. Gen. Timothy R. USMC (Ret.), Director, Personal and 
  Family Readiness Division, Manpower and Reserve Affairs 
  Department, United States Marine Corps.........................   174
Nesmith, Eliza G., Chief, Airman and Family Services Division, 
  United States Air Force........................................   180


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

  ACTIVE COMPONENT, RESERVE COMPONENT, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-222, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Begich, Burris, Graham, and Thune.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Mary C. Holloway and Jessica L. 
Kingston.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Gordon I. Peterson, assistant 
to Senator Webb; David Ramseur, assistant to Senator Begich; 
Gerald Thomas, assistant to Senator Burris; Adam G. Brake, 
assistant to Senator Graham; and Jason Van Beek, assistant to 
Senator Thune.

   OPENING STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. The subcommittee meets today to receive 
testimony on the Active, Guard, Reserve, and civilian personnel 
programs in review of the National Defense Authorization 
Request for Fiscal Year 2010 and the Future Years Defense 
Program. We call the subcommittee to order.
    We will have two panels today. The first panel will consist 
of the personnel chiefs of the Services. I welcome Lieutenant 
General Michael Rochelle, Deputy Chief of Staff of the Army, G-
1. I want to thank him for his terrific service, many years of 
duty, and for his constant concern for the men and women in the 
Army.
    Vice Admiral Mark E. Ferguson III, the Chief of Naval 
Personnel. We appreciate you being here, too. Having worked 
with you on other occasions in different responsibilities, it 
is great to see you again.
    Also here today are Lieutenant General Richard Y. Newton 
III, Deputy Chief of Staff of the Air Force for Manpower and 
Personnel; and Lieutenant General Ronald S. Coleman, Deputy 
Commandant of the Marine Corps for Manpower and Reserve 
Affairs.
    I never want to say it is the final hearing, but it may be 
the final hearing for General Rochelle and General Coleman. I 
appreciate so much both of you finishing up decorated careers. 
I want to thank you and especially your families for your 
service. You have both overseen significant growth in your 
respective Services in the past 2 years, and you leave them 
stronger today than they were when you assumed your duties.
    I thank you for your service and we wish you the best in 
your future.
    Our second panel will consist of representatives from 
associations that represent and advance the interests of Active 
Duty, Reserve, and retired servicemembers, and I will introduce 
our witnesses on the second panel when it convenes.
    This hearing, which we hold every year, is an opportunity 
to explore the state of our military personnel. This year, more 
than ever, we are seeing the stress that repeated and lengthy 
deployments are having on the force and on families. As we 
begin the process of rotating our troops from Iraq to 
Afghanistan, the demand for our forces will not lessen in 2010.
    The suicide rates in all the Services have risen steadily 
over the past several years and the numbers this year for the 
Army are already particularly high. Even though the Army and 
Marine Corps have grown significantly over the past 2 years, we 
still cannot provide sufficient dwell time for our 
servicemembers between deployments, either for the Active Duty 
or Reserve components.
    Secretary Gates testified last week that it would be 
several years before dwell time goals can be reached. This 
causes stress not just on servicemembers, but on their families 
as well.
    Moreover, the Army is ending its use of stop-loss in the 
coming months, and even though we applaud that decision, it is 
not without its cost. Stop-loss is a cross-leveling tool that 
ensures unit stability while in the deployment and pre-
deployment process. Without stop-loss, dwell times may be 
pressured even more.
    One obvious solution to easing the stress on the force is 
more end strength. Simply stated, more people equals less 
deployed time per person, but end strength cannot be viewed in 
a vacuum. The country is experiencing its worst economic 
downturn since the Great Depression, and while that has 
actually helped our recruiting and retention, declining Federal 
revenues put pressure on all areas of the Federal budget, 
including defense.
    As Secretary Gates testified last week, it is unclear 
whether increasing end strength beyond current levels is 
sustainable into the future. Personnel and personnel-related 
costs, such as the cost of military healthcare, survivor 
benefits, and retired benefits, continue to soar. People have 
become the most expensive weapon system in the arsenal.
    Nevertheless, as Secretary Gates and Admiral Mullen have 
said, our people are our most important strategic asset. We 
will continue to ensure that we have the highest-quality, All-
Volunteer Force that is equipped, trained, and ready while 
caring for the families and the wounded. We will continue to 
look for ways to ease the stress on the force while remaining 
prudent stewards of the taxpayer's dollar.
    Finally, we must never lose sight of our responsibility to 
provide robust family support programs and to continue to 
improve the care coordination and transition support for our 
wounded, ill, and injured servicemembers. There is no higher 
responsibility than that.
    I look forward to hearing your testimony today and your 
thoughts and insights on these challenges.
    Now I would like to welcome our ranking member, Senator 
Graham. As always, we are delighted to have you here with us 
today as we continue to work together. We have exchanged this 
position a time or two.
    Senator Graham. That is right.
    Senator Ben Nelson. We have continued to work well, no 
matter who is banging the gavel. With that, would you like to 
make an opening statement?

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Yes, Mr. Chairman, very briefly.
    I would like to echo the statement you just made. It is a 
joy being on this committee. I think all members work in a 
bipartisan fashion, but no one has been easier to get along 
with than Senator Nelson, and he really does put the men and 
women in uniform ahead of politics. That is what this is 
about--those who serve, not politics.
    To the panel, welcome. To those retiring, congratulations, 
if it is true. I think we have money to pay you, and I know you 
have earned it. [Laughter.]
    I look forward to hearing from both panels, particularly 
the second one, about how our men and women are faring out 
there. To all of you testifying, thank you.
    As Senator Nelson indicated, we have been on a wartime 
footing for 8 years now. This September will be 8 years since 
we were attacked on September 11, 2001. It has been a tough 8 
years. Our men and women in uniform and their civilian 
counterparts being deployed overseas and their families have 
really borne a heavy burden.
    I don't think in any other war in American history have so 
few done so much for so long, and it is not lost upon us. All 
we can do is say ``thank you, well done'' and come to your aid 
when we can when it comes to benefits and programs that serve.
    The Army Secretary and General Casey, the Chief of Staff of 
the Army, testified yesterday that dwell time continues to be 
insufficient, and the goal of 2 years home for every year 
deployed will be difficult to realize. They let us know that 
the soldiers, sailors, airmen, marine, Coast Guard members, and 
everybody involved are very resilient. But we have to 
understand they are people, too. They have families to raise, 
and we are just going to have to, as Senator Nelson said, 
increase the number of people in the military.
    There are a lot of costs associated with the Government, 
but none more important than defending the Nation. I think most 
Americans are pretty upset with us at times about the way we 
spend our money, but very few have any problem helping the men 
and women who serve and making sure they are well taken care 
of.
    Our noncommissioned officers (NCOs), who are the backbone 
of every military organization, we have to do more to recruit 
them. We have healthcare professionals, special forces, 
nuclear-qualified personnel, Explosive Ordinance Disposal 
units, you name it, a lot of specialties in the military that 
are under a lot of stress, and bonus programs have really 
helped.
    The supplemental is going to help in the short term. But at 
the end of the day, we need to look at the overall end 
strength, and I think the Commander in Chief's top priority 
must be national security. The intelligence reports we receive, 
Mr. Chairman, show a growing threat from Iran, a tougher fight 
in Afghanistan. Iraq is not done yet. Who knows what North 
Korea is up to? It will be a long time before we receive a 
peace dividend.
    The budget that was proposed by the administration had a 3 
percent gross domestic product spending on defense in 2019. I 
think that is woefully inadequate. Having said that, I would 
like to work with the administration and Secretary Gates to 
make the military--Department of Defense (DOD)--more efficient.
    At the end of the day, if you increase the size of the 
military, the largest expense in the DOD's budget is personnel 
cost. If you don't increase the overall pie, there is going to 
be less money to modernize our weapons and do the things that 
give us an edge in battle.
    I will look forward to working with you, Senator Nelson, 
Mr. Chairman, to make sure that the defense budget not only 
grows the number of people, but it also gives them the 
equipment they will need to win the war. This choice between 
guns and butter, I know we need both. But if you are not well 
defended, the butter problems are not nearly as important.
    Tomorrow, we have to realize that we could wake up and the 
enemy could hit us again. They are doing everything they can to 
come back our way, and the reason they haven't is because our 
men and women in uniform, the Central Intelligence Agency, and 
other groups have taken the fight overseas to this enemy, and 
it has made it safer here at home.
    I look forward to working with you, Senator Nelson, to get 
a budget that we can all be proud of.
    Senator Ben Nelson. Thank you, Senator Graham.
    Senator Begich is here. Are there any opening remarks that 
you might like to make?
    Senator Begich. No, Mr. Chairman. I am anxious for their 
presentations.
    Senator Ben Nelson. Thank you.
    Without objection, all witness testimony submitted for 
today's hearing will be included in the record.
    Additionally, we have received a statement from the Reserve 
Officers Association, and without objection, it will be 
included in the record of this hearing.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Ben Nelson. We will now hear from our witnesses. We 
will start with you, General Rochelle.

  STATEMENT OF LTG MICHAEL D. ROCHELLE, USA, DEPUTY CHIEF OF 
                 STAFF G-1, UNITED STATES ARMY

    General Rochelle. Chairman Nelson, Senator Graham, 
distinguished members of the committee, thank you very much for 
this opportunity and thank you for your very kind and gracious 
comments regarding my service. Much appreciated and certainly 
so on the part of my family, as with all Army families.
    I appear before you today on behalf of the 1.1 million men 
and women serving here and abroad in peace as well as in 
hostile environments. This combat-seasoned force is resilient 
and professional, yet strained and out of balance.
    More than 1 million of this Nation's finest citizens have 
deployed over the past 7 years into harm's way. We realize very 
well that there are costs and effects associated with this 
conflict, both visible and invisible effects. Our current 
programs to relieve stress on the force are critical to 
maintain a healthy, balanced, and prepared force.
    These programs help us defend our country against some of 
the most persistent and wide-ranging threats in our history. 
The success of these programs, many of which you are 
responsible for in large part due to your support, give us the 
numerous programs that are required to support this great force 
well into now, as well as 7-plus years of war, as you have 
noted, Mr. Chairman, as with Senator Graham.
    First and foremost, you have given us the means to recruit 
and retain an agile Army. As a result of the past 2 years, we 
have met or exceeded our recruiting and retention goals for the 
Total Force. This is a step in the right direction toward 
restoring balance.
    We continue to transform our force into one Army that 
consistently uses the talents of our Active, Reserve, and 
National Guard soldiers as well as our civilian workforce and 
teammates. This Total Force approach is key to restoring 
balance within our ranks and our homes.
    This Congress, and most especially this committee, has 
embraced our needs, and we are very grateful. You have given us 
the means to improve the quality of life for our soldiers and 
their families. Soldiers are remaining in the Army because they 
see it is a good environment in which to raise a family, thus 
making us the employer of choice.
    The Army continues to face challenges, which will be 
directly in front of us for the next several years. Armed with 
lessons learned, it is our intent to stay in front of these 
challenges, anticipate them, develop strategies and programs, 
and keep them from becoming problems in the future.
    One of our latest challenges is that of the eligible 
population to serve in the Armed Forces, which continues to 
drop, thus creating a national dilemma. The Army will continue 
to work hard to attract and retain the best, but we need your 
help in taking on this larger national issue.
    The challenging environment that our soldiers serve in 
demands that we maintain the standards as set, and we must 
remain ever vigilant that our force is manned with both 
physically and mentally qualified and fit soldiers, as it is 
today.
    I have described a challenging environment to you here 
today. I am confident, however, that with the operational and 
institutional agility this Army has developed over the past 8 
years, we will meet all of the challenges that confront us.
    It is always easier to commit to a plan of action when we 
know that Congress supports us. Your leadership and your 
support have been unwavering, and I have appreciated the 
discussions we have had over the years concerning the health of 
the Army, and I look forward to your questions today.
    Thank you.
    [The prepared statement of General Rochelle follows:]
           Prepared Statement by LTG Michael D. Rochelle, USA
                              introduction
    Chairman Nelson, Senator Graham, and distinguished members of this 
committee, thank you for the opportunity to appear before you on behalf 
of America's Army. Our greatest heroes are America's most precious 
resource--our soldiers. These soldiers and their families, backed by 
our civilian workforce, represent the very best of America's values and 
ideals. Your continued support of our personnel initiatives provides 
the tools we need to ensure the growth, sustainment, and well-being of 
our All-Volunteer Force. This fighting force of 1.1 million soldiers is 
continually tested at home and abroad. Repeatedly our Nation's young 
men and women step forward and pledge to serve. They recognize the 
challenges facing our Nation, answer the call, and become part of 
something larger than them. Their dedicated service and sacrifice are 
deserving of the very best services, programs, equipment, training, 
benefits, life-style, and leadership available. Our focus this year 
centers on the growth in volume and talent, sustainment of the force, 
our ability to meet the national challenges, and the importance of 
maintaining this strength to meet the demands now and for the future.
                           strategic overview
    America's Army, strained by persistent conflict, remains a 
resilient and professional force. More than 1 million of our country's 
men and women have deployed to combat; more than 4,500 have sacrificed 
their lives, and more than 31,000 have been wounded. After 7 years of 
continuous combat our Army--particularly our people--remains out of 
balance. We have several challenging years ahead and must remain 
vigilant and proactive to the needs of our people and maintain the 
programs and policies in support of them. The current conditions of 
supply and demand most change in order to restore balance in our force. 
We remain cautiously optimistic that we will achieve balance by fiscal 
year 2011.
                              end strength
    As part of the overarching goal of restoring balance, the Army met 
the ``Grow the Army'' end strength goal ahead of schedule, resulting in 
an end strength of 543,645 for fiscal year 2008. The Army met the 
fiscal year 2010 end strength goal of 547,400 in January 2009. This 
success is based largely on the Army's recruiting and retention 
programs. Since attaining the authorized strength, the Army has taken 
actions to ensure that Army end strength in fiscal year 2009 remains 
at, but does not exceed, the authorized level of 547,400. These actions 
included reducing the recruiting and retention missions and policy 
changes to manage losses.
    Because the Army was able to meet the ``Grow the Army'' end 
strength early, we have sufficient enlisted soldiers to meet all the 
current authorizations. This will help mitigate some of the stress of 
the ongoing high operational pace; however, there are still many 
stressors overwhelming the force. In spite of the Army's strength, 
however, the Army cannot meet the 1:2 Boots on the Ground dwell time 
goal due to the cumulative effects of the planned deployment schedule, 
the elimination of Stop Loss, and the continuing demands of training 
soldiers and caring for the wounded warriors.
            recruiting and retention (officer and enlisted)
    Once again, despite the challenges of a protracted conflict in 
fiscal year 2008. the Army exceeded its enlisted recruiting and 
retention missions for the first time since fiscal year 2002 and is 
confident it will meet its goals for fiscal year 2009. Meeting these 
critical benchmarks moves us closer to restoring balance, but much more 
needs to occur. As a result of a dynamic environment, we have adjusted 
our recruiting and retention objectives mid-year. We will continue to 
monitor the trends and make adjustments as required.
    In fiscal year 2008, with congressional support, the total Army 
spent $4.2 billion on recruiting and retention. In fiscal year 2009, 
these programs received $3.8 billion and requested an additional $1.1 
billion in supplemental funding. The requested increase of $0.7 billion 
was the result of a large residual and anniversary payments initiated 
in fiscal year 2008 and coming due in fiscal year 2009. We intend to 
decrease our fiscal year 2010 budget by 6 percent over fiscal year 2009 
to $4.6 billion due to a more favorable recruiting and retention 
environment. The amount budgeted for anniversary payments will continue 
to increase through fiscal year 2011 but is anticipated to decrease in 
fiscal year 2012 in subsequent years.
    The cumulative effects of this funding is a quality All-Volunteer 
Force and a proven model to sustain personnel levels as required. For 
example, the Army's percentage of new enlisted soldiers considered 
``high quality'' with high school diploma increased by 2.1 percent in 
2008. Additionally, recruits scoring in the upper range (50-99 percent) 
on the Armed Forces Qualification Test (AFQT) increased 1.6 percent; 
and recruits who scored poorly (30 percent and below) on the AFQT 
decreased 1.2 percent.
    The Army must remain adaptive to the recruiting environment. As an 
example, a recently developed program to assist the Army in meeting 
critical skills is the Military Accessions Vital to the National 
Interest (MAVNI). The Army launched this pilot program on February 23, 
2009, to attract high quality individuals with exceptional skills in 
health care professions or 1 or more of 35 languages. MAVNI recruits 
are non-U.S. citizens who have been legally present in the United 
States for 2 or more years and speak a designated and critically needed 
language or are licensed health care professionals, but who do not have 
permanent residency (i.e. Green Card). Additionally, the Army continues 
to utilize the Military Occupational Specialty (MOS) 09L Program. The 
Army has recruited more than 1,500 soldiers as military interpreters 
and translators under this program.
    The Army retention mission is also on track to meet the goals set 
for fiscal year 2009. In all components, the Army is currently above 
mission and expects to finish successfully in every category. The Army 
reduced the overall Active component mission in the second quarter from 
65,000 soldiers to 55,000 soldiers due to meeting the overall ``Grow 
the Army'' objective. Retention of combat experienced veterans remains 
critical to current and future readiness. As a result of this 
successful program, 45.1 percent of all reenlistments occur in theater 
currently. Operation Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) 
areas of operations have achieved reenlistment rates of 135 percent 
against their annual goals.
    Shortages remain within our officer corps due to overall structural 
growth of the Army. To correct this, the Army initiated the Captains' 
Retention Incentive Menu in September 2007. The Army spent $443.6 
million from fiscal year 2007 to present on this incentive program. The 
goal of the program was to recruit, retain, and manage critical skills 
in officers to increase the retention of lieutenants and captains for 3 
years. The Captains' Retention Incentives Menu program included a cash 
option based on the officer's accessed branch, resident graduate school 
attendance for up to 18 months, or attendance at the year long Defense 
Language Institute in exchange for a 3 year additional active duty 
service obligation. As a result, the captain retention increased in 
fiscal year 2008 to 89.1 percent over the 10 year average of 88 
percent. The program guaranteed retention through fiscal year 2011 for 
over 16,000 of the 23,000 captains who were eligible to participate. 
The timing of our Captains' Retention Incentives Menu program, 
concurrent with the dramatic downturn of the economy and job market, 
helped support our retention goals. The cash and Defense Language 
Institute options ended in November 2008. The remaining retention 
incentive, the Expanded Graduate School Program, has been funded at 
$7.5 million in fiscal year 2010. Overall, the single most effective 
retention incentive for junior officers was the cash bonus. Over 94 
percent of the more than 16,000 officers who took incentives in fiscal 
year 2008 elected to take the cash bonus. Department of Defense survey 
data analysis showed that most officers who intended to separate or 
were uncertain about staying in took the incentive and committed to 
further obligated Army service.
    The Officer Accession Pilot Program (OAPP), launched under 
authority of the 2006 National Defense Authorization Act (NDAA), 
allowed us to offer cash incentives to students who graduate from the 
Leader Training Course (LTC) and contract as a 2 year ROTC cadet. As a 
result, the fiscal year 2008 contract rate for graduates from the LTC 
increased from 65 percent to 70 percent. That is a 5 percent increase 
from the contract rate average the previous 4 years. This authorization 
further allowed us to incentivize language training focused on the 
Critical Language List. At a cost of $68,250, the program had 127 
participants as of January 2009. Finally, the new authority gives us 
needed tools to assess much needed chaplains and medical professionals.
    The United States Military Academy (USMA) and ROTC both offer Pre-
Commissioning incentives. These consist of offering new officer's their 
Post or Branch of Choice or Graduate Schooling. In fiscal year 2006 and 
fiscal year 2008 there were 4,500 participants.
    These incentives have increased longevity by 40 percent for newly-
commissioned, high-performing USMA and ROTC officers.
    In spite of a dramatically changed recruiting climate, based on the 
economy, our message to our soldiers and their families must resound 
with assurance that they will be cared for in a manner commensurate 
with their service and sacrifice. Incentives, bonuses and pay are only 
part of the equation in creating balance in our soldiers and families 
lives. In the event of a life changing injury or the loss of life, our 
soldiers are assured that their families will receive financial and 
programmatic support for their loss and sacrifice. This support 
includes full-earned benefits and disability compensation. The Army is 
working closely and aggressively with soldiers and their families to 
streamline access to assistance from other Federal agencies, such as 
the Social Security Administration, Department of Labor, and Department 
of Veterans Affairs.
    Overall, the Army's programs are effective in recruiting and 
retaining both officers and enlisted soldiers with critical skills. For 
enlisted soldiers, the Selective Reenlistment Bonus (SRB) and Critical 
Skills Retention Bonus (CSRB) remain proven as effective tools for 
filling critical skills. The Army carefully manages its resources, 
reviewing and adjusting incentives at least quarterly to ensure we 
attract and retain quality individuals in needed occupations, while 
remaining fiscally responsible to avoid excessive payments. The 
economic environment allows us to reduce incentive levels amounts and 
the number of occupations offered bonuses. However, we must retain the 
flexibility to apply incentives as necessary to attract and retain 
mission critical talent in shortage MOS, and reshape the force as QDR 
and other factors warrant. The continued authorities and funding of 
these programs by Congress remains critical to the Army.
                               stop loss
    A friction point that the Army intends to alleviate is the use of 
stop loss. The Army's current use of stop loss is based solely on 
mission demands. In accordance with the March 18, 2009, announcement 
from Secretary of Defense Gates, the Army will phase out the use of the 
stop loss program between now and January 2010. By August 2009, the 
U.S. Army Reserve will no longer mobilize units under stop loss and the 
Army National Guard will stop doing so in September 2009.
                 individual ready reserve mobilization
    The Individual Ready Reserve (IRR) is a critical element that 
assists the Army in meeting unit readiness. There are 59,146 in the IRR 
as of May 11, 2009. A total of 13,560 have received mobilization orders 
since September 11, 2001, of which 10,841 soldiers have reported as 
ordered and 9,012 soldiers have deployed to Iraq or Afghanistan at 
least once. The Army has a tiered systemic approach to mobilization to 
ensure we input equity into the IRR mobilization process. An effective 
IRR program is based on several factors, including the soldiers' 
understanding of their obligations, access to benefits and support, and 
time to adjust personal affairs prior to mobilizations.
    To improve readiness of the IRR, the Army instituted an innovative 
IRR muster program. Approximately 5 months after entering the IRR, a 
soldier will be ordered to muster duty. During fiscal year 2008, the 
Army Reserve spent approximately $7.4 million to muster 11,600 IRR 
soldiers and the Army plans to muster 14,000 IRR soldiers at an 
estimated cost $7.9 million in fiscal year 2009. Soldiers may be 
required to muster each year they remain in the IRR. Once mobilized, 
soldiers in the IRR receive 10 days of Individual Soldier Training upon 
arriving at the mobilization station. These soldiers also receive 
refresher training in their MOS which lasts between 2 to 4 weeks 
depending on their specific skill. This program contributes to our 
goals of an Operational Reserve as well as a continuum service.
                           civilian personnel
    Department of the Army Civilian employees provide vital support to 
soldiers and families in this era of persistent conflict. They share 
responsibility for mission accomplishment by delivering combat support 
and combat service support--at home and abroad. More than ever, Army 
Civilians are an absolutely essential component of readiness and a key 
element in restoring balance. Today, the Army Civilian Corps is over 
287,000 strong with 4,676 currently serving in harm's way in the U.S. 
Central Command area of operations. The new Department of Defense 
Civilian Expeditionary Workforce supports humanitarian, reconstruction, 
combat-support, and other missions. As a key part of the Army Civilian 
Corps, the civilian expeditionary workforce maximizes the use of 
civilian employee volunteers in support positions, freeing up military 
personnel for operational requirements. These civilian employees train, 
equip, and prepare to mobilize and respond urgently to expeditionary 
requirements.
    While we have successfully grown the Army's civilian workforce over 
the last few years, we will significantly stress our capability to meet 
known and projected hiring requirements over the next few years. The 
Base Realignment and Closure Act (BRAC) of 2005 require the movement of 
over 23,000 civilian employee positions to different geographical 
areas. In fiscal year 2007-2008, Army obligated over $35 million for 
civilian Permanent Change of Station (PCS) moves associated with BRAC. 
For fiscal year 2009, Army has budgeted $150 million to cover the 
increases in projected BRAC PCS moves. Our analysis of past BRAC 
implementation indicates that traditionally only 30 percent of the 
civilian work force will move with their current organization although 
that percentage may increase because of the current economy. We project 
that over 56,000 more BRAC recruitment actions must be completed 
between now and the end of fiscal year 2011 to provide commanders the 
talent needed to meet critical missions. This is in addition to the 
120,000 recruitment actions needed annually to sustain current 
operations. Additionally, the Army anticipates hiring up to 4,000 
employees as a result of the American Recovery and Reinvestment Act, as 
well as a significant number of new civilians as part of current 
insourcing initiatives.
    To protect the public interest and maintain core competencies, we 
ensure that inherently governmental functions and requirements are 
performed by government employees. The civilian workforce provides us 
with an opportunity to save vital resources by bringing relatively 
expensive contracted services back into the government through the 
insourcing process. The initial results of our efforts are promising, 
saving an average of $46,000 per insourced position. We have insourced 
1,164 positions to date.
                   army equal opportunity (eo) policy
    The Army leads the Nation in Equal Opportunity using education, 
preventative training, and cultural awareness of discrimination. 
Commanders at all levels are responsible for sustaining positive equal 
opportunity climates within their organizations. Remaining applicable 
and relevant within the environment that we operate, the Army is 
transforming EO policy through innovative equal opportunity techniques, 
tactics, and procedures based on the full spectrum of Army Operations, 
Institutions, and Training. This effort will strengthen the foundation 
of the Army's overall Human Relations program. One area the Army is 
currently upgrading is the Equal Opportunity Reporting System (EORS). 
The EORS tracks complaint data and trends to give senior leaders 
critical information about the EO climate in their organizations and 
across the Army and it will soon provide a variety of automated 
reports. Additionally, the Army is preparing to implement the Defense 
Equal Opportunity Management Institute Organizational Climate Survey as 
its official command climate survey for the Army. To date, the Army has 
invested $2 million ($1.1 million in fiscal year 2008 plus $0.9 million 
so far in fiscal year 2009) and expects to invest another $0.8 million 
in fiscal year 2010 for EO personnel and services support, database and 
survey systems, outreach support, and training contracts.
                       sexual assault prevention
    The Secretary of the Army and the Chief of Staff remain personally 
involved in reinforcing to all soldiers and leaders the importance of 
preventing sexual assault. Under their guidance and leadership, the 
Army launched a new comprehensive sexual assault prevention campaign in 
2008. The campaign centers on leaders establishing a positive command 
climate where sexual assault is clearly not acceptable. The campaign 
further encourages soldiers to execute peer-to-peer intervention 
personally, and to not tolerate behavior that, if left unchecked, may 
lead to sexual assault.
    The cornerstone of the Army's prevention campaign is the ``I. A.M. 
Strong'' program, where the letters I, A, and M stand for Intervene-
Act-Motivate. The ``I.A.M. Strong'' program features soldiers as 
influential role models and provides peer-to-peer messages outlining 
the Army's intent for all its members to personally take action in the 
effort to protect our communities. Leaders have embraced ``I. A.M. 
Strong'' initiatives and are motivating soldiers to engage proactively 
and prevent sexual assault. The Secretary of the Army helped kick off 
Phase II of the ``I. A.M. Strong'' campaign last month at our second 
annual Sexual Assault Prevention Summit. Our campaign extends through 
2013 as we work to be the Nation's leader in sexual harassment and 
sexual assault prevention.
    Our strategy culminates with the Army recognized as the Nation's 
leader when it comes to investigating and prosecuting sexual assault 
cases. The Criminal Investigation Division (CID) and the Judge Advocate 
General's Corps (JAGC) are in the process of adding investigators and 
prosecutors at our busiest jurisdictions. The intent of this initiative 
is to create a capability similar to civilian Special Victim Units. The 
CID and JAGC are also hiring nationally recognized subject matter 
experts in the field of sexual assault as consultants, advisors, and 
trainers.
    The Army expended over $20 million in fiscal year 2008 for our 
sexual assault prevention campaign; we are projected to expend over $42 
million in fiscal year 2009; and we expect to allocate approximately 
$67 million in fiscal year 2010. To date, our prevention campaign is 
successfully leading cultural change and establishing the Army as the 
blueprint for the Nation on sexual assault prevention.
                       suicide prevention program
    The loss of any soldier is a tragedy, particularly when it could 
have been prevented. Over the past several years, suicides among 
soldiers have increased. Army leaders are greatly concerned with the 
significant increase in the number of suicide cases. The Army 
leadership prioritized efforts and directed resources toward suicide 
prevention awareness, suicide intervention actions, and post-
intervention grief and bereavement support.
    As part of the Army's continuing response to suicide, Army Vice 
Chief of Staff, General Peter W. Chiarelli, issued a comprehensive, 
multi-disciplinary Army Campaign Plan for Health Promotion, Risk 
Reduction, and Suicide Prevention. The plan, run by both the Army's 
Suicide Prevention Task Force and the Vice Chief chartered Suicide 
Prevention Council, recognizes the inter-connectedness of the physical, 
spiritual, and mental health of soldiers and their families in 
preventing the full range of at risk behaviors including suicide. 
Senior leaders are implementing this plan at all installations.
    The Army Campaign Plan will promote better health, reduce risk in 
the Force and prevent suicide by leveraging the total assets of the 
institution and our partners across the domains of Doctrine, 
Organization, Training, Materiel, Leaders, Personnel, Facilities and 
Resources (DOTMLPF-R). To date, the Vice Chief of Staff through the 
Task Force and the Council directed more than 250 action items and 
action plans. New tasks emerge almost daily as the Task Force and 
Council continue their work. Special emphasis is directed toward 
reducing stigma associated with seeking behavioral health and substance 
abuse treatment.
    On February 10, 2009, the Army ordered a ``Stand Down'' and a 
three-phase program focused on suicide prevention. During this program, 
commanders and first line supervisors trained their soldiers and 
civilians to understand the individual suicide risk factors and warning 
signs and educated them regarding how to take action to intervene. The 
centerpiece of Phase I was an interactive video called ``Beyond the 
Front.'' Between February 15 and March 15, 2009, all Army personnel--
soldiers and civilians--watched the video in small groups and made 
decisions on how to react to the video's vignettes. Phase I also 
featured the ACE (Ask, Care, Escort) intervention card, used to explain 
how to help a ``buddy'' who may be exhibiting warning signs of suicidal 
behavior. Phase II, a chain teaching phase occurring between March 15 
and July 15, 2009, again employs a video and vignettes based on various 
phases of the deployment cycle. This phase focuses on improving 
recognition of warning signs and reinforcing ways to intervene. Phase 
III, sustainment, will continue indefinitely through annual training 
requirements.
    The Army recently entered into an agreement with the National 
Institute of Mental Heath for a 5-year longitudinal study of suicide. 
The Army will assess factors affecting suicide, training efforts for 
reduction of suicide and other associated mitigation efforts. We also, 
continue to meet regularly with external agencies, such as the 
Department of Veterans Affairs and the Department of Health and Human 
Services (including the Centers for Disease Control and Prevention and 
the Substance Abuse and Mental Health Services Administration) in a 
collaborative effort to exchange information and strategies designed to 
reduce suicide.
                      army substance abuse program
    The persistent conflict has created symptoms of stress including 
increased alcohol and drug abuse. This commander's program uses 
prevention, education, deterrence, detection, and rehabilitation to 
reduce and eliminate alcohol and drug abuse. It is based on the 
expectations of readiness and personal responsibility.
    A team recently returned from deployment to U.S. Army Forces. U.S. 
Central Command. While there, they determined effective methods to 
deliver substance abuse services in theater. To support our commanders, 
a clear and executable policy for random drug testing in theater is 
under development. Another area under development is the review of 
portable prevention education packages for deployed soldiers. Soldiers 
at home, and soldiers in the Reserve component. Additionally, the Army 
is preparing to execute a pilot program that will provide confidential 
education and treatment to soldiers who wish to self-refer into the 
ASAP and retain their confidentiality. In addition to the pilot 
program, we are conducting a broader, more detailed study to determine 
the exact nature and extent of any stigma in the Army associated with 
substance abuse treatment. This study will run concurrently with the 
pilot program. We want to ensure that all soldiers who may need 
assistance can get assistance without the barrier of stigma.
                      army human capital strategy
    Providing Forces to combatant commanders to meet current and future 
challenges will continue to be our top priority. The agile Army Human 
Capital Strategy (AHCS) addresses these challenges by creating a 
roadmap to restore balance to the Force by fiscal year 2011 and by 
continuing to develop a structured force through 2024. The objective of 
the AHCS is to secure and sustain the All-Volunteer Total Army, 
resourced through efficient and cost-conscious practices. The AHCS 
strategy is based on principles that assure a higher quality and a more 
diverse ready Total Army, enabled by effective Human Resource systems 
and agile policies and programs.
                        business transformation
    The Army G-1 implemented a Lean Six Sigma Program to provide for 
continuous process improvement. We have developed a list of Army 
processes that we believe can be performed more efficiently and for 
less cost. Trained professionals work with the employees and soldiers 
who are actually involved with the processes in a deliberate procedure 
to identify parts of the processes that lack value. The process is then 
re-engineered for greater efficiency. Using this procedure, we 
completed projects that provided over $40 million of financial benefit 
in fiscal year 2008. We are expecting to realize an additional $60 
million in financial benefit in fiscal year 2009. Successful projects 
include a redesign of the system that provides R&R flights to soldiers 
from OEF and OIF and a project that improved the Wounded Soldier Family 
Hotline. So far in the program, our return on investment is about 10 
times what we have invested.
                        congressional assistance
    Recruiting, retention, and providing for the well-being of the best 
Army in the world requires a significant commitment by the American 
people. The Army is grateful for the continued support of Congress for 
competitive military benefits and compensation, along with incentives 
and bonuses for soldiers and their families and for the civilian 
workforce. These are critical in helping the Army be the employer of 
choice.
                               conclusion
    We must maintain an appropriate level of investment to ensure a 
robust and high-quality force. The well-being and balance of our force 
is absolutely dependent upon your tremendous support. The Army is 
growing and transforming in a period of persistent conflict. We will do 
so with young men and women of the highest caliber whose willingness to 
serve, is a credit to this great Nation.

    Senator Ben Nelson. Thank you, General.
    Admiral Ferguson?

  STATEMENT OF VADM MARK E. FERGUSON III, USN, CHIEF OF NAVAL 
    PERSONNEL, DEPUTY CHIEF OF NAVAL OPERATIONS (MANPOWER, 
    PERSONNEL, TRAINING, AND EDUCATION), UNITED STATES NAVY

    Admiral Ferguson. Chairman Nelson, Senator Graham, and 
distinguished members of the committee, thank you for this 
opportunity to appear before you to review our fiscal year 2010 
budget request on behalf of the Navy Total Force and their 
families.
    We believe this request supports our ability to attract, 
recruit, and retain a highly skilled naval force in support of 
our maritime strategy. We remain today a global Navy, a Total 
Force of Active and Reserve sailors and Navy civilians, united 
in service to the Nation. Over 40 percent of our ships are 
underway or deployed.
    This budget request also supports new mission areas, as 
well as joint operations in Afghanistan, Iraq, and across the 
globe where approximately 14,000 sailors are serving as 
individual augmentees. With this high operational tempo 
(OPTEMPO), we remain vigilant concerning stress on our sailors 
and their families. We ensure that sailors have adequate 
opportunity to rest and spend time at home between deployments.
    The tone of the force is positive. Sailors and their 
families continue to express satisfaction with their morale and 
the leadership at their commands, their healthcare, their 
benefits, and their compensation. Our budget request reflects 
this commitment to supporting sailors and their families. We 
are focusing our efforts on building resiliency and fostering a 
culture that encourages sailors to seek help in response to 
stress that they encounter in the field.
    Over the past year, we have been very successful in 
recruiting and retaining high-quality sailors. In 2008, we 
achieved our enlisted and officer goals across both the Active 
and Reserve components, while exceeding DOD quality standards 
in all recruit categories.
    For the first time in 5 years, we achieved overall Active 
and Reserve medical officer recruiting goals. This year, we 
achieved our nuclear operator Zone A goals for the first time 
in over 30 years through targeted use of selective reenlistment 
bonuses.
    Beginning in 2008 and continuing into this year, the 
comprehensive benefits provided by Congress for our 
servicemembers, combined with the current economic conditions 
in the country, have resulted in significantly increased 
retention and lower attrition across the force.
    To ensure the long-term health of the force, we are 
transitioning from a posture of reducing end strength to one we 
term stabilizing the force. To meet global demands and minimize 
stress on the force, Secretary of the Navy Donald C. Winter 
used his end strength waiver authority for both 2008 and 2009. 
We project to finish this fiscal year within 2 percent above 
our statutory end strength limit of 326,323.
    Our stabilization efforts have been directed at sustaining 
a high-quality force able to respond to new mission areas 
within our fiscal authorities, and we are guided by the 
following principles: to continue to attract and recruit our 
Nation's best and brightest; retain the best sailors and target 
our incentives to retain those with critical skills; balance 
the force in terms of seniority, experience, and skills matched 
to projected requirements; continue to safeguard the careers of 
our top performers; and provide the fleet and joint force 
stable and predictable manning.
    Our fiscal year 2010 budget request includes an Active 
component end strength of 328,800, which is comprised of a 
baseline request of approximately 324,400 and supplemental 
funding for 4,400 additional sailors to serve as joint force 
enablers in support of overseas contingency operation. This 
budget also requests a Reserve component end strength of 
65,500. We believe this is adequate going forward to meet the 
demands of the fleet as well as the joint force.
    Education and training are strategic investments in our 
future, and we remain committed to supporting the personal and 
professional development of our sailors across their careers. 
We feel the budget request balances our education and training 
requirements and includes growth in important new mission 
areas, such as cyber warfare, language, and culture.
    Last week, I had the opportunity to visit our naval 
personnel overseas in the Middle East and in Europe. Your 
sailors are positive, enthusiastic, and performing 
extraordinarily well in meeting the demands of the joint force. 
I could not be prouder of the extraordinary job that they do 
every day in service to the Nation.
    On behalf of the men and women in uniform who sacrifice 
daily, and their families, I wish to extend my appreciation to 
the committee and Congress for your unwavering support of our 
Navy.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Ferguson follows:]
          Prepared Statement by VADM Mark E. Ferguson III, USN
                              introduction
    Chairman Nelson, Senator Graham, and distinguished members of the 
Senate Armed Services Committee, it is a pleasure to have the 
opportunity to review our fiscal year 2010 Active and Reserve budget 
requests for Manpower, Personnel, Training, and Education (MPTE) 
programs in support of our Navy Total Force and their families.
    Navy continues to experience success in recruiting and retention 
and we expect that success to continue. The tone of the force remains 
positive. Sailors and their families continue to express satisfaction 
with the quality of their service, education benefits, health care, and 
compensation. Our sailors and Navy civilians are the critical component 
to the Navy's Maritime Strategy. To support the Fleet and the joint 
force, we are committed to providing the right person with the right 
skills, at the right time, and at the best value while ensuring the 
welfare of our sailors and their families. To meet this commitment, our 
efforts must enable us to be:

        <bullet> Competitive for the best talent in the Nation
        <bullet> Diverse
        <bullet> Responsive to the joint warfighter
        <bullet> A learning organization
        <bullet> A leader in human resource solutions for the Navy

    Since 2003, Navy's Active component (AC) end strength has declined 
by approximately 10,000 per year. While end strength declined, we have 
increased operational availability through the Fleet Response Plan, 
supported new missions for the joint force, and introduced the Maritime 
Strategy. This increased demand includes maritime interdiction, 
riverine warfare, irregular and cyber warfare, humanitarian and 
disaster relief, an enduring individual augmentee mission in support of 
overseas contingency operations (OCO), and now, counterpiracy.
    The Navy Reserve has also experienced reductions in end strength by 
approximately 3,500 per year since 2003, most of which were realized 
between fiscal year 2004 and fiscal year 2006 as a result of an 
extensive Zero Based Review as part of Active Reserve Integration. The 
Selected Reserve (SELRES) continues to deliver operational support 
capabilities and is an integral part of the Total Force, supporting the 
immediate mobilization manpower requirements for critical OCO missions 
and providing the strategic depth required to sustain the joint 
warfighting needs of the combatant commanders.
    To meet increased demands, maintain required Fleet manning levels 
with acceptable risk, and minimize stress on the force, we have 
transitioned from a posture of reducing end strength to one of 
``stabilizing the force.'' This transition was supported by the 
Secretary of the Navy with authorization to over-execute end strength 
in fiscal year 2009 within 2 percent above our authorized level of 
326,323. This over-execution created a fiscal shortfall that is being 
internally mitigated through a number of measures. We continue to 
assess options to restore funding, and should funding become available, 
we will restore these programs to the greatest extent possible.
    Our fiscal year 2010 Active and Reserve budget requests provide the 
foundation to continue to attract, recruit, develop, assign, and retain 
a highly-skilled workforce for today and the future. Our active budget 
request of $27.1 billion consists of $25.5 billion for Manpower 
Personnel Navy (MPN) and $1.6 billion in related OMN. This reflects a 
$1.4 billion increase in MPN and a $103.2 million decrease of 
associated MPTE OMN as compared to last fiscal year. Our Reserve budget 
request consists of $1.9 billion for Reserve Personnel Navy (RPN) and 
$7.3 million in related Operations and Maintenance Navy Reserve (OMNR). 
This reflects an $82 million increase in RPN and a $1.2 million 
decrease of associated MPTE OMNR compared to last fiscal year.
    Additionally, we are seeking congressional support for funding to 
support OCO. We will continue to stabilize the force with respect to 
end strength while balancing seniority, skills, and experience to meet 
Fleet and joint requirements and develop our capabilities to respond to 
emerging mission areas, such as cyber warfare and missile defense 
within our fiscal authorities. Our budget request represents a balanced 
approach to supporting our sailors and their families, while sustaining 
Fleet readiness.
                              end strength
    Our fiscal year 2010 active budget request supports an end strength 
of 328,800. This includes $25.5 billion in the baseline budget for 
324,400 to support Fleet requirements, OCO core and adaptive core 
missions, and the initial restoration of the Defense Health Program 
military-to-civilian conversions. Included in our OCO funding request 
is $364 million for 4,400 sailors in training and as direct enablers 
supporting the joint force in nontraditional missions such as detainee 
operations, civil affairs, provincial reconstruction, and customs 
inspection. Our fiscal year 2010 Reserve budget request supports an end 
strength of 65,500. This includes $1.9 billion in the baseline budget 
and a fiscal year 2010 OCO funding request of $39 million. We request 
your support for the resources to meet this operational demand.
                        recruiting and retention
    Navy has been successful in attracting, recruiting, and retaining a 
diverse and technical workforce in both the officer and enlisted force. 
The fiscal year 2010 active budget of $829.2 million and Reserve budget 
of $148.8 million position us to continue that success through fiscal 
year 2010 with targeted investments in critical skill areas.
Recruiting
    Navy has met its enlisted Active and Reserve recruiting goals for 
24 straight months through January 2009. This fiscal year, we have met 
our Active and Reserve goals each month, and our Delayed Entry Program 
is 99.5 percent full as of 1 April 2009. We are exceeding Department of 
Defense (DOD) quality standards in all recruit categories as shown in 
the following table:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    My top enlisted recruiting priorities for this fiscal year are:
    Nuclear Ratings
    During fiscal year 2008, Navy met its recruiting goals for enlisted 
nuclear ratings, achieving 100.6 percent of goal. This fiscal year we 
have met all monthly nuclear rating recruiting goals and are on track 
to achieve this year's target. We continue to rely on the enlistment 
bonus as the primary incentive to meet our nuclear accession targets.
    Special Warfare/Special Operations
    We achieved Naval Special Warfare/Special Operations aggregate and 
individual goals (Explosive Ordnance Disposal, Diver, Special Operator, 
Special Boat Crewman) for the first time in fiscal year 2008. We have 
continued that success, attaining 100 percent of all four ratings each 
month this fiscal year. We have established special recruiting programs 
and an introductory physical conditioning course in our recruit 
training center to improve our success rate at Basic Underwater 
Demolition/SEAL training. We are seeing positive results from these 
efforts.
    In fiscal year 2008, Navy attained 104 percent of AC general 
officer (Officer Candidate School) goal, which included a mission 
increase of 40 percent over the fiscal year 2007 target. Reserve 
component (RC) general officer programs also saw significant 
improvement, finishing fiscal year 2008 at 105 percent versus 51 
percent in fiscal year 2007. While we achieved overall Active and 
Reserve medical officer recruiting goals for the first time in 5 years, 
we did not reach our goals for Dental Corps officers (89 percent).
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    My priorities for officer recruiting are:
    Health Professionals
    To support the increased demand for health professionals in support 
of combat operations, accession goals across all of the medical 
communities were increased in fiscal year 2009. We have implemented a 
multi-faceted approach to reach these raised goals to include:

        <bullet> Increasing Critical Wartime Skills Accessions Bonus 
        (CWSAB) and allowing multi-year payouts
        <bullet> Increasing incentive and retention pays for critical 
        healthcare specialties
        <bullet> Increasing the monthly stipend for medical and dental 
        Health Professions Scholarship Program recipients
        <bullet> Exploring a 1-year pilot program to access qualified 
        legal non-citizens
        <bullet> Offering the Health Professions Loan Repayment plan 
        for critical medical specialties.

    As of 1 April 2009, we have attained 63 percent of the fiscal year 
2009 Active medical officer recruiting goal and 58 percent of the 
Reserve goal.
    As demand for a professional and technically-trained workforce 
increases in the private sector, Navy must remain competitive in 
attracting and recruiting the Nation's best talent to remain responsive 
to the joint force. The fiscal year 2010 active budget requests $394 
million, which includes accession incentives, advertising, and 
recruiting support for 5,413 AC and RC recruiters at over 1,468 
stations across the country. In response to the current recruiting 
environment, the advertising budget was reduced by over $14 million, 
while growth of $7.6 million occurred in accession incentives for 
critical skills that have remained relatively insulated from current 
economic conditions, resulting in a net reduction of $6.4 million. This 
budget supports continuing efforts to implement innovative programs, 
policies, and incentives that target critical skills and maintain our 
position as an employer of choice.
    Health professionals, nuclear operators, and special warfare remain 
my recruiting priorities through this fiscal year. The budget request 
of $394 million includes $141.5 million in bonuses, special pays, and 
incentives to ensure we remain successful in meeting our overall goals 
and in particular, these critical skill areas. This amount includes 
$5.4 million in nuclear accession bonuses (officer and enlisted), 
representing an increase of $60,000 from fiscal year 2009. Overall 
enlistment bonuses will remain steady at $106 million in response to 
the current economic conditions. Additionally, the budget requests $8.6 
million for medical community bonuses, special pays, and incentives 
(including $950,000 for dentists), representing an increase of $2.7 
million from fiscal year 2009.
    The fiscal year 2010 Reserve budget requests $99.4 million for 
recruiting incentives, including $60.9 million for enlistment bonuses 
and $49.4 million for medical recruiting programs. The $49.4 million 
for medical recruiting programs includes $43.7 million for the Armed 
Forces Health Professions Scholarship Program, $4 million for the 
medical Financial Assistance Program, and $1.7 million for the Nurse 
Candidate Program. These amounts represent an $8 million decrease in 
Reserve incentives and a $10.7 million increase in medical recruiting 
programs from fiscal year 2009.
    The Active and Reserve budgets support our recruiting force in 
meeting our overall enlisted and officer goals in fiscal year 2010.
Retention
    The comprehensive benefits provided to our servicemembers, combined 
with the current economic conditions, have resulted in higher retention 
and lower attrition.
    In fiscal year 2008, Active enlisted retention was approximately 1 
percent above projections and there were 4,221 (14 percent) fewer 
enlisted attrition losses than anticipated. These patterns have 
accelerated into this fiscal year. As shown in the table below, for 
sailors with 10 years of service, reenlistment rates are 9.9 percent 
higher than the previous 2 years. Among those sailors with 10 to 14 
years of service, we are experiencing a retention rate that is 
approximately 2.4 percent higher.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Overall attrition, defined as sailors who are discharged prior to 
the end of their contract, has declined approximately 22 percent from 
the previous year. Specifically, we have seen declines in misconduct 
related discharges by 24 percent, medical/physical discharges by 16 
percent, and training-related discharges by 13 percent. The net effect 
is over-manning in some specialties in certain year groups. To maintain 
the force balance in terms of seniority, experience, and skills, we 
have taken, or will take, the following actions:

        <bullet> Reduce fiscal year 2009 enlisted accessions by 4,000
        <bullet> Decrease or eliminate Selective Reenlistment Bonus 
        (SRB) levels and review all other bonus programs
        <bullet> Execute ``High-Year Tenure'' milestone for the 
        enlisted force of 14 years of service for those sailors who 
        have not advanced beyond E-5
        <bullet> Expand ``Perform-to-Serve,'' a reenlistment review 
        process used in Zone A (0-6 years), to Zone B (6-10 years) and 
        Zone C (10-14 years) in select overmanned ratings forcing 
        conversion to undermanned specialties or separation
        <bullet> Institute an annual performance-based continuation 
        board for E7-E9 with over 20 years of service.
        <bullet> Allow 1 year time-in-grade retirement waivers for 
        select senior enlisted in pay grades E-7 to E-9.

    Though AC officer retention rates have generally increased, there 
remain select shortfalls in the control grades (O4-O6). Commander (O-5) 
and lieutenant commander (O-4) inventories are below requirements; 
though, for the first time in many years, Unrestricted Line (URL) 
captain inventory exceeds officer programmed authorizations (OPA). 
Special and incentive pays and quality of life initiatives remain the 
primary tools to reduce these shortfalls.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Medical community loss rate trends, as shown in the following 
table, improved in fiscal year 2008 and are continuing to improve in 
fiscal year 2009. While incentives and bonuses have contributed to 
reduced loss trends, select subspecialties continue to require 
attention. These include: dentistry, clinical psychology, social work, 
psychiatry, general surgery, and perioperative nursing. Special and 
incentive pays are critical to retaining these professionals.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    We are on track to meet our fiscal year 2009 overall officer and 
enlisted retention goals, and we expect this success to continue 
through fiscal year 2010. We remain focused on retaining high-
performing sailors in critical skill areas. Our fiscal year 2010 active 
budget requests $435.2 million, an increase of $7.9 million, to support 
targeted investments in incentives, bonuses, and special pays for both 
enlisted and officers. This request includes $170 million for new 
Selective Reenlistment Bonus (SRB) contracts, the same level as fiscal 
year 2009.
    Additionally, this request includes $67.0 million, an increase of 
$1.5 million, for special and incentive pays to retain health 
professionals. Medical community retention continues to improve, 
largely due to competitive incentives and bonuses. However, given their 
high demand in the civilian sector, select subspecialties continue to 
require attention to enable us to meet our goals in fiscal year 2010. 
These include: dentistry, clinical psychology, social work, psychiatry, 
general surgery, and perioperative nursing.
    RC retention rates among both officer and enlisted remain high, 
while attrition rates remain at historic lows. In fiscal year 2008, and 
continuing into fiscal year 2009, RC attrition rates were approximately 
25 percent for enlisted and 15 percent for officers, contrasted with 
historical averages of approximately 29 percent and 19 percent, 
respectively. We continue to focus our efforts on retaining high-
performing Reserve sailors, especially those in critical skill areas. 
The fiscal year 2010 Reserve budget requests $15.7 million for 
retention incentives, which include a SELRES Reenlistment Bonus and an 
Officer Retention Bonus. The SELRES Reenlistment Bonus of $12.3 million 
has decreased $1.2 million from the fiscal year 2009 amount. The 
Officer Retention Bonus of $3.4 million is new in fiscal year 2010 and 
will target our high OCO demand skillsets.
    Our budget requests will enable us to meet our retention goals and 
position us for success in future years as the economy improves. We 
will continue to monitor retention and will adjust monetary incentives, 
as necessary, to match observed retention behavior.
                        learning and development
    Education and training are strategic investments in Navy's Total 
Force, enabling us to retain our asymmetric advantage by developing a 
highly-skilled, combat-ready force to meet the demands of the Maritime 
Strategy and the joint force. In 2008, our 13 learning centers around 
the country provided exceptional training to more than 580,000 sailors 
and officers. Additionally, Navy offers several college-focused 
incentives, including tuition assistance, the Navy College Fund, and 
the Navy College Program Afloat College Education. Officers are 
afforded the opportunity to pursue advanced education through the Naval 
Postgraduate School (NPS), the Naval War College (NWC), and several 
Navy fellowship programs. For the 2008-2009 academic year, more than 
900 officers (resident and non-resident) are enrolled in NPS, including 
216 international students from 42 countries. We expect that 
approximately 500 officers will receive in-resident instruction at NWC 
in 2009.
    The Navy Credentialing Opportunities Online (COOL) program matches 
rate training and experience with civilian credentials and funds the 
costs of credentialing and licensing exams. As of the end of March 
2009, there have been more than 35 million visits to the COOL web site, 
with more than 13,000 certification exams funded and approximately 
8,500 civilian certifications attained. In 2009, COOL was nationally 
recognized with the ``Excellence in Practice'' award by the American 
Society for Training and Development.
    The fiscal year 2010 active education and training budget of $1.2 
billion represents an overall reduction of $90.3 million. A significant 
portion of this reduction ($86.9 million) comes from specialized skills 
training, primarily within our learning centers. We remain committed to 
supporting the ongoing professional development of our sailors and 
officers with high-quality education and training programs. We must 
balance existing education and training requirements with growth in 
important mission areas such as cyber warfare, missile defense, and 
anti-submarine warfare.
    Cultural, historical, and linguistic expertise and Joint 
Professional Military Education remain essential to fostering 
relationships with our global partners and enhancing our ability to 
effectively execute missions in multi-service, multi-agency, and 
multinational environments. The fiscal year 2010 Active and Reserve 
budgets support ongoing efforts to integrate Language, Regional 
Expertise, and Culture across the force.
    Navy draws its strength and innovation from the diversity of the 
Nation. Through our outreach efforts, we have observed an increase in 
Naval Reserve Officers Training Corps (NROTC) applications and have 
increased diverse NROTC scholarship offers by 28 percent. The NROTC 
class of 2012 is the most diverse class in history and, with your help 
through nominations, the U.S. Naval Academy class of 2012 is the 
Academy's most diverse class in history. Increasing accessibility to 
emerging talent markets will be a key determinant of our ability to 
remain effective, relevant, and competitive in an increasingly 
challenging environment.
                       sailor and family support
    Our fiscal year 2010 active budget request of $148.4 million for 
sailor and family support is an increase of $9.2 million from last 
year. This reflects our enduring commitment to support sailors and 
their families, enhance career flexibility, and improve overall life-
work integration. Additionally, we will continue our efforts to support 
the force through a comprehensive ``continuum of care'' that addresses 
all aspects of individual, medical, physical, psychological, and family 
readiness.
Tone of the Force
    The tone of the force is positive. We poll extensively and track 
statistics on personal and family-related indicators such as stress, 
financial health, and command climate, as well as sailor and family 
satisfaction with the Navy. The results indicate that sailors are 
satisfied with the morale of their command, leadership, education 
benefits, health care, and compensation. Despite the current economic 
situation, the majority of our sailors are not experiencing severe 
financial stress. Results of our January 2009 Financial Health Quick 
Poll reveal that 82 percent of officer and 54 percent of enlisted rate 
their personal financial situation as ``excellent'' or ``good,'' 
compared to 41 percent in the U.S. population.\1\ For those who 
reported experiencing financial stress, housing-related expenses were 
the primary concern.
---------------------------------------------------------------------------
    \1\ October 15, 2008 Pew Research Center for the People and the 
Press Survey Report (p.2).
---------------------------------------------------------------------------
Suicide Prevention
    We continue our efforts at suicide prevention through a multi-
faceted system of communication, training, and command support. Our 
approach is to foster resilience among sailors; identify and mitigate 
stress reactions that can lead to increased potential for suicide; and 
create an environment supportive of good psychological health, in which 
stress and other suicide related factors can be more openly recognized, 
discussed, and addressed.
    Suicide is the third leading cause of death in the Navy after 
accidents and natural causes. In calendar year 2008, Navy's suicide 
rate increased slightly over the previous year to 11.6 per 100,000 
sailors. This number represents a total of 41 suicides. The rates for 
accidents and natural causes per 100,000 sailors were 26.3 and 12.7, 
respectively.\2\ Since formal suicide prevention programs began in 
1998, Navy has averaged 10.7 suicides per 100,000 sailors. While 
significantly lower than the national rate of 18.8 per 100,000 
individuals,\3\ for the same age and gender demographic, we remain 
vigilant on this critical issue with a primary focus on prevention.
---------------------------------------------------------------------------
    \2\ Data pulled from the Defense Casualty Information Processing 
System (DCIPS).
    \3\ Data based on the Center for Disease Control's National Vital 
Statistics Report ``Deaths: Final Data for 2005.'' Normalized rate 
calculated by the Navy Health Research Command.
---------------------------------------------------------------------------
    Navy continues to develop and enhance programs designed to improve 
the resilience of the force. We encourage sailors to seek help. We also 
focus our programs on substance abuse prevention, personal financial 
management, positive family relationships, physical readiness, and 
family support with the aim of reducing individual stress. We continue 
to work to address and minimize potential adverse effects of suicide 
risk factors and to strengthen associative protective factors through 
training, intervention, response, and reporting. We believe suicide 
prevention is an all-hands effort, spanning the continuum of our Total 
Force, from the most senior Navy leadership to our newest recruits.
Life-Work Integration
    The National Defense Authorization Act (NDAA) for Fiscal Year 2009 
authorized 10 days of non-chargeable paternity leave for married 
servicemembers whose wives give birth to a child on or after October 
14, 2008. We are appreciative of congressional support for this 
legislation and anticipate over 15,000 sailors will benefit from this 
entitlement each year.
    The NDAA for Fiscal Year 2009 also provides Service Secretaries the 
authority to test the effectiveness of an alternative career retention 
option in fields where monetary incentives alone have not produced the 
desired retention results. We have learned that flexibility is one of 
the keys to retaining our younger sailors. In an effort to enhance 
career flexibility, Navy is piloting a Career Intermission Program, 
allowing 20 officers and 20 enlisted members annually the opportunity 
to transfer from active duty to the Individual Ready Reserve (IRR) for 
up to 3 years. Participants maintain medical and dental benefits, along 
with a small stipend, in exchange for a return to service for an 
obligated amount of time. Additional initiatives we are incorporating 
into the force include telework, compressed work schedules, and a 
virtual command pilot program, which provides an opportunity for a 
small initial group of officers to fill career-enhancing positions 
while maintaining geographic stability. We believe that innovative, 
flexible career paths will provide increased retention by complementing 
monetary incentives.
Individual Augmentation (IA)/GWOT Support Assignment (GSA) Detailing
    Significant progress has been made in filling IA requirements, 
particularly for high-demand skill sets. In many cases, using a Total 
Force approach, Navy has fulfilled these requirements with qualified 
individuals from lesser-stressed communities. This flexible response, 
coupled with effective strategic communications to the Fleet, reduced 
some of the uncertainty associated with repeat IA deployments and 
helped provide predictability and stability for sailors and their 
families while improving Navy's responsiveness to the combatant 
commanders.
    Our assignment policies are designed to minimize disruption in the 
lives of sailors and their families through assignment to IA tours 
between permanent duty stations. This approach affords sailors 
increased influence over the timing of their IA assignments, improves 
individual career management, and offers longer lead-times; thereby, 
improving sailor readiness and family preparedness for prolonged 
deployments. Initial Fleet response to GSA Detailing has been positive.
Continuum of Care
    Navy's ``continuum of care'' is a network of services and 
caregivers that ensures sailors, whether they are healthy or become 
wounded, ill, or injured, receive the highest quality care. We 
continuously evaluate and improve policies and programs associated with 
the continuum of care to be certain they are meeting their intended 
objectives. Our continuum of care spans all aspects of individual 
medical, physical, psychological, and family readiness. Navy Safe 
Harbor, Navy's Operational Stress Control Program, the Warrior 
Transition Program, the Returning Warrior Workshop, and Deployment 
Health Assessments are critical elements of this continuum.
    Over the past year, Navy Safe Harbor has expanded its mission to 
nonmedical support for all seriously wounded, ill, and injured sailors, 
coastguardsmen, and their families, increasing its capabilities with 
the establishment of a headquarters element to support Recovery Care 
Coordinators and Non-medical Care Managers covering 15 locations. With 
these changes, Safe Harbor's enrolled population has increased from 145 
to 387. The fiscal year 2010 budget supports our continuing efforts to 
provide a lifetime of exceptional, individually tailored assistance to 
our wounded, ill, and injured, optimizing the success of their 
recovery, rehabilitation, and reintegration activities.
    Recognizing the unique medical and administrative challenges faced 
by our Reserve wounded sailors when they return from deployment, we 
established two Medical Hold (MEDHOLD) Units responsible for managing 
all aspects of care for Reserve sailors in a MEDHOLD status. Colocated 
with military treatment facilities in Norfolk and San Diego, these 
units are led by line officers with senior medical officers supporting 
them for medical issues. Under their leadership, case managers serve as 
advocates who proactively handle each sailor's individualized plan of 
care until all medical and non-medical issues are resolved. Through 
this centralized process, we have reduced the numbers of sailors in the 
MEDHOLD process and the length of time required to resolve their cases. 
The RC MEDHOLD program has become the single, overarching program for 
providing prompt, appropriate care for our Reserve wounded sailors. 
Additionally, the Psychological Health Outreach program, implemented in 
July 2008, targets RC sailors returning from deployment who face unique 
reintegration challenges which can exacerbate deployment-related 
psychological injuries. The program serves as a ``safety net'' for RC 
sailors and their families who are at risk for not having their stress 
injuries identified and treated in an expeditious manner.
    Navy's Operational Stress Control (OSC) program provides a 
comprehensive approach designed to address the psychological health 
needs of sailors and their families throughout a career. It is a 
program that is supported by Navy Medicine and promotes psychological 
health while reducing the stigma associated with requesting help. To 
date, Basic OSC Awareness Training has been provided to over 16,000 
sailors at various locations across the country. The fiscal year 2010 
active budget supports efforts to fully institutionalize the OSC 
program, including the development and delivery of formal curriculum at 
key nodes of training throughout the career of a sailor, from accession 
to flag officer.
    The Warrior Transition Program (WTP) was established in Kuwait and 
provides a place and time for individual augmentees (IA) to decompress 
and transition from a war zone to life back home. The WTP includes 
small group discussion facilitated by accredited professionals and 
focuses on combat and operational stress, gear return, and fleet and 
family support center briefings. Trained providers include two 
chaplains and two psychiatric registered nurses. Since January 2008, 
417 workshops with over 8,500 returning IAs have taken place. 
Additional Mobile Care Teams are being developed to deploy to Iraq and 
Afghanistan to provide a means of reaching out to IAs during mid-tour.
    The Returning Warrior Workshop (RWW) is a vital reintegration event 
that provides support for both Active and Reserve sailors and their 
families. The RWW is designed to identify problems, encourage members 
to talk about their experiences, direct family members to resources, 
improve the mobilization/demobilization process, and honor the 
sacrifices of sailors and their families. The RWW is an important first 
step in the demobilization and reintegration process for the Total 
Force and their families. Since January 2007, over 1,500 servicemembers 
and 1,000 family members have attended one of 22 RWWs throughout the 
country. An additional 28 RWWs are scheduled through July 2010.
    In addition to these programs, we have been aggressively monitoring 
compliance with the new Deployment Health Assessment (DHA). DHA is a 
DOD-mandated instrument used to screen sailors prior to deployment and 
to identify health concerns after deployment with Post-Deployment 
Health Assessments (PDHA) and Re-assessments (PDHRA). We have enhanced 
policy oversight on DHA to include monthly reports to Navy leadership 
and a Navy-wide review of records to validate compliance is underway.
                               conclusion
    Our mission remains to attract, recruit, develop, assign, and 
retain a highly-skilled workforce for the Navy. We continue to:

        <bullet> Align the personal and professional goals of our 
        workforce with the needs of the joint force, while ensuring the 
        welfare of our sailors and their families
        <bullet> Deliver a high-performing, competency-based, and 
        mission-focused force to meet the full spectrum of Joint 
        operations
        <bullet> Provide the right person with the right skills at the 
        right time at the best value to the joint force.

    Our fiscal year 2010 Active and Reserve budget requests support the 
critical programs that will ensure continued success in delivering the 
human component of the Maritime Strategy and key capabilities for the 
joint force. On behalf of all the men and women in uniform who 
sacrifice daily and their families who faithfully support them, I want 
to extend my sincere appreciation for your unwavering support for our 
United States Navy. Thank you.

    Senator Ben Nelson. Thank you, Admiral.
    General Newton?

STATEMENT OF LT. GEN. RICHARD Y. NEWTON III, USAF, DEPUTY CHIEF 
  OF STAFF FOR MANPOWER AND PERSONNEL, UNITED STATES AIR FORCE

    General Newton. Thank you, Mr. Chairman and Ranking Member 
Graham and distinguished members of the committee.
    I also want to thank you for this opportunity to discuss 
our efforts as they relate to the fiscal year 2010 budget to 
ensure we attract, recruit, develop, and retain a high-quality 
and diverse fighting force.
    Airmen are the focal point for providing the critical 
capabilities that the Air Force contributes to winning today's 
fight. While the Air Force has innovative technologies and 
equipment, it is the hard work of our dedicated men and women 
in uniform and our civilians that underscores our success.
    Without a doubt, the tremendous talent of our total force 
airmen and civilians is the backbone of the United States Air 
Force, and our budget proposal recognizes that fact. These 
dedicated volunteer servants are our most important asset. 
Without them, our organizations and equipment simply would not 
function. Our operations would grind to a halt.
    Therefore, we must ensure we have the proper end strength 
to meet current, new, and emerging missions. For fiscal year 
2010, our Active Duty end strength will be 331,700 airmen, with 
69,500 airmen in the Air Force Reserve and 106,700 airmen in 
the Air National Guard. This stops previously planned total 
force end strength reductions.
    We will also grow our civilian population to a little over 
179,000, which includes 4,200 contractor-to-civilian 
conversions. Simultaneously, we will continue to reshape the 
skill sets of our workforce, with particular emphasis on 
stressed career fields and mission areas that need our 
attention, such as intelligence, surveillance, reconnaissance, 
aircraft maintenance, acquisition, cyber operations, and 
nuclear deterrence operations and sustainment. For instance, in 
fiscal year 2010, our manpower investment includes increasing 
our nuclear-related personnel by 2,500 and adding 200 
acquisition professionals.
    The growth in end strength goes hand-in-hand with an 
increase in our recruiting efforts, and it goes beyond just 
finding the right numbers. We must also ensure that the right 
quality and the right skills are present in potential 
candidates. Despite the weak economy, we expect fiscal year 
2010 to be a critical retention environment for several 
reasons--an increased need to retain specific skill sets in 
certain specialties, previous end strength decreases and 
corresponding decreases in accessions, increased operational 
demands in new and emerging missions.
    Our commitment includes continued support for special pay 
and allowances to address recruiting and retention concerns in 
our health professional skills and our most critical 
warfighting skills, such as pararescue, combat control, 
tactical air control party, and explosive ordnance disposal.
    Finally, we are committed to taking care of airmen and 
their families, including our wounded warriors to whom we have 
a never-ending obligation. Over the past year, we have tackled 
important issues for Air Force families, such as expanding 
childcare capacity, increasing childcare support for our Guard 
and Reserve families, improving financial readiness, and 
providing opportunities for children of airmen, whether they 
reside on military installations or in our civilian communities 
throughout the United States.
    The Air Force is leaning forward to be all-in. Your 
continued support of our initiatives to attract, develop, and 
sustain talented and diverse airmen and their families is 
mission essential and is most appreciated. Our efforts to 
effectively manage end strength, to recruit and retain, to 
train, develop, and care for airmen and their families will 
enable our Air Force to continue to fly, fight, and win in air, 
space, and cyberspace.
    Thank you for your unfailing support to the men and women 
and the families of our Air Force, and I look forward to your 
questions.
    [The prepared statement of General Newton follows:]
       Prepared Statement by Lt. Gen. Richard Y. Newton III, USAF
                              introduction
    Today's strategic environment features a complex landscape of 
global actors and events that have far reaching implications. Within 
this landscape, our Air Force is answering those challenges and 
opportunities through our ability to think and act globally; providing 
unrivaled global positioning, navigation and timing through advanced 
space infrastructure; streaming video of the battleground to troops on 
the ground through intelligence, surveillance, and reconnaissance 
assets; and, many more capabilities as part of the joint team. Airmen 
are our focal point for providing the critical capabilities that the 
Air Force contributes for winning today's fight. While the Air Force 
has innovative technologies and equipment, it is the hard work of our 
dedicated men and women in uniform and civilians that underscores our 
success.
    The Air Force is focused on five priorities: reinvigorating the Air 
Force nuclear enterprise; partnering with the joint and coalition teams 
to win today's fight; developing and caring for airmen and their 
families; modernizing our air and space inventories, organizations, and 
training; and recapturing acquisition excellence. Airmen are 
prominently featured in each priority; our proposed end strength, 
recruiting and retention efforts, force development, initiatives to 
care for airmen and their families; and strategic roadmap is focused 
toward these priorities. Our airmen are critical to mission success.
                              end strength
    In the fiscal year 2010 President's budget, our programmed Active 
Duty end strength is 331,700 starting in fiscal year 2010 and 
increasing to 332,800 from fiscal year 2012 through fiscal year 2015. 
Our programmed civilian end strength is 179,152 starting in fiscal year 
2010, growing to 193,840 by fiscal year 2015. Programmed Air Force 
Reserve end strength is 69,500 in fiscal year 2010, increasing to 
72,100 in fiscal year 2013 through fiscal year 2015, while Air National 
Guard end strength is 106,700 in fiscal year 2010 through fiscal year 
2015. Increases in Air Force Active Duty, civilian and Reserve end 
strength are due to both new and emerging missions, as well as the need 
to robust existing missions.
    In the fiscal year 2010 President's budget, the Air Force funded 
2,500 military positions to establish an Air Force Global Strike 
Command and support Nuclear Enterprise capabilities, as well as 400 
military positions to establish a Cyber Numbered Air Force. We also 
funded 1,000 military positions to operate Project Liberty and 600 
military and civilian positions starting in fiscal year 2010, 
increasing to 1,000 positions by fiscal year 2013 through fiscal year 
2015 to support enhanced Irregular Warfare capabilities. To support new 
and emerging missions for Air Force Special Operations Command, Air 
Force funded 500 military positions starting in fiscal year 2010, 
growing to 2,200 by fiscal year 2015. To increase MQ-1 Predator, MQ-9 
Reaper, and Distributed Common Ground Systems operational capability to 
50 Combat Air Patrols, we funded 4,100 military positions. The fiscal 
year 2010 budget also funds 2,700 military positions to support 
aircraft maintenance capability. In efforts to achieve Acquisition 
Excellence, we funded 500 military and civilian positions starting in 
fiscal year 2010, increasing to 2,100 positions by fiscal year 2013 
through fiscal year 2015. The Air Force increased Defense Health 
Program military positions by 1,700 starting in fiscal year 2010, 
growing to 2,800 positions by fiscal year 2012 through fiscal year 2015 
to reverse planned medical service military-to-civilian conversions. 
Additionally, we funded 1,200 civilian administrators for Squadron 
Commanders' Support Staff. Finally, the fiscal year 2010 budget 
includes 2,500 civilian positions starting in fiscal year 2010, 
increasing to approximately 14,000 positions from fiscal year 2013 
through fiscal year 2015 to conduct contractor-to-civilian in-sourcing.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                               recruiting
    The growth in end strength goes hand-in-hand with an increase in 
our recruiting efforts . . . and it goes beyond finding the right 
numbers. We must also ensure the right quality and right skills are 
present in potential candidates so they can effectively perform and 
support the Air Force's diverse and essential missions.
    One factor that can positively or negatively impact recruiting is 
the economy. Although the worsening economy has increased the number of 
walk-in prospects, there continues to be a national decline in the 
quality of the target demographic. Today, only 27 percent of the 
American youth population between the ages of 17 and 24 are qualified 
for military Service (Woods & Pooles, 2006). Consequentially, we must 
apply a rigorous selection criteria to potential recruits in order to 
effectively match future airman skills and attributes with our 
essential combat requirements.
    Our recruiting force continues to achieve the enlisted accession 
mission admirably despite the challenges which include increasing the 
number of recruits, the decline in eligible population, and a decline 
in the number of recruiters and recruiting resources. Since 2000, the 
Air Force enlisted 288,583 airmen towards a goal of 285,059 for 101 
percent mission accomplishment. To date in fiscal year 2009, we are on 
track to meeting our Total Force (Active, Guard, and Reserve) enlisted 
accession goals.
    The Air Force Recruiting Service has also had 100 percent success 
at filling every enlisted recruit requirement for physically demanding 
and highly skilled ``hard-to-fill'' jobs since 2001. Congressional 
assistance, coupled with recruiters' hard work, allowed us to continue 
to meet all requirements for Combat Controller; Para-rescue; Tactical 
Air Control Party; Explosive Ordnance Disposal; Security Forces; 
Linguist; and Survival, Evasion, Resistance, and Escape instructors. 
Recruits who choose to enter these career fields are offered an Initial 
Enlistment Bonus ranging from $2,000 to $13,000, depending on the 
career specialty and term of enlistment. These are the only fields 
offering enlistment bonuses for fiscal year 2009.
    We achieved mission goals in our line officer accession programs, 
but we continue to struggle in the area of health professions. For 
fiscal year 2009, the line officer active-duty requirement is 3,459, 
which we are on track to achieve. In the health professions, we 
recruited 15 doctors for fiscal year 2009 (12.7 percent of 
requirement), 14 dentists (66.7 percent), 136 nurses (49.5 percent), 65 
biomedical scientists (19 percent), and 35 medical administrators (100 
percent). Considerable challenges exist for attracting candidates from 
the private sector. Therefore, we've implemented a long-term ``grow our 
own'' strategy by offering more medical school scholarships in student-
based markets. We have 449 available scholarships with 203 are already 
committed (45.2 percent). With Spring medical school acceptance letters 
yet to be released from most institutions, we are on target for this 
year.
                               retention
    We are also on track toward meeting our priorities because we 
continue to invest in retaining the high caliber men and women who we 
recruited, trained, and developed. While the Active Duty enlisted 
retention rate finished below our fiscal year 2008 goal, we achieved 
success in all other sectors of retention, meeting or exceeding 
aggregate retention goals in our Active Duty officer corps and in our 
Air National Guard and Air Force Reserve Forces. This positive trend 
has continued into fiscal year 2009. At the end of the second quarter, 
all components were trending to meet or exceed goals. However, this 
slight upward trend masks retention concerns with some of our stressed 
specialties that continue to experience significant shortfalls. We will 
continue to rely heavily on bonuses and quality of life initiatives to 
resolve these shortages.
    While retention is strong among the officer corps, we continue to 
monitor specific areas of concern among the Health Professionals, 
Control & Recovery, and Contracting fields, and have implemented action 
plans to meet retention goals. An additional $65 million in medical 
bonuses (targeted to physicians, nurses, dentists and biomedical 
specialists) and a new Control & Recovery Critical Skills Retention 
Bonus (CSRB) was approved to address fiscal year 2009 challenges. A 
similar CSRB for contracting officers is in coordination.
    The Air Force's ability to retain experienced healthcare personnel 
past their initial commitment has declined, compounding our recruiting 
challenges. Retention at the 10-year point is 27 percent for 
physicians, 40 percent for dentists, 31 percent for nurses, 33 percent 
for biomedical sciences officers and 64 percent for administrators. Air 
Force continues to develop accession and retention incentives to ensure 
the right mix of health professionals.
    After finishing below fiscal year 2008 goals for the enlisted 
force, we began showing positive retention trends across all three 
zones. We are, however, still slightly below goal in Zones A (17 months 
through 6 years of service (YOS)) and C (10 through 14 YOS). The 
Selective Reenlistment Bonus (SRB) continues to be our most effective 
monetary retention tool, an avenue made possible by the strong support 
of Congress. SRB funding budgeted for fiscal year 2009 and requested 
for inclusion in fiscal year 2010 through fiscal year 2015 budgets is 
sufficient to address current retention concerns, and grade and skill 
imbalances. Through that funding, the Air Force is well-positioned to 
meet fiscal year 2009 retention goals and ensure we retain the right 
airmen, with the right skills, at the right time to meet our 
expeditionary requirements.
                           force development
    The Air Force's commitment to developing our people is an important 
non-monetary retention tool that pays dividends not only for airmen, 
but for the Air Force's ability to manage its Human Capital and meet 
the needs of the Joint environment. Force Development (FD) has evolved 
from a concept, to the way we grow airmen using a set of educational, 
training, and experiential development tools.
    Our newest efforts have been to establish processes for continually 
ensuring FD meets current and future mission requirements. This year, 
we chartered FD panels, comprised of senior leaders, to review our 
developmental processes to ensure they describe requirements, align 
programs, and link investments with outcomes. We also established two 
panels to synchronize force development: the Air Force Learning 
Committee and Expeditionary Skills Senior Review Group. These groups 
serve as forums to vet potential changes to our institutional 
development programs, such as the requirement to increase nuclear 
content within professional military education forums.
    We are working to holistically review officer, enlisted and 
civilian developmental education programs to ensure a logical, 
efficient and effective continuum to build Air Force, Joint leaders now 
and for the future. Specifically, we're focused on invigorating Air 
Force mission areas such as cyber, nuclear and acquisitions through 
institutional education programs such as professional military 
education, fellowships, internships and advanced academic degrees.
    Finally, we recognize our Total Force airmen must be cross-
culturally competent and capable of employing cultural, regional, 
foreign language, and negotiation skills sets anywhere in the world. To 
this end, the CSAF recently approved the Culture, Region, and Language 
Flight Plan, providing a framework to expand and employ cross-cultural 
capacity within the Air Force.
                           caring for airmen
    Airmen can focus on the mission when they have positive ways to 
rejuvenate from stress and know their families are safe and secure. We 
are indeed committed to taking care of airmen and their families.
    We have a solemn obligation to provide care and assistance for 
seriously wounded, injured, or ill airmen. The Air Force Mortuary 
Affairs Operation at Dover Air Force Base was activated as part of our 
expanded Warrior and Survivor Care program. This organization combines 
all Air Force Services Agency mortuary capabilities with Dover Port 
Mortuary to enhance shared expertise and information and provide 
effective and efficient services to families of our fallen members.
    The Family Liaison Officers extend support to families of the 
fallen and combat-wounded airmen, as well as to families of all 
seriously-injured airmen who are receiving medical treatment away from 
their home unit. Family liaison officers provide a wide variety of 
assistance including local transportation, lodging arrangements, 
assistance with benefits, and referral to various agencies available to 
assist wounded, ill, and injured members, their families, and families 
of the fallen.
    Last year, we began the Air Force Recovery Care Coordinator program 
to be the single point of contact to assist seriously injured, ill, and 
wounded airmen through the nonclinical aspects of their recovery. Our 
Recovery Care Coordinators work directly with hospitalized airmen to 
develop individualized recovery plans that contain goals and a record 
of nonclinical assistance provided to our airmen.
    Our Air Force Wounded Warrior Program staff keeps in contact with 
our medically-retired wounded airmen for a minimum of 5 years and 
provides a wide-range of assistance, including employment and benefits 
counseling and referral to a variety of agencies designed to assist 
wounded veterans. New Air Force policies offer opportunities for them 
to regain a career path with the Air Force, compete for promotions, and 
receive priority retraining opportunities if they are no longer 
qualified in their Air Force Specialty Code. For wounded airmen with 
disability ratings of 30 percent or greater and who elect medical 
retirement or can no longer stay because of their wounds, the Air Force 
will facilitate offers of civil service positions.
                          caring for families
    Air Force families lead challenging lives that include multiple 
deployments and frequent relocations, in addition to normal life 
stressors. Readily available, quality and affordable child care and 
youth programs continue to be a workforce issue with direct impact on 
mission readiness.
    Over the past year, we tackled important issues for Air Force 
families, including expanding child care capacity, increasing child 
care support for Guard and Reserve families, improving financial 
readiness, and providing opportunities for children of airmen whether 
they reside on military installations or in civilian communities 
throughout the United States.
    We continued to increase available, affordable, quality child care 
spaces for airmen. Thanks to the temporary legislative authority for 
child care projects, the ``Growing Child Care Spaces'' initiative 
funded 18 minor construction projects to increase available child care 
by 1,242 spaces. Seven additional Military Construction projects were 
approved, which will further increase child care spaces by 1,718. We 
funded 7 additional facilities through the economic stimulus package 
and will produce 836 more spaces as a result. When all funded 
construction is complete, our known child care space deficit will be 
eliminated. Our next challenge will be to renovate or replace the aging 
infrastructure at child development and youth centers.
    The Air Force leans forward to assist airmen who need additional 
child care during changing shifts or extended duty days. The Air Force 
Expanded Child Care program provides 16,000 hours of child care each 
month during nontraditional hours at no cost to the military member.
    During 2008, we expanded the Air Force Home Community Care program 
to provide free in-home quality child care during scheduled drill 
weekends, which reduced out-of-pocket expenses for Air Reserve and Air 
National Guard members. This program offers the same level of quality 
child care as is available on military installations. The program 
includes 43 participating family child care homes in 36 locations 
typically isolated from active duty bases.
                         strategic initiatives
    There are several strategic initiatives on the horizon to increase 
the Air Force's ability to develop and care for airmen and provide 
increased fiscal stewardship. We are completing a comprehensive review 
of our Voluntary Education Program, includes Military Tuition 
Assistance (Mil TA) policy, to ensure we have a strategic vision that 
links voluntary education with the Air Force's overarching Force 
Development (FD) construct. We are partnering with the Office of the 
Secretary of Defense and other Services to ensure Mil TA policy is 
consistently applied, ultimately ensuring appropriate stewardship of 
limited Mil TA funds.
    We are leveraging information technology to enhance and standardize 
Air Force-wide Force Development. Our ``next big thing'' is to ensure 
our information technology (IT) tools continuously assess and close the 
gap between today's, and tomorrow's, human capital inventory and our 
mission requirements. We owe airmen, supervisors, mentors, career field 
managers, and development teams an integrated suite of FD IT tools that 
provides them with actionable information. In place of static career 
pyramids or planning diagrams, we are moving towards a dynamic, web-
based career path tool. Online forums for mentoring and sharing career 
field updates are gaining momentum, and officer and civilian modules 
are already in development. Our officer development teams are using 
more precise tools for vectoring and making school selections.
    We recently completed a groundbreaking research project to measure 
performance of services-specific programs and activities and gain 
insight into how airmen define quality of life and their perceptions 
regarding overall wellness as it relates to their jobs, compensation, 
family, and leisure activities. While the research findings confirmed 
we are doing a good job of taking care of airmen, the food service 
programs were considered our weakest area. This validated our earlier 
selection of food service transformation as an important strategic 
initiative, which will take advantage of cutting-edge models of leading 
college, university, and corporate campuses to improve food quality, 
variety, and nutritious value; increase efficiency; maintain our 
organic warfighting food service capability; and save money.
                               conclusion
    The Air Force is leaning forward and focused on our top five 
priorities. Airmen are critical to successful operations at home-
station and in executing joint and coalition missions around the world. 
Congress' continued support of our initiatives to attract, develop and 
sustain talented and diverse airmen and their families is mission-
essential. Our efforts to effectively manage end strength, and to 
recruit and retain, train, develop and care for airmen and their 
families will enable our Air Force to ``fly, fight, and win . .  in 
air, space, and cyberspace.'' We greatly appreciate your unfailing 
support to the men and women of our great Air Force.
    Thank you. I look forward to your questions.

    Senator Ben Nelson. Thank you, General.
    General Coleman?

     STATEMENT OF LT. GEN. RONALD S. COLEMAN, USMC, DEPUTY 
  COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES 
                          MARINE CORPS

    General Coleman. Chairman Nelson, Senator Graham, 
distinguished members of the committee, it is a privilege to 
appear before you today to discuss Marine Corps personnel.
    Mr. Chairman, I would like to personally thank you for your 
very kind words about me and my military service. I would also 
like to say it has been a privilege and an honor to serve this 
country in uniform for over 41 years.
    I would like to make a few key points. First, in regard to 
our end strength growth, the Marine Corps is now building on 
our success in fiscal year 2008, and we will reach our 202,000 
goal this fiscal year, 2 years ahead of schedule. We owe this 
success in large part to our recruiters, who continue to meet 
all accession goals while maintaining the highest quality 
standards.
    Thank you for your continued support of our enlistment 
incentives, which help make this achievement possible.
    Second, our Active component retention continues to be 
successful. In fiscal year 2008, first-term retention was an 
unprecedented 36 percent. We are building on that success in 
fiscal year 2009, having already achieved our fiscal year 
mission.
    We thank you for your support of our selective reenlistment 
bonus program. It will remain the foundation of retention 
efforts as we move from growing our force to shaping it so that 
we maintain vital Marine Corps leadership and critical skills.
    Third, I want to reiterate that a top priority of the 
Commandant of the Marine Corps is care for our wounded marines 
and for the families of all our marines. Our wounded warrior 
regiment is diligently at work implementing a comprehensive 
approach to wounded warrior care, which makes thriving, not 
just surviving, the expectation of our wounded marines.
    Likewise, our family readiness programs have undergone a 
host of significant improvements, which continue to this day. 
They are made possible in large part due to the generous 
funding you have provided.
    In closing, I want to thank you and the other Members of 
Congress for your support and partnership. They have been 
central to the strength that your Marine Corps enjoys today. 
They will continue to be essential as we work to shape the 
Marine Corps for the future so that we will always remain the 
most ready when the Nation is least ready.
    I look forward to answering your questions.
    [The prepared statement of General Coleman follows:]
         Prepared Statement by Lt. Gen. Ronald S. Coleman, USMC
    Chairman Nelson, Senator Graham, and distinguished members of the 
subcommittee, it is my privilege to appear before you today to provide 
an overview on Marine Corps personnel.
                              introduction
    We remain a Corps of Marines at war with over 25,000 marines 
deployed in support of Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF). The young men and women who fill our ranks 
today recognize the global, protracted, and lethal nature of the 
challenges facing our Nation, and their dedicated service and sacrifice 
rival that of any generation preceding them. The individual marine is 
our Corps' most sacred resource.
    Over the past several years, sustained deployments in Iraq, 
Afghanistan, and across the globe have kept many marines in the 
operating forces deployed as much as they have been home. They have 
shouldered our Nation's burden and done so with amazing resiliency. 
Marines understand what is required of the Nation's elite warrior 
class--to stand up and be counted when the Nation needs them the most. 
For this, we owe them our unending gratitude.
    Marines and their families know that their sacrifices are making a 
difference, that they are part of something much larger than 
themselves, and that their Nation stands behind them. Thanks to your 
continued support, your marines will stay resolved to fight and defeat 
any foe today or in the future.
                            ii. end strength
Active Component End Strength
    The Marine Corps grew by over 12,000 marines in fiscal year 2008 
and currently stands at over 201,000. We are on pace to reach an active 
duty end strength of 202,000 by the end of fiscal year 2009--2 years 
ahead of schedule. This historic growth can be attributed to three 
factors: quality recruiting, historic retention levels, and reduced 
attrition. Based on building a robust Delayed Entry Pool Program, we 
expect these trends to continue into fiscal year 2010 allowing us to 
sustain a 202,000 end strength. While the state of the Nation's economy 
is a concern for all of us, we expect that it will positively impact 
both recruiting and retention this year.
    We have met our fiscal year 2009 aggregate goals for both First 
Term and Career reenlistments and will meet our accession mission. 
Attrition levels are projected to remain at or below fiscal year 2008 
rates. Sustaining the 202,000 end strength will enable your Corps to 
train to the full spectrum of military operations and improve our 
ability to address future challenges. This end strength will also 
enable us to increase the dwell time of our marines so that they are 
able to operate at a ``sustained rate of fire.'' Our goal is to achieve 
a 1:2 deployment-to-dwell ratio for all of our Active Forces--for every 
7 months a marine is deployed, he or she will be back at home station 
for 14 months.
Funding
    The Marine Corps greatly appreciates the increase in authorized end 
strength to 194,000 passed in the National Defense Authorization Act 
for Fiscal Year 2009. In fiscal year 2009, we are funding the end 
strength in excess of 194,000 through supplemental appropriations. The 
vast majority of our personnel budget is spent on entitlements 
including compensation, which is a double-edged sword.
    Compensation is a principal factor for marines when deciding 
whether to reenlist. Private sector competition will always seek to 
capitalize on the military training and education provided to our 
marines. Marines are a highly desirable labor resource for private 
sector organizations. Competitive and flexible compensation authorities 
aid the Marine Corps in targeting specific areas and provide the 
capability to access, retain, and separate as needed. Your support for 
our Enlistment Bonus and Selective Reenlistment Bonus programs has made 
a difference and will continue to be a key to sustaining our end 
strength and ensuring the right mix, right grades, and overall 
effectiveness of our Total Force. We appreciate the continued support 
of Congress in the creation of flexible compensation authorities that 
allow the Marine Corps to shape your Corps for the 21st century.
Reserve Component End Strength
    Our Reserves continue to make essential contributions to our Total 
Force efforts in Overseas Contingency Operations, particularly in Iraq 
and Afghanistan.
    As we accelerated our build to 202,000 Active component marines 
during the past fiscal years, we understood that we would take some 
risk with regard to obtaining our Reserve component end strength of 
39,600. The result has been that the Marine Corps Reserve has seen a 
continued decline in end strength since fiscal year 2007 when we were 
1,044 (2.6 percent) below our authorized end strength. That same year, 
in keeping with our strategic perspective regarding the role of the 
Reserves, we deliberately targeted 883 experienced and combat-tested 
marines to return to the Active component in support of the 202,000 
plan. In fiscal year 2008, another 872 Reserve marines returned to the 
Active component, contributing to a shortfall of 2,077 (5.2 percent) 
below our authorization. In fiscal year 2009, another 197 have returned 
or are pending return to active duty and we are predicting an end 
strength of 36,986 (6.6 percent below authorization).
    However, we have now refocused our recruiting and retention efforts 
toward achieving our authorized Reserve component end strength. These 
efforts include increasing our Reserve Non-Prior service recruiting 
mission, lowering our attrition, doubling our incentives budget from 
$12 million to $24 million, and expanding the population eligible to 
receive incentives. I am confident that these efforts will set us on 
the right course to recover our authorized end strength of 39,600. We 
believe that number is appropriate and provides us with the marines we 
require to support the force and achieve our goal of 1:5 deployment-to-
dwell ratio. The bonus and incentives provided by Congress, 
specifically the authorization to reimburse travel expenses to select 
members attending drill, will be key tools in helping achieve this 
goal.
                            iii. recruiting
    Our recruiters continue to make their recruiting goals in all areas 
in support of our Total Force recruiting mission. Our focus in fiscal 
year 2009 will be to continue to recruit quality men and women with the 
right character, commitment, and drive into our Corps. To meet the 
challenges in today's recruiting environment, it is imperative that we 
maintain our high standards both for our recruiters and those who 
volunteer to serve in our Corps. The Corps must continue to be 
comprised of the best and brightest of America's youth. We must also 
remain mindful that the Marine Corps needs to reflect the face of the 
Nation and be representative of those we serve. Our image of a smart, 
tough, elite warrior continues to resonate with young people seeking to 
become marines.
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides us 
with tremendous flexibility and unity of command in order to annually 
meet our objectives. In fiscal year 2008, the Marine Corps achieved 100 
percent of the enlisted (regular and Reserve) ship mission 
(accessions). In terms of quality, Marine Corps Recruiting Command 
accessed over 96 percent Tier 1 high school diploma graduates and over 
66 percent in the upper Mental Groups of I-IIIAs. In short, we 
accomplished our recruiting mission, achieved the Commandant's quality 
standards, and exceeded Department of Defense quality standards.
    In fiscal year 2009, the Total Force accessions mission is 39,296 
and, as of 1 May 2009, we have shipped (accessed) 19,094 applicants, 
representing over 104 percent of our Total Force mission fiscal year to 
date. Although recruiting is highly dynamic and fluid, we expect to 
meet our annual recruiting mission this fiscal year, to include all 
quality goals. Additionally, we continue to exceed our contracting 
goals for this fiscal year which ensures we have a population of 
qualified individuals ready to ship to recruit training as we enter 
fiscal year 2010. Achieving this success, as always, is dependent on 
your support for our enlistment incentives. We thank you for this 
support both now and in the future.
    Our Officer Selection Teams were also successful in fiscal year 
2008, accessing 1,900 second lieutenants for 100 percent of their 
assigned mission. In fiscal year 2009, we are experiencing great 
success in our efforts to attract officer candidates and commission 
second lieutenants commensurate with our end strength requirements.
    For the Reserve component, the Marine Corps achieved its fiscal 
year 2008 Reserve enlisted recruiting goals with the accession of 4,235 
non-prior Service marines and 4,501 prior Service marines. As of 1 May 
2009, we have accessed 2,696 non-prior Service and 1,901 enlisted prior 
Service marines, which reflects 60 percent of our annual enlisted 
mission. Again, we expect to meet our Reserve recruiting goals this 
year.
    Officer recruiting for our Selected Marine Corps Reserve units is 
traditionally our greatest challenge. To date, the Officer Candidate 
Course--Reserve has proven to be the most successful of our Reserve 
officer recruiting programs, specifically focusing on ground-related 
billets tied to the Force Generation Model. Under this program, 
individuals attend Officer Candidates School, The Basic School, a 
Military Occupational Specialty school, and return to a Reserve unit to 
serve. We commissioned 56 second lieutenants in the Reserve in fiscal 
year 2008, and we anticipate commissioning between 50 and 75 more this 
fiscal year.
                             iv. retention
    Retention complements recruiting as one of the vital elements of 
building and sustaining the Marine Corps. For enlisted retention, we 
seek to retain the best and brightest marines in both our First Term 
and Career Force to provide the proven technical skills, experience, 
and noncommissioned officer and staff noncommissioned officer 
leadership needed to meet our demanding mission. In fiscal year 2008, 
the Marine Corps reenlisted 16,696 marines including an unprecedented 
8,243 first-term marines. This achievement represented the highest 
retention rate ever, almost 36 percent, among the eligible first term 
population compared to 31 percent in fiscal year 2007 and 22 percent in 
fiscal year 2006. Similarly, the Marine Corps achieved a remarkable 77 
percent retention rate among the eligible career force compared with 70 
percent in fiscal year 2007 and 65 percent in fiscal year 2006. This 
achievement contributed to exceeding the annual milestone in our end 
strength increase plan while maintaining all quality standards.
    For fiscal year 2009, retention achievement remains exceptionally 
strong. As of 5 May 2009, we have achieved 7,657 First Term Alignment 
Plan reenlistments, 104.4 percent of the 7,334 goal. Equally 
impressive, we have achieved 7,538 Subsequent Term Alignment Plan 
reenlistments, 101 percent of the 7,464 goal. Altogether, we have 
achieved 15,195 total reenlistments, or nearly 103 percent of the 
combined goals. Our continuing retention success remains largely 
attributable to two important, enduring themes. First, marines are 
truly motivated to ``stay Marine'' because they are doing what they 
signed up to do--fighting for and protecting our Nation. Second, they 
understand our service culture is one that rewards proven performance 
and takes care of its own.
    In regard to the Reserves, officer retention is above historical 
norms. Enlisted retention, however, remains below historical norms in 
part due to the priority of building an Active component end strength 
of 202,000. For fiscal year 2009, we foresee continued higher retention 
in the Active component, which will impact the number of marines 
transitioning into the Reserves. However, as stated above, we are no 
longer making a concerted effort to draw personnel from the Reserves to 
increase our Active Forces and are refocusing our efforts on increasing 
Reserve end strength.
                        v. marine corps reserve
    With the achievement of the 202,000 Active-Duty Force, we will 
refocus our recruiting and retention efforts toward achieving our 
authorized Reserve component end strength. One of the key recruiting 
elements and a focus is our Reserve junior officers and meeting our 
company grade officer shortfalls. As previously noted, the Officer 
Candidate Course--Reserve has proven to be the most successful of our 
Reserve officer recruiting programs. Our continued success in this area 
is a notable enhancement to the continuum of service for us and 
furthers the operational nature of our Reserve Forces.
    The departments within Headquarters, Marine Corps continue to work 
with the Office of the Secretary of Defense and Secretary of the Navy 
to develop implementation plans on the recommendations from the report 
of the Commission on the National Guard and Reserves. We were 
represented in all working groups reporting to the Commission's 
Steering Committee and have participated in all aspects of developing 
the Department of Defense response to the recommendations. We believe 
the spirit and intent of the Commission was very helpful in identifying 
avenues to strengthen and improve the Total Force.
                          vi. civilian marines
    Civilian marines continue to provide an invaluable service to the 
Corps as an integral component of our Total Force. With a population of 
over 33,000 appropriated and non-appropriated funded employees and 
foreign nationals, civilian marines work in true partnership with the 
active duty and play an important role in supporting the mission of the 
Marine Corps and Overseas Contingency Operations. Our vision for the 
future not only defines what the Marine Corps will offer to, but what 
it expects from, our civilian marines. The Marine Corps is committed to 
improving their leadership skills and opportunities for training and 
education.
    Civilian employees are afforded the opportunity to advance their 
career development through centrally-managed programs administered 
through Headquarters, United States Marine Corps. For example, the 
Marine Corps Acculturation Program provides our civilians with the 
opportunity to understand their roles in supporting the mission of the 
Marine Corps--specifically, learning the Marine Corps' culture and 
history while also concentrating on the strategic mission of local 
commands. The Civilian Marine Mentoring Program is part of the Civilian 
Career and Leadership Development program, which helps transform our 
civilian workforce to face the challenges of the future. A web-based 
Civilian Workforce Development Application was designed to assist the 
Marine Corps with managing our civilian workforce development 
activities.
    The marine has implemented the National Security Personnel System 
along with other Department of Defense and Department of Navy agencies. 
Since January 2007, the Marine Corps has converted 6,400 employees to 
the National Security Personnel System across all Marine Corps 
organizations including overseas and field activities. Through this new 
pay-for-performance system, employees are able to align job objectives 
to mission. Ongoing performance feedback, both formal and informal, is 
an important component of the system and is essential to increase 
employee engagement and foster a high performance culture.
                      vii. information technology
    Ensuring accurate, timely pay is supported by our continued efforts 
to transform our manpower processes by leveraging the benefits of the 
Marine Corps Total Force System (MCTFS), the Department of Defense's 
only fully integrated personnel, pay, and manpower system. MCTFS 
seamlessly serves our Active, Reserve, and retired members, provides 
total visibility of the mobilization and demobilization of our Reserve 
marines, and ensures proper and timely payments are made throughout the 
process. MCTFS provides one system, one record, regardless of an 
individual's duty status. According to the most recent Defense Finance 
and Accounting Service's ``Bare Facts'' report, MCTFS continues to 
achieve a pay accuracy rate of over 99 percent for both our Active and 
Reserve components. MCTFS has enabled the Marine Corps to move its pay 
and personnel administration to a predominately self-service, virtually 
paperless, secure, web-based environment. In fiscal year 2008, 
individual marines and their leaders leveraged MCTFS' capabilities to 
process more than 24 million transactions.
           viii. taking care of our marines and our families
    While the ideals of service to Corps and Country have not changed, 
the conditions of service are constantly changing, as are the needs of 
our marines and their families. Marines have reasonable expectations 
regarding housing, schools, and family support, and it is incumbent 
upon us to support them in these key areas. Marines make an enduring 
commitment to the Corps when they earn the title marine. The Commandant 
has made it clear that the Corps, in turn, must, and will, continue to 
make an enduring commitment to every marine and his or her family.
Transitioning Marine and Family Support Programs To A Wartime Footing
    Over the past year, the Marine Corps initiated a multi-year 
strategy to transition family support programs to a wartime footing. To 
achieve this, we conducted a series of assessments for the purpose of 
documenting service levels and evaluating the current state and 
efficiency of Corps-wide marine and family support programs and 
services. We discovered that our commanders needed more specific 
guidance and resources from us to appropriately take care of their 
marines and families or to refer them to available internal or external 
support services. We also heard the concerns of our marines and their 
families and implemented key reforms at every level of command and 
aboard each installation.
Family Support Programs
    The Marine Corps Family Team Building (MCFTB) Program provides a 
strong support arm to the Unit Family Readiness Program and high-
quality training that supports the marine and family through mission, 
career and life events. We have expanded and enhanced our pre-, during, 
and post-deployment training to address the increased demands and 
potential impacts of multiple, sustained deployments on marines and 
their families. We have developed an inventory of lifeskills training 
courses that specifically address challenges of military life, both 
personal and family. Acknowledging the role extended family members 
play in fostering personal and family readiness, we have expanded our 
family readiness support to include parents of single marines. Finally, 
our MCFTB staff provides unit command teams training on the roles, 
responsibilities and supporting tools that are available to foster 
personal and family readiness.
    Central to our transformation efforts, we have expanded the depth 
and breadth of our family readiness training programs and established 
full-time family readiness officer billets in more than 400 units, who 
serve as the focal point for families of our marines. As of May 1, 
2009, we have filled 365 of the 415 available positions and will 
continue to monitor our staffing needs. The family readiness officers 
will use the mass communication tool, which enables simultaneous 
broadcast of communication via email, text messaging, or phone, and 
other technology enhancements to expand communications between marines 
and their families.
    We have completed assessments at our remote and isolated commands 
and initiated substantial improvements to infrastructure and quality of 
life programming with upgraded child care availability and support, 
playground equipment, youth sports equipment, fitness center equipment, 
bike paths, and facility improvements. These enhancements will further 
promote the sense of community required to form strong bonds among our 
marine families that contribute so greatly to readiness.
    We learned that effective communications with family members is of 
paramount importance and, for our families with deployed marines, a 
critical quality of life requirement. In addition to the mass 
communications tool described above, we have addressed this issue in a 
number of ways.
    To enhance our morale and recreation capability on installations as 
well as to better connect marines and their families, the Marine Corps 
is installing wireless networks and access points at over 230 
facilities across the Marine Corps. We are also testing a Morale-
Portable Satellite Communications Suite that provides an internet and 
web-cam capability to Forward Operating Bases (FOBs) in Afghanistan 
where traditional ``Internet Cafes'' are unavailable. This not only 
provides marines with an opportunity to connect with their families, 
but also provides a recreation outlet at these remote locations. Two 
systems were delivered to our forces in Afghanistan in December 2008, 
and initial capability tests in the FOBs have been very encouraging. We 
will continue testing the fielded units and expect to begin to ramp up 
full capability by the end of fiscal year 2009.
    These initiatives and others not only demonstrate the commitment of 
the Marine Corps to our marines and their families, but also underscore 
the significance of marine and family support to mission readiness. We 
have advanced the implementation of these initiatives through the use 
of much-appreciated supplemental funding in fiscal years 2008 and 2009. 
Beginning in fiscal year 2010, the Marine Corps intends to sustain 
funding for these critical program enhancements in our baseline budget, 
not through supplementals.
Exceptional Family Member Program and Respite Care Program.
    Last year, I reported on our mission to establish a continuum of 
care for our Exceptional Family Member Program (EFMP) families. 
Recommendations from a rigorous internal functionality assessment have 
been implemented and we are actively helping nearly 6,500 families gain 
access to medical, educational, and financial services that may be 
limited or restricted at certain duty stations. The program is now 
fully staffed at both the installation and headquarters levels. A new 
Case Management System is online and allows the exchange of necessary 
information and provides a robust reporting capability to program 
managers.
    A Respite Care Program funded by the Marine Corps provides up to 40 
hours of care per month to all enrolled families, and can be used in 
conjunction with the TRICARE Extended Care Health Option (ECHO) 
benefit. We are obtaining the help of the Bureau of Medicine & Surgery 
and TRICARE to resolve health care access and availability concerns at 
several bases, and legal counsel is now on staff to advise our 
exceptional family members on State and Federal entitlements and 
processes. Since expansion of the program, our EFMP families have 
frequently expressed their appreciation for the support provided by our 
case managers, who have helped them navigate the paths and nodes to 
obtain services.
    Gaining access to Services can be most challenging to families who 
have members diagnosed with Autism Spectrum Disorder. We sincerely 
appreciate the increased reimbursement rate for Applied Behavioral 
Analysis therapy that Congress approved for fiscal year 2009. More 
families will now be able to exercise their option to use the TRICARE 
ECHO program. However, the highly specialized services these families 
require are not always available. Additionally, we are evaluating how 
the Marine Corps can partner with other organizations to increase the 
availability of these specialized services in geographic areas where 
they are currently lacking.
School Liaison
    The education of over 52,000 school-aged children of Marine Corps 
parents directly contributes to the overall state of family readiness 
within our Corps. We recognize that our children, who must often be as 
mobile as their military parents, face additional challenges associated 
with frequent moves between schools and educational systems of 
differing quality and standards. To address these challenges, we 
established School Liaison billets and are now fully staffed at each of 
our installations to help parents and commanders interact with local 
schools and districts.
    The School Liaisons advocate for our school-aged children and form 
partnerships with schools and other agencies in an effort to improve 
access and availability to quality education and to mitigate education 
transition issues. School Liaisons are actively involved in efforts to 
assist school districts in applying for available grants that focus on 
military school-aged children issues. Complimenting these efforts, the 
Marine Corps is working with the Department of Defense to develop an 
``Interstate Compact on Educational Opportunity for Military Children'' 
to enable reciprocal state acceptance of entrance, subject, testing, 
and graduation requirements. As of April 30, 2009, 15 States have 
passed the Interstate Compact, and others are in some stage of the 
legislative process.
Child Development Program and Meeting Potential Need
    To ensure children, youth, and teen programs continue to transition 
to meet the needs of our families, a functionality assessment was 
conducted in June 2008 to identify program improvements, such as the 
development of staffing models to improve service delivery. This year, 
we are pursuing initiatives in these programs to improve the quality of 
life for the children of our marines.
    To address a wide variety of identified needs, we are using 
multiple strategies to increase our child care capacity, such as 
expanded hours, partnerships, on- and off-base family child care, and 
Child Development Group Home spaces. We are now providing 16 hours of 
reimbursed respite care per month for families with a deployed marine, 
and intend to increase respite care availability aboard our 
installations. In addition, the Marine Corps has expanded partnerships 
that provide long and short-term support for marines and their families 
who are not located near our major installations. Through our 
partnership with the National Association of Child Care Resource & 
Referral Agencies, we have been able to provide an additional 798 child 
care spaces to geographically dispersed, deployed and severely injured 
servicemembers' children.
    We are currently providing 11,757 child care spaces and meeting 
63.6 percent of the calculated total need. It is important to note that 
the Marine Corps has initiated rigorous data collection and analysis 
improvements. As a result, it will be necessary to correct the 2007 
annual summary due to identified reporting errors. Our reported rate of 
71 percent of calculated total need last year is more accurately stated 
as 59.1 percent. To meet the Department of Defense standard of 80 
percent of potential need, we would require slightly over 3,000 
additional spaces. To address this requirement, Congress has funded 915 
additional spaces in fiscal years 2008 and 2009. The American Recovery 
and Reinvestment Act and 2009 Overseas Contingency Operations request 
will provide an additional 1,700 spaces. We are also considering 
additional modular child development centers, subject to more detailed 
planning and availability of funds. Continued congressional support 
will help us provide these needed facilities. As the needs of our 
families change, our program is committed to grow and adapt to meet 
these needs.
Combat Operational Stress Control
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our marines, sailors, and their families. To 
enable leaders, individuals, and families to prepare for and manage the 
stress of operational deployment cycles, the Combat and Operational 
Stress Control (COSC) Program encompasses a set of policies, training, 
and tools to recognize stress reactions early on and to manage them 
more effectively within operational units.
    Marine leaders are trained by mental health care professionals, 
with assistance from chaplains in the operating forces, to detect 
stress problems in warfighters as early as possible, and are provided 
the resources to effectively manage these stress problems in theater or 
at home base. This training is also being incorporated into formal 
Professional Military Education schools for both officers and senior 
noncommissioned officers, such as the Expeditionary Warfare School and 
the Staff Noncommissioned Officer Advanced Course. Additionally, 
enhanced training tools, such as hyper-realistic combat training in 
environments engineered to simulate the sights, sounds, and smells of 
combat, seek to increase marine and sailor resiliency to combat stress.
    We have staffed full-time COSC training coordinators at each of our 
Marine Expeditionary Force headquarters. To assist with prevention, 
rapid identification, and effective treatment of combat operational 
stress, we are expanding our program of embedding mental health 
professionals in operational units--the Operational Stress Control 
Readiness (OSCAR) Program--to directly support all Active and Reserve 
ground combat elements and eventually all deployed elements of the 
Marine Air-Ground Task Force. This year, we begin to formalize the 
OSCAR program by making mental health professionals organic to the 
divisions and Marine Forces Reserve. By fiscal year 2011, full OSCAR 
teams will be fielded to the Infantry Regiment level.
Post-Traumatic Stress Disorder
    The science of diagnosing and treating post-traumatic stress 
disorder (PTSD) continues to evolve. Research studies are underway to 
identify risk and protective factors to prevent PTSD and other stress-
related illnesses such as anxiety disorder or depression. Better 
screening and referral of at-risk marines is underway via the OSCAR 
program and standardized pre- and post-deployment health assessments. 
This will improve access to care and reduce stigma associated with 
PTSD. The Departments of Veterans Affairs and Defense have 
collaboratively established comprehensive guidelines, which are 
available to all services, for managing post-traumatic stress.
Traumatic Brain Injury
    We continue to see Traumatic Brain Injury (TBI) as a significant 
challenge, one we are meeting in coordination with the Department of 
Defense and Veterans Brain Injury Center. Many new cases represent 
older injuries that are just now being diagnosed and our expectation is 
that, with the institution of the Automated Neuropsychological 
Assessment Metrics for all marines, we will discover mild TBIs more 
promptly post-deployment.
    While the Marine Corps is providing leadership and resources to 
deal with this problem, we cannot solve all the issues on our own. The 
Marine Corps continues to work closely with the newly established 
Defense Center of Excellence for Psychological Health and Traumatic 
Brain Injury to advance our understanding of PTSD and TBI, and to 
improve the care of all marines. We are gratified by your continued 
support in this arena through funding of several research initiatives 
that explore ways to better treat our injured marines.
Suicide Prevention
    The loss of any marine is a tragedy both for the family and for our 
Corps. We are actively engaged in prevention and early identification 
of problems that may increase the risk of suicide. Leaders at all 
levels are concerned about the increase in the number of suicides, up 
from 25 in 2006, 33 in 2007, to 42 incidents in 2008. Understanding 
that there is no single suicide prevention solution, we are committed 
to having an effect on the individual marine through leadership and 
command involvement at all levels. As noted earlier regarding PTSD, we 
must reduce the stigma sometimes associated with seeking help. The 
Commandant and Marine Corps leadership are taking proactive action to 
address this issue. A senior enlisted Marine leader has been hand-
selected by the sergeant major of the Marine Corps to add unique 
insight to our efforts in suicide prevention, and the Assistant 
Commandant (ACMC), through the Executive Safety Board, is directing a 
series of initiatives which are currently in accelerated development:

        <bullet> NCO/FMF Sailor Leadership Suicide Prevention 
        Training--A half-day, high impact, relevant workshop has been 
        designed to reach the NCO/FMF sailor community and facilitate 
        their work with junior enlisted marines. In the past, 90 
        percent of suicides were accounted for by E1-E5 marines. This 
        training should be ready by this summer. In the interim, an 
        all-hands training on suicide prevention, directed by the ACMC, 
        was conducted last month.
        <bullet> Leadership Suicide Prevention Video Messages--All 0-6 
        and higher commands are producing videos focusing on leadership 
        and suicide prevention to set the climate for stigma reduction 
        and an imperative of prevention.
        <bullet> Integration of Suicide Prevention and Marine Corps 
        Martial Arts Program--A prevention message will be incorporated 
        in the MCMAP in a manner appropriate and engaging to reach all 
        marines.
        <bullet> Relationship Distress Hotline--relationship problems, 
        both romantic and marital, remain the number one associated 
        stressor related to suicidal behavior. Suicide is complex and 
        while this is not the only problem, it is the most common. A 
        hotline by phone, email and live internet chat that is marketed 
        specifically to assist with relationship distress and questions 
        may reduce risk of suicide related behaviors that result from 
        this type of stress.

    The Marine Corps will continue to aggressively pursue suicide 
prevention initiatives; reevaluate existing programs designed to reduce 
the stressors most correlated with suicidal behavior; develop and 
distribute new prevention programs; and refresh and expand training 
materials.
Sexual Assault Prevention and Response
    Sexual assault is a crime and we take every reported incident very 
seriously. In addition to the impact on its victims, the corrosive 
effect on unit and individual readiness is a matter of great concern. 
The Marine Corps has adopted policy and, in accordance with the 
Department of Defense's Sexual Assault Prevention and Response (SAPR) 
Program, issued guidance designed to prevent sexual assaults within the 
Marine Corps and to assist those marines and sailors assigned to Marine 
Corps units affected by sexual assault.
    A 2008 Government Accountability Office study reported several 
shortcomings in our sexual assault prevention program. To address these 
findings, we are refreshing our training program and have committed to 
hire four full-time regional SAPR Program coordinators. We have trained 
more than 3,000 victim advocates to provide assistance. All marines 
receive sexual assault prevention and awareness training upon entry and 
are required to receive refresher training at least annually. The issue 
is also incorporated into officer and noncommissioned officer 
professional development courses and key senior leader conferences and 
working groups. At the request of our field commanders, we have also 
increased the number of Marine Corps judge advocates who attend 
specialized training on prosecution of these crimes and have assembled 
a mobile training team to teach our prosecutors how to better manage 
these cases. Last month, the Marine Corps recognized the ``April is 
Sexual Assault Awareness Month'' campaign with a number of events 
throughout the country designed to focus attention on the issue and the 
need to continue our prevention and response efforts.
Personal Financial Management
    In difficult economic times, our marines and their families face 
challenges that are no different from the American population in 
general, such as taking on too much debt, incurring expenses of a new 
child, and increased housing costs. Our marines also confront unique 
challenges because of their service, such as unexpected or short notice 
deployments, extended separations, and directed permanent 
reassignments, all of which can compound existing financial 
difficulties.
    Last summer, we conducted a financial quick poll to help determine 
the level of financial stress on Active Duty marines and their families 
as a result of the downturn in the economy. Of the over 9,000 Active 
Duty marines who responded to the survey, 15 percent of enlisted 
marines and 5 percent of officers classified themselves as being in 
financial distress. Respondents reported that the most frequent 
financial problems experienced within the past year were increases in 
utility, rent and insurance costs, and taking on excessive debt.
    We appreciate the efforts of Congress to address the payday lending 
problem. Following up on that positive legislation, we worked with the 
Navy-Marine Corps Relief Society to establish a quick assist loan 
program that offers a $300 interest-free loan for emergency basic 
living needs. We also conducted a functionality assessment of our 
Personal and Financial Management Program in October 2008, and found 
deficiencies and opportunities for improvement that we are pursuing 
this year. Anticipating that economic impacts may have become more 
pronounced, we intend to conduct another survey this year and will 
continue to monitor the Corps' financial health and the success of our 
efforts to improve the program.
Casualty Assistance
    Our casualty assistance program is committed to ensuring that 
families of our fallen marines are treated with the utmost compassion, 
dignity and honor. We have taken steps to correct unacceptable 
deficiencies in our casualty reporting process that were identified in 
congressional hearings and subsequent internal reviews. Marine Corps 
commands now report the initiation, status, and findings of casualty 
investigations to the Headquarters Casualty Section, which has the 
responsibility to ensure the next of kin, receive timely notification 
of these investigations from their assigned Casualty Assistance Calls 
Officer. The Headquarters Casualty Section is a 24-hour-per-day 
operation manned by marines trained in casualty reporting, 
notification, and casualty assistance procedures. These marines have 
also taken on the additional responsibility of notifying the next of 
kin of wounded, injured, and ill marines. In October 2008, we 
implemented a mandatory training program for Casualty Assistance Calls 
Officers that includes a Web-based capability to expand the reach of 
the course. This training covers notification procedures, benefits and 
entitlements, mortuary affairs, and grief and bereavement issues. We 
will continue to monitor the effectiveness of these changes and make 
adjustments where warranted.
Recreation for the Recovering Marine
    Recognizing the importance of providing recreational opportunities 
for our wounded, the Marine Corps has partnered with Pennsylvania State 
University to train recreation professionals on Inclusive Recreation 
for Wounded Warriors. This state-of-the-art training program for 
military recreation managers ensures that marines and their families 
can create a ``new normal'' as soon as possible. Some of the best 
practices in place at our installations include bowling, golf, expanded 
personal fitness training, and a host of alternative activities for 
those who have been diagnosed with TBI, such as yoga, meditation, deep 
and shallow aquatic classes, personalized swim coaches, wall climbing, 
nutritional counseling, and referral to the ``Back on Track'' program.
Obtaining Quality of Life Feedback
    The Commandant of the Marine Corps regularly conducts town hall 
meetings at our installations to hear the concerns of our marines and 
their spouses. This provides him an opportunity to address individual 
concerns and issues, as well as helps our program managers identify 
systemic concerns. Having had the opportunity to participate in some of 
these town halls, I am encouraged by the progress we are making in 
identifying and addressing real quality-of-life concerns. As an 
example, we are participating in a working group with the Navy Bureau 
of Medicine & Surgery and TRICARE to resolve health care access and 
availability issues identified at several bases.
    In late 2007, the Marine Corps conducted its fourth Quality of Life 
in the Marine Corps Study (prior studies were conducted in 1993, 1998, 
2002). This is the first study conducted since the start of OIF/OEF, 
and it measured marines and their spouses' perceptions and satisfaction 
with the quality of life across a wide range of issues. As a statement 
of the morale and character of today's marine, this most recent study 
found that, despite the Overseas Contingency Operations and the high 
operational tempo, marines and family members are generally satisfied 
with their mission and the support provided to them by the Marine 
Corps. The most significant finding was that marines with a recent 
deployment history actually have a slightly higher overall quality-of-
life score than those without a deployment history.
    The study also found that there was an increase in overall and 
specific satisfaction across the board for spouses when compared with 
the results from the 2002 study. In fact, the overall Quality of Life 
score for the spouses was the highest seen for any of the respondent 
groups (marines assigned to an installation, independent marines, and 
recruiters) considered in this study. Spouses greatly appreciate the 
health care benefits provided by the Marine Corps, the quality of 
professional child care they receive, and the educational opportunities 
for their children. These factors and others had a positive impact on 
the family decision to remain part of the Marine Corps.
    We will continue to evaluate the findings from this important study 
in an effort to sustain the many quality-of-life improvements and 
transformation efforts outlined in my statement.
                      ix. wounded warrior regiment
    The Marine Corps is proud of the positive and meaningful impact 
that the Wounded Warrior Regiment is having on wounded, ill, and 
injured marines, sailors, and their families. Less than 2 years ago, we 
instituted a comprehensive and integrated approach to Wounded Warrior 
care and unified it under one command. The establishment of the Wounded 
Warrior Regiment reflects our deep commitment to the welfare of our 
wounded, ill, and injured, and their families throughout all phases of 
recovery. Our single activity provides Active Duty, Reserve, and 
separated marines with non-medical case management, benefit information 
and assistance, resources and referrals, and transition support. The 
nerve center of our Wounded Warrior Regiment is our Wounded Warrior 
Operations Center, where no marine or family member is turned away.
    The Regiment strives to ensure programs and processes adequately 
meet the needs of our wounded, ill, and injured and that they remain 
flexible to preclude a one-size-fits-all approach to that care. For 
example, we have transferred the pay and entitlements auditing 
authority from the Defense Finance and Accounting Service in Kansas 
City directly to the Wounded Warrior Regiment, where there is a 
comprehensive awareness of each wounded marine's individual situation. 
We have also designed and implemented a Marine Corps Wounded, Ill, and 
Injured Tracking System to maintain accountability and will eventually 
be used to facilitate case management for the Wounded Warrior Regiment 
Comprehensive Transition Plan. To ensure effective family advocacy, we 
have added family readiness officers at the Regiment and our two 
battalions to support the families of our wounded, ill, and injured 
marines.
    To enhance reintegration, our Job Transition Cell, manned by 
marines and representatives of the Departments of Labor and Veterans' 
Affairs, has been proactively reaching out to identify and coordinate 
with employers and job training programs to help our wounded warriors 
obtain positions in which they are most likely to succeed and enjoy 
promising careers. One example is our collaboration with the U.S. House 
of Representatives to establish their Wounded Warrior Fellowship 
Program hiring disabled veterans to work in congressional offices.
    The Marine Corps also recognizes that the needs of our wounded, 
ill, and injured marines and their families are constantly evolving. We 
must ensure that they are equipped for success in today's environment 
and in the future. In May 2008, the Regiment stood up the Future 
Initiatives and Transformation Team to assess current capabilities and 
develop future programs to ensure the Wounded Warrior Regiment (WWR) 
anticipates and meets emerging requirements. The Regiment has also 
stood up an Assessment Cell as part of the Future Initiatives and 
Transformation Team to conduct assessments of WWR programs and services 
to obtain actionable data for comprehensive program adjustment and 
improvement.
    One of the Regiment's most effective accomplishments thus far is 
the ``Sergeant Merlin German Wounded Warrior Call Center.'' Established 
in December 2007, the Call Center is available 24/7 for marines and 
marine veterans for assistance with benefit information and assistance, 
resources and referrals, and community reintegration needs. Our Wounded 
Warrior Call Center not only receives calls from active duty and former 
marines but also conducts important outreach calls. Since December 
2007, we have contacted over 9,800 marines and marine veterans wounded, 
ill, or injured since September 2001 to assess how they are doing and 
to offer our assistance. Our call center has been critical to our 
success in helping wounded, ill, and injured marines and in averting 
potentially tragic circumstances. Our trained call center staff is 
primarily former and retired marines or family members of marines. 
These dedicated individuals are not only skilled at providing help, but 
they also share a common bond with those they serve. This bond brings a 
sense of familiarity that enhances the help process. Our resident call 
center capability also gives the Marine Corps the flexibility to make 
outreach calls that target specific populations thought to be at higher 
risk for problems or requiring specific information. One example of 
this was our outreach to the marines assigned to the Personnel Recovery 
Platoons whose mission is to recover the remains of fallen marines and 
who have experienced the trauma of the battlefield to a degree and 
frequency that few others encounter. Additionally, we use our call 
center to keep wounded warrior marines and families informed about 
benefits changes or other changes in laws or policies that will impact 
them. Now that the new Servicemembers' Traumatic Group Life Insurance 
policy changes have been implemented, we are using our call center to 
contact wounded and injured marines and marine veterans to advise them 
of the enhanced benefits and relay to them the procedures for applying 
for the benefits. Our commitment to gaining and maintaining contact 
with all our wounded, ill, and injured marines, including those that 
have returned to full duty, has prompted us to increase our call center 
capability by adding call centers at each of our battalions located at 
Camp Lejeune, NC and Camp Pendleton, CA. ``Once a Marine, Always a 
Marine'' is not a recruiting slogan. It is the philosophy that it is at 
the heart of our brotherhood and guides our efforts to care for wounded 
warriors.
    It is this same philosophy that is behind our reinvigoration of the 
Marine For Life mission, which assists the 27,000 marines each year who 
leave active duty. This separate program falls under the Wounded 
Warrior Regiment and assists in the transition by connecting these 
marines with ``marine friendly'' employers and mentorship opportunities 
and providing educational assistance by utilizing Marine For Life 
HomeTown Links who are strategically located and working in communities 
throughout the United States.
    The Wounded Warrior Regiment has made great strides in achieving a 
holistic approach to wounded warrior care. We are particularly 
dedicated to ensuring our marines not only survive, but that they 
thrive--whether they return to duty or reintegrate to their 
communities. Supported by the passage of the National Defense 
Authorization Act for Fiscal Year 2008, the Marine Corps is 
aggressively moving forward in our efforts to institute improvements to 
the care, management, and transition of recovering marines and their 
families. Recovery care coordinators have been hired, trained, and 
detailed to support our wounded, ill, and injured. Working with others 
currently providing care support and services they will oversee the 
development of the Wounded Warrior Regiment Comprehensive Transition 
Plan for each wounded, ill, or injured marine that will serve as their 
individual roadmap whether they are focused toward a return to duty 
status or separation and community reintegration. These caring and 
dedicated professionals monitor the execution of services across the 
continuum of care from recovery through rehabilitation to 
reintegration.
    The network of support provided by the Wounded Warrior Regiment 
will continue to the marine's hometown via our District Injured Support 
Cells. Manned by Active Duty marines, these cells are established 
throughout the country to conduct face-to-face visits and telephone 
outreach to Reserve and veteran, wounded, ill, and injured marines. The 
Wounded Warrior Regiment will continue to develop those relationships 
that allow us to care for and advocate for our marines and marine 
veterans. Our Nation has a reasonable expectation that her marines will 
receive the care and support they need and deserve, whether this 
support is provided by the Marine Corps, the Department of Veterans 
Affairs, Veterans Service Organizations, or the many local and State 
governmental and nongovernmental agencies.
    As we continue to improve the care and management of our Nation's 
wounded, the Marine Corps is grateful to have the support of Congress. 
In addition to the support provided in the National Defense 
Authorization Act for Fiscal Year 2009, I would like to thank you for 
your personal visits to our wounded warriors in the hospital wards 
where they are recovering and on the bases where they live. The Marine 
Corps looks forward to continuing to work with Congress in ensuring 
that our wounded, ill, and injured marines receive the best care, 
resources, and opportunities possible.
                             x. conclusion
    As we continue to fight Overseas Contingency Operations, the Marine 
Corps will be required to meet many commitments, both at home and 
abroad. While we have, to date, made impressive strides toward our 
fiscal year recruiting, retention, and end strength goals, we must 
remember that this is a Total Force effort. It is individual marines 
who are our most precious asset, and we must continue to attract and 
retain the best and brightest into our ranks.
    Marines are proud of what they do. They are proud of the ``Eagle, 
Globe, and Anchor'' and what it represents to our country. With your 
support, a vibrant Marine Corps will continue to meet our Nation's 
call.
    Thank you for the opportunity to present this testimony.

    Senator Ben Nelson. Thank you, General.
    I think we will do a first round of 5 minutes.
    First, just a general question to all of you. Do you need 
any legislative authority to initiate or improve military 
personnel or family programs not otherwise discussed today? Do 
you need any authority to initiate or improve what you may not 
have talked about today?
    General Rochelle. If I may start, sir?
    Senator Ben Nelson. Yes, General?
    General Rochelle. Thanks to this committee and Congress, we 
have all of the authorities we need.
    Thank you.
    Senator Ben Nelson. Admiral?
    Admiral Ferguson. I would concur in that assessment. We 
feel we have all the authorities that we require.
    Senator Ben Nelson. General Newton?
    General Newton. I would also concur with that and I 
appreciate greatly the authorities that you have provided that 
we can carry forward with.
    Senator Ben Nelson. All right. General Coleman?
    General Coleman. Same thing. Thank you, sir.
    Senator Ben Nelson. Great. There has been a lot of 
discussion about end strength in the Army for some period of 
time, and 2 years ago, Secretary Gates announced that the Army 
would increase its permanent Active Duty end strength to 
547,400. Today, the Army finds itself with an active end 
strength of about 549,000 3 years ahead of schedule, as 
indicated.
    Do you believe, General Rochelle, that the Army should grow 
beyond the 547,400 in 2009 or 2010?
    General Rochelle. Mr. Chairman, first of all, I support the 
President's budget, as does the United States Army. Your 
question, though, begs a little bit of explanation about the 
relationship between end strength and demand.
    As you said in your opening statement, end strength cannot 
be viewed in a vacuum, and you are precisely correct, sir. In 
order to understand the required end strength, one has to ask 
the question what is it we want the Army to do and for how 
long?
    Demand, that is the one aspect that we do not control. In 
my experience of soon to be 3 years as the G-1 of the United 
States Army, I have seen demand consistently rise. We are 
hopeful that in the future, with responsible drawdown in Iraq, 
that will change. But as the Army looks to the next 12 to 
perhaps 18 months, we see an increase in demand before 
responsible drawdown can offer us the prospect of reduced 
demand in the overall.
    We are actively considering and discussing--and I believe 
my vice chief has testified to this. We are actively exploring 
whether or not we should return to DOD, this is an internal 
building discussion at this point, and seek authority 
temporarily to exceed that.
    I hope I have answered your question, sir.
    Senator Ben Nelson. The purpose of the request for 
temporary increase in end strength is because of the increased 
OPTEMPO or the fact that we are not going to get the dwell time 
that we had hoped by shifting down from Iraq into Afghanistan?
    General Rochelle. Let me answer your question this way, Mr. 
Chairman. The current dwell time for the Active Army is 1 year 
deployed for every 1.3 years at home. It is unsustainable, 
absolutely unsustainable.
    For the Army Reserve, it is just below 1 year deployed for 
every 3 years home. Even though they are an Operational Reserve 
and not a Strategic Reserve, I submit to you that that pace is 
equally unsustainable.
    In addition to that, the cumulative effect, which I 
attempted to speak to in my opening statement, of repeated 
deployments, and most especially the surge, is, in fact, 
wearing on readiness, and it is wearing on the number of 
soldiers in our formations who are available to deploy, whether 
for permanent medical conditions or just the wear and tear of 
the 7-plus years of combat.
    One more point, if I may? When we looked at our last 10 
brigade combat teams, and we, of course, looked at the other 
formations as well, but when we looked at our last 10 deployed 
brigade combat teams, the average nondeployable inside those 
formations was 11 percent. When we took a look at the last five 
brigade combat teams to deploy, we noted that that had 
increased to 12 percent.
    We think we may have plateaued, but I believe those data 
points give you a pretty good impression of where we are and 
addresses your question of why.
    Senator Ben Nelson. Once you have the discussions on the 
inside of DOD, would you then be prepared to come forward, or 
would the chief of staff or Secretary of the Army come forward 
with that kind of a recommendation? Is that your anticipation?
    Or would it go through the ordinary channels, let us say, 
back to the Secretary of Defense, back to the White House as 
part of a future budget request?
    General Rochelle. I am certain that it would include 
discussions with the Secretary of the Army, the Chief of Staff 
of the Army, and the Secretary of Defense. Beyond that, I 
wouldn't speculate, Mr. Chairman.
    Senator Ben Nelson. Okay. Thank you.
    Senator Graham. Thank you, Mr. Chairman.
    I think I will just pick up where you left off. I have been 
told there are 20,000 soldiers on Active Duty who are 
nondeployable due to medical reasons. Is that right, General 
Rochelle?
    General Rochelle. That is correct, sir.
    Senator Graham. Any idea of how many of those 20,000 will 
be able to come back to deployable status?
    General Rochelle. Statistically, the majority of them, 
between 60 and maybe even as many as 70 percent will be able to 
come back over time. We have seen that both with the warrior 
transition unit, and we typically see that inside brigade 
combat teams.
    Senator Graham. So when you look at 547,000, it is really 
not 547,000 right now in terms of being able to be deployed. Is 
that correct?
    General Rochelle. In terms of available soldiers, it is not 
547,000, sir.
    Senator Graham. If we are going to err, it is my view that 
I would rather have more soldiers than you need than not 
enough. The goal is to have the right amount. I share Senator 
Nelson's concern that we need to look at maybe bumping that up 
because in the short term, not only are you going to probably 
be more in the fight in Afghanistan, but this 20,000 number in 
the short term is not going to change.
    General Rochelle. Sir, I would simply add if the past is, 
indeed, prologue, I do not expect to see demand come down for 
between 12 to the next 18 months.
    Senator Graham. I have been told Secretary Geren and 
General Casey acknowledged there was a $2 billion shortfall in 
terms of paying personnel bills in the Army. Does every Service 
have a shortfall for 2009?
    Admiral Ferguson. Senator Graham, for the Navy, that 
shortfall is roughly $300 million in execution this year.
    Senator Graham. What about the Air Force?
    General Newton. Sir, we have a shortfall. I don't have a 
specific number. I can get back to you on that.
    [The information referred to follows:]

    At the time of this testimony, the Air Force had a Total Force 
shortfall of $165 million in fiscal year 2009 Military Personnel 
Appropriations (Active, Guard, and Reserve). The supplemental, combined 
with Omnibus reprogramming action, has eliminated the shortfall.

    Senator Graham. What about the Marine Corps?
    General Coleman. Yes, sir. We do have a shortfall, but I 
take for the record the exact amount.
    [The information referred to follows:]

    At the time of this testimony, the Marine Corps had a $157 million 
shortfall. Subsequent to this testimony, the shortfall was reduced to 
$105 million and an appeal was submitted to the House Appropriations 
Committee-Defense and the Senate Appropriations Committee-Defense for 
consideration during the fiscal year 2009 Overseas Contingency 
Operations (OCO) conference markup. Upon passage of the fiscal year 
2009 OCO, Congress appropriated the $105 million shortfall; therefore 
one no longer exists for the Marine Corps.

    Senator Graham. Okay. How are we going to make that up?
    General Rochelle. I am expecting that the Overseas 
Contingency Operations (OCO) request, which is currently 
pending on Capitol Hill, will give us a substantial amount of 
relief. For the record, the number for the Army is $1.8 
billion, sir.
    Senator Graham. This request on Capitol Hill would make it 
up for the Army?
    General Rochelle. Yes, sir. It would give us the ability 
largely to eradicate that shortfall.
    Senator Graham. Is that the same for the other Services, I 
hope?
    Admiral Ferguson. In the Navy's case, the House 
Appropriations Committee mark that they did will cover the Navy 
shortfall.
    Senator Graham. Same for the Air Force, Marines? Okay.
    To a more parochial interest of mine, Lieutenant General 
Coleman, I have been told that we are going to increase to 
27,000 Active-Duty marines, but this does not include any 
increase in the number of Marine Judge Advocates General (JAG). 
I don't know if this is true or not. I have been told that 
sometimes when Marine units deploy, that they don't have enough 
Marine JAGs to fill the needs of the commanders, and we are 
using some Navy JAGs. Are you familiar with that?
    General Coleman. No, sir. Not at all. Not that in the 
deployment stage, taking Navy JAGs instead of Marines. I am not 
aware of that.
    Senator Graham. If you could look into it and get back with 
me, I would appreciate it.
    General Coleman. Yes, sir.
    [The information referred to follows:]

    Senator Graham inquired as to Navy Judge Advocates General's (JAG) 
being utilized by and deploying with Marine Corps units in order to 
satisfy personnel shortfalls. At the time of his testimony, Lieutenant 
General Coleman stated that he was unaware of this practice. Upon 
further review, his testimony was accurate--no Navy JAGs are deploying 
with Marine Corps units to cover personnel shortfalls within the Marine 
Corps JAG occupational field.

    Senator Graham. From the Navy point of view, Admiral 
Ferguson, I have been told that the Navy is short 191 JAGs and 
63 enlisted personnel. What is the plan there?
    Admiral Ferguson. For this budget request, we recently 
approved a partial increase in the JAG corps, and then we are 
looking at that study that you cite to see what we can phase in 
over time.
    Senator Graham. Okay. I have to go to another hearing, but 
I will be back, Mr. Chairman. Finally, this idea of retaining 
folks that are in specialties, do you feel that the committee 
has been responsive to your needs to give you the money and the 
flexibility to go to the health care professionals and a 
variety of specialties in the military?
    From the nuclear Navy's point of view, if we build more 
nuclear reactors on the civilian side, like I hope we will, Mr. 
Chairman--I know you support that--there is going to be 
competition for people who are conversant in nuclear power 
matters. Is there anything more we could do to help any of the 
Services to give you the flexibility and money you need to 
retain key people?
    Let's start with the Army.
    General Rochelle. In point of fact, the committee and 
Congress have given us extraordinary authority to be able to 
attract the critical skills that we need. Unfortunately, those 
authorities do not address the larger strategic issue, which 
is, as in the case of behavioral specialists and medical 
professionals, we simply aren't creating enough in America to 
address both civilian needs as well as DOD's needs.
    Senator Graham. Has there been any thought of expanding the 
Uniformed Services University of Health Sciences?
    General Rochelle. Sir, there has. There have been 
discussions inside the Army of, for example, returning at some 
point to a program that used to be called the RAIN program, 
where the Army grew its own nurses simply because----
    Senator Graham. We could do that with health care 
professionals and mental health professionals?
    General Rochelle. We possibly could. I have not had active 
discussions about that, sir.
    Senator Graham. Okay, could you work that through the 
system? Because I think there are a lot of people on Active 
Duty that might move to that career choice.
    General Rochelle. Yes, sir.
    Admiral Ferguson. Senator, with regard to the reenlistment 
bonuses and enlistment bonuses, we feel that we have received 
all the authorities that we need and that the funding we have 
requested will be adequate to support us going forward into 
2010. We have had great success this year.
    General Newton. I would say that is consistent with the Air 
Force. To echo perhaps what General Rochelle was talking about, 
the challenge that we have with this, what we call a war for 
talent, out there in the commercial sector and across America 
is significant, be it just trying to go for America's youth in 
terms of those who are obviously capable to join the ranks of 
the military, as well as within the health professional 
communities and so forth.
    But I do feel that the committee has been very forthright 
and supportive of authorities to pursue.
    General Coleman. Sir, I feel Congress has gone above and 
beyond and would not venture to go any further. I would say, as 
we grow to our 202,000, that we would ask that because we are 
about to reach 202,000 that you not take too much away because 
we are there. We still have to shape our force.
    But as far as what we are getting for reenlistments, I 
think we are spot on, sir. Thank you.
    Senator Ben Nelson. Thank you, Senator Graham.
    Over the last several years, we have found that each and 
every Service is having difficulty recruiting and retaining 
medical professionals. It is my understanding from what Admiral 
Ferguson said that maybe meeting some of those goals has been 
easier.
    But Congress has authorized large bonuses for critically 
short specialties, as much as $400,000 for 4 years of service 
in some cases. Starting with you, General Rochelle, what are 
your thoughts about what more we could do to recruit more 
physicians and other health care providers, including dentists 
and nurses, into the military and retain them?
    General Rochelle. If I may make one slight preamble to your 
question, Mr. Chairman? We are realizing after 7 years of war 
that our base authorizations for medical professionals are 
inadequate to address the growing need.
    I spoke earlier to the challenges of the cumulative effect 
of deployments and the cumulative effects of 7-plus years of 
combat. With that having been stated, I don't believe the 
solution lies in additional monies that we may offer to attract 
this talent. I really don't.
    I think what we have to do is explore ways of allowing 
individuals to serve more shorter terms, if you will, as 
opposed to signing up for a full 7-year or 8-year military 
service obligation. You have given us some authorities there. I 
think we have to explore creative and inventive ways to reach 
outside the normal pool of talent, and I think the Military 
Accessions Vital to the National Interest programs opens a door 
there, sir.
    Admiral Ferguson. Mr. Chairman, I would offer that in our 
successes this year, we found that partnering medical 
professionals with recruiters in the field in the outreach 
effort, and reaching into new populations gave us the greatest 
benefit.
    The authorities and the bonuses you have given us and some 
modifications that we have made in some of the programs and 
stipends have paid off. But it is that partnership and reaching 
into new areas which is so important to us.
    Senator Ben Nelson. General Newton?
    General Newton. Sir, I would add that from our perspective, 
it is also how we go about growing our own with regard to the 
authorities that you provided, the Health Professions 
Scholarship Program and so forth. We are also taking a look--
and candidly, when our end strength reduction, when we went 
down to 316,000 and we were headed down to 316,000 of our 
Active Duty end strength, and now that we are going to be 
leveling off above 330,000, we took a pretty hard swipe at our 
recruiters.
    General Roudebush, the Surgeon General of the Air Force, 
and I, we are looking to partner in terms of how we can get our 
medical folks back into the recruiting business as well so that 
we can follow up. But again, we have the authorities, and I 
believe it is men, like General Rochelle was talking about, 
that limited pool of talent there.
    Senator Ben Nelson. You don't necessarily need more bonus 
money or other programs? You could always use more, I am sure, 
but do you necessarily think you need it?
    General Newton. Sir, it is as much recruiting, but also for 
consideration with regard to retention as well. It is giving 
them the opportunities, as General Rochelle alluded to, maybe 
you look at the length in terms of reenlistment and so forth, 
or retaining in the Service. But again, it is a matter of us 
acting on the authorities that you provided and that we go 
forth.
    Senator Ben Nelson. General?
    General Coleman. Sir, we get all our medical from the Navy, 
sir. So we are good.
    Senator Ben Nelson. Yes.
    General Coleman. So give them all they want, please. 
[Laughter.]
    Senator Ben Nelson. Good partnership.
    In terms of mental health, at a press conference last week, 
Admiral Mullen said that the recent shooting of five 
servicemembers at a stress control clinic by a troubled Army 
sergeant speaks to ``the need to redouble our efforts'' and the 
issue of multiple deployments and increasing dwell time ``to 
try to improve to relieve that stress.''
    As we have looked at that tragic event, the rates in every 
Service are clear reminders that servicemembers, particularly 
those who have been deployed on multiple occasions are under 
tremendous stress, and they do need access to mental health 
care. Are there any feasible actions that we could take in the 
short term here to help decrease the stress on the force or 
have additional health care available to them to deal with the 
mental challenges that so many seem to be facing?
    General Rochelle. Sir, I would offer all of the above. All 
of the above. The most critical factor, as the Secretary of the 
Army, the Honorable Pete Geren, has testified, is dwell time to 
be with family members, time to be with loved ones. As I have 
very clearly stated, 1 year deployed for every 1.3 years of 
dwell is completely inadequate, and it is unsustainable.
    I also mentioned the fact that we are seeing that our base 
authorizations after 7-plus years of war for mental health 
providers, social workers, et cetera, are completely inadequate 
to address the need. We are growing that capability, both on 
the military side as well as on the civilian side.
    My final comment would be we are taking every measure 
feasible right now under the direction of the Vice Chief of 
Staff, who is himself heading a task force that looks monthly 
worldwide--in fact, I participated in I think it is the third 
or fourth, my third or fourth, and I have not missed one--
worldwide video teleconference review with field commanders at 
the three- and four-star level, as well as two-star, looking at 
the details and the connective tissue, if I may use that term, 
between incidents.
    How do we connect the dots so that we can be preventive? 
The month of April, I would offer, begins to show a glimmer of 
hope that we are being successful.
    Senator Ben Nelson. General Newton?
    General Newton. Sir, if I may add? I think, to perhaps add 
on to what General Rochelle was discussing in terms of 
connecting the dots, we have to look at balance, not only for 
the men and women in uniform, but also for the family members 
as well because the stress on the force impacts, of course, 
those who serve, the principal members, but also the family 
members.
    I know we are taking a hard look at it in terms of how we 
balance our approach in terms of taking care of our Air Force 
with regard to stresses on the family members as well, which I 
know Admiral Ferguson just said he came out of the area of 
responsibility (AOR). I just was there myself, and enough 
challenges that we have on our airmen at deployed locations is, 
are their families being taken care of and so forth?
    We are looking at it from a holistic approach, but it is--I 
know all the Services are taking a hard look at that, and we 
are also looking at each other's programs as well to make sure 
that we take advantage of lessons learned and so forth.
    Senator Ben Nelson. In that regard, are you trying to 
establish what you would consider a best practices sharing of 
programs back and forth with one another?
    General Newton. I know we have, for instance, with the 
suicide program, I enlisted the support of General Rochelle, 
when he was starting to put together a major effort several 
months ago, to emulate what the Army has done to date.
    General Coleman. I think we all have, sir. I would say that 
the Army has done a superb job recently in the planning for 
this, and we, the Marine Corps, have also partnered up with the 
Army.
    I would also like to say that this has the attention of all 
the leadership of the Marine Corps. We look at it as a small, 
small unit leadership task that I think, in my opinion, is the 
most important part, that the young sergeant who knows a young 
lance corporal can see something in him or her that shouldn't 
be there. We have stressed small unit leadership amongst our 
NCOs and that sort.
    The Assistant Commandant of the Marine Corps has also come 
out with a study for us. Each 06 and higher commander has to 
produce a video and show it to every one of his marines and 
sailors. I think we are on, and I would like to be like General 
Rochelle and say we see a glimmer of hope. I think we are 
really attacking it, sir.
    Senator Ben Nelson. We continue to hear about sexual 
assault in deployed areas. Can you describe some of the 
programs that you might have in place to try to minimize and 
eliminate those assaults?
    General Coleman. Sir, I think that is a major problem, and 
it is not only in deployed units. For the Marine Corps, it is 
Marine Corps wide. We found, what we are doing again is small 
unit leadership, but in over 95 percent of the cases, either 
the victim or their assailant has had too much alcohol.
    We are looking at it that way. In over 90 percent of the 
cases, alcohol is involved. So small unit leadership is where 
we think we can stop the problem, sir.
    Senator Ben Nelson. Anyone else? General Rochelle?
    General Rochelle. Yes, sir. Thank you for the opportunity.
    The Army has launched what I consider to be the premier 
sexual assault prevention strategy and program. Secretary Geren 
has spoken of it in his testimony. General Casey has also 
spoken of it.
    Just to give you some concept of scale. Last year, we spent 
$20 million in sexual assault prevention. This year, we plan to 
spend $42 million in sexual assault prevention, executing and 
implementing a very comprehensive strategy. The elements of the 
strategy are essentially to empower every young soldier not 
only to recognize an instance or an incident in which a fellow 
soldier may be setting himself or herself up to become a victim 
and then to intervene effectively in order to prevent it.
    We are beginning to see and our strategy did predict that 
within the first 18 months of the strategy, based upon 
additional awareness and additional empowerment and the 
leadership empowering and encouraging individuals to come 
forward, we would see a spike in the number of reported 
incidents, both restricted and unrestricted. Indeed, we have.
    As we go forward, we expect that number to come down, and 
we have a benchmark in the strategy that we are shooting for.
    Senator Ben Nelson. The increase in numbers would be the 
increase in reporting?
    General Rochelle. Correct, sir. Yes, sir.
    As you may know, Mr. Chairman, I am sure you do, sexual 
assault is the most underreported crime in America and perhaps 
the world.
    Senator Ben Nelson. Senator Graham.
    Senator Graham. Thank you.
    Very quickly, I know we want to get to the next panel. Just 
pick up on that line of questioning, General Coleman, you said 
that most sexual assaults were related to alcohol abuse. Is 
that correct?
    General Coleman. That is correct, sir.
    Senator Graham. In the deployed areas, you are not supposed 
to drink. Is that a problem over there?
    General Coleman. In deployed units, that is an exception, 
sir, because there is no drinking there.
    Senator Graham. In the deployed, in the theater, is there a 
difference between the number of sexual assaults reported in 
deployed areas versus at home bases?
    General Coleman. Yes, sir. It is much smaller in deployed 
units.
    Senator Graham. Is that true in the Army?
    General Rochelle. That is true for the Army, sir.
    Senator Graham. Okay.
    General Rochelle. A fraction.
    Senator Graham. Anything from the Air Force and the Navy?
    General Newton. Sir, if I may, though? If I could just tag 
on to a couple other comments? Again, it is a matter of, and I 
am sure all the Services feel this way, but zero tolerance is 
number one. We are trying to emulate whatever we do in 
garrison, but also as a deployed location as well.
    Senator Graham. Disciplinary action is quick to follow, 
right?
    General Newton. Yes, sir.
    Senator Graham. Court-martials and Article 15?
    General Newton. Certain follow-up in that the command 
climate is as important in this as anything in terms of 
establishing that and being effective.
    Senator Graham. What about the Navy?
    Admiral Ferguson. I would echo those comments. It is a 
primary leadership responsibility that involves support for the 
victim, education, as well as taking appropriate action, as you 
mentioned, against the perpetrator.
    Senator Graham. That takes me to the last question I have, 
and that is the contract force. Mr. Chairman, as you well 
realize, we are taking more civilians to war in this war than 
any war in the history of America. Quite frankly, you couldn't 
conduct the war without civilian contractors. We have had them 
play a very important part.
    I want to congratulate those who sign up and serve in that 
capacity, but we have had problems with a basically two-tiered 
system where the contractor would be allowed to use alcohol in 
theater, and that the problem or concern I have had is to give 
the commander the disciplinary authority over the entire force. 
A contractor can create as much problems for our Nation as 
someone in uniform when they act inappropriately.
    I, along with Senator Kerry, authored legislation that 
would allow, for the first time, contractors accompanying the 
force in combat theaters to be court-martialed. I know we have 
had one or two cases.
    I just would like your view as to are there any contractor 
requirements needing to be changed? Should the military take 
over some of these jobs? What is best for the force in the 
future? Do we need more contractors? Do you have the tools 
necessary to integrate the contractor force with the Active 
Duty, Reserve component?
    Starting with the Army.
    General Rochelle. Sir, I think we have all the authorities 
that are required. As you have correctly stated, we cannot wage 
war, certainly not one of this duration and perhaps longer, 
without relying not only on contractors but, I might add, our 
civilian teammates as well.
    If there is anything, and the question, do we need more? We 
probably do need more contractors, and we probably need more of 
our great civilians.
    Senator Graham. Interpreters, linguists, I know you need 
more of those.
    General Rochelle. Yes, sir. Exactly. In those critical 
skills which we simply can't maintain an adequate supply in the 
force.
    Senator Graham. That comes out of your personnel budget?
    General Rochelle. It comes out of operations and 
maintenance (O&M), sir.
    Senator Graham. O&M, not personnel?
    General Rochelle. A different account, and I think we have 
the tools we need.
    Senator Graham. The Navy?
    Admiral Ferguson. Senator, I would echo we have the tools. 
In the Navy's case, unlike the Army that may use more 
contractors forward, ours primarily are in acquisition and in 
support of procurement programs and other support in contiguous 
United States.
    General Newton. Sir, that is consistent with the United 
States Air Force as well, down range particularly.
    General Coleman. Sir, I concur with General Rochelle, sir.
    Senator Graham. Okay. Finally, do you have the tools 
necessary to make sure that civilians and contractors within 
operational theaters follow the rules and make sure that there 
are not things that go unpunished and don't work? A U.S. 
attorney maybe back in Virginia won't take a case, and do you 
feel a need to make sure commanders have disciplinary tools for 
the entire force?
    General Rochelle. Sir, I am going out on a limb here, and I 
am doing it in front of a lawyer.
    Senator Graham. Don't worry about it.
    General Rochelle. Let me respond this way. It is my 
understanding, and I have done some research on this, that the 
combatant commander has the jurisdiction and the authority to 
execute, as you said, the legislation that you cosponsored, 
coauthored within theater. My answer is it is not a title 10 
service issue.
    Senator Graham. Okay. That is fine.
    Thank you all very much.
    General Rochelle. Thank you, sir.
    Senator Ben Nelson. One final question I might ask, or are 
you finished?
    Senator Graham. Yes, sir.
    Senator Ben Nelson. We are aware that the personnel, the 
health care, and entitlement costs continue to soar, and 
personnel costs, including the cost of military health care. 
The Department spent $162.4 billion in 2008, anticipates 
spending $170.5 billion in 2009, and has requested $178.7 
billion in 2010. You have already indicated that is the largest 
part, Senator Graham, of the budget.
    Looking at these rising costs, short of cutting back on 
personnel, are there any steps that could be taken to reduce 
personnel costs?
    Senator Graham. If I could just interject, it is my 
understanding that 14 percent of the entire DOD budget will be 
military health care cost. Is that right? Down the road.
    General Rochelle. I can't answer that percentage, sir. I am 
sorry. That is for DOD.
    Senator Ben Nelson. Is there something we can do, if we 
could increase the quality of health care and decrease the 
quantity in some respect, would there be a savings? Is there 
anything like that that you are all looking at within your own 
branch to try to economize on personnel costs, including the 
benefits? Not taking things away, but trying to do things more 
efficiently, effectively, and getting better results?
    General Rochelle. The Chairman addressed this in his recent 
testimony, and I believe if there were simple, low-hanging 
fruit options that one could employ, we would have all taken 
those actions already. It is a very complex issue, Mr. 
Chairman.
    Senator Ben Nelson. Well, would the Secretary of Defense 
get you a higher ladder or---- [Laughter.]
    General Rochelle. We would all need one. One way in which 
we could, I think, come at it is on the prevention side. Not 
coincidental, but concurrent with our work on suicide, the Army 
is launching a health, fitness, and promotion program that is 
designed to build resiliency in much the same way that we have 
over the decades, the decades of my service and well beyond, 
built physical stamina and physical fitness.
    Not an adequate answer to your excellent question, but I 
think prevention offers us a clue in which there may be 
savings.
    Senator Ben Nelson. Part of the prevention, first of all, 
you don't typically have an aging population in the military to 
begin with. But part of the area of prevention is early 
detection, because not every use of the military health care 
system is going to be as a result of combat. A lot of it is 
just general health conditions.
    Could you explore ways of not only healthier lifestyles, 
but also early detection with the kind of preventive care that 
you can get from upfront health care costs that save you on the 
backend with healthier life expectancies? Anybody else want to 
take a crack at that?
    General Rochelle. No question, Mr. Chairman.
    Senator Ben Nelson. I am not going to ask General Coleman 
because he is going to refer to the Admiral.
    General Coleman. Sir, I think we are doing an excellent job 
of trying not only the prevention, but also cutting back.
    I personally sit down with our folks when they are looking 
at the reenlistment bonuses, and this was last year when 
Congress was really giving us all we wanted. I was surprised at 
our folks who said, we don't need to give the great big bonuses 
to everybody, and we need to judiciously look at the money 
because it is all coming out of the same pot.
    I think we are doing a very good job of not trying to waste 
the taxpayers' money, sir.
    Senator Ben Nelson. That is a good point.
    General Newton?
    General Newton. Mr. Chairman, if I may just add again, this 
notion of us being more effective in our ``fit to fight,'' what 
we call it, we are taking a hard look inside the United States 
Air Force. It is really not trivial, and I am not saying we are 
making it trivial, but this notion of preventive access and 
care, and also having access to fitness centers and again at a 
high OPTEMPO. Not only, again, having just come out of the AOR, 
we focus on fitness as much in the AOR as we try to do back 
home as well.
    Really, it is a new generation. It is a higher OPTEMPO Air 
Force, and certainly for the other Services. How we are fit to 
fight really more effectively can then, I believe, in the long 
haul make a more healthy force and, therefore, could obviously 
trim down costs, long-term costs.
    Senator Ben Nelson. Thank you, and thank you for your 
participation.
    Thank you, General Rochelle, once again for your service, 
and General Coleman, of course. We thank the others as well. We 
know we will see you again.
    Thank you. [Pause.]
    We now welcome our second panel, and we have outside 
representatives from servicemember-oriented associations. 
Colonel Steven P. Strobridge (Ret.) is the Director of 
Government Relations, Military Officers Association of America, 
and Co-chair of The Military Coalition.
    We are glad to have you, Colonel Strobridge.
    Master Chief Joseph L. Barnes (Ret.), is the National 
Executive Director, Fleet Reserve Association, and Co-chair, 
The Military Coalition.
    Ms. Deirdre Parke Holleman is the Executive Director of the 
Retired Enlisted Association and Co-chair of the Survivor 
Committee of The Military Coalition.
    Captain Ike Puzon (Ret.) is the Director of Legislation, 
Naval Reserve Association, and Co-chair of the Guard and 
Reserve Committee of The Military Coalition.
    Captain Bradley Snyder (Ret.) is the past President of 
Armed Forces Services Corporation, a shorter title. Thank you 
very much, Captain. [Laughter.]
    Less chance of messing it up.
    If you would, Mr. Barnes, would you share your thoughts on 
the personnel issues that you think can be reflected in this 
year's budget?

    STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN (RET.), 
NATIONAL EXECUTIVE DIRECTOR, FLEET RESERVE ASSOCIATION; AND CO-
                 CHAIR, THE MILITARY COALITION

    Mr. Barnes. Certainly, Mr. Chairman, and thank you for the 
opportunity to be here today and appear before this 
distinguished subcommittee.
    The Military Coalition's (TMC) statement reflects the 
consensus of 34 TMC organizations and extensive work by the 
Coalition's 8 legislative committees. We understand that at 
least one coalition organization witness has been invited to 
testify at a separate family readiness hearing, and for that 
reason, the Coalition panelists will not address family matters 
today, and each will focus on other issues.
    Before proceeding, I wish to thank you and the entire 
subcommittee and your staff personnel for effective leadership, 
a strong commitment, and support for military personnel, 
retirees, veterans, their families, and survivors, and 
particularly for our wounded warriors and their families.
    Adequate service end strengths are essential to success in 
the war efforts and other demanding operational commitments 
vital to our national security, and the Coalition strongly 
supports proposed end strength increases in 2010.
    Admiral Mike Mullen, Chairman of the Joint Chiefs of Staff, 
recently testified about the strain of repeated deployments--
and we also heard reference to this in the first panel--and the 
limited dwell time for many servicemembers that will continue 
at least through 2010 due to current end strengths and 
demanding operational requirements. The related stress on 
servicemembers and their families is a serious concern and can 
lead to significant morale, readiness, and retention 
challenges.
    Unfortunately, the proposed increases will only get the 
Army to 15 months of dwell time, which is still grossly 
inadequate. We understand some on the committee may support 
further end strength increases, and the Coalition would 
strongly support this and any initiative to further enhance 
essential dwell time.
    We also note the Navy's and the Air Force's reductions in 
force in recent years, and we also note that the Navy continues 
to provide individual augmentees supporting overseas 
contingency operations. Associated with all this is maintaining 
adequate end strength and a sustained and adequate funding for 
military recruiting efforts.
    Pay comparability remains a top priority, and the Coalition 
strongly supports authorization of a 3.4 percent 2010 Active 
Duty pay hike. We appreciate your past support for higher than 
employment cost index pay increases, which have reduced the pay 
gap to 2.9 percent.
    Housing standards determine local housing allowance rates, 
which need to be revised to more closely reflect where service 
personnel are actually living. For example, only E-9s, which 
comprise 1.25 percent of the enlisted force, are eligible for 
basic allowance for housing for single-family detached homes.
    TMC appreciates enactment of the post-September 11 GI bill, 
and DOD's policies on transferability options for personnel 
nearing retirement. However, technical corrections are needed 
to extend transferability to members of the U.S. Public Health 
Service and the National Oceanic and Atmospheric Administration 
corps.
    Finally, the Coalition remains committed to adequate 
funding to ensure access to the commissary benefit for all 
beneficiaries and to support important morale, welfare, and 
recreation (MWR) programs. These various programs, facilities, 
and support services for personnel impacted by base realignment 
and closure actions, rebasing, and global repositioning are 
very important, particularly during wartime, which alone 
results in significant stress on servicemembers and their 
families.
    Thank you again for the opportunity to present our 
recommendations today.
    [The prepared statement of The Military Coalition follows:]
           Prepared Statement by The Military Coalition (TMC)
    Mr. Chairman and distinguished members of the subcommittee. On 
behalf of The Military Coalition (TMC), a consortium of nationally 
prominent uniformed services and veterans' organizations, we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
testimony provides the collective views of the following military and 
veterans' organizations, which represent approximately 5.5 million 
current and former members of the seven uniformed services, plus their 
families and survivors.

          Air Force Association
          Air Force Sergeants Association
          Air Force Women Officers Associated
          American Logistics Association
          AMVETS (American Veterans)
          Army Aviation Association of America
          Association of Military Surgeons of the United States
          Association of the United States Army
          Association of the United States Navy/Naval Reserve 
        Association
          Chief Warrant Officer and Warrant Officer Association, U.S. 
        Coast Guard
          Commissioned Officers Association of the U.S. Public Health 
        Service, Inc.
          Enlisted Association of the National Guard of the United 
        States
          Fleet Reserve Association
          Gold Star Wives of America, Inc.
          Iraq and Afghanistan Veterans of America
          Jewish War Veterans of the United States of America
          Marine Corps League
          Marine Corps Reserve Association
          Military Chaplains Association of the United States of 
        America
          Military Officers Association of America
          Military Order of the Purple Heart
          National Association for Uniformed Services
          National Military Family Association
          National Order of Battlefield Commissions
          Naval Enlisted Reserve Association
          Noncommissioned Officers Association
          Reserve Enlisted Association
          Reserve Officers Association \1\
---------------------------------------------------------------------------
    \1\ The Reserve Officers Association supports the nonhealth care 
portion of the testimony.
---------------------------------------------------------------------------
          Society of Medical Consultants to the Armed Forces
          The Retired Enlisted Association
          United States Army Warrant Officers Association
          United States Coast Guard Chief Petty Officers Association
          Veterans of Foreign Wars of the United States

    The Military Coalition, Inc., does not receive any grants or 
contracts from the Federal Government.
                           executive summary
Wounded Warrior Care
    DOD-VA Seamless Transition Oversight--It is of overriding 
importance to establish a permanent Joint Seamless Transition Office, 
responsible for managing, implementing, monitoring, and reporting to 
senior DOD, VA and congressional leaders on all aspects of the seamless 
transition process including, but not limited to:

        <bullet> Joint, single separation physical for Active, Guard, 
        and Reserve Forces;
        <bullet> Consistent DOD/VA disability evaluation system;
        <bullet> Bi-directional electronic medical and personnel 
        records data transfer;
        <bullet> Medical centers of excellence and operations/research 
        projects; and
        <bullet> Coordination of care, treatment, and information, 
        including DOD-VA Federal/recovery coordinator clinical and non-
        clinical services and case management programs

    Disability Evaluation System (DES)

        <bullet> Bar ``pre-existing condition'' determinations for any 
        member who has been deployed to a combat zone;
        <bullet> Retain the 30-percent disability threshold for award 
        of disability retired pay and lifetime family TRICARE coverage
        <bullet> Ensure that any adjustment to the disability 
        retirement system does not result in a member receiving less 
        disability retired pay than he or she would receive under the 
        current system; and
        <bullet> Ensure that members electing accelerated disability 
        retirement/separation are fully counseled on all possible 
        negative changes in compensation, health care and other 
        benefits, and give consideration to allowing a limited time to 
        reverse a regrettable decision.

    Continuity of Health Care Coverage

        <bullet> Authorize all medically retired members with a severe 
        service-caused disability to retain active-duty-level TRICARE 
        eligibility for themselves and their eligible family members 
        for at least 3 years to protect against ``falling through the 
        cracks'' of unforeseen coverage changes upon conversion to 
        retired/veteran status;
        <bullet> Establish common DOD and VA protocols for diagnosis, 
        treatment, and rehabilitation for TBI conditions;
        <bullet> Either exempt severely wounded, ill, or injured 
        members who must be medically retired from paying Medicare Part 
        B premiums until age 65 or authorize a special DOD allowance to 
        reimburse them for the cost of such premiums; and
        <bullet> Waive DOD preauthorization/referral requirements for 
        Active Duty/Guard/Reserve members referred to VA polytrauma 
        facilities for care.

    Psychological Health and Traumatic Brain Injury (TBI)--TMC 
recommends:

        <bullet> Priority efforts to deliver information on-line and by 
        other means to servicemembers and family members concerning 
        availability of providers, confidential options for counseling, 
        and virtual counseling/advice;
        <bullet> Special outreach efforts to provide such services and 
        resources, including through VA facilities, to Guard and 
        Reserve members and families who don't live near military 
        facilities;
        <bullet> Priority efforts to educate private sector providers 
        on the unique needs of military and veteran patients and family 
        members, and deliver needed information to them online, 
        including contact points for discussion/consultation with 
        military/VA providers;
        <bullet> Consistent implementation of pre- and post-deployment 
        screenings, particularly for Guard and Reserve members who may 
        be leaving active duty;
        <bullet> Increased research on the impact of combat stress and 
        TBI on family members, particularly children;
        <bullet> Increasing destigmatization efforts, with emphasis at 
        unit levels to actively encourage affected servicemembers, 
        veterans, and family members to seek help, and thus increase 
        effectiveness and military readiness;
        <bullet> Increasing availability and outreach on substance 
        abuse counseling options;
        <bullet> Pursuing aggressive medication reconciliation and 
        management programs to protect against inadvertent 
        overmedication and adverse reactions;
        <bullet> Requiring TBI and psychological health assessments for 
        members who have been deployed to a combat zone as part of any 
        disciplinary process prior to a decision concerning non-medical 
        separation; and
        <bullet> Developing a partnership between DOD, VA, and other 
        governmental and nongovernmental agencies and civilian health 
        care systems to improve access to treatment for PTSD, TBI, 
        depression and other combat-related stress conditions for 
        servicemembers and their families.

    Caregiver and Family Support Services for Active, Guard, and 
Reserve

        <bullet> Authorize compensation, training and certification, 
        and respite care for family members required to serve as full-
        time caregivers, whether the member is in active duty or 
        retired status;
        <bullet> Authorize health care coverage for full-time 
        caregivers and their families; and
        <bullet> Extend on-base housing eligibility for up to 1 year to 
        medically retired, severely injured servicemembers, and their 
        families.
Active Forces
    End Strength

        <bullet> Sustain planned Army and Marine Corps end strength 
        growth as a top priority;
        <bullet> Resist budget-driven (rather than requirements-driven) 
        manpower reductions for the Air Force and Navy and Guard/
        Reserve components; and
        <bullet> Seek a 2010 defense budget of at least 5 percent of 
        Gross Domestic Product.

    Military Pay Comparability--Sustain military raises of at least .5 
percent above the Employment Cost Index (ECI) until the current 2.9 
percent shortfall is eliminated.
    Military vs. Civilian Total Compensation Comparisons--Reject 
proposals to ``civilianize'' military comparisons that, by their 
nature, cannot similarly calculate the dramatic differentials in 
military vs. civilian working conditions.
    REDUX and the 15-Year Career Status Bonus--The Coalition believes 
the REDUX/Career Bonus authority should be repealed. For the shorter 
term, recognizing the significant budget hurdles to that objective, the 
coalition urges the subcommittee to require the Services to exert more 
effort to educate members on size of the future retired pay loss 
incurred in choosing that option.
    Family Readiness and Support--

        <bullet> Accelerate increases in availability of child care to 
        meet Active and Reserve component requirements;
        <bullet> Direct DOD to report on the extent of reallocation of 
        approved funding for support programs and the attendant impact 
        on military families; and
        <bullet> Continue pressing the Defense Department to implement 
        flexible spending accounts to enable active duty and Selected 
        Reserve families to pay out-of-pocket dependent care and health 
        care expenses with pre-tax dollars.
        <bullet> Correct the new paternity leave authority to cover all 
        seven ``uniformed services''

    Access to Quality Housing--Continue efforts to extend the single-
family detached house standard to members in grade E-8 and subsequently 
to grade E-7 and below over several years as resources allow.
    Post-September 11 GI Bill--Support a technical correction to ensure 
uniform applicability to all seven uniformed services.
    Permanent Change of Station (PCS) Allowances--Continue efforts to 
upgrade permanent change-of-station allowances to better reflect 
expenses imposed on servicemembers, with priority on shipping a second 
vehicle on overseas accompanied assignments and authorizing at least 
some reimbursement for house-hunting trip expenses.
    Morale, Welfare, and Recreation Programs--

        <bullet> Oppose any initiative to withhold or reduce MWR 
        appropriated support for Category A and B programs or reduce 
        the exchange dividend derived; and
        <bullet> Ensure needed access to exchange, commissary, family 
        support, and other quality of life programs at gaining and 
        losing installations involved in BRAC/rebasing.
National Guard & Reserve Forces
    Retirement Age Credit--

        <bullet> For the near term, the coalition places particular 
        priority on authorizing early retirement credit for all 
        qualifying post-September 11 active duty service performed by 
        Guard/Reserve servicemembers and eliminating the fiscal-year-
        specific accumulator that bars equal credit for members 
        deploying for equal periods during different months of the 
        year;
        <bullet> Ultimately, there should be a reduced age entitlement 
        for retired pay and health coverage for all Reserve component 
        members--that is, an age/service formula or outright 
        eligibility at age 55; and
        <bullet> Repeal the annual cap of 130 days of inactive duty 
        training points that may be credited towards a Reserve 
        retirement.

    Seamless Transition for Activated Guard and Reserve and Their 
Families--

        <bullet> Fully fund and field ``yellow ribbon reintegration'' 
        programs by modeling best practices
        <bullet> Implement GAO recommendations (GAO Rpt. 08-901) for 
        the Benefits Delivery at Discharge (BDD) program
    Guard/Reserve GI Bill--
        <bullet> Restore basic Reserve MGIB benefits for initially 
        joining the Selected Reserve to the historic benchmark of 47-50 
        percent of active duty benefits;
        <bullet> Integrate Reserve and active duty MGIB laws in Title 
        38 to ensure proportionality is maintained in any future 
        benefit changes; and
        <bullet> Providing full academic protection, including 
        guaranteed enrollment, for mobilized Guard and Reserve 
        students.

    Special and Incentive Pays--Ensure equitable treatment of Guard and 
Reserve vs. active duty members for the full range of special and 
incentive pays.
Retiree Issues
    Concurrent Receipt--The Coalition's continuing goal is to eliminate 
the deduction of VA disability compensation from earned military 
retired pay for all disabled retirees. In pursuit of that goal, the 
Coalition's immediate priorities include:

        <bullet> Correcting the statutory Combat-Related Special 
        Compensation (CRSC) formula to ensure the intended compensation 
        is delivered; and
        <bullet> Expanding current authority for Concurrent Retired 
        Disability Pay to members forced into medical retirement before 
        attaining 20 years of service.

    Proposed Military Retirement Changes--Reject retirement plan 
changes such as those proposed by the 10th Quadrennial Review of 
Military Compensation that would ``civilianize'' the military system 
without adequate consideration of the extraordinary demands and 
sacrifices inherent in a military vs. a civilian career.
    Disability Severance Pay--Amend the eligibility rules to include 
all combat- or operations-related injuries, using same definition as 
CRSC. For the longer term, the Coalition believes the offset should be 
ended for all members separated for service-caused disabilities.
Survivor Issues
    SBP-DIC Offset--Repeal the SBP-DIC offset and:

        <bullet> Authorize payment of SBP annuities for disabled 
        survivors into a Special Needs Trust;
        <bullet> Allow SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death;
        <bullet> Reinstate SBP for survivors who previously transferred 
        payments to their children at such time as the children attain 
        majority, or upon termination of a second or subsequent 
        marriage.

    Final Retired Paycheck--Authorize survivors of retired members to 
retain the final month's retired pay for the month in which the retiree 
dies.
Health Care Issues
    Full Funding for the Defense Health Program--Ensure full funding 
for Defense Health Program needs.
    Protecting Beneficiaries Against Cost-Shifting--Require DOD to 
pursue greater efforts to improve TRICARE and find more effective and 
appropriate ways to make TRICARE more cost-efficient without seeking to 
``tax'' beneficiaries and make unrealistic budget assumptions.
    TMC Healthcare Cost Principles--The Coalition most strongly 
recommends Representative Chet Edwards' and Representative Walter 
Jones' H.R. 816 as a model to establish statutory findings, a sense of 
Congress on the purpose and principles of military health care 
benefits, and guidelines on the benefit levels earned by a career of 
uniformed service.

        <bullet> Active duty members and families should be charged no 
        fees except retail pharmacy co-payments, except to the extent 
        they make the choice to participate in TRICARE Standard or use 
        out-of-network providers under TRICARE Prime.
        <bullet> The TRICARE Standard inpatient copay should not be 
        increased further for the foreseeable future. At $535 per day, 
        it already far exceeds inpatient copays for virtually any 
        private sector health plan.
        <bullet> There should be no enrollment fee for TRICARE Standard 
        or TRICARE For Life (TFL), since neither offers assured access 
        to TRICARE-participating providers. An enrollment fee implies 
        enrollees will receive additional services, as Prime enrollees 
        are guaranteed access to participating providers in return for 
        their fee. Congress already has required TFL beneficiaries to 
        pay substantial Medicare Part B fees to gain TFL coverage.
        <bullet> There should be one TRICARE fee schedule for all 
        retired beneficiaries, just as all legislators, Defense leaders 
        and other Federal civilian grades have the same health fee 
        schedule. The current TRICARE schedule is significantly lower 
        than the lowest tier recommended by the Defense Department, 
        recognizing that all retired servicemembers paid large upfront 
        premiums for their coverage through decades of arduous service 
        and sacrifice.

    TRICARE Prime--Require a DOD report, including reports from managed 
care support contractors, on actions being taken to improve Prime 
patient satisfaction, provide appointments within Prime access 
standards, reduce delays in obtaining pre-authorizations and referrals, 
and provide quality information to assist beneficiaries in making 
informed decisions.
    TRICARE Standard Enrollment--Oppose establishment of any TRICARE 
Standard enrollment system; to the extent enrollment may be required, 
any beneficiary filing a claim should be enrolled automatically, 
without denying the claim. No enrollment fee should be charged for 
TRICARE Standard until and unless the program offers guaranteed access 
to a participating provider.
    TRICARE Standard Provider Participation Adequacy--Continue 
monitoring DOD and GAO reporting on provider participation to ensure 
proper follow-on action.
    Administrative Deterrents to Provider Participation--Continue 
efforts to reduce administrative impediments that deter health care 
providers from accepting TRICARE patients.
    TRICARE Reimbursement Rates--To the extent the Medicare rate freeze 
continues, encourage DOD to use rate adjustment authority as needed to 
sustain provider acceptance. Require a Comptroller General report on 
the relative propensity of physicians to participate in Medicare vs. 
TRICARE.
    Active Duty Dependent Dental Plan--Increase the DOD subsidy for the 
active Duty Dependent Dental Plan to 72 percent and increase the cap on 
orthodontia payments to $2,000.
    TRICARE Dependent Dental Coverage for Surviving Children--Authorize 
children of members who die on active duty to retain coverage under the 
Active Duty Dependent Dental Plan until they reach 21 or 23 if enrolled 
in college.
    TRICARE Reserve Select (TRS) Access--Require a DOD report on 
options to assure TRS enrollees' access to TRICARE-participating 
providers.
    TRS Alternative Option--Authorize an option to have DOD subsidize 
premiums for continuation of a member's civilian family health 
insurance during activation periods.
    Reserve Separatee TRS/CHCBP Coverage--Authorize 1 year of post-
Transitional Assistance Management Program (TAMP) TRS coverage for 
every 90 days deployed for returning IRR or involuntary separatees from 
the Selected Reserve. Authorize Continued Health Care Benefits Program 
(CHCBP) coverage for voluntarily separating reservists subject to TRS 
disenrollment.
    Gray Area Reserve Coverage--Authorize an additional premium-based 
TRS option for Guard/Reserve members to avoid losing health coverage 
upon entering ``gray area.''
    Guard/Reserve Dental Coverage--Provide coverage for reservists once 
an alert order is issued and for 180 days post-mobilization (during 
TAMP), unless dental readiness is restored to T-2 condition before 
demobilization.
    Guard/Reserve Mental Health--Guard and Reserve members and their 
families should have equal access to evidence-based treatment for post 
traumatic stress disorder (PTSD), traumatic brain injury (TBI), 
depression, and other combat-related stress conditions. Post-deployment 
health examinations should be offered at the member's home station.
    Guard/Reserve Health Information--Improve electronic capture of 
non-military health information in the servicemember's medical record.
    TRICARE For Life--Oppose any TFL enrollment fee and seek equal 
coverage of TFL beneficiaries under TRICARE and Medicare preventive 
care initiatives.
    Restoration of Survivor Coverage--Restore TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
    BRAC and Rebasing--Require an annual DOD report on the adequacy of 
health resources, services, quality and access to care for 
beneficiaries affected by BRAC/rebasing.
                                overview
    Mr. Chairman, The Military Coalition extends our thanks to you and 
the entire subcommittee for your steadfast support of our active duty, 
Guard, Reserve, retired members, and veterans of the uniformed services 
and their families and survivors.
    Over the past 2 years, the subcommittee provided major increases in 
military end strength for the Army and Marine Corps; improved pay 
raises; precedent-setting advancements in survivor benefits and 
disabled retiree programs; significant improvements in wounded warrior 
benefits, care, and treatment; and upgrades to Guard/Reserve health 
care. The subcommittee also worked hard to resist initiatives that 
would have imposed disproportional increases in TRICARE fees. Your 
efforts made a huge, positive difference in the lives of the entire 
uniformed services community--Active, Guard, and Reserve personnel, 
veterans, retirees, survivors, and families.
    Despite these many advancements, the Services continue to report 
that they are wearing out both equipment and personnel. As our men and 
women in uniform prosecute wars on two fronts, the Coalition believes 
it is critical that the Nation continue to support military people 
programs with the appropriate resources.
    The Army attempted last fall to ease the strain of operations tempo 
by reducing deployment time from 15 to 12 months, yet prolonged, 
repeated separations and the attendant stress on our troops and their 
families continue to put longer-term readiness at risk.
    Men and women in uniform are still answering the call--but only at 
the cost of ever-greater sacrifices. They, with the support of their 
families, continue to endure the mounting stresses brought about by 
repeated deployments, ever-increasing workloads, and the strain of 
knowing (as documented by Rand Corp.'s study) that with each successive 
deployment, the likelihood increases that they won't return home as the 
same person.
    We have been encouraged that the Nation seems to recognize that the 
only way to ease these burdens is through significant increases to end 
strength that will allow more dwell time between deployments in today's 
high-threat environment that will continue for the foreseeable future.
    The Coalition hopes that, in these times of growing political and 
economic pressures, Congress won't lose sight of that fundamental 
priority, or be persuaded to make a false choice between end strength 
increases and weapons needs, when both are vital to the Nation's 
strength.
    In this testimony, The Coalition offers its collective 
recommendations on what needs to be done to address important 
personnel-related issues in order to sustain long-term personnel 
readiness.
Wounded Warrior Care
    In 2007, The Washington Post reported deplorable conditions and 
poor oversight at Walter Reed Medical Center for wounded servicemembers 
transitioning from in-patient to out-patient status.
    Congress, DOD, and VA acted quickly to improve wounded care based 
on the findings and recommendations of several commissions and task 
forces. Some of the recommendations were addressed in the National 
Defense Authorization Acts (NDAAs) for Fiscal Years 2008 and 2009, but 
these were just initial steps, and much more remains to be done if we 
are to do the right thing by those who have suffered physical and 
psychological harm in the Nation's defense.
    TMC offers recommendations in five major areas of concern: DOD-VA 
seamless transition oversight; the disability evaluation system; 
continuity of health care coverage; mental health/traumatic brain 
injury (TBI) needs; and support services for families and caregivers.
    DOD-VA Seamless Transition Oversight--The Coalition believes 
strongly that seamless transition goals will never be realized without 
the vigilant oversight of a permanent, jointly-staffed DOD-VA oversight 
agency. Part-time oversight by joint committees that meet periodically 
have never been and never will be adequate to meet that need.
    Success will require aggressive personal involvement and 
accountability from the most senior leaders of both Departments. But 
nothing can replace the leadership accountability of a single-mission, 
joint office in which representatives of the two agencies are assigned 
full-time responsibility, authority, and resources to provide 
meaningful oversight, with regular reporting responsibilities to the 
Secretary of Defense, the Secretary of Veterans Affairs and the 
Committees on Armed Services and Veterans Affairs.
    We note, for example, a January 2009 GAO report which found that 
DOD and VA lack results-oriented performance goals and measures for 
establishing a joint electronic health record, and that they have not 
fully executed the statutorily required Joint Interagency Office, which 
at that time of GAO's evaluation had no director, deputy, or staff.
    We're grateful that Congress extended the statutory authority for 
the DOD-VA Senior Oversight Committee through the end of 2009 rather 
than allowing it to expire, but the very transience of this authority 
significantly undermines the Committee's effectiveness. SOC incumbents 
are understandably distracted by the uncertainty of their own futures 
and dealing with other governmental priorities, and program 
administrators being overseen are more than aware that their overseers 
may not be around very long.
    The Coalition believes it is of overriding importance to establish 
a permanent Joint Seamless Transition Office, responsible for managing, 
implementing, monitoring and reporting to senior DOD, VA and 
congressional leaders on all aspects of the seamless transition process 
including, but not limited to:

        <bullet> Joint, single separation physical;
        <bullet> Consistent DOD/VA disability evaluation system;
        <bullet> Bidirectional electronic medical and personnel records 
        data transfer;
        <bullet> Medical centers of excellence and operations/research 
        projects; and
        <bullet> Coordination of care, treatment, and information, 
        including DOD-VA Federal/recovery coordinator clinical and non-
        clinical services and case management programs.

    Disability Evaluation System (DES)--The DES pilot has shown that 
DOD and VA have the capability to standardize, rationalize, and 
streamline the complex disability rating process as a servicemember 
transitions from active duty into the VA system. But several challenges 
remain.
    Pre-existing conditions. We fully agree with the subcommittee's 
efforts to limit past practices under which some services have 
characterized returning warriors' disabilities as existing prior to 
service entry. The Coalition believes strongly that such 
characterization should not be an option if a member has been deployed 
to a combat zone, regardless of his/her length of service.
    Disability retirement threshold. The Coalition believes strongly 
that members determined by the parent service to be 30 percent or more 
disabled should continue to be eligible for a military disability 
retirement with all attendant benefits, including lifetime TRICARE 
eligibility for the member and his/her family. We do not support 
efforts to disconnect health care eligibility from disability retired 
pay eligibility. The Coalition also agrees with the opinion expressed 
by Secretary Gates that a member forced from service for wartime 
injuries should not be separated, but awarded a high enough rating to 
be retired for disability.
    Disability retired pay calculation. We also do not support simply 
turning all responsibility for disability payments to the VA, as some 
have proposed, with DOD only responsible for ``vesting'' service-based 
retired pay at 2.5 percent of pay times years of service. This would 
significantly disadvantage many severely wounded, ill or injured 
members from a compensation standpoint. The Coalition does not believe 
that reforms intended to help wounded warriors should cause them to 
receive less compensation than is provided by the current system. Under 
any reform methodology, the member should receive the higher of the two 
compensation amounts, just as disability retirees with more than 20 
years of service currently are awarded the higher amount of either 2.5 
percent of pay times years of service or their disability percentage 
times their pay.
    Accelerated disability-retirement determinations. The Coalition 
does not object to current efforts to allow disabled members to accept 
accelerated processing of their disability retirements. However, we are 
concerned whether members facing such decisions are receiving complete 
counseling on the potential impacts of their decision on their 
compensation, rehabilitation program availability, health coverage and 
other benefits. All of these things can change dramatically once a 
person leaves active duty--and in most cases not for the better. For 
example, per diem for family member caregivers will terminate and 
members with TBI can lose eligibility for cognitive therapy. The 
Coalition believes the government has an obligation to ensure that 
members making such decisions are fully aware of all implications that 
could affect them, and that consideration should be given to allowing 
them at least some period of time in which they are able to reverse a 
decision that proves to have unexpected adverse consequences.
    The Coalition recommends:

        <bullet> Barring ``pre-existing condition'' determinations for 
        any member who has been deployed to a combat zone;
        <bullet> Retaining the 30 percent disability threshold for 
        award of disability retired pay and lifetime family TRICARE 
        coverage;
        <bullet> Ensuring that any adjustment to the disability 
        retirement system does not result in a member receiving less 
        disability retired pay than he or she would receive under the 
        current system; and
        <bullet> Ensuring that members electing accelerated disability 
        retirement/separation are fully counseled on all possible 
        negative changes in compensation, health care and other 
        benefits, with consideration to allowing a limited time to 
        reverse a regrettable decision.

    Continuity of Health Care Coverage--Transitioning out of the 
military is always a difficult time for servicemembers and their 
families, and it can even be more frightening and uncertain for those 
who are disabled because of their service.
    A major consideration is that there are significant differences 
between active-duty and retired military health care coverage, and even 
greater differences between active duty TRICARE and VA health coverage.
    When a member is killed in the line of duty, the member's spouse is 
authorized 3 years of continued active-duty-level coverage, and the 
children are authorized continued active-duty-level coverage until they 
attain majority.
    The Coalition believes that, when a member suffers injuries or 
illness on active duty, especially in combat, that are severe enough to 
force him or her into disability retirement, the member and the family 
deserve similar treatment. Three years of continued active-duty-level 
coverage would provide the necessary transitional protection to ensure 
they are not faced with abrupt and unforeseen changes in their 
eligibility or expense for any type of care solely because of the 
service-caused injury.
    Cognitive therapy. This poses potentially serious implications for 
members who may need years of continuing rehabilitation/therapy after 
leaving active duty.
    A particularly important example concerns cognitive rehabilitation 
therapy for members with TBI. Active duty members must be approved 
under a special TRICARE Supplemental Health Care Program for cognitive 
rehabilitation therapy. Since the therapy is not a covered benefit 
under TRICARE, members may not automatically receive the treatment and 
services, and eligibility for the Supplemental Health Care Program 
terminates once the member is retired. While DOD does provide some 
rehabilitation services accepted and covered under TRICARE for TBI, 
cognitive rehabilitation therapy is not covered as a distinct and 
separate service because DOD believes there is no evidence on the 
efficacy of cognitive rehabilitation as a therapy. The VA, on the other 
hand, offers cognitive therapy coverage, but like TRICARE, treatment 
and services are limited to specific locations where capacity and 
demand exist.
    Congress made some effort to mitigate such potential transition 
problems with a provision in the National Defense Authorization Act for 
Fiscal Year 2008 that authorized continuity of active duty-level 
TRICARE benefits for a disabled retiree to the extent that VA care is 
not available.
    But this is of limited value when the services and VA each think 
the other should be making the availability determination, when the 
availability of VA care is in the eye of the beholder, and when that 
care is substantively different than the therapy the member was 
receiving while on active duty. Even this modest protection only 
applies to the member, not to family members.
    Medicare Part B requirement. A major issue faced by many members 
forced from active duty by severe service-caused disabilities is that 
the severity of their disability qualifies them for Medicare. In such 
cases, TRICARE is second-payer to Medicare.
    But under laws that were designed for elderly retirees but apply 
equally to all Medicare-eligible military beneficiaries, these younger 
disabled warriors must pay Medicare Part B premiums ($96.40 per month 
in 2009) to retain any coverage under TRICARE. Unfortunately, many 
weren't well-informed on the requirement to enroll in Medicare and 
subsequently were denied TRICARE eligibility.
    The Coalition believes it's wrong that members whose service caused 
them to become severely wounded, ill or injured should have to pay 
extra for their care, and believes they should either be exempt from 
paying the Part B premium until age 65 or DOD should reimburse them for 
such payments.
    DOD-VA Waiver of Pre-authorizations/Referrals. Doctors at VA 
polytrauma centers indicate that one of their biggest problems is the 
requirement to get multiple authorizations from DOD to provide a 
variety of specialty care for active duty members with multiple medical 
problems.
    It is grossly inappropriate that bureaucratic requirements are 
impeding the delivery of urgent and essential care for members who have 
suffered most severely for their country.
    When an active duty member is referred to VA facility for care, DOD 
should grant an automatic waiver of preauthorization/referral 
requirements to allow the VA providers to deliver needed care without 
bureaucratic delays.
    The Coalition strongly recommends:

        <bullet> Authorizing medically retired members with a severe 
        service-caused disability to retain active-duty-level TRICARE 
        eligibility for themselves and their eligible family members 
        for at least 3 years to protect against ``falling through the 
        cracks'' of unforeseen coverage changes upon conversion to 
        retired/veteran status;
        <bullet> Establishing common DOD and VA protocols for 
        diagnosis, treatment, and rehabilitation for TBI conditions;
        <bullet> Either exempting severely disabled military retirees 
        from paying Medicare Part B premiums until age 65 or 
        authorizing a special DOD allowance to reimburse them for the 
        cost of such premiums; and
        <bullet> Waiving TRICARE Prime preauthorization/referral 
        requirements for Active Duty/Guard/Reserve members referred to 
        VA polytrauma facilities for care.

    Psychological Health and Traumatic Brain Injury (TBI)--Last year's 
RAND study documented that about one in five OEF/OIF veterans suffer 
from Posttraumatic Stress Disorder (PTSD) or major depression and 
another 10 percent experience some level of TBI.
    The report stressed that if the government fails to invest in 
needed immediate treatment, it will face very large alternative costs 
in the years ahead as a result of homelessness, unemployment/
underemployment and lost tax revenue.
    Congress has done the right thing by establishing the Center of 
Excellence for Psychological Health and Traumatic Brain Injury, and the 
Coalition is encouraged by service leaders' cooperation in working with 
the Center. Further, DOD and the VA are pursuing serious efforts to add 
qualified mental health providers to meet the explosive growth in 
requirements.
    But the Coalition is concerned that it will take years to change 
thinking, add resources, and implement processes necessary to achieve 
the kind of results that all interested parties hope for.
    In the meantime, thousands of affected members and their family 
members have gone unidentified, continue to feel deterred from seeking 
needed care, or are having difficulty accessing needed care.
    In many cases, they may be resistant to acknowledging their 
condition because of fear for the possible impact on their careers or 
the perceptions of their leaders and peers (in many cases, with good 
cause), or may seek independent counseling/care from outside providers 
in efforts to protect their anonymity.
    TMC recommends:

        <bullet> Priority efforts to deliver information on-line and by 
        other means to servicemembers and family members concerning 
        availability of providers, confidential options for counseling, 
        and virtual counseling/advice;
        <bullet> Special outreach efforts to provide such services and 
        resources to Guard and Reserve members and families who don't 
        live near military facilities;
        <bullet> Priority efforts to educate private sector providers 
        on the unique needs of military and veteran patients and family 
        members, and deliver needed information to them on-line, 
        including contact points for discussion/consultation with 
        military/VA providers;
        <bullet> Consistent implementation of pre- and post-deployment 
        evaluations, particularly for Guard and Reserve members who may 
        be leaving active duty;
        <bullet> Increased research on the impact of combat stress and 
        TBI on family members, particularly children;
        <bullet> Continuing destigmatization efforts with emphasis at 
        unit levels to actively encourage affected servicemembers, 
        veterans, and family members to seek help, and thus increase 
        effectiveness and military readiness;
        <bullet> Increasing availability and outreach on substance 
        abuse counseling options;
        <bullet> Pursuing aggressive medication reconciliation and 
        management programs to protect against inadvertent 
        overmedication and adverse reactions;
        <bullet> Requiring TBI and psychological health assessments for 
        members who have been deployed to a combat zone as part of any 
        disciplinary process prior to a decision concerning nonmedical 
        separation; and
        <bullet> Developing a partnership between DOD, VA, and other 
        governmental and nongovernmental agencies and civilian health 
        care systems to improve access to treatment for PTSD, TBI, 
        depression and other combat-related stress conditions for 
        servicemembers and their families.

    Caregiver and Family Support Services--Recent statutory changes 
authorized a number of support services, but more needs to be done to 
assist full-time caregivers and family members who also have 
significant additional needs.
    The sad reality is that, for the most severely injured 
servicemembers, family members or other loved ones are often required 
to become full-time caregivers. Many have lost their jobs, homes, and 
savings.
    Under current law, TSGLI can provide some offset for immediate 
expenses for some wounded warriors with qualifying TSGLI wounds/
injuries, and authorized caregivers are provided per diem payments 
while the member remains on active duty. But those payments stop when 
the member leaves active duty status. While the VA provides severely 
disabled veterans a modest allowance for aid and attendance, it is 
payable to the veteran, not to the caregiver. Further, it is authorized 
only for spouses, but caregivers are often parents, siblings or other 
loved ones.
    The Coalition believes the government has an obligation to provide 
reasonable compensation and training for such caregivers, who never 
dreamed that their own well-being, careers, and futures would be 
devastated by military-caused injuries to their servicemembers.
    In addition, Congress should authorize health coverage and 
reasonable respite care for full-time caregivers and their family 
members, recognizing that they often have no other options for care and 
need periodic relief from their arduous and stressful duties.
    In the same vein as the continuity of health care addressed above, 
many members have difficulty transitioning to medical retirement 
status. To assist in this process, consideration should be given to 
authorizing medically retired members and their families to remain in 
on-base housing for up to 1 year after retirement, in the same way that 
families are allowed to do so when a member dies on active duty.
    The Coalition recommends:

        <bullet> Authorizing compensation, training and certification, 
        and respite care for family members required to serve as full-
        time caregivers, whether the member is in active duty or 
        retired status;
        <bullet> Authorizing health care eligibility for full-time 
        caregivers and their families; and
        <bullet> Extending on-base housing eligibility for up to 1 year 
        to medically retired, severely injured servicemembers and their 
        families.
Active Forces and Their Families
    The Coalition is concerned over the rhetoric that military 
personnel costs are skyrocketing and hopes the subcommittee will be 
able to fend off those who wish to reduce costs by cutting back on 
needed personnel growth and quality of life programs.
    Backtracking on planned--and badly needed--end strength increases 
will only aggravate the unfair abuses already imposed on military 
people and families with the imposition of repeated, long-term 
deployments on a too-small force.
    BRAC actions pose an additional concern, as DOD is struggling to 
meet the 2011 deadline at many BRAC locations. The Coalition is very 
concerned whether needed infrastructure and support programs will be in 
place in time to meet families' needs.
    Military End Strength--Inadequate end strengths and greater-than-
anticipated requirements and resources to support the war effort and 
other operational requirements have taken a terrible toll on the 
quality of life of military families. This has been reflected in 
recruiting in recent years and poses a serious and too-often 
underestimated threat to retention and readiness.
    While the subcommittee succeeded in increasing Army and Marine 
Corps end strengths last year, those must continue to have any 
significant prospect of easing rotation burdens.
    The Coalition appreciates the Armed Services Committee leadership's 
support for additional end strength as outlined in their budget 
resolution recommendation letter; however, we remain greatly disturbed 
at calls by some influential legislators to reduce planned force growth 
as a means of funding weapons requirements. In some cases, this is 
justified by rhetoric about leveraging technology to replace people. 
The past 7 years of war have shown that there is no substitute for 
boots on the ground in the current conflict. It has been widely 
acknowledged that any drawdown in Iraq will be offset by increased 
deployments to Afghanistan.
    The Coalition is very concerned that some national leaders seem to 
have become desensitized to the truly terrible sacrifices that the 
current mismatch between missions and force levels has already imposed 
on those in uniform.
    If force planners had been told before September 11 that our Armed 
Forces would face the deployment tempo that they have over the past 8 
years, every one of them would have predicted that the services would 
be in a state of retention disaster by now.
    We all stand in awe of the level of sacrifice our troops and 
families have already borne on the Nation's behalf.
    But we fear that some seem to have gotten the impression that, 
because they have endured far more than the Nation has had any right to 
expect, that we can continue demanding--or increasing--that level of 
sacrifice. Let us not delude ourselves into thinking such a thing.
    There are thousands among this new ``Greatest Generation'' who are 
saying ``enough is enough'' and questioning their families can afford 
to continue accepting such disproportional burdens with little prospect 
of real relief in sight.
    There is no avoiding the reality that years of war have worn out 
weapons and equipment that must now be replaced and modernized. These 
and other military requirements will take a great deal of money.
    But pretending that the Nation can cut one essential readiness 
component (personnel) to fund another--especially in wartime--would 
entail a conscious decision to increase the already intolerable burdens 
imposed on military families. Such gross insensitivity to their 
sacrifices can only undermine retention and readiness, when they 
already are at such grave risk.
    The Coalition urges the subcommittee to:

        <bullet> Sustain planned Army and Marine Corps end strength 
        growth as a top priority;
        <bullet> Resist budget-driven (rather than requirements-driven) 
        manpower reductions for the Air Force and Navy; and
        <bullet> Seek a 2010 defense budget of at least 5 percent of 
        Gross Domestic Product.

    Military Pay Raise Comparability--The Coalition thanks the 
subcommittee for its sustained commitment to restoring full military 
pay comparability--a fundamental underpinning of the All-Volunteer 
Force--and we are grateful for the committee's support for an 
additional .5 percent pay raise above the administration's 2.9 percent 
military pay raise as outlined in the budget resolution 
recommendations.
    Throughout the 1980s and 1990s, our Nation didn't adhere to that 
principle, regularly capping military pay raises below the average 
American's to the extent that the ``pay comparability gap'' reached 
13.5 percent in 1998-1999, and contributed significantly to serious 
retention problems.
    Since then, the subcommittee has acted to pare the gap by approving 
military raises that have been at least .5 percent above private sector 
pay growth each year (as measured by the Bureau of Labor Statistics' 
Employment Cost Index (ECI).
    Now that significant progress has been made and the ``erosion of 
pay and benefits'' retention-related problems have abated, some have 
renewed the call to cut back on military raises, create a new 
comparability standard, or substitute more bonuses for pay raises in 
the interests of ``efficiency''.
    The Defense Department, for example, wishes to establish a new 
comparability standard under which each pay and longevity cell would 
represent the 70th percentile of compensation for similarly-educated 
civilians.
    The Coalition believes that methodology is appropriate to establish 
a floor to ensure the pay table properly addresses specific changes in 
force composition (e.g., more highly-educated and technologically 
sophisticated NCOs and warrant officers).
    But it is a bad standard for the overall pay raise, precisely 
because it is not transparent to anyone but the Pentagon analyst who 
does the calculation and is highly susceptible to manipulation--as 
various Defense leaders have sought to do in the past.
    The Coalition agrees with the approach the subcommittee has taken--
that the best comparability measure is a comparison of the overall 
military pay raise percentage (proportionally adjusted for any grade/
longevity tweaks such as those undertaken earlier in this decade) with 
the percentage growth in the ECI.
    The ECI is what the government uses for every other measure of 
private pay growth, and it's very transparent to government leaders and 
servicemembers alike.
    As of 2009, the comparability gap stands a 2.9 percent.
    The Coalition urges the subcommittee to continue sustaining 
military raises of at least .5 percent above the ECI until the current 
2.9 percent shortfall is eliminated.
    Military vs. Civilian Total Compensation Comparisons--The 10th 
Quadrennial Review of Military Compensation recommended what several 
studies have recommended in the past--building a ``Military Annual 
Compensation'' measure that includes not only pay and housing/food 
allowances and their associated tax advantages, but also the value of 
military-unique medical and retirement benefits. This would be used to 
compare military vs. civilian ``total compensation''.
    The Coalition believes such methodologies are grossly inappropriate 
for comparison purposes, because they fail utterly to acknowledge the 
unique and arduous conditions of military service that necessitate 
providing military-unique career benefits.
    We acknowledge that it's appropriate to educate servicemembers on 
the value of their total benefit package (which the services already do 
by providing each member an annual statement itemizing the value of 
each military compensation element). But even these often draw negative 
member reactions, such as ``Where does this statement show the negative 
value of having spent 3 of the last 6 years away from my family?''
    In the context of the incalculable differential in working 
conditions and demands and sacrifices expected of the two groups, any 
attempt to monetize the total compensation differential is meaningless.
    The Coalition urges the subcommittee to continue to reject 
proposals to ``civilianize'' military comparisons that, by their 
nature, cannot similarly calculate the dramatic differentials in 
military vs. civilian working conditions.
    REDUX and the 15-Year Career Status Bonus--The Coalition is very 
concerned that the Defense Department and the Services are not doing 
enough to educate military people on protecting their long-term 
financial interests concerning the choice each member faces at the 15-
year point between retaining the regular military retirement system or 
accepting a $30,000 ``career status bonus'' and the far-less-
advantageous REDUX retirement system.
    The Coalition believes that selecting the $30,000 bonus/REDUX is a 
demonstrably bad financial choice for nearly all servicemembers.
    A typical enlisted member who accepts the REDUX ``bonus'' and 
subsequently retires as an E-7 with 20 years of service will have 
forfeited $300,000 of lifetime retired pay (in 2009 dollars) for the 
$30,000 bonus.
    Yet one-quarter to one-half of enlisted members, depending on 
service, opt to take the bonus.
    Thinking about this another way, accepting the REDUX bonus is 
equivalent to taking out a 24 percent APR mortgage on the retired pay 
differential. For an officer, who receives the same $30,000 bonus but 
sacrifices far more retired pay, it's equivalent to a 35 percent APR 
mortgage.
    The Coalition believes strongly, from this context, calling the 
$30,000 a ``bonus'' is false advertising.
    The Coalition believes that the REDUX/Career Status Bonus option 
should be repealed. For the shorter term, recognizing the significant 
budget hurdles to that objective, the Coalition urges the subcommittee 
to require the services to exert more effort to educate members on the 
size of the future retired pay loss incurred in choosing that option.
    Family Readiness and Support--A fully funded, robust family 
readiness program continues to be crucial to overall readiness of our 
military, especially with the demands of frequent and extended 
deployments.
    Resource issues continue to plague basic installation support 
programs. At a time when families are dealing with increased 
deployments, they often are being asked to do without in other 
important areas.
    Availability of child care is a particular problem when so much of 
the force is deployed.
    The Coalition recommends that the subcommittee:

        <bullet> Provide authorization and funding to accelerate 
        increases in availability of child care to meet both Active and 
        Reserve component requirements;
        <bullet> Direct DOD to report on the extent of reallocation of 
        approved funding for support programs and the attendant impact 
        on military families; and
        <bullet> Continue pressing the Defense Department to implement 
        flexible spending accounts to enable active duty and Selected 
        Reserve families to pay out-of-pocket dependent care and health 
        care expenses with pre-tax dollars.

    Access to Quality Housing--Today's housing allowances come much 
closer to meeting military members' and families' housing needs than in 
the past, thanks to the conscientious efforts of the subcommittee in 
recent years.
    But the Coalition believes it's important to understand that some 
fundamental flaws in the standards used to set those allowances remain 
to be corrected, especially for enlisted members.
    The Coalition supports revised housing standards that are more 
realistic and appropriate for each pay grade. For example, only 1.25 
percent of the enlisted force (E-9) is eligible for BAH sufficient to 
pay for a three-bedroom single-family detached house, even though 
thousands of more junior enlisted members do, in fact, reside in 
detached homes.
    We appreciate the subcommittee's effort to extend the single-family 
home standard to E-8s in its markup last year, and regret that this 
measure was not sustained in conference action.
    The Coalition urges the subcommittee to continue its efforts to 
extend the single-family detached house standard to members in grade E-
8 and subsequently to grade E-7 and below over several years as 
resources allow.
    Post-September 11 GI Bill--Congress' action last year in approving 
the post-September 11 GI Bill was a truly historic achievement that 
will provide major long-term benefits for military people and for 
America.
    However, the Coalition is sensitive that, unlike every other GI 
Bill program since World War II, eligibility was restricted to members 
of the ``Armed Forces'' rather than ``uniformed services''. This had 
the very serious effect of excluding eligibility for commissioned 
officers of the U.S. Public Health Service and NOAA Corps.
    The Coalition urges the subcommittee's support for a technical 
correction to the post-September 11 GI Bill statute to ensure uniform 
applicability to all seven uniformed services.
    Paternity Leave--The Coalition is grateful for Congress' action 
last year to provide 10 days of paternity leave to servicemembers who 
have or adopt a child. However, eligibility was restricted to members 
of the ``Armed Forces'' rather than ``uniformed services''. This had 
the effect of excluding eligibility for commissioned officers of the 
U.S. Public Health Service and NOAA Corps.
    The Coalition urges the subcommittee's support for a technical 
correction to the paternity leave statute to ensure uniform 
applicability to all seven uniformed services.
    Permanent Change of Station (PCS) Allowances--The Coalition is 
grateful for the subcommittee's successful initiative last year to 
raise the maximum daily Temporary Lodging Expense (TLE) allowance from 
$180 to $290 and authorize certain increases in PCS weight allowances.
    But it's an unfortunate fact that servicemembers and their families 
are forced to incur other significant out-of-pocket expenses when 
complying with government-directed moves.
    For example, PCS mileage rates still have not been adjusted since 
1985. The current rates range from 15 to 20 cents per mile--an ever-
shrinking fraction of the 48.5 cents per mile authorized for temporary 
duty travel. Also, military members must make any advance house-hunting 
trips at personal expense, without any government reimbursement such as 
Federal civilians receive.
    Additionally, the overwhelming majority of service families consist 
of two working spouses, making two privately-owned vehicles a 
necessity. Yet the military pays for shipment of only one vehicle on 
overseas moves, including moves to Hawaii and Alaska. This forces 
relocating families into large out-of-pocket expenses, either by 
shipping a second vehicle at their own expense or selling one car 
before leaving the States and buying another upon arrival.
    The Coalition urges the subcommittee to continue its efforts to 
upgrade permanent change-of-station allowances to better reflect 
expenses imposed on servicemembers, with priority on shipping a second 
vehicle on overseas accompanied assignments and authorizing at least 
some reimbursement for house-hunting trip expenses.
    Morale, Welfare, and Recreation Programs--The availability of 
appropriated funds to support MWR activities is an area of continuing 
concern.
    Servicemembers and their families are reaching the breaking point 
as a result of extended deployments and the constant changes going on 
in the force. It is unacceptable to have troops and families continue 
to take on more responsibilities and sacrifices and not give them the 
support and resources to do the job and to take care of the needs of 
their families. TMC is particularly concerned that additional 
reductions in funding or support services may occur because of the U.S. 
economic crisis and budget shortfalls across the Defense Department.
    TMC urges the subcommittee to:

        <bullet> Oppose any initiative to withhold or reduce MWR 
        appropriated support for Category A and B programs or reduce 
        the exchange dividend derived; and
        <bullet> Ensure needed access to exchange, commissary and 
        TRICARE programs at gaining and losing installations involved 
        in BRAC/rebasing.
Guard and Reserve Forces and Their Families
    Since September 11, 2001, more than 690,000 Guard and Reserve 
service men and women have been called to Active Federal service. More 
than 190,000 have served multiple deployments. In this regard, they are 
experiencing virtually the same sacrifices as active duty members and 
families--on a level never envisioned by the architects of Guard and 
Reserve personnel and compensation systems.
    However, readjusting to home life, returning to civilian jobs and 
the communities and families they left behind pose unique problems and 
added stress for Reserve component members.
    Unlike active duty personnel, whose combat experience enhances 
their careers, many Guard and Reserve members return to employers who 
are unhappy about their active duty service and find that their 
civilian careers have been inhibited by their prolonged absences.
    In many cases, those returning with various degrees of combat-
related injuries and stress disorders encounter additional difficulties 
after they return that also can cost them their jobs and careers.
    This is compounded by the reality that, despite the continuing 
efforts of the subcommittee, most Guard and Reserve families do not 
have access to the same level of counseling and support services that 
the active duty members have.
    In short, the Reserve components face increasing challenges 
virtually across the board, including major equipment shortages, end-
strength requirements, wounded-warrior health care, and pre- and post-
deployment assistance and counseling.
    Reserve Retirement Age Credit--TMC deeply appreciates Congress' 
authorization of early retirement for certain members of the Guard and 
Reserve activated since January 28, 2008. However, in recognition of 
the continuing service and sacrifice of Reserve Components members and 
as an inducement to longer service and to maintain the Operational 
Reserve Force, more must be done.
    Guard/Reserve mission increases and a smaller Active-Duty Force 
mean Guard/Reserve members must devote far more of their working lives 
to military service than envisioned when the current retirement system 
was developed in 1948. Repeated, extended activations make it more 
difficult to sustain a full civilian career and will impede reservists' 
ability to build a full civilian retirement, 401(k), etc.
    Regardless of statutory protections, periodic long-term absences 
from the civilian workplace can only limit Guard/Reserve members' 
upward mobility, employability and financial security. Further, 
strengthening the Reserve retirement system will serve as an incentive 
to retaining critical mid-career officers and NCOs for continued 
service and thereby enhance readiness.
    TMC strongly urges further progress in revamping the Reserve 
retirement system in recognition of increased service and sacrifice of 
Reserve Component members, including at a minimum, extending the new 
authority for a 90 day--3 month reduction to all Guard and Reserve 
members who have served since September 11.
    TMC also urges amending the statute to eliminate the inequity 
inherent in the current fiscal year calculation, which only credits 90 
days of active service for early retirement purposes if it occurs 
within the same fiscal year.
    This has the effect of significantly penalizing members who deploy 
in July or August vs. those deploying earlier in the fiscal year.
    It is patently unfair, as the current law requires, to give 3 
months' retirement age credit for a 90-day tour served from January 
through March, but no credit at all for a 120-day tour served from 
August through November (because the latter covers 60 days in each of 2 
fiscal years).
    For the near term, the Coalition places particular priority on 
authorizing early retirement credit for all qualifying post-September 
11 active duty service performed by Guard/Reserve servicemembers and 
eliminating the fiscal-year-specific accumulator that bars equal credit 
for members deploying for equal periods during different months of the 
year.
    Ultimately, TMC believes we must move forward to provide a reduced 
age entitlement for retired pay and health coverage for all Reserve 
component members--that is, an age/service formula or outright 
eligibility at age 55.
    Further, TMC urges repeal of the annual cap of 130 days of inactive 
duty training points that may be credited towards a Reserve retirement.
    Guard/Reserve Support--Additional initiatives are essential to 
address unique difficulties encountered by Guard and Reserve members 
and families in accommodating demands for additional active duty 
service.
    TMC urges the subcommittee to:

        <bullet> Fully fund and field ``yellow ribbon reintegration'' 
        programs by modeling best practices
        <bullet> Implement GAO recommendations (GAO Rpt. 08-901) for 
        the Benefits Delivery at Discharge (BDD) program
        <bullet> Ensure Federal Reserve veterans have equal access to 
        services and support available to National Guard veterans;
        <bullet> Secure waivers for scheduled licensing/certification/
        promotion exams scheduled during a mobilization; and
        <bullet> Establish reemployment rights for Guard and Reserve 
        spouses who must suspend employment to care for children during 
        mobilization.

    Guard/Reserve GI Bill--TMC is most grateful to Congress for passage 
of the post-September 11 GI Bill, which authorizes cumulative credit 
for Guard/Reserve service on active duty.
    However, benefits for joining the Selected Reserve were not 
upgraded or integrated in the post-September 11 GI Bill as TMC has long 
recommended.
    Today, Reserve Montgomery GI Bill benefits offer only 25 percent of 
active duty benefits, compared to the originally intended 47-50 
percent. That would require raising the current Reserve rate from $329 
per month to roughly $650 for full time study.
    This is not simply a matter of ``proportional equity.'' Restoring 
the relative ratio between the two programs' benefits is essential to 
long-term success of Guard and Reserve recruiting programs.
    TMC strongly urges:

        <bullet> Restoring basic Reserve MGIB benefits for initially 
        joining the Selected Reserve to the historic benchmark of 47-50 
        percent of active duty benefits;
        <bullet> Integrating Reserve and active duty MGIB laws in Title 
        38 to ensure proportionality is maintained in any future 
        benefit changes; and
        <bullet> Providing full academic protection, including 
        guaranteed enrollment, for mobilized Guard and Reserve 
        students.

    Special and Incentive Pays--Increased reliance on Guard and Reserve 
Forces to perform active duty missions have highlighted differentials 
and inconsistencies between treatment of active duty vs. Guard/Reserve 
members on a range of special and incentive pays. Congress has acted to 
address some of these disparities, but more work is needed.
    The Coalition urges the subcommittee to ensure equitable treatment 
of Guard and Reserve vs. active duty members for the full range of 
special and incentive pays.
Retiree Issues
    The Military Coalition is extremely grateful to the subcommittee 
for its support of maintaining a strong military retirement system to 
help offset the extraordinary demands and sacrifices inherent in a 
career of uniformed service.
    Concurrent Receipt--In the NDAA for Fiscal Year 2004, Congress 
acknowledged the inequity of the disability offset to earned retired 
pay and established a process to end or phase out the offset for all 
members with at least 20 years of service and at least a 50 percent 
disability rating.
    Congress further directed establishment of a Veterans Disability 
Benefits Commission (VDBC) to assess whether changes to the disability 
offset law are warranted for the remaining categories of disabled 
retirees.
    In its final report, the VDBC validated the long-standing Coalition 
assertion that the deduction of VA disability compensation from earned 
military retired pay is inappropriate and should be ended for all 
categories of disabled retirees.
    The Coalition is grateful that the subcommittee has continued its 
efforts to make progress in easing the adverse effects of the offset--
most recently by extending eligibility for Combat-Related Special 
Compensation (CRSC) to disabled retirees forced into medical retirement 
by operations-related injuries before attaining 20 years of service.
    The Coalition believes strongly that the same logic--that such 
members should at least be ``vested'' in their service-earned retired 
pay at 2.5 percent of pay times years of service--applies to those 
forced into early medical retirement for service-caused conditions that 
aren't related to combat. In this regard, the affect on the member's 
quality of life and future earning power is the same, regardless of 
whether the disability was caused by a bullet or some other service-
caused circumstance.
    It is simply inappropriate that current law forces thousands of 
severely injured members with as much as 19 years and 11 months of 
service to forfeit most or all of their earned retired pay.
    Similarly, the Coalition believes that, if the offset is 
inappropriate for a member with a 50 percent or greater service-
connected disability, as Congress already has acknowledged in current 
statute, it is no less appropriate for a member with a 40 percent 
service-caused disability, etc.
    The issue is whether a military retiree earned his or her retired 
pay, independent of incurring a disability. Clearly, that answer is 
``yes''. It follows logically that, if a member also has the misfortune 
to incur a disability as a direct result of that service, the 
disability compensation received from the VA should be added to the 
member's earned retired pay, not subtracted from it.
    The Coalition is grateful that the administration's budget 
resolution outlines further concurrent receipt progress for disabled 
servicemembers and we remain optimistic that this progress will be 
incorporated in the defense bill.
    Finally, the Coalition has learned of an inadvertent problem in the 
statutory CRSC computation formula that causes many seriously disabled 
and clearly eligible members to receive little or nothing in the way of 
CRSC. The Defense Department has acknowledged the problem in 
discussions with the subcommittee staff.
    The Coalition's continuing goal is to eliminate the deduction of VA 
disability compensation for from earned military retired pay for all 
disabled retirees. In pursuit of that goal, the Coalition's immediate 
priorities include:

        <bullet> Correcting the Combat-Related Special Compensation 
        formula to ensure the intended compensation is delivered; and
        <bullet> Expanding current authority for Concurrent Retired 
        Disability Pay to members forced into medical retirement before 
        attaining 20 years of service.

    Proposed Military Retirement Changes--The Coalition has reviewed 
the results of the 10th Quadrennial Review of Military Compensation 
(QRMC) and does not support its recommendation to modify the military 
retirement system to more closely reflect civilian practices.
    Specifically, the QRMC proposed:

        <bullet> Converting the military retirement system to a 
        civilian-style plan under which full retired pay wouldn't be 
        paid until age 57-60;
        <bullet> Vesting retirement benefits after 10 years of service; 
        and
        <bullet> Authorizing the services to pay flexible ``gate pays'' 
        and separation pay at certain points of service to encourage 
        continued service in certain age groups or skills and encourage 
        others to leave, depending on the services needs for certain 
        kinds of people at the time.

    The Coalition is very concerned that this proposal is so 
complicated that people evaluating career decisions at the 4-to-10 year 
point would have no way to project their future military retirement 
benefits. Gate pays available at the beginning of a career could be cut 
back radically if the force happened to be undergoing a strength 
reduction later in a member's career.
    Under today's system, it's very clear from the pay table what level 
of retired pay would be payable, depending how long one served and how 
well one progressed in grade.
    From a broader force-planning standpoint, one thing history shows 
is that no one is able to accurately project force requirements 10 
years downstream. World events and economic situations have driven 
dramatic force size changes within relatively short periods. The 
sustained drawing power of the 20-year retirement system provides an 
essential long-term moderating influence that keeps force managers from 
over-reacting to short-term circumstances. Had force planners had such 
a system in effect during the drawdown-oriented 1990s, the services 
would have been far less prepared for the post-September 11 wartime 
environment.
    Of equal or greater concern, this plan would effectively take money 
from people who serve a career (by deferring receipt of full retired 
pay until age 57-60) in order to fund vesting of retirement benefits 
for people who separate early. The Coalition believes pursuing that 
course would pose a significant threat to long-term retention and 
readiness.
    The Coalition believes that the strong career pull of the 20-year 
retirement system has been the principal bulwark against a retention 
disaster in the current overstressed wartime environment.
    A civilian-style retirement plan with receipt of retired pay 
deferred until a later age would be appropriate for the military only 
if military service conditions were similar to civilian working 
conditions--which they most decidedly are not--and if historical 
experience had not shown that the military depends on a maintaining a 
relatively young and healthy force.
    The Coalition believes strongly that, if such a system as 
recommended by the QRMC existed for today's force under today's service 
conditions, the military services would already be mired in a deep and 
traumatic retention crisis.
    Many such proposals have been offered in the past, and have been 
discarded for good reasons. The only initiative to substantially 
curtail/delay military retired pay that was enacted--the 1986 REDUX 
plan--had to be scrapped 13 years later after it began inhibiting 
retention. The reality is that unique military service conditions 
demand a unique retirement system. Surveys consistently show that the 
military retirement system is the single most powerful incentive to 
serve a full career under conditions few civilians would be willing to 
endure for even 1 year, much less 20 or 30.
    TMC urges the subcommittee to reject retirement plan changes such 
as those proposed by the 10th Quadrennial Review of Military 
Compensation that would ``civilianize'' the military system without 
adequate consideration of the extraordinary demands and sacrifices 
inherent in a military vs. a civilian career.
    Disability Severance Pay--The Coalition is grateful for the 
subcommittee's inclusion of a provision in the NDAA for Fiscal Year 
2008 that ended the VA compensation offset of a servicemember's 
disability severance for people injured in the combat zone.
    However, we are concerned that the language of this provision 
imposes much stricter eligibility than that used for Combat-Related 
Special Compensation.
    The Coalition urges the subcommittee to amend the eligibility rules 
for disability severance pay to include all combat- or operations-
related injuries, using same definition as CRSC. For the longer term, 
the Coalition believes the offset should be ended for all members 
separated for service-caused disabilities.
                            survivor issues
    The Coalition is grateful to the subcommittee for its significant 
efforts in recent years to improve the Survivor Benefit Plan (SBP). We 
particularly note that, as of this past April, thanks to the 
subcommittee's efforts, the Social Security offset ended and SBP 
beneficiaries, regardless of age, receive 55 percent of covered retired 
pay.
    We also appreciate the subcommittee's initiative in the fiscal year 
2008 defense bill that establishes a special survivor indemnity 
allowance. This is the first step in a longer-term effort to phase out 
the Dependency and Indemnity Compensation (DIC) offset to SBP when the 
member died of a service-caused condition.
    Additionally, we are pleased that the subcommittee and Congress 
extended the indemnity allowance to survivors of members who died while 
on active duty in the fiscal year 2009 defense bill.
    SBP-DIC Offset--The Coalition believes strongly that current law is 
unfair in reducing military SBP annuities by the amount of any survivor 
benefits payable from the DIC program.
    If the surviving spouse of a retiree who dies of a service-
connected cause is entitled to DIC from the Department of Veterans 
Affairs and if the retiree was also enrolled in SBP, the surviving 
spouse's SBP benefits are reduced by the amount of DIC. A pro-rata 
share of SBP premiums is refunded to the widow upon the member's death 
in a lump sum, but with no interest. This offset also affects all 
survivors of members who are killed on active duty.
    The Coalition believes SBP and DIC payments are paid for different 
reasons. SBP is purchased by the retiree and is intended to provide a 
portion of retired pay to the survivor. DIC is a special indemnity 
compensation paid to the survivor when a member's service causes his or 
her premature death. In such cases, the VA indemnity compensation 
should be added to the SBP the retiree paid for, not substituted for 
it.
    It should be noted as a matter of equity that surviving spouses of 
Federal civilian retirees who are disabled veterans and die of 
military-service-connected causes can receive DIC without losing any of 
their Federal civilian SBP benefits.
    The reality is that, in every SBP-DIC case, active duty or retired, 
the true premium extracted by the service from both the member and the 
survivor was the ultimate one--the very life of the member--and that 
all such deaths are officially acknowledged as having been caused by 
military service.
    The Veterans Disability Benefits Commission (VDBC) was tasked to 
review the SBP-DIC issue, among other DOD/VA benefit topics. The VDBC's 
final report to Congress agreed with the Coalition in finding that the 
offset is inappropriate and should be eliminated.
    Speaker Pelosi and all House leaders made repeal of the SBP-DIC 
offset a centerpiece of their GI Bill of Rights for the 21st century. 
Leadership has made great progress in delivering on other elements of 
that plan, but the only progress to date on the SBP-DIC offset has been 
the offer of a scant $50 per month (growing to $100 a month over 5 
years) Supplemental Survivor Indemnity Allowance (SSIA).
    We appreciate that the subcommittee understands the military 
community's (and especially the SBP-DIC widows') view that the new 
allowance is grossly inadequate. We also appreciate the courage of the 
subcommittee in its determination to authorize at least this small 
amount as a token of good faith, when it could have elected to do 
nothing.
    The Coalition urges repeal of the SBP-DIC offset. The Coalition 
further recommends:

        <bullet> Authorizing payment of SBP annuities for disabled 
        survivors into a Special Needs Trust.
        <bullet> Certain permanently disabled survivors can lose 
        eligibility for Supplemental Security Income (SSI) and Medicaid 
        and access to means-tested State programs because of receipt of 
        SBP. This initiative is essential to put disabled SBP 
        annuitants on an equal footing with other SSI/Medicaid-
        eligibles who have use of special needs trusts.
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death; and
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to their children at such time as the 
        children majority, or upon termination of a second or 
        subsequent marriage.

    Final Retired Paycheck--Under current law, DFAS recoups from 
military widows' bank accounts all retired pay for the month in which a 
retiree dies. Subsequently, DFAS pays the survivor a pro-rated amount 
for the number of days of that month in which the retiree was alive. 
This often creates hardships for survivors who have already spent that 
pay on rent, food, etc., and who routinely are required to wait several 
months for DFAS to start paying SBP benefits.
    The Coalition believes this is an extremely insensitive policy 
imposed by the government at the most traumatic time for a deceased 
member's next of kin. Unlike his or her active duty counterpart, a 
retiree's survivor receives no death gratuity. Many older retirees do 
not have adequate insurance to provide even a moderate financial 
cushion for surviving spouses.
    Recent media coverage highlighted the VA's failure to implement a 
decade-old law change that required the VA to make full payment of the 
final month's VA disability compensation to the survivor of a disabled 
veteran.
    The disparity between DOD and VA policy on this matter is 
indefensible. Congress should do for retirees' widows the same thing it 
did 10 years ago to protect veterans' widows.
    TMC urges the subcommittee to authorize survivors of retired 
members to retain the final month's retired pay for the month in which 
the retiree dies.
                           health care issues
    The Coalition appreciates the subcommittee's strong and continuing 
interest in keeping health care commitments to military beneficiaries. 
We are particularly grateful for your support for the last few years in 
refusing to allow the Department of Defense to implement beneficiary 
health care fee increases. We are encouraged by the full funding of 
TRICARE included in the President's budget.
    Prior to the past several years, the Coalition and the Defense 
Department have had regular and substantive dialogues that proved very 
productive in facilitating reasonably smooth implementation of such 
major program changes as TRICARE Prime and TRICARE for Life.
    It is a great source of regret to the Coalition that there has been 
substantively less dialogue on the recent fee increase initiatives. In 
recent years, DOD's main concern has been to extract a specified amount 
of budget savings from beneficiaries, primarily by driving 
beneficiaries away from using their earned TRICARE coverage.
    The unique package of military retirement benefits--of which a key 
component is a top-of-the-line health care benefit--is the primary 
offset afforded uniformed servicemembers for enduring a career of 
unique and extraordinary sacrifices that few Americans are willing to 
accept for 1 year, let alone 20 or 30. It is an unusual, and essential, 
compensation package that a grateful Nation provides for the miniscule 
fraction of the US population who agree to subordinate their personal 
and family lives to protecting our national interests for so many 
years. This sacrifice, in a very real sense, constitutes a pre-paid 
premium for their future healthcare.
    Full Funding for the Defense Health Program--The Coalition is 
grateful for the subcommittee's support for maintaining--and expanding 
where needed--the healthcare benefit for all military beneficiaries, 
consistent with the demands imposed upon them.
    To a large extent, military health care cost growth is a reflection 
of private sector trends. But those who measure cost growth since 1999 
or 2000 start from an erroneous benchmark. At that time, military 
health care delivery was at its bottom point, with most Medicare-
eligibles having been driven entirely out of military health care 
coverage by the closure and downsizing of military health facilities 
(MTF).
    The resultant bad publicity was hurting retention, and that's a 
major reason why Congress enacted TRICARE For Life to restore lost 
benefits to military Medicare-eligibles. Congress knew from the start 
and fully intended that restoring medical and pharmacy coverage for 
beneficiaries over age 65 would substantially increase military health 
care outlays.
    It's true that many private sector employers are choosing to shift 
an ever-greater share of health care costs to their employees and 
retirees, and that's causing many still-working military retirees to 
fall back on their service-earned TRICARE coverage.
    In the bottom-line-oriented corporate world, many firms see their 
employees as another form of capital, from which maximum utility is to 
be extracted at minimum cost, and those who quit are replaceable by 
similarly experienced new hires. But that can't be the culture in the 
military's closed, all-volunteer personnel system, whose long-term 
effectiveness is dependent on establishing a sense of mutual, long-term 
commitment between the servicemember and his/her country.
    The Coalition believes it's essential to bear other considerations 
in mind when considering the extent to which military beneficiaries 
should share in military health care costs.
    First and foremost, the military health care system is not built 
for the beneficiary, but to sustain military readiness. Each Service 
maintains its unique facilities and systems to meet its unique needs, 
and its primary mission is to sustain readiness by keeping a healthy 
force and to be able to treat casualties from military actions. To 
reiterate, that model is not built for cost efficiency or beneficiary 
welfare. It's built for military readiness requirements.
    Similarly, when military forces deploy, the military medical force 
goes with them, and that forces families, retirees and survivors to use 
the more expensive civilian health care system in the absence of so 
many uniformed health care providers.
    These are readiness costs incurred for the convenience of the 
military, not for any beneficiary consideration, and beneficiaries 
should not be expected to bear any share of that cost--particularly in 
wartime.
    The Coalition is uncertain whether the new administration will 
again propose some reduction to the defense health care budget based on 
the assumption that Congress will approve beneficiary fee increases for 
fiscal year 2010. But the Coalition would object strongly to any such 
reduction.
    The Coalition urges the subcommittee to take all possible steps to 
ensure continued full funding for Defense Health Program needs.
Protecting Beneficiaries Against Cost-Shifting
    The Task Force on the Future of Military Health Care had a great 
opportunity for objective evaluation of the larger health care issues. 
Unfortunately, the Coalition believes the Task Force missed that mark 
by a substantial margin.
    The bulk of its report cites statistics provided by the Defense 
Department and focuses discussions of cost-sharing almost solely on 
government costs, while devoting hardly a sentence to what the 
Coalition views as an equally fundamental issue--the level of health 
care coverage that servicemembers earn by their arduous career service, 
the value of that service as an in-kind, upfront premium pre-payment, 
and the role of lifetime health care coverage as an important offset to 
the unique conditions of military service.
    The Task Force gave short shrift to what the Coalition sees as a 
fundamental point--that generations of military people have been told 
by their leaders that their service earned them their health care 
benefit, and DOD and Congress reinforced that perception by sustaining 
flat, modest TRICARE fees over long periods of time. But now the 
Department and the Task Force imply that the military retirement health 
care benefit is no longer earned by service. They now say beneficiary 
costs should be ``restored'' to some fixed share of Defense Department 
costs, even though no such relationship was ever stated or intended in 
the past.
    The Task Force report acknowledged that DOD cost increases over the 
intervening years have been inflated by military/wartime requirements, 
inefficiency, lack of effective oversight, structural dysfunction, or 
conscious political decisions by the administration and Congress. They 
acknowledged GAO findings that DOD financial statements and cost 
accounting are not auditable because of system problems, inadequate 
business processes and internal controls. Yet the Task Force accepted 
DOD-prepared cost data from 1996 and subsequent years, and said the 
government should foist a fixed share of those costs on beneficiaries 
anyway. The Coalition has requested information concerning the 1996 
costing calculation and has never received an adequate accounting as to 
what was included in the calculation.
    The following charts illustrate the annual cost increase the Task 
Force plan would impose various categories of military families.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Tenth Quadrennial Review of Military Compensation (QRMC) 
offered somewhat different recommendations, but also took a budget-
centric approach that failed to explicitly address what level of health 
care benefit should be considered earned by a career of military 
service and sacrifice.
    The Coalition agrees with QRMC recommendations to:

        <bullet> Eliminate copays and deductibles for preventive 
        services . . . immunizations, mammograms, colonoscopies, 
        medications for chronic conditions like diabetes to incentivize 
        people to take medications and get tests that have been proven 
        to reduce longer-term health care costs
        <bullet> Pursue a wide range of initiatives to improve 
        recruiting and retention of military health care professionals.

    But we cannot agree with the QRMC proposals to:

        <bullet> Establish premiums for retirees under 65 that are 40 
        percent of the Medicare Part B premium for those in Prime and 
        15 percent of the Medicare Part B premium for those in 
        Standard.
        <bullet> Means-test retiree premiums based on adjusted gross 
        income.
        <bullet> Fund care for beneficiaries under 65 on an accrual 
        basis, which would convert it to mandatory spending and make it 
        extremely difficult to execute needed improvements.
        <bullet> Roughly double retail pharmacy copays.

    The Coalition believes it would be wrong to base premiums for 
beneficiaries in their 40s and 50s on the cost of providing health care 
to the elderly and disabled, whose health care needs are so much 
different.
    Similarly, means-testing has no place in setting military health 
fees. Less than 1 percent of employer-provided plans in the U.S. are 
income-based. It's one thing to do that for Medicare, which is social 
insurance provided by the government to every American. It's quite 
another to apply it to an employer-sponsored program that was earned by 
decades of service to the government.
    The Coalition opposes any enrollment fee for TRICARE Standard, 
which doesn't guarantee access to a provider.
    We continue to believe that the proper course of action is to 
establish principles and standards in law concerning the specific 
health benefits military people earn in return for a career in uniform, 
just as Congress has done for other major compensation elements. Absent 
such principles and standards, these critically important benefits are 
left subject to the annual uncertainty of ever-changing administration 
budget proposals.
    People vs. Weapons--Defense officials have provided briefs to 
Congress indicating that the rising military health care costs are 
``impinging on other service programs.'' Other reports indicate that 
DOD leaders and others seek to free up funding for weapons programs by 
reducing spending on military personnel and health care.
    The Military Coalition continues to assert that such budget-driven 
trade-offs are misguided and inappropriate. Cutting people programs to 
fund weapons ignores the much larger funding problem, and only makes it 
worse.
    The Coalition believes strongly that the proposed defense budget is 
too small to meet national defense needs. Today's defense budget (in 
wartime) is only about 4 percent of GDP, well short of the 6.5 percent 
average for the peacetime years since WWII.
    The Coalition believes strongly that America can afford to and must 
pay for both weapons and military health care.
    Military vs. Civilian Cost-Sharing Measurement--Defense leaders 
assert that substantial military fee increases are needed to bring 
military beneficiary health care costs more in line with civilian 
practices. But merely contrasting military vs. civilian cash cost-
shares is a grossly misleading, ``apple-to-orange'' comparison.
    For all practical purposes, those who wear the uniform of their 
country are enrolled in a 20- to 30-year pre-payment plan that they 
must complete to earn lifetime health coverage. In this regard, 
military retirees and their families paid enormous ``upfront'' premiums 
for that coverage through their decades of service and sacrifice. Once 
that pre-payment is already rendered, the government cannot simply 
pretend it was never paid, and focus only on post-service cash 
payments.
    The Department of Defense and the Nation--as good-faith employers 
of the trusting members from whom they demand such extraordinary 
commitment and sacrifice--have a reciprocal health care obligation to 
retired servicemembers and their families and survivors that far 
exceeds any civilian employer's to its workers and retirees.
    The Task Force on the Future of Military Health Care acknowledges 
that its recommendations for beneficiary fee increases, if enacted, 
would leave military beneficiaries with a lesser benefit than 20-25 
percent of America's corporate employees. The pharmacy copayment 
schedule they proposed for military beneficiaries is almost the same--
and not as robust in some cases--as the better civilian programs they 
reviewed.
    The Coalition believes that military beneficiaries from whom 
America has demanded decades of extraordinary service and sacrifice 
have earned coverage that is the best America has to offer--not 
coverage that's worse than 25 percent of corporate plans.
    Large Retiree Fee Increases Can Only Hurt Retention--The reciprocal 
obligation of the government to maintain an extraordinary benefit 
package to offset the extraordinary sacrifices of career military 
servicemembers is a practical as well as moral obligation. Mid-career 
military losses can't be replaced like civilians can.
    Eroding benefits for career service can only undermine long-term 
retention/readiness. Today's servicemembers are very conscious of 
Congress' actions toward those who preceded them in service. One reason 
Congress enacted TRICARE For Life in 2000 is because the Joint Chiefs 
of Staff at that time said inadequate retiree health care was affecting 
attitudes among active duty servicemembers.
    This is reinforced by a quote from then Chief of Naval Operations 
and now Joint Chiefs Chairman Admiral Mike Mullen, in a 2006 Navy Times 
article:

          ``More and more sailors are coming in married. They talk to 
        me more about medical benefits than I ever thought to when I 
        was in my mid-20s. I believe we have the gold standard . . . 
        for medical care right now, and that's a recruiting issue, a 
        recruiting strength, and it's a retention strength.''

    That's more than backed up by two independent Coalition surveys. A 
2006 Military Officers Association of America survey drew 40,000 
responses, including more than 6,500 from active duty servicemembers. 
Over 92 percent in all categories of respondents opposed the DOD-
proposed fee hikes. There was virtually no difference between the 
responses of active duty servicemembers (96 percent opposed) and 
retirees under 65 (97 percent opposed). A Fleet Reserve Association 
survey showed similar results.
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk.
    Pharmacy Copay Proposals Out of Step With Current Trends--Last 
year's DOD proposal, based on Task Force recommendations, would have 
increased retail pharmacy copays from $3 (generic), $9 (brand), and $22 
(nonformulary) to $15, $25, and $45, respectively. Those represent 
increases of 400 percent, 178 percent, and 100 percent, respectively.
    The QRMC recommended increases to $7, $17, and $29--increases of 
133 percent, 89 percent, and 32 percent.
    Despite citing experience in civilian firms that beneficiary use of 
preferred drugs increased when their copays were reduced or eliminated, 
DOD and the QRMC proposed the highest percentage copay increases for 
the medications TRICARE most wants beneficiaries to use.
    Further, the large increase for retail generics flies in the face 
of recent commercial initiatives by Wal-Mart and a number of other 
civilian pharmacies to offer hundreds of generics to the general public 
for a $4 copay or less.
    If the purpose of these proposals is to push military beneficiaries 
to use Wal-Mart instead of TRICARE, it might indeed save the government 
some money on those medications. But it won't make military 
beneficiaries feel very good about their military pharmacy benefit. It 
shouldn't make Congress feel good about it, either.
    The Coalition particularly questions the need for pharmacy copay 
increases now that Congress has approved Federal pricing for the 
TRICARE retail pharmacy system. The Coalition notes that Federal 
pricing still has not been implemented by the Executive Branch, and 
this failure is costing DOD tens of millions of dollars with every 
passing month. This is an excellent example of why the Coalition 
objects to basing beneficiary fees on a percentage of DOD costs--
because DOD all-too-frequently does not act, or is not allowed to act, 
in a prudent way to hold costs down.
    Retirees Under 65 ``Already Gave'' 10 percent of Retired Pay--Large 
proposed health care fee increases would impose a financial ``double 
whammy'' on retirees and survivors under age 65.
    Any assertion that military retirees have been getting some kind of 
``free ride'' because TRICARE fees have not been increased in recent 
years conveniently overlooks past government actions that have 
inflicted far larger financial penalties on every retiree and survivor 
under 65--penalties that will grow every year for the rest of their 
lives.
    That's because decades of past budget caps already depressed 
lifetime retired pay by an average of almost 10 percent for 
servicemembers who retired between 1984 and 2008. For most of the 1980s 
and 1990s, military pay raises were capped below private sector pay 
growth, accumulating a 13.5 percent ``pay gap'' by 1998-99--a gap which 
has been moderated since then but persists at 2.9 percent today.
    Every servicemember who has retired since 1984--exactly the same 
under-65 retiree population targeted by the proposed TRICARE fee 
increases--has had his or her retired pay depressed by a percentage 
equal to the pay gap at the time of retirement. That depressed pay will 
persist for the rest of their lives, with a proportional depression of 
Survivor Benefit Plan annuities for their survivors.
    A servicemember who retired in 1993--when the pay gap was 11.5 
percent--continues to suffer an 11.5 percent retired pay loss today. 
For an E-7 who retired in 1993 with 20 years of service, that means a 
loss of $2,100 this year and every year because the government capped 
his military pay below the average American's. An O-5 with 20 years of 
service loses more than $4,400 a year.
    The government has spent almost a decade making incremental 
reductions in the pay gap for currently serving members, but it still 
hasn't made up the whole gap--and the government certainly hasn't 
offered to make up those huge losses suffered by members already 
retired. Under such circumstances, it strikes the Coalition as ironic 
when defense officials propose, in effect, billing those same retirees 
for ``back TRICARE fee increases''.
    Fee-Tiering Scheme Is Inappropriate--The Defense Department, the 
Task Force and the QRMC all have proposed multi-tiered schemes for 
proposed beneficiary fee increases, with the administration's based on 
retired pay grade, the Task Force's based on retired pay amount, and 
the QRMC's based on family taxable income. The intent of the plan is to 
ease opposition to the fee increases by introducing a means-testing 
initiative that penalizes some groups less than others.
    The Coalition rejects such efforts to mask a fundamental inequity 
by trying to convince some groups that the inequity being imposed on 
them is somehow more acceptable because even greater penalties would be 
imposed on other groups.
    Any such argument is fundamentally deceptive, especially since the 
administration and Task Force plans envisioned adjusting fee levels by 
medical inflation (7-8 percent a year), while retired pay thresholds 
would be adjusted by retiree COLAs (2 percent-3 percent a year). That 
would guarantee ``tier creep''--shifting ever greater numbers of 
beneficiaries into the top tier every year.
    Surveys of public and private sector health care coverage indicate 
that less than 1 percent of plans differentiate by salary. No other 
Federal plan does so. The Secretary of Defense has the same coverage 
and pays the same premium as any GS employee, and the Speaker of the 
House has the same coverage and premium payments as any 
Representative's lowest-paid staff member.
    The Coalition believes strongly that all military retirees earned 
equal health benefits by virtue of their career service, and that the 
lowest fee tier proposed so far would be an excessive increase for any 
military beneficiary.
    Alternative Options to Make TRICARE More Cost-Efficient--The 
Coalition continues to believe strongly that the Defense Department has 
not sufficiently investigated other options to make TRICARE more cost-
efficient without shifting costs to beneficiaries. The Coalition has 
offered a long list of alternative cost-saving possibilities, 
including:

        <bullet> Positive incentives to encourage beneficiaries to seek 
        care in the most appropriate and cost effective venue;
        <bullet> Encouraging improved collaboration between the direct 
        and purchased care systems and implementing best business 
        practices;
        <bullet> Focusing the military health system (MHS), health care 
        providers, and beneficiaries on quality measured outcomes;
        <bullet> Improving MHS financial controls and avoiding overseas 
        fraud by establishing TRICARE networks in areas fraught with 
        fraud;
        <bullet> Establishing TRICARE networks in areas of high TRICARE 
        Standard utilization to take full advantage of network 
        discounts.
        <bullet> Promoting retention of other health insurance by 
        making TRICARE a true second-payer to other insurance (far 
        cheaper to pay another insurance's copay than have the 
        beneficiary migrate to TRICARE).
        <bullet> Changing the electronic claim system to scan for 
        common errors and prompt corrections in real time to help 
        providers submit ``clean'' claims and reduce delays/multiple 
        submissions.
        <bullet> Size and staff military treatment facilities to reduce 
        reliance on non-MTF civilian providers.
        <bullet> Reducing long-term TRICARE Reserve Select costs by 
        allowing servicemembers the option of a government subsidy of 
        civilian employer premiums during periods of mobilization.
        <bullet> Doing far more to promote use of mail-order pharmacy 
        system via mailings to users of maintenance medications, 
        highlighting the convenience and individual expected cost 
        savings
        <bullet> Encouraging retirees to use lowest-cost-venue military 
        pharmacies at no charge, rather than discouraging such use by 
        limiting formularies, curtailing courier initiatives, etc.

    The Coalition is pleased that DOD has begun to implement at least 
some of our past suggestions, and stands ready to partner with DOD to 
investigate and jointly pursue these or other options that offer 
potential for reducing costs.
    TRICARE Still Has Significant Shortcomings--While DOD focuses on 
the cost of the TRICARE program to the government, surveys show 
increasing dissatisfaction among active duty, Guard/Reserve and retired 
beneficiaries who continue to experience significant problems with 
TRICARE. Beneficiaries at many locations, particularly those lacking 
large military populations, report difficulty in finding health care 
providers willing to participate in the program. Doctors complain about 
the program's low payments and administrative hassles. Withdrawal of 
providers from TRICARE networks at several locations has generated 
national publicity.
    A 2007 GAO survey of National Guard and Reserve personnel said 
almost one-third of respondents reported having difficulty obtaining 
assistance from TRICARE, and more than one-fourth reported difficulty 
in finding a TRICARE-participating provider.
    That problem is getting worse rather than better. The Task Force 
report said all military beneficiary categories report more difficulty 
than civilians in accessing health care, and that military 
beneficiaries' reported satisfaction with access to care declined from 
2004 to 2006. A 2008 survey showed a significant further decline.
    The Coalition urges the subcommittee to require DOD to pursue 
greater efforts to improve TRICARE and find more effective and 
appropriate ways to make TRICARE more cost-efficient without seeking to 
``tax'' beneficiaries and make unrealistic budget assumptions.
    TMC Healthcare Cost Principles--The Military Coalition believes 
strongly that the current fee controversy is caused in part by the lack 
of any statutory record of the purpose of military health care benefits 
and the specific benefit levels earned by a career of service in 
uniform. Under current law, the Secretary of Defense has broad latitude 
to make administrative adjustments to fees for TRICARE Prime and the 
pharmacy systems. Absent congressional intervention, the Secretary can 
choose not to increase fees for years at a time or can choose to 
quadruple fees in 1 year.
    Until recently, this was not a particular matter of concern, as no 
Secretary had previously proposed dramatic fee increases. Given recent 
years' unsettling experience, the Coalition believes strongly that the 
subcommittee needs to establish more specific and permanent principles, 
guidelines, and prohibitions to protect against dramatic budget-driven 
fluctuations in this most vital element of servicemembers' career 
compensation incentive package.
    Other major elements of the military compensation package have much 
more specific standards in permanent law. There is a formula for the 
initial amount of retired pay and for subsequent annual adjustments. 
Basic pay raises are tied to the Employment Cost Index, and housing and 
food allowances are tied to specific standards as well.
    The Coalition most strongly recommends that Congress establish 
statutory findings, a sense of Congress on the purpose and principles 
of military health care benefits, and the specific benefit levels 
earned by a career of uniformed service.

        <bullet> Active duty members and families should be charged no 
        fees except retail pharmacy co-payments, except to the extent 
        they make the choice to participate in TRICARE Standard or use 
        out-of-network providers under TRICARE Prime.
        <bullet> The TRICARE Standard inpatient copay should not be 
        increased further for the foreseeable future. At $535 per day, 
        it already far exceeds inpatient copays for virtually any 
        private sector health plan.
        <bullet> There should be no enrollment fee for TRICARE Standard 
        or TRICARE For Life (TFL), since neither offers assured access 
        to TRICARE-participating providers. An enrollment fee implies 
        enrollees will receive additional services, as Prime enrollees 
        are guaranteed access to participating providers in return for 
        their fee. Congress already has required TFL beneficiaries to 
        pay substantial Medicare Part B fees to gain TFL coverage.
        <bullet> There should be one TRICARE fee schedule for all 
        retired beneficiaries, just as all legislators, Defense leaders 
        and other Federal civilian grades have the same health fee 
        schedule. The current TRICARE schedule is significantly lower 
        than the lowest tier recommended by the Defense Department, 
        recognizing that all retired servicemembers paid large upfront 
        premiums for their coverage through decades of arduous service 
        and sacrifice.
TRICARE Prime
    TRICARE Prime--The Coalition is very concerned about growing 
dissatisfaction among TRICARE Prime enrollees--which is actually higher 
among active duty families than among retired families.
    The dissatisfaction arises from increasing difficulties experienced 
by beneficiaries in getting appointments, referrals to specialists, and 
sustaining continuity of care from specific providers.
    Increasingly, beneficiaries with a primary care manager in a 
military treatment facility find themselves unable to get appointments 
because so many providers have deployed, PCSed, or are otherwise 
understaffed/unavailable.
    Instead of offering beneficiaries appointments with civilian 
network providers, many appointment administrators are simply telling 
the beneficiary that no appointments are available and to try back 
later. This is contrary to the best interests of the beneficiary, 
violates clear TRICARE Prime standards for timely access to care, makes 
beneficiaries see the military as insensitive to their vital family 
needs, and undermines long-term retention and readiness.
    This problem disproportionally affects active duty families who are 
given priority over retirees for military PCMs. Because most active 
duty family members are used to getting care in the military facility, 
they often don't know to demand an appointment with a civilian provider 
if a military appointment isn't available.
    The problem is compounded by Prime's continuing makeshift system 
for referrals to specialists and by beneficiary confusion over whom to 
call to authorize needed care while traveling away from their home 
station.
    The Military Coalition urges the subcommittee to require a DOD 
report, including reports from the managed care support contractors, on 
actions being taken to improve Prime patient satisfaction, provide 
assured appointments within Prime access standards, reduce delays in 
preauthorization and referral appointments, and provide quality 
information to assist beneficiaries in making informed decisions.
TRICARE Standard
    TRICARE Standard Enrollment--The Department of Defense has proposed 
various options to require TRICARE Standard beneficiaries to sign an 
explicit statement of enrollment in Standard and pay either a one-time 
or an annual enrollment fee. The Task Force and the QRMC also proposed 
annual enrollment fees for TRICARE Standard.
    The proposals are based on three main arguments:

        <bullet> Enrollment is needed to define the population that 
        will actually use the program.
        <bullet> Enrollment would allow more accurate budgeting for 
        program needs.
        <bullet> The fee would help offset DOD's cost of having the 
        enrollment system (DOD rationale) or ``impose some personal 
        accountability for health care costs'' (Task Force rationale).

    The Coalition believes none of these arguments stands up to 
scrutiny.
    Department officials already know exactly which beneficiaries use 
TRICARE Standard. They have exhaustive records on what doctors they've 
seen and what medications they've used when and for what. They already 
assess usage trends and project trends for current and future years--
such as the effect of private employer changes on beneficiaries' return 
to the TRICARE system.
    DOD does not have a good record on communicating policy changes to 
Standard beneficiaries. That means large numbers of beneficiaries won't 
get the word, or appreciate the impact if they do. They have always 
been told that their eligibility is based on the Defense Enrollment 
Eligibility Reporting System.
    Thousands of beneficiaries would learn of the requirement only when 
their TRICARE Standard claims are rejected for failure to enroll. Some 
would involve claims for cancer, auto accidents and other situations in 
which it would be unacceptable to deny claims because the beneficiary 
didn't understand an administrative rule change. DOD administrators who 
dismiss this argument as involving a minority of people would see the 
situation differently if it were their family being affected--as 
hundreds or thousands of military families certainly would be.
    Inevitably, most beneficiaries who do receive and understand the 
implications would enroll simply ``to be safe'', even if they intended 
to use mainly VA or employer-provided coverage--thus undercutting the 
argument that enrollment would increase accuracy of usage projections.
    Further, it would be inappropriate to make beneficiaries pay a fee 
to cover the cost of an enrollment system established solely for the 
government's benefit and convenience, with no benefit for the 
beneficiary. One who pays an enrollment fee expects something extra in 
return for the fee. An enrollment fee for TRICARE Prime is reasonable, 
because it buys the beneficiary guaranteed access to a participating 
provider. TRICARE Standard provides no such guarantee, and in some 
locations it's very difficult for beneficiaries to find a TRICARE 
provider.
    To the extent any enrollment requirement may still be considered 
for TRICARE Standard, such enrollment should be automatic for any 
beneficiary who files a TRICARE claim. Establishing an enrollment 
requirement must not be allowed to become an excuse to deny claims for 
members who are unaware of the enrollment requirement.
    The Coalition strongly recommends against establishment of any 
TRICARE Standard enrollment system; to the extent enrollment may be 
required, any beneficiary filing a claim should be enrolled 
automatically, without denying the claim. No enrollment fee should be 
charged for TRICARE Standard until and unless the program offers 
guaranteed access to a participating provider.
    TRICARE Standard Provider Participation--The Coalition appreciates 
the subcommittee's continuing interest in the specific problems unique 
to TRICARE Standard beneficiaries. TRICARE Standard beneficiaries need 
assistance in finding participating providers within a reasonable time 
and distance from their home. This is particularly important with the 
expansion of TRICARE Reserve Select, as many of those enrollees don't 
live in Prime Service Areas.
    The Coalition is concerned that DOD has not yet established any 
standard for the adequacy of provider participation. Participation by 
half of the providers in a locality may suffice if there is not a large 
Standard beneficiary population. The Coalition hopes to see an 
objective participation standard (perhaps number of beneficiaries per 
provider) that would help shed more light on which locations have 
participation shortfalls of Primary Care Managers and Specialists that 
require positive action.
    The Coalition is grateful to the subcommittee for its past efforts 
that will require DOD to establish benchmarks for participation 
adequacy and follow-up reports on actions taken.
    The Coalition urges the subcommittee to continue monitoring DOD and 
GAO reporting on provider participation to ensure proper follow-on 
action.
    Administrative Deterrents to Provider Participation--Feedback from 
providers indicates TRICARE imposes additional administrative 
requirements on providers that are not required by Medicare or other 
insurance plans. On the average, about 50 percent of a provider's panel 
is Medicare patients, whereas only 2 percent are TRICARE beneficiaries. 
Providers are unwilling to incur additional administrative expenses 
that affect only a small number of patients. Thus, many providers are 
prone to non-participation in TRICARE.
    TRICARE Standard still requires submission of a paper claim to 
determine medical necessity on a wide variety of claims. This thwarts 
efforts to encourage electronic claim submission and increases provider 
administrative expenses and payment delays. Examples include speech 
therapy, occupational/physical therapy, land or air ambulance service, 
use of an assistant surgeon, nutritional therapy, transplants, durable 
medical equipment, and pastoral counseling.
    Another source of claims hassles and payment delays involve cases 
of third party liability (e.g., auto insurance health coverage for 
injuries incurred in auto accidents). TRICARE requires claims to be 
delayed pending receipt of a third-party-liability form from the 
beneficiary. This often delays payments for weeks and can result in 
denial and non-payment to the provider if the beneficiary doesn't get 
the form in on time. Recently, a major TRICARE claims processing 
contractor recommended that these claims should be processed regardless 
of diagnosis and that the third-party-liability questionnaire should be 
sent out after the claim is processed to eliminate protracted 
inconvenience to the provider of service.
    The Coalition urges the subcommittee to continue its efforts to 
reduce administrative impediments that deter providers from accepting 
TRICARE patients.
    TRICARE Reimbursement Rates--Physicians consistently report that 
TRICARE is virtually the lowest-paying insurance plan in America. Other 
national plans typically pay providers 25-33 percent more. In some 
cases the difference is even higher.
    While TRICARE rates are tied to Medicare rates, TRICARE Managed 
Care Support Contractors make concerted efforts to persuade providers 
to participate in TRICARE Prime networks at a further discounted rate. 
Since this is the only information providers receive about TRICARE, 
they see TRICARE as even lower-paying than Medicare.
    This is exacerbated by annual threats of further reductions in 
TRICARE rates due to the statutory Medicare rate-setting formula. 
Physicians may not be able to afford turning away Medicare patients, 
but many are willing to turn away a small number of patients who have 
low-paying, high-administrative-hassle TRICARE coverage.
    The TRICARE Management Activity has the authority to increase the 
reimbursement rates when there is a provider shortage or extremely low 
reimbursement rate for a specialty in a certain area and providers are 
not willing to accept the low rates. In some cases, a State Medicaid 
reimbursement for a similar service is higher than that of TRICARE. But 
the Department has been reluctant to establish a standard for adequacy 
of participation to trigger higher payments.
    To the extent the Medicare rate freeze continues, we urge the 
subcommittee to encourage the Defense Department to use its 
reimbursement rate adjustment authority as needed to sustain provider 
acceptance.
    The Coalition urges the subcommittee to require a Comptroller 
General report on the relative propensity of physicians to participate 
in Medicare vs. TRICARE, and the likely effect on such relative 
participation of a further freeze in Medicare/TRICARE physician 
payments along with the affect of an absence of bonus payments.
Dental Care
    Active Duty Dependent Dental Plan--The Coalition is sensitive to 
beneficiary concerns that Active Duty Dental Plan coverage for 
orthodontia has been eroded by inflation over a number of years.
    The current orthodontia payment cap is $1,500, which has not been 
changed since 2001. In the intervening years, the cost of orthodontia 
has risen from an average of $4,000 to more than $5,000.
    The Coalition understands that, under current law, increasing this 
benefit could require a reduction in some other portion of the benefit, 
which we do not support.
    The Coalition notes that current law assumes a 60 percent DOD 
subsidy for the active duty dental plan, whereas other Federal health 
programs (e.g., FEHBP and TRS) are subsidized at 72 percent.
    The Coalition recommends increasing the DOD subsidy for the active 
Duty Dependent Dental Plan to 72 percent and increasing the cap on 
orthodontia payments to $2,000.
    TRICARE Dental Benefit for Surviving Children--In recent years, the 
subcommittee acted appropriately to continue active-duty-level TRICARE 
Prime coverage for children of members who die on active duty for as 
long as they retain dependent status--until age 21 or 23 if enrolled in 
college. But dental coverage was not adjusted from the previous law, 
which authorized only 3 years of continued active-duty-level benefits 
in such cases.
    The Coalition recommends authorizing children of members who die on 
active duty to retain coverage under the active Duty Dependent Dental 
Plan until they reach 21 or 23 if enrolled in college.
National Guard and Reserve Health Care
    The Coalition is grateful to the subcommittee for its leadership in 
reducing TRICARE Reserve Select Premiums and ensuring DOD does not 
overcharge servicemembers for coverage.
    While the subcommittee has worked hard to address the primary 
health care hurdle, there are still some areas that warrant attention.
    TRICARE Reserve Select (TRS) Access--The Coalition is concerned 
that members and families enrolled in TRS are not guaranteed access to 
TRICARE-participating providers and are finding it difficult to locate 
providers willing to take TRICARE. As indicated earlier in this 
testimony, the Coalition believes that members who are charged a fee 
for their health coverage should be able to expect assured access, and 
hopes the subcommittee will explore options for assuring such access 
for TRS enrollees.
    The Coalition recommends that the subcommittee require a report 
from the Department of Defense on options to assure TRS enrollees' 
access to TRICARE-participating providers.
    Private Insurance Premium Option--The Coalition believes Congress 
is missing an opportunity to reduce long-term health care costs by 
authorizing eligible members the option of electing a DOD subsidy of 
their civilian insurance premiums during periods of activation.
    Current law already authorizes payment of up to 24 months of FEHBP 
premiums for activated members who are civilian employees of the 
Defense Department. The Coalition believes all members of the Selected 
Reserve should have a similar option to have continuity of their 
civilian family coverage.
    Over the long term, when Guard and Reserve activations can be 
expected at a reduced pace, this option would offer considerable 
savings opportunity relative to funding permanent, year-round TRICARE 
coverage.
    The Department could calculate a maximum monthly subsidy level that 
would represent a cost savings to the government, so that each member 
who elected that option would reduce TRICARE costs.
    The Coalition recommends developing a cost-effective option to have 
DOD subsidize premiums for continuation of a Reserve employer's private 
family health insurance during periods of deployment as an alternative 
to ongoing TRICARE Reserve Select coverage.
    Involuntary Separatees--The Coalition believes it is unfair to deny 
TRS coverage for Individual Ready Reserve (IRR) members who have 
returned from deployment or terminate coverage for returning members 
who are involuntarily separated from the Selected Reserve (other than 
for cause).
    The Coalition recommends authorizing 1 year of post-Transitional 
Assistance Management Program (TAMP) TRS coverage for every 90 days 
deployed in the case of returning members of the IRR or members who are 
involuntarily separated from the Selected Reserve. The Coalition 
further recommends that voluntarily separating reservists subject to 
disenrollment from TRS should be eligible for participation in the 
Continued Health Care Benefits Program (CHCBP).
    Gray Area reservists--The Coalition is sensitive that Selected 
Reserve members and families have one remaining ``hole'' in their 
military health coverage. They are eligible for TRS while currently 
serving in the Selected Reserve, then lose coverage while in ``Gray 
area'' retiree status, then regain full TRICARE eligibility at age 60. 
The Coalition supports the provisions contained in S. 731 introduced by 
Senator Ben Nelson.
    The Coalition believes some provisions should be made to allow such 
members to continue their TRICARE coverage in gray area status. 
Otherwise, we place some members at risk of losing family health 
coverage entirely when they retire from the Selected Reserve. We 
understand that such coverage likely would have to come with a higher 
premium.
    The Coalition urges the subcommittee to authorize an additional 
premium-based TRS option under which members entering ``gray area'' 
retiree status would be able to avoid losing health coverage.
    Guard and Reserve Dental Coverage--The Coalition remains concerned 
about the dental readiness of the Reserve Forces. DOD should be 
fiscally responsible for medical and dental care to reservists 
beginning with the issuance of an alert order and 180 days post 
mobilization to ensure servicemembers meet readiness standards when DOD 
facilities are not available within a 50 mile radius of the member's 
home.
    The Coalition supports providing dental coverage to reservists once 
an alert order is issued and 180 days post-mobilization (during TAMP), 
unless the individual's dental readiness is restored to T-2 condition 
before demobilization.
    Guard and Reserve Mental Health--Reserve members deserve the 
highest levels of care once they demobilize. The Coalition is concerned 
that there is too much variation in the diagnosis and treatment of post 
traumatic stress disorder (PTSD), traumatic brain injury (TBI), 
depression, and other combat-related stress conditions. The current 
post deployment health self assessment program at demobilization sites 
is inadequate. The Coalition believes that post deployment examination 
of members should occur while still on active duty deployment orders at 
their home station. This is necessary to expedite diagnosis, reporting 
and treatment of physical and mental injuries; to help perfect 
potential service connected disability claims with the VA; and to help 
correct the non-reporting of injuries at the demobilization site 
arising from members' concerns of being medically held away from the 
home State.
    The Coalition believes that Guard and Reserve members and their 
families should have access to an evidence-based treatment for PTSD, 
TBI, depression, and other combat-related stress conditions. Further, 
Post Deployment Health examinations should be offered at the member's 
home station.
    Guard and Reserve Health Information--The Coalition is concerned 
that the current health records for many Guard and Reserve members do 
not contain treatment information that could be vital for diagnosis and 
treatment of a condition while on active duty. The capture of non-
military treatment is an integral part of the members overall health 
status.
    The Coalition believes there should be an effort to improve the 
electronic capture of non military health information into the 
servicemember's medical record.
TRICARE For Life
    When Congress enacted TRICARE For Life (TFL) in 2000, it explicitly 
recognized that this coverage was fully earned by career 
servicemembers' decades of sacrifice, and that the Medicare Part B 
premium would serve as the cash portion of the beneficiary premium 
payment.
    TFL Enrollment Fee is Inappropriate--The Coalition disagrees 
strongly with the Task Force and QRMC recommendations to impose an 
annual enrollment fee for each TFL beneficiary. The reports 
acknowledged that this would be little more than a ``nuisance fee'' and 
would be contrary to Congress' intent in authorizing TFL.
    When the previous administration came to office in 2001, military 
and civilian Defense leaders praised TRICARE For Life, as enacted, as 
an appropriate benefit that retirees had earned and deserved for their 
career service. But in recent years, those same leaders' concerns about 
rising health costs have focused disproportionally on the (fully 
predictable) cost growth attributable to TFL.
    For those who now advocate charging older beneficiaries a TFL 
enrollment fee, the Coalition asks, ``What has changed in the 
intervening years of war that has somehow made their service less 
meritorious?''
    Inclusion of TFL-Eligibles in Preventive Care Programs--The 
Coalition is aware of the challenges imposed by Congress' mandatory 
spending rules, and appreciates the subcommittee's efforts to include 
TFL-eligibles in the preventive care pilot programs included in the 
National Defense Authorization Act for Fiscal Year 2009. We believe 
their inclusion would, in fact, save the government money and hope the 
subcommittee will be able to find a more certain way to include them 
than the current discretionary authority.
    The Coalition also hopes the subcommittee can find a way to resolve 
the discrepancy between Medicare and TRICARE treatment of medications 
such as the shingles vaccine, which Medicare covers under pharmacy 
benefits and TRICARE covers under doctor visits. This mismatch, which 
requires TFL patients to absorb the cost in a TRICARE deductible or 
purchase duplicative Part D coverage, deters beneficiaries from seeking 
this preventive medication.
    The Coalition urges the subcommittee to oppose any TFL enrollment 
fee and seek equal coverage of TFL beneficiaries under TRICARE and 
Medicare preventive care initiatives.
    Restoration of Survivors' TRICARE Coverage--When a TRICARE-eligible 
widow/widower remarries, he/she loses TRICARE benefits. When that 
individual's second marriage ends in death or divorce, the individual 
has eligibility restored for military ID card benefits, including SBP 
coverage, commissary/exchange privileges, etc.--with the sole exception 
that TRICARE eligibility is not restored.
    This is out of line with other Federal health program practices, 
such as the restoration of CHAMPVA eligibility for survivors of 
veterans who died of service-connected causes. In those cases, VA 
survivor benefits and health care are restored upon termination of the 
remarriage. Remarried surviving spouses deserve equal treatment.
    The Coalition recommends restoration of TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
    BRAC and Rebasing--Relocation from one geographic region to another 
and base closures brings multiple problems. A smooth health care 
transition is crucial to the success of DOD and Service plans to 
transform the force. That means ensuring a robust provider network and 
capacity is available to all beneficiary populations, to include active 
and Reserve Component and retirees and their family members, and 
survivors at both closing and gaining installations. It is incumbent 
upon the Department and its Managed Care Support Contractors to ensure 
smooth beneficiary transition from one geographic area to another. We 
stress the importance of coordination of construction and funding in 
order to maintain access and operations while the process takes place.
    The Coalition recommends requiring an annual DOD report on the 
adequacy of health resources, services, quality and access to care for 
beneficiaries affected by BRAC/rebasing.

    [The prepared statement of the Fleet Reserve Association 
follows:]
    Prepared Statement by Master Chief Joseph L. Barnes, USN (Ret.)
                     the fleet reserve association
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
on Capitol Hill focused on maintaining and improving benefits and the 
quality of life for Sea Service personnel and their families. The 
Association also sponsors a National Americanism Essay Program, awards 
over $100,000 in scholarships annually and provides disaster and/or 
relief to shipmates and others in distress.
    The Association is also a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA celebrated 84 years of service in November 2008. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the Uniformed Services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan (USSBP). More recently, FRA led the way in reforming the REDUX 
Retirement Plan, obtaining targeted pay increases for mid-level 
enlisted personnel, and sea pay for junior enlisted sailors. FRA also 
played a leading role in advocating recently enacted predatory lending 
protections for servicemembers and their dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the FRA has not 
received any Federal grant or contract during the current fiscal year 
or either of the 2 previous fiscal years.
                                synopsis
    As a leader in the Military Coalition (TMC), the FRA strongly 
supports the extensive recommendations addressed in the TMC testimony 
prepared for this hearing. The intent of this statement is to address 
other issues of particular importance to FRA's membership and the Sea 
Services enlisted communities.
                              introduction
    Mr. Chairman, the FRA salutes you, members of the subcommittee, and 
your staff for the strong and unwavering support of programs essential 
to active duty, Reserve component, and retired members of the uniformed 
services, their families, and survivors. The subcommittee's work has 
greatly enhanced care and support for our wounded warriors, improved 
military pay, eliminated out-of-pocket housing expenses, improved 
health care, and enhanced other personnel, retirement and survivor 
programs. This support is critical in maintaining readiness and is 
invaluable to our Uniformed Services engaged throughout the world 
fighting the Global War on Terror, sustaining other operational 
requirements and fulfilling commitments to those who've served in the 
past.
    FRA's 2009 priorities include continued oversight of the Wounded 
Warrior improvements, opposition to excessive TRICARE fee increases, 
full funding for DOD and VA health care, annual active duty pay 
increases that are at least a half percent above the Employment Cost 
Index (ECI), to help close the pay gap between active duty and private 
sector pay, full concurrent receipt of military retired pay and VA 
disability compensation, adequate end strength, family readiness, and 
reducing the retirement age for reservists who have been mobilized 
since October 7, 2001.
    Additional issues include the introduction and enactment of 
legislation to eliminate inequities in the Uniformed Services Former 
Spouses Protection Act (USFSPA), authorizing retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) for the month in which the member was alive for at least 24 
hours, repealing REDUX, streamlining the voting process for overseas 
military personnel, and reducing the SBP paid-up age to 67 to allow 
those who joined the service at age 17 or 18 to be required to only pay 
30 years to obtain paid-up status.
    The Association appreciates inclusion in the recently enacted 
economic stimulus package of money for military construction and VA 
hospitals, and supports a DOD fiscal year 2010 budget floor of at least 
5 percent of the Gross Domestic Product (GDP). Excluding supplemental 
appropriations, the United States spent less than four percent of its 
GDP on national defense in 2008. From 1961-1963, the military consumed 
9.1 percent of GDP annually. The active-duty military has been 
stretched to the limit since September 11, 2001, and FRA appreciates 
the fiscal year 2009 increases to service end strengths. FRA strongly 
supports funding to support the anticipated increased end strengths in 
fiscal year 2010 and beyond since current end strength is not adequate 
to meet the demands of fighting current wars and sustaining other 
operational commitments throughout the world.
                  dod fiscal year 2010 proposed budget
    The DOD request totals $663.8 billion for fiscal year 2010, which 
represents a 4-percent increase over fiscal year 2009. It is noteworthy 
that for the first time in 4 years the budget fully funds military 
health care programs without calling for a TRICARE fee increase. FRA 
wants to thank the Obama administration for resisting efforts to shift 
health care costs to beneficiaries. The budget also calls for a 2.9-
percent active duty pay increase that equals the Employment Cost Index 
(ECI), $1.1 billion to fund military housing and support programs for 
servicemembers and their families, and $3.3 billion to support injured 
servicemembers in their recovery, rehabilitation, and reintegration.
    Over the past several years, the Pentagon budget requests have been 
constrained despite rising personnel costs, aging weapon systems, worn 
out equipment, and dilapidated facilities.
    As Operation Iraqi Freedom ends and troops depart from Iraq, some 
will be urging reductions in end strength and spending, despite the 
need to bolster personnel and efforts in Afghanistan and other areas 
around the world. FRA understands the budgetary concerns associated 
with the current recession but believes that cutting the DOD budget 
during the continuing Global War on Terror would be short sighted and 
that America needs a defense budget that will support both ``benefits 
and bullets.''
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, quality of life improvements that support members of 
the Uniformed Services, particularly those serving in hostile areas, 
and their families and survivors.
                     wounded warriors improvements
    FRA is especially grateful for the inclusion of the Wounded Warrior 
assistance provisions as part of the National Defense Authorization Act 
for Fiscal Year 2008, and for the congressional oversight and funding 
to ensure prompt implementation. The Association concurs with the 
recent Government Accountability Office (GAO) report recommendations 
that:

        <bullet> DOD and VA must establish criteria for evaluating 
        their joint pilot disability evaluation system and determine if 
        it should be widely implemented (GAO-08-1137);
        <bullet> DOD and VA should give priority to fully establish the 
        Joint Interagency Program to implement electronic medical 
        records; (GAO-08-1158T); and
        <bullet> DOD should explore options for improving its 
        disability evaluation process (GAO-08-1137).

    Maintaining an effective support system between DOD and VA to 
ensure seamless transition and quality services for wounded personnel, 
particularly those suffering from Post Traumatic Stress Disorder (PTSD) 
and Traumatic Brain Injuries (TBI) is important to our membership. De-
stigmatizing these and other mental health conditions is part of this 
and key initiatives should include mental health assessment for all 
servicemembers returning from the combat zone, outreach and family 
support efforts and counseling.
    FRA recommends that this distinguished subcommittee continue 
monitoring the implementation of the wounded warrior programs to 
include periodic oversight hearings to ensure the creation and full 
implementation of a joint electronic health record that will help 
ensure a seamless transition from DOD to VA for wounded warriors, and 
operation of the Wounded Warriors Resource Center as a single point of 
contact for servicemembers, their family members, and primary care 
givers.
                              health care
    Adequately funding health care benefits for all beneficiaries is 
part of the cost of defending our Nation and a recent FRA survey 
indicates that more than 90 percent of all active duty, retired, and 
veteran respondents and most Reserve participants cited health care as 
their top quality-of-life benefit. Accordingly, protecting and/or 
enhancing health care access for all beneficiaries is FRA's top 2009 
legislative priority.
    Health care costs both in the military and throughout society have 
continued to increase faster than the Consumer Price Index (CPI) making 
this a prime target for those wanting to cut the DOD budget. Many 
beneficiaries targeted in recent proposals to drastically increase 
health care fees are those who served prior to enactment of the recent 
pay and benefit enhancements and receive significantly less in retired 
pay than those serving and retiring in the same pay grade with the same 
years of service today. They clearly recall promises made to them about 
the benefit of health care for life in return for a career, and many 
believe they are entitled to ``free'' health care for life based on the 
government's past commitments.
    For these reasons, FRA strongly supports ``The Military Retirees' 
Health Care Protection Act'' (H.R. 816) sponsored by Representatives 
Chet Edwards (TX) and Walter Jones (NC). The legislation would prohibit 
DOD from increasing TRICARE fees, specifying that the authority to 
increase TRICARE fees exists only in Congress.
    DOD must continue to investigate and implement other TRICARE cost-
saving options as an alternative to shifting costs to retiree 
beneficiaries. FRA notes progress in this area in expanding use of the 
mail order pharmacy program, Federal pricing for prescription drugs and 
a pilot program of preventative care for TRICARE beneficiaries under 
age 65, and elimination of co-pays for certain preventative services.
    Imposing higher health care costs especially during war time, would 
send a powerful negative message not only to retirees, but to those 
currently serving about the value of their service. The prospect of 
drastically higher health care fees for retirees is also a morale issue 
with the senior enlisted communities who view this as an erosion of 
their career benefits. Unlike private sector employees, military 
retirees have answered the call to serve, and most have done so under 
extremely difficult circumstances while separated from their families 
to defend the freedoms we enjoy today.
    FRA appreciates this subcommittee's attention to addressing the 
excessively high premiums charged for the TRICARE Reserve Select (TRS) 
program
                           concurrent receipt
    The FRA survey referenced above also indicates that more than 70 
percent of military retirees cite concurrent receipt of military pay 
and VA disability benefits among their top priorities. The Association 
continues its unwavering support for the full concurrent receipt of 
military retired pay and veterans' disability compensation for all 
disabled retirees. Provisions of the National Defense Authorization Act 
for Fiscal Year 2008 reflect continued progress toward this goal and 
FRA appreciates the support of this distinguished subcommittee on this 
issue.
                            active duty pay
    A top quality of life issue for active duty servicemembers is 
adequate pay and this is reflected in the fact that more than 93 
percent (93.3 percent) of active duty respondents to FRA's on line 
survey (highest rating) labeled pay as ``very important.'' From fiscal 
year 1999-fiscal year 2006, Congress provided pay increases 0.5 percent 
above the ECI to close the gap (13.5 percent in 1999) between civilian 
and military pay. In fiscal year 2007 the pay increase was equal to the 
ECI (2.2 percent which was the lowest increase since 1994), and the 
last 2 years this subcommittee provided ECI plus 0.5 percent annual pay 
increases. FRA urges the subcommittee to continue the increases above 
the ECI until the remaining 2.9 percent pay gap is eliminated.
                            bah improvements
    A significant number of enlisted active duty respondents to FRA's 
survey (93.3 percent) indicate that adequate Basic Allowance for 
Housing (BAH) rates are ``very important.'' In addition, housing 
allowances tie with pay as their most important quality of life 
programs.
    Related to this is the need to update the housing standards used to 
establish BAH rates since only married E-9s now qualify for BAH based 
on single family housing costs. The Association notes the proposed BAH 
increase in the fiscal year 2010 budget and continues to advocate for 
legislation authorizing more realistic housing standards, particularly 
for career senior enlisted personnel. As the inventory of military 
housing declines, private contractors are building or refurbishing 
units for occupancy of military personnel and their families. The 
result is a dwindling population living in base housing and a rising 
population who qualify for BAH.
                         adequate end strength
    Prosecuting the war efforts has caused an enormous strain on active 
duty personnel and the Reserve component. Repeated and extended 
deployments are taking a toll on servicemembers and their families and 
the solution to this problem is to ensure adequate end strengths. FRA 
continues to advocate for increased end strengths to meet the demands 
of Operation Iraqi Freedom (OIF), Operation Enduring Freedom (OEF) and 
other operational requirements.
                              repeal redux
    Ten years ago FRA led efforts to repeal the 1986 REDUX retirement 
program formula which led to enactment of legislation authorizing 
personnel choosing that retirement program the option to receive a 
$30,000 career status bonus at the 15-year career mark. Since then many 
enlisted personnel have chosen this option and accepted future capped 
retired pay cost of living adjustments and today average take rate 
among the services is approximately 25 percent. While each individual's 
career situation is unique and servicemembers are certainly entitled to 
make this choice, it's important to note that for most this is probably 
a very bad financial decision since the value of the $30,000 bonus is 
significantly less than it was at the time of enactment. In most 
instances individuals selecting this option are in fact forfeiting 
significant sums of potential retired pay over their lifetimes. FRA 
therefore believes that it's time to repeal the REDUX retirement 
program.
           transferability and the post-september 11 gi bill
    FRA strongly supported the enactment of post-September 11 GI Bill 
last year and appreciates the breadth and scope of the generous new 
education benefits authorized under that program. The Association 
appreciates the recently announced temporary DOD policy exceptions for 
career personnel who will not have the required service time remaining 
to technically quality for transferability options under the new 
program which are designed as career retention incentives. Particularly 
associated with the later transferability options, it's important to 
note the frustration of career servicemembers who recently retired or 
will do so in the coming months who are unable to transfer unused 
benefits to family members. In conjunction with this, FRA believes some 
consideration should be given to these personnel and their families and 
has written to Secretary of Defense Robert Gates, requesting 
consideration of a policy to also allow the transferability of at least 
some unused benefits under previously authorized provisions of the 
Montgomery GI Bill in recognition of their 20 or more years of service.
                  reserve component education benefits
    The Association is grateful for the enactment of the post-September 
11, 2001 GI Bill last year, however benefits authorized under the 
separate Reserve Montgomery GI Bill program are only 25 percent of the 
benefits provided for active duty participants despite the intended 47 
percent to 50 percent level of benefits. FRA urges attention to this 
inequity by authorizing a restoration of the benefits for Selected 
Reserve personnel.
                              paid-up sbp
    Under current law, retirees are no longer required to pay SBP 
premiums after they have paid for 30 years and reach age 70. This 
punishes those who may have entered the service at age 17 or 18 and 
will be required to pay for 33 or 32 years respectively until attaining 
paid-up SBP status. Therefore, FRA supports changing the minimum age 
for paid-up SBP from age 70 to age 67 to ensure that those who joined 
the military at age 17, 18, or 19 and serve 20 years will only have to 
pay SBP premiums for 30 years.
              retention of final full month's retired pay
    FRA urges the subcommittee to authorize the retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) of a military retiree for the month in which the member was 
alive for at least 24 hours. FRA strongly supports ``The Military 
Retiree Survivor Comfort Act'' (H.R. 613), introduced by Rep. Walter 
Jones (NC) which addresses this issue.
    Current regulations require survivors of deceased military retirees 
to return any retirement payment received in the month the retiree 
passes away or any subsequent month thereafter. Upon the demise of a 
retiree the surviving spouse is required to notify the Defense Finance 
and Accounting Service (DFAS) of the death. DFAS then stops payment on 
the retirement account, recalculates the final payment to cover only 
the days in the month the retiree was alive, forwards a check for those 
days to the surviving spouse (beneficiary) and, if not reported in a 
timely manner, recoups any payment(s) made covering periods subsequent 
to the retiree's death.
    The measure is related to a similar pay policy enacted by the 
Department of Veterans Affairs (VA). Congress passed a law in 1996 that 
allows a surviving spouse to retain the veteran's disability and VA 
pension payments issued for the month of the veteran's death. FRA 
believes military retired pay should be no different. This proposal is 
also in response to complaints from surviving spouses who were unaware 
of the notification requirement and those with joint bank accounts, in 
which retirement payments were made electronically, who gave little if 
any thought that DFAS could swoop down on the joint account and recoup 
any overpayments of retirement pay. This action could easily clear the 
account of any funds remaining whether they were retirement payments or 
money from other sources.
    To offset some of the costs, if the spouse is entitled to survivor 
benefit annuities (SBP) on the retiree's death, there will be no 
payment of the annuity for the month the retirement payment is provided 
the surviving spouse.
                                 voting
    The Overseas Vote Foundation released the results of its 2008 Post 
Election UOCAVA (Uniform Overseas Citizens Absentee Voting Act) Voter 
Survey that indicates that 31 percent of experienced overseas voters 
continue to have questions or problems with voting; and that 39 percent 
of overseas voters did not get their ballot until mid-October or later;
    Despite efforts to remedy past problems, voting from overseas is a 
long and cumbersome process and paper ballots from military personnel 
are frequently contested because they arrive late and often without 
postage or a postmark date. The 1986 UOCAVA law and the Help America 
Vote Act (HAVA) of 2002 address voting rights of active duty military 
personnel and all citizens that are outside the country during an 
election. Despite these efforts serious challenges still exist that 
include interfacing and lack of uniformity with State and local 
election officials.
    Electronic communications are secure enough for our Nation's most 
sensitive secrets and for transferring huge sums of money, and FRA 
questions why is it not possible to develop and implement a system for 
the military and overseas Federal employees to vote by secure 
electronic means?
    FRA believes legislation could streamline the current process by 
allowing servicemembers to request and receive an absentee ballot 
electronically but continue to return the signed completed ballot by 
regular mail as is done now. The legislation should also require States 
to identify one State official to administer absentee ballots from 
overseas military rather than county clerks and other local officials; 
limit participation only to military personnel and Federal employees 
overseas; and shift Federal responsibility away from DOD to another 
agency such as the U.S. Election Assistance Commission.
    In recent years, Congress has recognized the need for electronic 
voting for servicemembers who are deployed overseas, and has mandated 
the DOD Federal Voting Assistance Program to administer a pilot program 
for internet voting since 2000. Unfortunately there were technical and 
security challenges and many States and local election jurisdictions 
refused to participate. The Association appreciates the Senate Rules 
and Administration Committee's recent hearing on this issue and seeks 
support for improved active duty voter participation in Federal 
elections and to expedite the military mail processing of overseas 
ballots.
                                 usfspa
    FRA continues to advocate for hearings and the introduction of 
legislation addressing the inequities of the Uniformed Service Former 
Spouses Protection Act (USFSPA). The Association believes that USFSPA 
should be more balanced in its protection for both the servicemember 
and the former spouse and that Congress needs to review and amend it so 
that the Federal Government is required to protect its servicemembers 
against State courts that ignore its provisions.
    FRA has long supported several recommendations in the Department of 
Defense's September 2001 report, which assessed USFSPA inequities and 
offered recommendations for improvement. Last year, the Department sent 
a more extensive list of recommendations to staff of the House and 
Senate Armed Services Committees regarding amending the USFSPA that 
include the following FRA supported provision:

        <bullet> Base former spouse award amount on member's grade/
        years of service at the time of divorce (and not retirement)
        <bullet> Prohibit award of imputed income while still on active 
        duty
        <bullet> Permit designation of multiple SBP beneficiaries
        <bullet> Permit SBP premiums to be withheld from former 
        spouse's share of retired pay if directed by the court

    Few provisions of the USFSPA protect the rights of the 
servicemember, and none are enforceable by the Department of Justice or 
DOD. If a State court violates the right of the servicemember under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the act does not have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the servicemember to appeal to the court, which in 
many cases gives that court jurisdiction over the member. Some State 
courts also award a percentage of veterans' compensation to ex-spouses, 
a clear violation of U.S. law, yet nothing has been done to stop this 
transgression.
    FRA believes Congress needs to take a hard look at the USFSPA with 
the intent to amend it so that the Federal Government is required to 
protect its servicemembers against State courts that ignore provisions 
of the act.
                        reserve early retirement
    FRA believes that the effective date of the early Reserve 
retirement age provision of the NDAA for Fiscal Year 2008 should be 
changed to 7 October 2001. The legislation authorizes a retirement date 
reduction of 3 months for each cumulative 90-days ordered to active 
duty. The FRA supports ``The National Guard and Reserve Retired Pay 
Equity Act'' (S. 644) sponsored by Senator Saxby Chambliss (GA) and 
``The National Guard and Reserve Retired Pay Equity Act'' (S. 831) 
sponsored by Senator John Kerry (Mass.) to allow reservists mobilized 
since 7 October, 2001, to receive credit in determining eligibility for 
receipt of early retired pay.
    Reserve component deployments since September 11, 2001, reflect the 
change from a Strategic Reserve to an Operational Reserve that now 
plays a vital role in the global war on terror. This has resulted in 
more frequent and longer deployments which have had a significant 
impact on individual careers and changing the effective date of the 
Reserve early retirement would help partially offset lost salary 
increases, promotions, 401K, and other benefit contributions. The 
Association urges the subcommittee to make the provision retroactive to 
7 October 2001.
                   mandate travel cost reimbursement
    FRA appreciates the NDAA for Fiscal Year 2008 provision (section 
631) that permits travel reimbursement for weekend drills, not to 
exceed $300, if the commute is outside the normal commuting distance. 
However, the Association urges the subcommittee to make this a 
mandatory provision due to the importance of this issue with many 
enlisted reservists who are forced to travel lengthy distances to 
participate in weekend drill without any reimbursement for travel 
costs. This is a retention and recruitment issue for the Reserves and 
directly related to increased reliance on these personnel in order to 
sustain our war and other operational commitments.
                               conclusion
    FRA is grateful for the opportunity to present these 
recommendations to this distinguished subcommittee. The Association 
reiterates its profound gratitude for the extraordinary progress this 
subcommittee has made in advancing a wide range of military personnel 
benefits and quality-of-life programs for all uniformed services 
personnel and their families and survivors. Thank you again for the 
opportunity to submit the FRA' views on these critically important 
topics.

    Senator Ben Nelson. Thank you.
    Captain Puzon? I hope I am saying that right.

   STATEMENT OF CAPTAIN IKE PUZON, USNR (RET.), DIRECTOR OF 
  LEGISLATION, NAVAL RESERVE ASSOCIATION; AND CO-CHAIR, GUARD/
           RESERVE COMMITTEE, THE MILITARY COALITION

    Captain Puzon. Mr. Chairman and members of the subcommittee 
and staff members, I am honored to be here. We are pleased with 
the Guard and Reserve improvements that you have made in the 
past since September 11, 2001. I will focus on needed 
enhancements and improvements in early retirement, health care 
benefits for Guard and Reserve, and the Montgomery GI Bill 
(MGIB) for Reserve members.
    For early retirement, our number-one goal for Guard and 
Reserve is the passage of legislation establishing September 
11, 2001, as the eligibility start date for Guard and Reserve 
early retirement, as authorized in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008.
    We call upon you to expand the program to include all those 
who have sacrificed for our Nation following the tragedy of 
September 11. More than 710,000 men and women have answered the 
call to Active Duty, protecting our way of life, and are 
serving more than 190,000 multiple tours of duty.
    Unfortunately, most of these tours won't count toward early 
retirement unless Congress authorizes retroactive credit for 
the activations. Ultimately, we need to show commitment to them 
for their increased utilization by addressing the Reserve 
retirement system.
    For health care benefits, to maintain and retain a viable 
operational Reserve Force, health care access for Guard and 
Reserve must match their increased role in the Nation's 
defense. We urge Congress to establish a moratorium on TRICARE 
and TRICARE Reserve Select premium increases. We urge you to 
establish medical and dental care for Guard and Reserve 
members, beginning with the issuance of an alert order and post 
deployment for 180 days.
    We also ask that you review the wounded warrior transition 
assistance and to fully fund the Yellow Ribbon Reintegration 
Programs for post deployment to ensure Guard and Reserve 
members and recently released Active Duty have adequate access 
and treatment for post-traumatic stress disorder and traumatic 
brain injury following separation from Active Duty.
    We believe there should be a close evaluation of the care 
in remote areas. We ask Congress to pass pending legislation to 
allow gray area reservists to purchase TRICARE standard health 
care coverage.
    Regarding the MGIB benefit, we ask that Congress upgrade 
the MGIB to provide increased benefits to Selected reservists. 
We are most grateful to Congress for passage of the post-
September 11 GI bill benefits. However, the MGIB benefits for 
joining the Selected Reserves were not upgraded or integrated. 
We would ask that you restore the basic Reserve MGIB for 
initially joining the Selected Reserves to the benchmark of 
approximately 50 percent of the Active Duty benefit.
    Mr. Chairman, I thank you for the opportunity to present 
the views of TMC and the Association of the United States Navy. 
I will be happy to answer any questions.
    Senator Ben Nelson. Thank you, Captain.
    Ms. Holleman?

 STATEMENT OF DEIRDRE PARKE HOLLEMAN, EXECUTIVE DIRECTOR, THE 
RETIRED ENLISTED ASSOCIATION; AND CO-CHAIR, SURVIVOR COMMITTEE, 
                     THE MILITARY COALITION

    Ms. Holleman. Mr. Chairman, thank you so much for the honor 
of speaking before you on behalf of the survivors of those who 
protected our Nation in the military.
    In the last several years, Congress has made great strides 
in improving the lives of the women, men, and children who were 
left behind and alone when their loved ones died because they 
had served America in uniform. TMC wishes to thank you for all 
you have done, but to urge you to take several more necessary 
steps forward.
    One of TMC's highest legislative goals is to end the SBP-
DIC offset. Senator Bill Nelson of Florida has been the 
champion of this goal in your chamber. In this session of 
Congress, S. 535 already has 45 cosponsors. In the House, 
Representative Ortiz's companion, H.R. 775, has 229 cosponsors. 
We hope that these dramatic numbers indicate that this is the 
year that this unwise benefit structure will be abolished.
    The great majority of the widows who are affected by this 
offset had spouses who served a career in the uniformed 
services and purchased Survivor Benefit Plan (SBP) when they 
retired. They paid a substantial portion of their retired pay 
to assure that if their wives survived them, they would be 
provided for. This is the type of responsible behavior that we 
wish to encourage.
    Clearly, SBP is a deferred employee benefit. But since the 
retiree died of a service-connected disability, something he 
could not responsibly rely would happen, the survivor is also 
entitled to the Department of Veterans Affairs' (VA) Dependency 
and Indemnity Compensation (DIC).
    The other small group of widows who are affected by this 
offset are recent widows whose husbands died on Active Duty 
after Congress created Active Duty SBP. These servicemembers 
qualified for SBP protection by sacrificing their lives.
    For both groups of survivors, one SBP dollar is offset for 
every dollar paid by DIC. The DIC payment this year is $1,154 a 
month. Due to the offset, a survivor will be living on a 
payment of just under $14,000 a year, plus whatever amount, if 
any, remains in SBP for higher rank retirement payments. That 
is not enough to live on or to acknowledge the service and 
sacrifice rendered.
    Congress has, over the last several years, been moving 
toward ending the offset between military retired pay and 
service-connected disability pay. This similar offset should 
also be ended.
    We would briefly like to highlight two additional 
improvements that we urge you to include in the NDAA for Fiscal 
Year 2010. TMC asks that you support H.R. 613, the Military 
Retiree Survivor Comfort Act. This bill would allow a military 
retiree's widow or widower to retain the full retired payment 
for the month in which a member died.
    Now the law requires DOD to immediately remove the full 
month's payment from the couple's shared checking account where 
the payment was electronically deposited and then, at a later 
date, give a prorated payment reflecting how many days the 
member lived in his or her last month. This procedure often 
means that in a most trying month, a widow may unknowingly 
bounce checks or may be unable to pay ongoing bills.
    Changing this would make a terrible time for a survivor 
easier. A statute already requires the VA to allow a widow to 
retain the full last month's service-connected disability 
payment. DOD should do the same for military retirees.
    Finally, we urge you to create an SBP special needs trust. 
The Defense Finance and Accounting Service (DFAS) is not 
presently allowed to issue SBP checks to a trust, only a living 
person. Allowing SBP payments to be deposited in a special 
needs trust would help protect seriously disabled children who 
qualify for SBP payments.
    The recently introduced H.R. 2059 would allow the 
approximately 1,500 children who presently qualify for an SBP 
annuity and who are incapable of self support because of mental 
or physical incapacity to make use of this helpful legal tool. 
We hope this committee will include this improvement in next 
year's NDAA.
    Again, thank you so much for allowing me to address you on 
these important matters. I would be very happy to attempt to 
answer any questions you may have.
    Senator Ben Nelson. Thank you, Ms. Holleman.
    Colonel Strobridge?

STATEMENT OF COL. STEVEN P. STROBRIDGE, USAF (RET.), DIRECTOR, 
GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA; 
              AND CO-CHAIR, THE MILITARY COALITION

    Colonel Strobridge. Mr. Chairman, my portion of the 
Coalition testimony will focus on health care and retirement 
issues.
    For wounded warriors, we urge the committee to consider 
permanent authority for the Senior Oversight Committee, whose 
authority will expire at the end of this year. We are also very 
concerned that the transition from Active Duty to retiree 
TRICARE or to VA coverage catches many wounded warriors and 
their families unaware. They need the same protections that we 
provide when someone dies on Active Duty--3 years of continued 
Active Duty level coverage to ensure a smooth transition.
    We urge a consistent package of training and compensation 
for wounded warriors' full-time caregivers. The Services have 
separate programs in this area. The VA offers very little, and 
caregivers lose virtually all support when the member is 
retired for disability. We owe them a fairer deal.
    Regarding psychological health and traumatic brain injury 
(TBI), DOD and VA are moving out, but most of those efforts 
will take time. In the meantime, we have overwhelming numbers 
who need help now, as we heard earlier on the panel. But many 
still have to wait months for appointments. To us, that is not 
good enough. You asked the right question, what can we do to 
ease this? The answer, I think General Rochelle gave the right 
answer, all of the above, part of which is expanding capacity 
to deliver care.
    On TRICARE fees, we are grateful that the administration 
discontinued the past trend and didn't propose the kind of 
significant fee increases in the fiscal year 2010 budget that 
we have seen in past years. TRICARE costs are inflated by 
unique military requirements and inefficiencies, and DOD has 
lots of options to cut costs without imposing large fee hikes 
on beneficiaries.
    We ask you to put language in this year's NDAA expressing a 
specific sense of Congress that military people pay huge 
upfront premiums through decades of service and sacrifice over 
and above their cash fees. That is something that is not 
acknowledged now, and to us, that is one of the big problems. 
People want to just compare money to money, and they don't 
realize that most of military premiums are paid upfront and 
they are very heavy, indeed.
    DOD surveys show that military beneficiaries are less 
satisfied with their health care than most civilians are. We 
think the Pentagon needs to focus more on fixing TRICARE and 
less on trying to charge more for it.
    On concurrent receipt, we believe military retired pay is 
earned by service and should not be reduced because the 
servicemember happens to also incur a service-caused 
disability. We strongly support the new initiative in the 
President's fiscal year 2010 budget, and we hope as well that 
you will be able to fix the glitch in the Combat-Related 
Special Compensation (CRSC) law that causes some to lose the 
pay that Congress meant for them.
    We are also very concerned about the REDUX retirement 
system and the so-called $30,000 career status bonus that 
entices thousands of unwary members each year to forfeit 
hundreds of thousands of dollars in future retired pay. This 
so-called bonus is tantamount to a lifetime loan against future 
retired pay where the usury is 24 percent annual percentage 
rate for the typical enlisted member and a 35 percent rate for 
the typical officer.
    We would be pleased to explore options with the 
subcommittee staff to better protect servicemembers against 
mortgaging their financial futures.
    Finally, we hope the subcommittee will not support the 10th 
Quadrennial Review of Military Compensation's military 
retirement proposal, which would defer receipt of full retired 
pay until age 58 or later and authorize vesting at 10 years of 
service.
    We believe this civilian-style plan is inappropriate for 
military service conditions. It would take money from people 
who serve a career to pay people who leave early. We think it 
would undermine long-term retention and readiness and prove 
disastrous in a wartime environment like today's when we are so 
desperate to encourage longer service.
    Mr. Chairman, that concludes my remarks and TMC's remarks.
    Senator Ben Nelson. Thank you, Colonel.
    Captain Snyder?

   STATEMENT OF CAPTAIN BRADLEY J. SNYDER, USA (RET.), PAST 
          PRESIDENT, ARMED FORCES SERVICES CORPORATION

    Captain Snyder. Mr. Chairman, not only do I have the 
shortest title, I have a different hat that I am wearing today.
    I am honored to be asked by the staff to come in as an 
unofficial ``official expert'' on helping families over 43 
years since my retirement from my wounds in Vietnam. We have 
had the privilege of being with members of the Active Duty, 
retired, Guard, Reserve, and being able to try to educate them 
on the benefits they have. Then when they transition into 
retirement to help them understand not what they don't have, 
but what they do have.
    The biggest problem, Mr. Chairman, is education. The 
benefits don't come in individual packets. They come in a 
group. Social Security, VA, and SBP are all linked together. 
They have been that way ever since the inception.
    We were privileged to work with the families of the Gander 
air crash, of the Airborne Warning and Control System crash, 
and, of course, the 31 days we spent with the families in the 
Pentagon after the attack on the Pentagon. The understanding of 
benefits by the members of the Armed Forces is very, very 
difficult because of their complexity of the three 
bureaucracies that I just mentioned.
    We have presented a computer program that gives each 
individual family their benefits for the rest of their life if 
their spouse dies. I was very privileged in helping put this 
together. Right now, as far as Active Duty, the Army G-1, 
General Rochelle, has contracted that every single person on 
Active Duty in the Army, Active Duty Army, has their benefits 
up to date every single day.
    They can go online at myarmybenefits, and they can see 
their individual family benefits from Social Security, VA, and 
SBP tied together for them and where they can discuss that with 
their family if they are going to be deployed or if they are 
going to retire. They can ``what if'' if they get promoted, 
``what if'' if they have a child, ``what if'' if they get 
married. How do these benefits all change?
    It is very high tech. It is connected to the Defense 
Enrollment Eligibility Reporting System, so the individual 
doesn't even have to remember all his data. We are very proud 
of that. It is helping, Mr. Chairman, in the education so that 
people understand their benefits and don't get the idea that 
the benefits aren't that good because Congress has been very 
good with the benefits.
    Just to give an example, I have an E-4 that I just helped 
the family with one child. The veteran that was killed was 20 
years old. His spouse is 20 years old. The child is 1 year old. 
When I put all the benefits together and put a stream of 
benefits out to the mortality date of that 20-year-old spouse, 
which means that the assumption is that she lives to receive 
the benefits at 3 percent inflation, the value of the 
collective benefits for her and the child are $2.7 million, 
with a present value of $1.8 million.
    That is not to mention the $500,000 from the 
Servicemembers' Group Life Insurance (SGLI) and the death 
gratuity and also the $41,000 for education benefits from the 
VA. All benefits can always be improved for our families, but 
the basis that is existing now is a very, very good base with 
the law as it is.
    I hope that if my expertise would be able to help answer 
any questions, I am just very honored to be here to try to help 
with that particular task.
    Thank you, sir.
    Senator Ben Nelson. Thank you, and thank you for that 
example.
    We will do 5 minute rounds here.
    You gave us an example of the full range of benefits. How 
does this compare to what might be available in the civilian 
sector? Do you have any comparative information, or would 
anybody else have some comparative information about how the 
benefits that you have just described might compare to the 
civilian industry?
    Captain Snyder. Sir, I don't have any particular knowledge 
on the individual IBMs, General Motors, and all. I can tell you 
that for someone in this category of this rank and capability 
and job description, the benefits would be nowhere near. I know 
officers of corporations that don't have $500,000 worth of 
insurance and things.
    But it is for a different thing. We are here to take care 
of those survivors of those that served, and it is doing a good 
job. Overall, I believe that the military benefits are better 
because they are controlled by the Continuous Process 
Improvement. They increase with inflation, as I said in the 
example I gave of 3 percent inflation.
    Most benefits on the outside, even in my own company, we 
don't have cost of living adjustments. We can't afford it.
    Senator Ben Nelson. That is what I was trying to get 
across. I don't think that this level of benefit is available 
outside at the level you are talking about.
    Colonel Strobridge. Sir, we have done some research on 
this. We think the most comparable group are police and 
firefighters. In large cities with police and firefighters, our 
experience is most of those folks, if a member is killed in the 
line of duty, the survivor gets 100 percent of pay for life.
    Senator Ben Nelson. One hundred percent of pay for life?
    Colonel Strobridge. Yes, sir. I think I would have a little 
bit different opinion. One of the concerns is, and particularly 
when we are talking about the SBP-DIC issue, 94 percent of 
those widows did not get the big cash payments we are talking 
about. They got death gratuities of $3,000.
    They get SGLIs of $50,000, which the member paid for, by 
the way. That is not a gift from the government. The member 
paid a premium for it. That money is long since gone, and these 
widows are living on basically $14,000 a year.
    You can extrapolate that for X number of years in the 
future, and it looks like a big number. That doesn't change the 
fact that it is $14,000 a year. I think everybody in here would 
have a little problem living on that.
    Senator Ben Nelson. Would the benefits, Captain Snyder, for 
the spouse be discontinued upon remarriage?
    Captain Snyder. They are discontinued if remarriage is 
before a certain age. For the VA, it is 57. For the SBP, it is 
55, and for Social Security, it is age 60. But all start back 
up again if that spouse's second marriage terminates for death, 
divorce, or annulment. So that is another feature in there.
    The DIC-SBP is a very emotional issue, and the programs 
were never meant to be individual and draw both. They were 
never meant that way. The costing is based on that. If anything 
can be improved, it is better. But there is a tremendous value 
to each of the benefits that are there now.
    Senator Ben Nelson. Ms. Holleman, could you give us your 
thoughts on the progress we have made, but the progress that 
remains to be made on concurrent receipt? Is that one of the 
areas that you are interested in?
    Ms. Holleman. We are all interested in it.
    Senator Ben Nelson. I know you all are, but I want to make 
sure.
    Ms. Holleman. That was not what I focused on, but I would 
certainly be happy to discuss that. Obviously, we have been 
pushing and everyone here has been hoping that Congress would 
make continued steps, as they have, to end this offset. There 
have been, as this town loves steps, and we have had several 
steps. As Colonel Strobridge said, we were very pleased at the 
administration's proposal concerning Chapter 61 retirees being 
included in concurrent receipt, and that is yet another step. 
We hope that will appear in the NDAA this coming year.
    We hope, indeed, that the final step, which are the people 
at 10 to 40 percent, longevity retirees be included in the 
administration proposal. It is clear that the 10 to 40 percent 
Chapter 61s will, in years 4 and 5, be included. Then the only 
people left out of getting the two appropriate pays would be 
the 10 to 40 percent longevity retirees. It is only honest to 
tell you, I will be back asking for that as well.
    Mr. Barnes. Mr. Chairman?
    Senator Ben Nelson. Yes.
    Mr. Barnes. If I could just clarify, the Fleet Reserve 
Association, as with TMC, has a longstanding objective of full 
concurrent receipt for all disabled military personnel. Retired 
pay and disability pay are paid for different reasons. Retired 
pay for service, disability pay for the physical impact of 
that. That is part and parcel to that policy or our objective 
of full concurrent receipt for all disabled military retirees.
    I appreciate your attention to this and the progress that 
has been made on this issue, and I also concur with Deirdre's 
comments.
    Senator Ben Nelson. I must admit, as we have attempted to 
make the progress and have, it has been much more difficult 
than I think many might assume going into it. But we believe 
that we need to continue to try to make that sort of progress.
    Ms. Holleman. May I add, as Joe has said, both retired pay 
and disability pay are two different payments for two different 
services or events or losses. The same thing is true with SBP 
and DIC.
    Senator Ben Nelson. Senator Graham.
    Senator Graham. Thank you.
    Along those lines, the dilemma we have is that, yes, they 
are two different events. I totally agree with that, but it is 
coming out of one basic pocket here, and that pocket is not 
large enough, in my opinion, to meet all the needs of the 
Active-Duty Forces. It is not sufficient enough to meet growing 
personnel costs from the Active-Duty Reserve side. It is not 
sufficient enough to meet weapons modernization.
    We have a real dilemma as a Nation here. Secretary Gates 
said about curbing the growth of the health care budget in the 
future, he has described it as ``eating the Department alive.'' 
Twelve percent of the entire DOD's budget in 2015 is going to 
be health care costs.
    I have two questions. One is on the quality side, and the 
other is the cost side. We have a TRICARE system, which you are 
all intimately familiar with, and we get conflicting reports 
about the quality of TRICARE. I guess it depends who you ask. I 
thought I would ask you all, the people who use it, how would 
you rate this system? What could we do to improve quality and 
access?
    Then I will ask you a question about cost. How we come to 
grips with this dilemma that the military budget, DOD's 
budget--something has to give here. We either have to get more 
money or do something differently.
    On the quality of TRICARE, from an A to an F, give me your 
thoughts and a short comment as to why you picked whatever you 
did.
    Colonel Strobridge. Yes, sir. I can start since I covered 
health care. I think I would give it a solid C.
    Senator Graham. It got me through school, but I wouldn't 
recommend that. [Laughter.]
    Colonel Strobridge. Yes, sir. You are absolutely right that 
the assessment depends on who you talk to. I think the 
Secretary of Defense himself said, in looking at a recent set 
of surveys that said military people are less satisfied with 
their health care than private sector citizens.
    Senator Graham. Briefly, could you tell me what are the 
major deficiencies you think?
    Colonel Strobridge. I think the primary one, sir, is 
access. There are many people who have great difficulty finding 
a doctor who will accept TRICARE.
    Senator Graham. Is that because of reimbursements?
    Colonel Strobridge. Yes, sir. That is a large part of it. 
There are two reasons. One is the cost of reimbursements. One 
is the administrative hassle associated with TRICARE that 
doctors don't get from other health care systems. Those are the 
two primary things.
    Senator Graham. Anybody else who would like to weigh in 
here?
    Captain Puzon. Yes, sir. From the Guard and Reserve 
perspective, and a personal level. Let me do the Guard and 
Reserve first. The further you get away from the military 
treatment facility, the less they know what TRICARE is and the 
less it is accessed.
    Senator Graham. We provided TRICARE eligibility to Guard 
and reservists years ago.
    Captain Puzon. Right.
    Senator Graham. Has that been helpful to the force?
    Captain Puzon. Oh, yes, sir. Thank you very much for that.
    On a personal level, I would say that I would give it a B 
plus. But again, it comes back to access, people wanting to 
actually take it.
    Senator Graham. Gotcha.
    Mr. Barnes. Senator, I would just add, I concur with the 
comments about access. We hear this, and we are surprised in 
our interactions with Active Duty personnel that they have 
challenges with access, particularly with regard to dependents 
and spouses, and that varies in different places around the 
country.
    I also concur with the reimbursement issues that were 
mentioned here. Overall, I would give it a B to a B minus.
    Senator Graham. Captain Snyder? Ms. Holleman?
    Ms. Holleman. Yes, I agree. I would say B once you get it. 
Again, it is an access question, and it is a complicated 
question. It is a complicated exotic system, and particularly 
for family members. Their dismay is often not about the care 
itself, but all the problems and the hoops to get through and 
understand, and then they move and they have to learn them all 
over again. I think that is a great deal of the difficulty.
    Senator Graham. Captain Snyder?
    Captain Snyder. Sir, I agree with the access problem, but 
personally, I think in a bigger picture, at sometime we are 
going to have to deal with the number of entitlements for 
health care. In this area, I have been very blessed for 43 
years since I retired out of Walter Reed Army Medical Center 
(WRAMC). But I can go to WRAMC. I can go to the VA. I can use 
my TRICARE, which I did. Now I can use Medicare. All those 
programs are operating at the same time.
    I don't know what the answer is. I just know that the 
problems that get rooted into one of the systems like access to 
military treatment facilities once you retire--now I retired 
with a combat disability. So I can always go to WRAMC for those 
areas that I need treatment----
    Senator Graham. But a Category 8 veteran will have a hard 
time doing that, right?
    Captain Snyder. Right. Those other hospitals are there for 
them, but the cost compounds by just having start-up costs for 
all the ones that have to be operated. I am just throwing that 
out as a futuristic thing because I think it is going to come 
around.
    Senator Graham. I have been thinking for a long time that 
when you retire from the military, maybe you should go into a 
VA system that could accommodate more patients and offer more 
services, and it is taking up the military's budget when you 
are talking about down the road, just sort of limit the 
military health care footprint to the Active-Duty Forces and 
their families.
    I don't know if that is the smart thing to do, but you have 
nailed it right there. You have nailed it. Yes?
    Colonel Strobridge. Yes, sir. That is something TMC has 
addressed specifically, and we see great difficulties with 
that.
    Senator Graham. In the current system, it would be almost 
impossible. But somebody has to get a grip on this.
    One last thing, and then I have to go. They tell me that in 
1995, the TRICARE beneficiaries, DOD health care beneficiaries, 
paid 27 percent of their health care cost. Today, it is 12 
percent, and that is what you were getting to, Mr. Chairman. 
The Bush administration had some pretty draconian premium 
increases that were just too much too quick.
    This committee has been working with your groups and others 
to find ways to make health care more efficient. What can we do 
to improve the quality of care? More preventive medicine. 
Before we ask for more money, we have to find savings first.
    Last question, have we accomplished anything on 
streamlining the savings part, and what do we do long term 
about the ever-increasing amount of health care that is coming 
through DOD's budget?
    We have to somehow get ahead of this. I don't know if we 
can maintain 12 percent forever. That is just something that 
has to give eventually, and I want a rational way to get there, 
not putting people at risk or asking more than they can give 
all at one time. What is your view of our reform efforts here?
    Colonel Strobridge. Frankly, sir, I think most of the 
savings efforts have been due to the efforts of this committee.
    Senator Graham. Yes, we have pushed the system. Has it 
worked, I guess, is what I am saying?
    Colonel Strobridge. Some of it has. Certainly the Federal 
pricing for the retail pharmacy, although I am not even sure 
that has been implemented yet. But that will generate big 
savings. That was something, unfortunately, we had to push and 
you had to push to get it done.
    Senator Graham. Yes, and I want to go to the systems and 
say you have to give some before we ask from others.
    Colonel Strobridge. Yes, sir. Getting back to your point 
about the 27 percent, we had a meeting with you 3 years ago.
    Senator Graham. Right.
    Colonel Strobridge. One of the points you made was why 
don't you all get together and talk about the numbers? We have 
been trying ever since. We have never gotten an explanation of 
what went into that 27 percent. We have some difficulties.
    Senator Graham. Mr. Chairman, my time is up. I think this 
is a good area for the committee to keep pushing. To make sure 
that they give us an accounting of this 27 percent and these 
reforms that you gave us that from a user's point of view would 
make this system more efficient. We need to have another 
meeting with DOD officials about cleaning up the program, 
making it more efficient.
    Then, quite frankly, as I told you 3 years ago, there is 
going to come a day when we are going to have to look at the 
population and say, based on the ability to pay, we are going 
to have to pay more down the road.
    Colonel Strobridge. Yes, sir. We have had several of those. 
You remember the list that we gave you. We provided those to a 
bunch of different folks in DOD. Usually they say, ``gee, there 
are some good ideas in here,'' and we don't hear that much. In 
fairness, there have been a couple of them that have been 
implemented.
    Senator Graham. Mr. Chairman, let us reinstitute that whole 
inquiry.
    Colonel Strobridge. Yes, sir.
    Senator Ben Nelson. I might add that when these, as you 
say, draconian increases were being discussed, poor Secretary 
Chu had to engage with us with an awful lot of discussion about 
the absence of strong actuarial morbidity studies to establish 
either the amount of the increase as being actuarially sound or 
what the true actuarial cost should be.
    I do think the whole area needs to be evaluated and 
studied, and there clearly is something wrong if we are moving 
down to a lower--if it is true that we are, that the individual 
is paying less premium percentage for the cost, trending 
downwards, that isn't sustainable. But we need to know whether 
that is the case or not.
    Being told that is one thing. Having actuaries come in and 
establish true what the loss costs are, I think, would be very 
helpful.
    Senator Graham. Thank you for your testimony.
    Senator Ben Nelson. Thank you.
    Ms. Holleman, the use of this trust fund that you made 
reference to, you say something like 1,500?
    Ms. Holleman. That is it. Only 1,500.
    Senator Ben Nelson. Fifteen hundred children. These are 
special needs children of a deceased member, or what do they 
consist of?
    Ms. Holleman. Yes. Usually, that is what it is. The special 
needs trust is a creation really of the Federal Government, but 
then implemented by State governments and the appropriate 
court. You can establish a special needs trust. It protects, 
when I say ``children,'' many of these children are adults. But 
they were children of the servicemember, and they are severely 
disabled.
    The special needs trust protects them in many ways, 
including having the qualification for other programs and care 
that TRICARE does not cover, but that they would be 
disqualified by getting the direct payment or having an 
individual get the direct payment. But they are covered and 
protected.
    Senator Ben Nelson. Would this be for health care, or would 
it be for continuing life care, living expenses?
    Ms. Holleman. Both. But often, for instance, if this is 
somebody who should live in a group home, that is not exactly 
health care.
    Senator Ben Nelson. Living expenses would be, yes.
    Ms. Holleman. Living expenses, certain psychological and 
other programs that are provided that are often means tested by 
the States. The reason that the special needs trust was created 
was to protect that and to allow them to have the benefit of 
the State as well.
    But at this point in time, DFAS just cannot pay to a trust. 
It is not expensive, but it will make huge differences to these 
children.
    Senator Ben Nelson. It doesn't increase the cost. It just 
directs where the expenditure could be made?
    Ms. Holleman. The only increase I could see is that there 
was a Congressional Budget Office report that said it would be 
$88 million in 10 years, and the cost would be, I never get an 
explanation of what Medicaid--I think what the cost would be, 
would be Medicaid.
    Senator Ben Nelson. Oh, I see.
    Ms. Holleman. That, in fact, is what one of the things 
special needs trust is created to allow people to use.
    Senator Ben Nelson. Something I need to learn a little bit 
more about.
    Yes, Captain Snyder?
    Captain Snyder. Sir, I might comment on that because I have 
helped a lot of families with this, and there is the payment of 
a Government entitlement that has to go to an individual. It 
can be deposited into a special needs trust, but the individual 
is going to get the 1099 because it has to go to a human being. 
That is the problem.
    Ms. Holleman. Right.
    Captain Snyder. The other problem is it is not just SBP. It 
is Social Security. Social Security will cause the same 
problem. So if you fix the SBP that it is not part of income to 
go in for this, and then Social Security comes in because the 
child, upon the death of the father, will receive 75 percent of 
the father's benefit, which is greater than his Supplemental 
Security Income benefit. Before we had the SBP law in 1972, 
there was a similar problem with Social Security.
    If you disconnect these three things that are always 
operating on the benefits and you fix one, there is the domino 
theory.
    Senator Ben Nelson. That is something new to me that I know 
about the trust, but I didn't realize that the Government can't 
make that payment directly. So, some authorization?
    Captain Snyder. I think it has been explained to me as the 
legal problem is the trust can change. The human being can't 
change. I mean, unless it dies, that child is going to get the 
benefit.
    I have a 51-year-old right now that his father died, the 
mother had SBP for herself and the child, no problem. The child 
was getting it. Now the mother died in January, so the child is 
getting the SBP, the father's Social Security, and the VA, 
because his death was service-connected of Agent Orange, that 
child is getting about $7,000 a month, and it is too much money 
to have it get into the other benefits.
    But that much from all three of the benefits again is 
paying his costs almost better than Medicaid, but there are 
some things like private picking up, bus transportation, or 
wheelchairs. But the brothers now are saying they have enough 
money to take care of him on their own.
    It is not an easy issue when a Government entitlement is 
trying to go to a nonhuman being.
    Colonel Strobridge. The specific problem with the law, sir, 
is the SBP law explicitly states that SBP can only be paid to a 
natural person. The legislation at hand would add another 
subparagraph that said it could be paid to a special needs 
trust.
    Ms. Holleman. Of course, the special needs trusts are 
watched and administered and protected by the court, the 
surrogate court or the probate court or whatever court the 
State has that handles such things and are very expert in 
handling those matters.
    Senator Ben Nelson. The potential recipient, the 
beneficiary doesn't have the capacity to direct, to sign away 
or authorize the assignment to that trust because they don't 
have the capacity----
    Colonel Strobridge. It is illegal.
    Senator Ben Nelson. --and it is illegal.
    Ms. Holleman. Yes. It is illegal, even if they did.
    Captain Snyder. It is the income of the person that causes 
the problem, and that has to be reported. VA does not count it. 
But Social Security and SBP do, and that is where, again, the 
deposit can go to the trust account. There is no problem with 
getting the money in the trust account. But the 1099 is going 
to go to the human being and not to the trust.
    Senator Ben Nelson. Colonel Strobridge, you may not agree?
    Colonel Strobridge. The DFAS has sent letters to these 
folks----
    Captain Snyder. They can't.
    Colonel Strobridge. --sir, that says they will not deposit 
it in a special needs trust.
    Ms. Holleman. Right.
    Colonel Strobridge. It is illegal. I have a letter, 
multiple letters that say that.
    Senator Ben Nelson. I think that is something we ought to 
take a look at. Certainly, we don't want to see money sent off 
into eight different directions without adequate controls. But 
it does seem that that is a bit behind the times that you can't 
do that.
    Obviously, there are good reasons for it to be directed 
into an account like that, particularly probably less chance of 
somebody intercepting the money. All kinds of other hazards 
that are out there that at least this would be direct deposit, 
and that is a fairly common thing today. It wasn't common maybe 
so many years ago when this was put together.
    We can take a look at that as well, see what we can do to 
at least create the authorization so it is not illegal.
    This is just generally to the panel. What priorities have 
we not raised that you think we should raise? What are we not 
doing that you individually think we should be looking at or 
doing? Quickly, if you could.
    Mr. Barnes. Mr. Chairman, I will lead off here. One of two 
issues that are addressed in the Fleet Reserve Association's 
statement is the voting issue, which is very important. There 
have been some hearings on Capitol Hill with regard to absentee 
ballots.
    Senator Ben Nelson. Oh, yes. I am on that committee.
    Mr. Barnes. That is a very challenging issue. Anyway, that 
is one issue.
    The other issue is reform, needed reform of the Uniformed 
Services Former Spouses Protection Act.
    Thank you for asking.
    Senator Ben Nelson. Thank you.
    Captain Puzon. Yes, sir. I mentioned it, but I want to do 
it again. It is dental coverage for our Guard and reservists 
before they go, mobilize, and afterwards. That is a big issue 
for the Guard and Reserve.
    Colonel Strobridge. One that I would like to add, sir, that 
we have discussed with your staff as a possibility is the 
Active Duty dependent dental plan. That coverage for 
orthodontia has not changed since 2001 or 2002. Obviously, the 
cost of braces are going up. Something to provide for the 
Active Duty families to allow that adjustment would be very 
helpful.
    Captain Snyder. Sir, I think one thing that would help 
surviving children is to release them from the alternative 
minimum tax on the SBP that they get. That is causing dollars 
to not be able to be used for the children. We are trying to 
give money to the children. This was a different type of child, 
although the children do have the money, and they should report 
it for taxation, but not the alternative minimum tax. I think 
that would help them a great deal.
    Senator Ben Nelson. Good point.
    Ms. Holleman, we will let you wrap it up.
    Ms. Holleman. I was going to say, but Captain Snyder said 
it much better than I.
    We are talking about dental. I will throw out the last part 
of the dental. The retiree dental plan, which has been improved 
in the last several years, and we are grateful for it, is still 
completely paid by the members. Any support that could be given 
by the Federal Government would be a great help.
    Senator Ben Nelson. Thank you. You have been very helpful, 
and we appreciate not only the information you have given to us 
here and continue to provide us, but what you do for the men 
and women in uniform and those who have hung up those uniforms.
    We thank you so much for your participation. We appreciate 
it. Thank you.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Roland W. Burris
                         dislocation allowance
    1. Senator Burris. General Rochelle, Admiral Ferguson, General 
Newton, and General Coleman, please clarify your policy regarding 
servicemembers receiving dislocation allowance (DLA) entitlement during 
their final permanent change of station (PCS) move on the occasion of 
their retirement. Why isn't this entitlement extended to servicemembers 
in this category?
    General Rochelle. DLA partially reimburses a member, with or 
without dependents, for the moving in and out expenses incurred when a 
member relocates during a Government-directed PCS move, a move ordered 
at the convenience of the Government, or movement incident to an 
evacuation. Retirement is not a PCS reassignment enforced by the 
Government. The member selects the location prior to retirement and it 
may or may not result in a final move. The retiree is authorized a 
fully funded Government home of selection move to most places in the 
world. Since retirement is not unforeseen nor Government directed, the 
expenses incurred with the setting up of the member's retirement 
location is borne by the member. Therefore, the Army, in accordance 
with the statute, does not authorize DLA to members for their 
retirement move.
    Admiral Ferguson. Consistent with 37 U.S.C. Sec. 407(e), and 
chapter 5 of the Joint Federal Travel Regulations, members are not 
entitled to payment of DLA when ordered from home to the member's first 
duty station, or from the last duty station to the member's home.
    General Newton. Statute prohibits retiring servicemembers from 
receiving a DLA during their final PCS. Specifically, title 37, U.S.C., 
section 407(e) states: ``[a] member is not entitled to payment of a DLA 
. . . from the member's last duty station to the member's home.''
    General Coleman. This entitlement is not extended to servicemembers 
incident to their retirement because, per the law (title 37, section 
407(e)), it is specifically prohibited. It is also not authorized for 
servicemembers who separate. The Marine Corps and the Department of 
Defense (DOD) considered changing the law to allow such an entitlement 
for servicemembers incident to their retirement in the fiscal year 2004 
and fiscal year 2005 Unified Legislative Budget cycles. The Marine 
Corps and DOD decided to not support any such change for the following 
reasons: the high cost to taxpayers with no service return on 
investment, no apparent need, and the inequity it would create unless 
it was implemented so as to also apply to servicemembers who separate 
(who experience similar relocation expenses). The purpose of DLA is to 
partially reimburse servicemembers the expenses they incur in 
relocating their household incident to PCS orders. By partially 
reimbursing a servicemember such expenses, it reduces the 
servicemember's financial burden of a PCS, increases their satisfaction 
with PCS orders, makes them more amenable to PCS orders in the future, 
increases their quality of life, and positively affects retention. No 
such service return on investment is gained for servicemembers who 
retire or separate.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                      permanent change of station
    2. Senator Wicker. Admiral Ferguson, the Navy recently announced a 
hold for the remainder of this fiscal year on PCS moves for 14,000 
sailors who have yet to receive official orders. It is my understanding 
that this is an extremely large quality of life issue as most families 
move over the summer, in between school years, and that the halt in 
duty station changes now means some children will be changing schools 
mid-year.
    During your testimony, you stated that if the House version of the 
fiscal year 2009 supplemental were passed with funding for manpower 
that it would ``cover the Navy's shortfall.'' Does this mean that the 
supplemental will allow the Navy to remove its freeze on PCS moves?
    Admiral Ferguson. Yes. Should funding become available, we will 
immediately restore the full execution of planned PCS moves to the 
greatest extent possible.

    3. Senator Wicker. Admiral Ferguson, looking forward, it is my 
understanding that the PCS freeze was instituted when the Office of the 
Chief of Naval Operations reduced the PCS budget by $92 million and 
applied this funding to the shortfall in the ship repair budget. It is 
also my understanding that all the PCS moves that would have occurred 
this summer are now being postponed until next fiscal year. I find this 
troubling as we have already seen next year's budget and the money 
requested for PCS in fiscal year 2010 is $14 million less than that 
appropriated for fiscal year 2009 ($854 million vs. $868 million) and 
it seems as though we will start fiscal year 2010 with $92 million 
worth of fiscal year 2009 PCS moves to execute. Additionally, the only 
thing listed on the Navy's fiscal year 2010 unfunded list is $395 
million worth of unfunded ship and aviation maintenance. Is the Navy 
going to run into the same shortfall for personnel funding in fiscal 
year 2010?
    Admiral Ferguson. The decision to delay PCS moves was to mitigate a 
shortfall within the Military Personnel, Navy (MP,N) account. This 
shortage was not applied to the shortfall in the ship repair budget. 
This mitigation action was necessary due to end strength over-execution 
caused by higher than anticipated retention and lower than anticipated 
attrition, driven largely by current economic conditions. The PCS delay 
impacts only certain moves. We continue to execute individual augmentee 
moves, accession, and separation moves, selected joint and graduate 
education moves, organizational moves, and other high priority 
readiness moves.
    Should funding become available through the supplemental, we will 
immediately restore the PCS program to the greatest extent possible, 
which would minimize any carry-over unplanned moves for fiscal year 
2010 and reduce the risk of carrying over a funding shortfall.

    4. Senator Wicker. Admiral Ferguson, please explain in detail how 
the Navy plans to prevent this from happening in 2010 and beyond.
    Admiral Ferguson. Navy allocates resources within the MP,N 
appropriation using well-established programming and budgeting 
practices and based upon the best projections and estimates available 
at the time the program and budget are developed. The MP,N program 
supports an executable fiscal year 2010 manpower strategy with the 
necessary funds for ongoing program requirements. However, with 5 
percent of the MP,N account in discretionary funding, Navy has limited 
flexibility to address execution-year adjustments such as our recent 
experience with end strength over-execution caused by higher than 
anticipated retention and lower than anticipated attrition. Given that 
the nature of the MP,N account is to resource people programs, 
execution-year adjustments inevitably impact sailors, their families, 
and the programs that support them. Nonetheless, such adjustments are 
made reluctantly and only after all alternatives for maintaining 
optimum military personnel readiness are carefully evaluated.

    [Whereupon, at 4:27 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2010

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

    SUPPORT FOR MILITARY FAMILY PROGRAMS, POLICIES, AND INITIATIVES

    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room SR-222, Russell Senate Office Building, Senator E. 
Benjamin Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators E. Benjamin Nelson, 
Akaka, Burris, Graham, Chambliss, and Thune.
    Majority staff member present: Gabriella Eisen, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Mary C. Holloway and Brian F. 
Sebold.
    Committee members' assistants present: Ann Premer, 
assistant to Senator Ben Nelson; Nathan Davern, assistant to 
Senator Burris; Adam G. Brake, assistant to Senator Graham; and 
Clyde A. Taylor IV, assistant to Senator Chambliss.

       STATEMENT OF SENATOR E. BENJAMIN NELSON, CHAIRMAN

    Senator Ben Nelson. Good afternoon. I am going to call this 
hearing to order.
    The subcommittee meets today to discuss support for 
military family programs, policies, and initiatives in review 
of the defense authorization request for fiscal year 2010 and 
the Future Years Defense Program.
    More than 1.8 million family members of Active Duty 
servicemembers and 1.1 million dependents of Reserve component 
members make sacrifices each and every day, along with their 
servicemembers. These family members are an integral part of 
the force, and stress on the force affects the overall 
readiness of our Armed Forces.
    Military families often face unique challenges and 
difficulties throughout their loved one's career, including 
frequent relocations and reassignments to bases across the 
country and overseas, as well as the various demands stemming 
from continued deployment of members from every Service.
    The life of a military family member has never been an easy 
one. But in our eighth year of war, families are facing even 
more hardships, and it is clear that they play a very 
significant role in serving our country. Deployments are an 
undeniable strain on families. While a servicemember is away, 
spouses are often forced into the role of a single parent, 
juggling employment, childcare, and household duties each and 
every day, all the while living with the pressure of having a 
family member deployed to a combat zone.
    Deployed servicemembers must be completely focused in 
theater, and they will experience less stress in the field if 
they are assured their families are being well taken care of 
back home.
    It is imperative that families remain as resilient as 
possible in order to provide a stable environment for loved 
ones when they return home from those deployments. Families are 
often the first line of defense against Post-Traumatic Stress 
Disorder (PTSD) and suicide, but may be experiencing similar 
feelings themselves.
    We must ensure that families and servicemembers have timely 
access to mental health resources and programs. We must make 
every dependent aware of the resources available to them to 
assist in everything from financial counseling to job placement 
to accessing quality healthcare and childcare.
    Not only do we need to provide the resources, but we must 
also actively reach out to these families. Even when there are 
programs established, many times people are not able to reach 
out for themselves. In talking with spouses from my home State 
of Nebraska, I know how important it is to them that they have 
base and community support and they are contacted before, 
during, and after a servicemember's deployment. Just a phone 
call or a note to check in is meaningful, and we must encourage 
and support groups that take this sort of initiative.
    In my mind, this outreach provides the kind of family 
support friends or a neighbor would offer. Oftentimes, these 
crucial support networks are missing for military families 
because they are stationed far away from family and friends.
    Of course, deployments are not the only cause for stress 
for military families. Routine training exercise and 
deployments may take airmen and women away from their families 
for flight training and sailors away from their families to be 
aboard ship. Perhaps the biggest nondeployment issue facing 
military families is permanent changes of station.
    Most servicemembers are moved from post to post every few 
years, and some may have to move even more often than that. 
Active duty families know to expect this, but that doesn't 
necessarily make the transition easier. Each time a family 
moves, they must once again arrange for childcare, assist their 
children in transition to a new school, and new healthcare 
providers, and searches for new jobs.
    Additionally, we must not forget our single servicemembers. 
Their needs may be different, but their mothers, fathers, 
sisters, brothers, and children still require support.
    Thousands of military families have taken it upon 
themselves to confront these challenges by volunteering to 
provide critical assistance during deployments to 
servicemembers, their spouses, and children, as well as giving 
vital support to families relocating to a new area. We are very 
lucky to have some of these volunteers with us here today.
    Sadly, many families have made the ultimate sacrifice in 
the loss of a servicemember who proudly defended our Nation, 
and we must think of them as well.
    We in Congress have tried to do our part to help, and have 
made family support programs and initiatives a high priority. 
In recent bills, we have called for the establishment of a 
Department of Defense (DOD) Military Family Readiness Council, 
education, training, and tuition assistance to help spouses 
maintain careers, respite care for parents caring for children 
on their own due to deployment, additional time off for family 
members to prepare for deployment, authorized increased levels 
of Impact Aid for military dependents' education, and 
established and supported the nationwide expansion of the DOD's 
Yellow Ribbon Reintegration Program, which is aimed at helping 
members and families of the Guard and Reserve.
    Just this week, Senators Levin, McCain, Graham, and I 
introduced a Senate resolution, which passed unanimously 
yesterday encouraging the recognition of 2009 as the ``Year of 
the Military Family''. It is my hope that this resolution 
increases awareness of the great sacrifices military families 
make and inspire Americans everywhere to express our 
appreciation.
    But there is still more to do. We have always supported our 
military families, but they need our Nation's support now more 
than ever. I commend the Department and each of the Services 
for placing the support of our military families among their 
top budget priorities this year.
    We look forward to hearing how each Service and DOD plan to 
sustain family readiness and improve support for these military 
family members who bravely serve this Nation alongside their 
servicemembers and what Congress can do to help.
    Now I would like to welcome our ranking member, my good 
friend Senator Lindsey Graham. As always, we are delighted to 
have you here with us today to discuss these critical issues. 
Whether you have been the chair or I have been the chair, we 
have always been able to work together to make this a 
bipartisan subcommittee. It is my pleasure to turn it over to 
you for any opening statements you may want to make.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman.
    One of the joys of being in the Senate is serving on this 
subcommittee. We have Senator Thune here and Senator Akaka, and 
this Personnel Subcommittee is one of the most bipartisan 
places in the Senate. You have done a great job as chairman, 
and I have enjoyed working with you.
    From the family perspective, there is a military saying, 
``One team, one fight.'' You are definitely part of the team, 
and you are definitely in this fight. The families are, in many 
ways, the unsung heroes of this war.
    There are 40,000 Active Duty military personnel, 28,000 
Reserve personnel, and their families in 7 military 
installations throughout South Carolina. I am sure that is true 
of Hawaii, South Dakota, Nebraska. Our National Guard has been 
utilized unlike any time since World War II. Sixty percent of 
our active forces have been deployed, and 46 percent of our 
Reserves have deployed to Iraq or Afghanistan. That is a 
phenomenal number.
    As the soldiers, sailors, airmen, and marines leave, family 
members go to the fight, but just in a different way. In some 
ways, it is harder because they know what is going on with 
them, you don't. That creates its own kind of stress.
    One of the things that I am proud of, working with Senator 
McCain and the chairman here, the GI bill of rights, for the 
first time, is more robust. But for the first time, a career 
member can transfer their benefits to their families. There are 
going to be some family members, sons and daughters of Active 
Duty military members and reservists, that will be able to go 
to college on the military members GI bill of rights. I think 
that really helps families and leverages retired pay.
    Our subcommittee has increased military pay 35 percent 
since 2000. I wish we could have done more, but I think that is 
a recognition that you mean a lot to us. Now you have TRICARE 
for Guard and Reserve families, a real advancement. We have 
improved survivor benefits, increased authorization for 
childcare, reintegration programs for the Guard and Reserve, 
the Wounded Warrior program. A DOD family readiness council has 
been created.
    I appreciate what the President has done in the budget. 
There is some good news in his budget that we have increased 
money available to families. Childcare and family counseling 
has doubled since 2001. Nearly 105,000 members of the Reserve 
and Guard and their families have healthcare coverage through 
TRICARE. The administration has increased family benefits at a 
time when we need it.
    I look forward to hearing from you about what we can do 
better, what we need to do more of, but if nothing else, just 
to say thank you.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator Graham.
    Senator Thune, do you have any opening comments you might 
like to make?
    Senator Thune. Mr. Chairman, thank you for holding this 
hearing and thanks to our panelists, the spouses of our 
military leaders in this country, for being here today and for 
the sacrifices you all make every day.
    There isn't any issue, as Senator Graham mentioned, that we 
deal with that is more important. This is a team fight, and 
there have been a number of things, hopefully, policies, we 
have put in place that have improved just the way in which we 
deal with military families and the way that we value the 
contributions that they make.
    But there is an old saying that the biggest room in the 
house is the room for improvement, and we are always looking 
for things that we can do better to better serve the men and 
women who wear the uniform and defend and protect us.
    I can't tell you how much we appreciate the incredible 
sacrifices that our families make. Thank you for being here 
today.
    Mr. Chairman, thank you for holding what is a very 
important hearing. Thanks.
    Senator Ben Nelson. Thank you.
    Senator Akaka, any opening remarks you might like to make?
    Senator Akaka. Thank you so much, Mr. Chairman. Thank you 
for your leadership and your emphasis on families.
    I would like to say aloha and welcome to our spouses that 
are here today on this panel. Along with your husbands, you are 
also military heroes, heroes for the selfless service that you 
provide and contribute to this great Nation.
    The families, I think, have not been given the focus that 
you should have because you are the ones that really support 
those on the front line and help them in their readiness for 
whatever activity they are facing.
    I would also like to offer my gratitude and thanks to the 
National Military Family Association (NMFA). For over 40 years, 
they have remained committed to supporting and improving the 
lives of our military families. I am so glad you are here. I am 
glad to be here to ask you some questions, and I look forward 
to your testimony.
    Thank you very much, Mr. Chairman.
    Senator Ben Nelson. Thank you, Senator Akaka.
    Without objection, all witness written testimony submitted 
for today's hearing will be included in the record.
    Additionally, we have received statements from the Fleet 
Reserve Association; Ms. Kristina Kaufman Turner, an Army wife 
and military advocate; Ms. Stacy Bannerman, an Army National 
Guard Blue Star wife; and members of the group Military 
Families Speak Out. Without objection, all of these statements 
will be included in the record of this hearing.
    Now it is my pleasure to introduce our first panel. We have 
with us Ms. Sheila L. Casey, wife of General George W. Casey, 
Chief of Staff of our United States Army. It is good to see you 
again, Ms. Casey.
    Ms. Jennifer A. Mancini, wife of Chief Petty Officer Steven 
F. Mancini, United States Navy.
    Ms. Colleen K. Smith, wife of Colonel Andrew H. Smith, 
Commanding Officer, Marine Barracks, Washington, DC, United 
States Marine Corps.
    Ms. Patricia Davis, wife of Chief Master Sergeant James E. 
Davis, the Command Master Chief Sergeant of the 316th Wing at 
Andrews Air Force Base.
    Ms. Kathleen Moakler, Director of Government Relations for 
the NMFA and an Army spouse and mother. We are glad to have you 
back, Ms. Moakler. Nice to see you again.
    First, I want to express our gratitude to each of you and 
each of your spouses because, together, you have proudly served 
our country together, and I express my deep appreciation to all 
of you for taking the time to be here. We look forward to 
hearing from you. There are many issues that are facing 
military families today, and we welcome your very frank 
assessments of the strengths and the weaknesses of the systems 
that are supporting the military families, as well as, 
obviously, any recommendations that you might make to help us.
    We will begin by hearing the opening statements. Following 
that, there will be some questions.
    Ms. Casey, again, thank you for being here, and we will be 
honored to have you start us off this afternoon.

STATEMENT OF SHEILA L. CASEY, WIFE OF GENERAL GEORGE W. CASEY, 
          JR., USA, CHIEF OF STAFF, UNITED STATES ARMY

    Ms. Casey. Mr. Chairman, Senator Graham, and distinguished 
members of this subcommittee, thank you for the opportunity to 
share with you my perspectives and my personal experience as an 
Army spouse for almost 4 decades. I am also the mother of a 
soldier and a long-time Army volunteer.
    I began my Army experience when I married George 39 years 
ago, and like all other Army spouses, I have experienced the 
ups and downs of military life. I have moved quite a bit--23 
times, in fact--and I have seen my husband deploy overseas 
several times, once for 32 months to Iraq. All the while I have 
balanced raising two sons and also having a career of my own.
    Over the last 2 years, I have had the opportunity and 
privilege of traveling with George all over with the United 
States Army, meeting with family members, soldiers, wounded 
warriors, parents, surviving spouses, and their families and 
children.
    I am amazed at what military families and spouses are doing 
on a daily basis. Their self-sacrifice and their dedication are 
awe-inspiring. But I will tell you that in talking with them, I 
have grown increasingly concerned. Army families are stretched, 
and they are stressed. I have often referred to them as the 
most brittle part of the force.
    What I am starting to see as I go around speaking with them 
is that families are so stressed that everything is becoming an 
issue. Things that never seemed to be an issue before are now 
becoming a big deal.
    I am also seeing signs of a force under immense strain, and 
this concerns me greatly. These signs, these indicators include 
cases of domestic violence, child neglect, as well as increases 
in suicides, alcohol abuse, and cases of PTSD.
    We are also seeing slight upticks in our divorce rates, and 
I say slight because what I hear from people is they don't have 
time to get divorced.
    I am also concerned about the family unit, specifically 
keeping them together. I am worried especially about our young, 
newly married Army families. Because with repeated deployments 
bearing down on them, these young families don't have enough 
time together to build strong bonds. They are particularly 
vulnerable to being stressed by the war.
    Actually, what really keeps me awake at night are our 
children. The cumulative effects of repeated deployments by 
their parents, coupled with the stress of daily life in a 
military family, is having an effect on them. That worries me.
    I was up at Fort Drum, and I will never forget this young 
woman who stood, and through her sobs, she talked about her 
fears that her two small children would not know their father, 
who spent so much time deployed. She was particularly concerned 
about the inability for them to attach to him emotionally with 
his military service that keeps him in and out of their lives. 
Quite frankly, the only thing I could do was hold her as she 
cried.
    It is important to recognize that what families are dealing 
with are the cumulative effects of nearly 8 years of war. 
Because it is cumulative, the negative effects are not easily 
reversed. My concern is that we are going to see these things 
appear again later, when families have the time to really 
reintegrate.
    My sense is that more services and support will be needed 
as dwell time increases. We need to be ready for it because if 
we don't stay ahead and in front of these indicators, we won't 
be able to react fast enough.
    I would also like to share with you the three things that I 
hear from Army families everywhere I go. The first is the lack 
of access to quality medical care and mental healthcare. The 
lack of the ability to get appointments, concerns from 
providers who, because of the cost-prohibitive reimbursement 
rates, are not taking TRICARE patients.
    There is a lack of mental healthcare professionals in on-
post facilities, but also in the outlying communities. Many 
have to drive distances to find care, and waiting periods for 
appointments are long.
    Second, there is a widespread concern about the access to 
quality education for our children and our spouses. Initiatives 
like the Interstate Compact, which is signed by many of the 
States that you represent here, and the post-September 11 GI 
bill are helping improve access to education. But there are 
still concerns out there about many of the school districts 
that Army families live in and the problems faced by our high 
school students as they transfer from school to school.
    Third is the issue of spouse employment. Some Army spouses 
are having difficulty finding jobs. Some others find it a 
challenge to transfer their jobs as they move from post to 
post. Those in professions requiring licensing are faced with 
certification tests and fees each time they move. It is an 
added stressor on the family unit.
    Mr. Chairman, the Army has certainly come a long way over 
the years in the level and quality of family support. Over the 
last 4 decades, I have seen family support evolve from a sort 
of informal alliance of spouses helping other spouses to a 
fully-regulated support network made up of family readiness 
groups, family readiness support assistance, and soldier and 
family assistance centers.
    When George and I came into the Army, childcare centers 
were nurseries. Now we have state-of-the-art childcare centers. 
Army community services in the 1970s was nothing more than a 
lending closet. Now it is a full-service organization that 
deals with family advocacy issues, financial readiness support, 
pre- and post-deployment programs, as well as a myriad of 
educational programs that help families acclimate to Army life.
    I have witnessed a culture change with regard to spouses 
working outside of the home. While I have managed to maintain 
my career during most of George's time in the Army, it has not 
always been easy. In the early days, spouses were highly 
discouraged from working outside of the home.
    Mr. Chairman, when George was a youngster and moving from 
post to post with his brothers and sisters, they would throw 
the five of them in the back of the station wagon and move to 
another post. They would be complaining about not wanting to 
leave where they have been. His mother would say to them, 
``Make the best of it.'' Today, Army families are sacrificing 
too much. We can no longer ask them to just make the best of 
it.
    The continued commitment to this All-Volunteer Force is 
just too important to our Nation to leave it to that. It is 
important that we continue our investment in our military 
families.
    Mr. Chairman, members of the committee, thank you very 
much, and thank you for your continued support to the Army and 
especially to our Army families.
    Senator Ben Nelson. Thank you, Ms. Casey.
    Ms. Mancini?

 STATEMENT OF JENNIFER A. MANCINI, WIFE OF CHIEF PETTY OFFICER 
                     STEVEN F. MANCINI, USN

    Ms. Mancini. Chairman Nelson, Senator Graham, and members 
of the subcommittee, thank you for this great honor and 
opportunity to talk about Navy family issues close to my heart.
    My name is Jennifer Mancini. I have stood by my husband for 
17 years with three children, proudly watching him rise through 
the ranks, becoming a Chief Petty Officer, supporting him as he 
pulled away from the pier time and time again on amphibious 
ships and an aircraft carrier, presenting him his newborn 
babies at his homecomings and seeing the pride beam across his 
face, and praying for his safe return from his deployment where 
he patrolled the waterways in Iraq.
    It has been my privilege to serve as an ombudsman for 7 
years with fleet Navy commands and 3 years with expeditionary 
commands. Currently, I serve as force ombudsman for 32,000 
naval expeditionary combat sailors and their families.
    Navy expeditionary warriors stand shoulder-to-shoulder with 
Army, Marines, and National Guard serving in Iraq and 
Afghanistan at the tip of the spear. We face enduring stressful 
operations, fatigue, lack of decompression, and hyper-
vigilance. Some sailors return home with physical wounds. Some 
sailors return home with invisible wounds, and some don't 
return at all.
    Our commands deserve funding for combat-focused family 
readiness programs, including paid positions for our burned-out 
ombudsmen, for embedded mental health professionals, and for 
Navy Fleet and Family Support Programs designed specifically to 
address multiple deployments. This funding will maintain and 
enhance an already extraordinary force.
    Families tell me they are frustrated and concerned with 
budget cutbacks. They wonder if their sailor will receive 
adequate training and supplies required to support the mission. 
Ombudsmen serve 10 to 20 hours a week, not a month, and 
sometimes more. We are tired and need relief and funding for 
paid positions. These concerns directly impact whether a spouse 
will encourage his or her sailor to reenlist.
    As the first ombudsman for Riverine Squadron One, I 
experienced an incredible lack of training and support from 
fleet Navy, due to their lack of understanding for brown water 
sailors and expeditionary capabilities. Our families were 
shocked to see battle gear coming home to their living rooms. 
The unknown was daunting because our sailors were not on ships, 
did not have the same operational tempo (OPTEMPO), and our 
deployments were on land.
    Spouses of explosive ordnance disposal (EOD) sailors also 
experience unique stress. A group of EOD ombudsmen and I 
recently created the EOD mobile dive and salvage unit ``battle 
book'' to specifically address how to support and empower EOD 
families. This is a living document that will be passed forward 
with lessons learned from ombudsman to ombudsman.
    In closing, I offer this quote from one of our spouses. 
After the loss of several of her husband's friends, he called 
her from Iraq stating, ``I am alone and unafraid.'' After the 
call, she thought, ``I am alone and very afraid.'' This 
emphasizes what my testimony is about and why I am here.
    Thank you for this incredible opportunity to speak with you 
about my Navy career and subjects close to my heart. I look 
forward to your questions.
    Senator Ben Nelson. Thank you, Ms. Mancini. Thank you very 
much.
    Ms. Smith?

STATEMENT OF COLLEEN K. SMITH, WIFE OF COLONEL ANDREW H. SMITH, 
   USMC, COMMANDING OFFICER, MARINE BARRACKS, WASHINGTON, DC

    Ms. Smith. Chairman Nelson, Senator Graham, and 
distinguished members of the subcommittee, it is my pleasure to 
appear before you today to discuss issues that are near and 
dear to me, the families of our brave men and women in uniform.
    By way of introduction, I am Colleen Smith, wife of Colonel 
Andrew Smith, United States Marine Corps.
    Today, I would like to talk to you about several issues 
that are important to me--one, maintaining a healthy family 
life for our spouses and our children while our Marines are 
deployed; two, access to quality medical care; and three, the 
vital importance of on-base housing.
    Drew and I have been married for 14 years. In that time he 
has deployed numerous times, and I have lived in 10 different 
homes. Our four children, ranging from ages 13 to 7, have all 
attended multiple schools. Our oldest, Victoria, who is in 
seventh grade, has already attended five different schools.
    At one point, Drew missed three Christmases in 4 years and 
all of our birthdays and anniversaries in that time period. 
Through these experiences, I feel confident that I can speak 
with you today about the needs of our Marine Corps families.
    The frequent overseas deployments that we have all 
experienced since 2001 seem to have become routine. What is not 
routine, however, are the challenges faced by the spouse and 
children who remain behind. As I mentioned, Drew spent 
considerable time deployed in recent years, as well as 3 years 
on recruiting. This has had a huge impact on our children.
    However, answering questions like, ``What will we do if 
something happens to Dad?'' will never become routine. Nor is 
it routine to watch your children cry and fight not to let go 
of their father as he prepares to deploy. While I have been 
through this multiple times, I am not a professional child 
psychologist. I am just trying to be the best mom I can be.
    Access to professional counselors through the DOD 
healthcare system is a necessity for our children and our 
spouses. Dealing with the emotional toll of this ongoing 
conflict is essential if we are going to maintain healthy 
families.
    It is important to note that it is not just our children 
that need this kind of quality counseling. I wrote a note of 
condolence to a friend whose husband was killed by a suicide 
improvised explosive device. The sudden loss of her husband 
left her with the reality that is often thought about, but 
rarely discussed, ``the death of my spouse.''
    In this case, my friend was left with her four children, 
the same ages as mine. It is difficult to think that, at one 
point, it could have just as easily been my husband. Despite my 
sadness for her loss, I still needed to maintain my composure 
for my children.
    This scenario highlights the need for greater access to 
counseling services for spouses as well. We all know how nice 
it is to hear ``it is going to be all right'' at the end of a 
long day. However, we often don't have someone there to tell us 
that. Only if we are in a healthy state of mind ourselves can 
we ensure a healthy, normal outlook for our children.
    Additionally, this kind of counseling needs to be available 
for the spouses and children of our wounded marines as well as 
the ones we have lost. We have done a great job as a Nation in 
reaching out to our servicemembers to increase awareness of 
PTSD, depression, or other conditions. Now is the time to 
expand this benefit to our family members as well.
    We need to establish a program making counseling available 
outside of base hospitals. We envision qualified personnel on 
our base or duty station who you could call and simply say, 
``My son is having nightmares since his dad is deployed,'' and 
they would see him without having to go through multiple layers 
of medical referrals.
    To that end, childcare is a significant issue for the 
mental health of the parent who remains behind. More childcare 
should be available and at low or no cost to our families. A 
respite care type program for a spouse whose marine is deployed 
and has no one around to help would be a tremendous benefit.
    As an example, free childcare at base gyms and fitness 
centers with the idea that exercise can improve attitude, 
increases well-being, and offers socialization. Many spouses 
would like to participate in fitness classes or other 
activities, but do not due to the lack of availability, cost, 
and limitations associated with childcare.
    Hand-in-hand with access to quality counseling for our 
children and spouses is the ever-pressing need for quality 
healthcare. While we appreciate the urgent needs of our 
deployed forces, we, too, have pressing healthcare needs at 
home.
    As you can imagine, with four children, I have made my fair 
share of doctors' visits. As those of you with children 
understand, it isn't always for a single problem. Yet I have 
seen signs in providers' offices that state ``15 minutes per 
appointment'' or ``only one issue will be discussed per 
appointment.''
    It is unacceptable to think that a mother would have to 
bring her child back to a second appointment should they have a 
sore knee and a fever on the same day. It is unacceptable that 
mothers are resorting to emergency room appointments for simple 
matters such as strep throat or an ear infection due to limited 
availability of the same-day appointments.
    The system needs to be more in-tune with the competing 
demands on the time of the spouse who is forced to be a single 
parent while their loved one is deployed.
    Lastly, I would like to touch on the importance of on-base 
housing. Ample and quality housing must be available for 
marines of all ranks. While it is understood that the military 
bases will not have the housing capacity to support all 
personnel assigned, having the opportunity to live on base is 
important and for my family has been the desired option.
    On-base housing affords a degree of security, comfort, and 
stability that cannot be replicated in the civilian market. 
Simply stated, the community of military families cannot be 
underestimated. Regardless of whether one is a junior enlisted 
marine or a field grade officer, I believe servicemembers and 
their families are better able to handle the rigor of military 
life because of the shared bond and network of support.
    Allow me to emphasize one point. The support a spouse 
receives from other spouses is, in a word, invaluable. Whether 
it is a hug when you know your friend's husband is in a hotspot 
and marines are being wounded or killed, or sitting in the 
emergency room with them when their children are sick or 
injured, or watching their children while they are attending to 
other spouses and family members within their unit. This shared 
bond and support network is the foundation upon which military 
spouses build and sustain their service.
    The spirit of mutual support, of shared burden, of 
affection and commitment for a fellow spouse is something that 
is woven throughout each day, each separation, each social 
gathering, each hardship, and each triumph. Living in base 
housing gives us a sense of normalcy, a place where our 
children grow up around other children going through similar 
difficulties with multiple deployments, injuries to their 
friends' fathers, and the like. It is a trusted community where 
we have access to childcare centers, schools, libraries, and 
playgrounds in an enclosed neighborhood.
    In closing, I would like to reiterate that these are just 
three examples of areas where we can work to improve the health 
of our Marine Corps families. In the past 14 years, I have seen 
significant improvements in many of these areas, such as 
improved base housing, the establishment of the Professional 
Family Readiness Officer Program in every Marine Corps unit, 
and the ever-increasing awareness of the toll frequent 
deployments have on our families.
    However, I firmly believe more can be done, and I ask for 
your kind consideration to the thoughts I have presented before 
you today.
    Thank you.
    Senator Ben Nelson. Thank you.
    Ms. Davis?

  STATEMENT OF PATRICIA DAVIS, WIFE OF CHIEF MASTER SERGEANT 
  JAMES E. DAVIS, USAF, COMMAND MASTER CHIEF SERGEANT, 316TH 
                  WING, ANDREWS AIR FORCE BASE

    Ms. Davis. Mr. Chairman, Ranking Member Graham, members of 
the subcommittee, thank you for this opportunity to come before 
you on behalf of Air Force spouses whose loved ones faithfully 
and unselfishly serve our Nation.
    My name is Patricia Davis. I am the spouse of an Active 
Duty member, a mother of two young boys, and a retired Air 
Force veteran of 22 years of service. As such, I am in a unique 
position of having experienced both sides of the military 
family dynamic.
    I recognize the strides that have been made to support the 
military family. However, I find that there are many spouses 
who seem unaware of what support programs are available during 
their spouse's deployment and unaware of where to turn when in 
need of such assistance.
    Direct communication with civilian spouses prior to 
deployment is necessary. Currently, family member's attendance 
at predeployment briefings is optional, and in most cases, 
spouses do not attend. I believe if spouses are put in touch 
with those who provide firsthand support to them before the 
member departs, they are less likely to feel isolated and more 
inclined to seek support and counseling during the deployment 
when it is needed.
    I know support for the military working spouse can be 
challenging. Obtaining reliable and affordable childcare for 
children under 5 years of age is an obstacle for many. Junior 
enlisted spouses are more likely than any other group to be 
unable to work due to this reason. Many spouses who do work 
cannot utilize family support services because they are offered 
during the hours that they work. Flexibility in these support 
programs is key.
    According to the January 2009 Quadrennial Quality of Life 
Review, 59 percent of military spouses are employed or are 
seeking employment. Finding employment after a military move is 
very difficult. Many times military spouses are denied 
employment benefits because they voluntarily left their 
previous job due to military orders.
    There is no standard or State policy, so ability to receive 
unemployment benefits vary depending on the State. I believe a 
military spouse's clause should be added to each State's 
unemployment guidelines to ensure military spouses who leave 
their job because of military orders should be allowed to 
receive the unemployment benefits they are entitled to. So many 
military families rely on two incomes, and in a time of 
transition, such as permanent change of station (PCS) moves, 
withholding monetary benefits isn't the best way to serve our 
military families.
    As a mother, I am deeply concerned about the quality of 
education my children receive. Military moves are especially 
stressful times for the family, and moving to new schools can 
be very difficult for our children.
    This past school year, my children were in the third and 
fifth grade. This is the third school they have attended since 
beginning their academic careers. Increasingly, I see military 
families paying to send their children to private schools due 
to the lack of quality education in the area they are assigned 
to, or they are deciding to home school instead.
    To have our children in one area with quality blue ribbon 
schools and then be reassigned to a location where the schools 
are rated below average is distressing to families. Our kids' 
education should not have to suffer because of military 
obligations. The creation of a school voucher program should be 
considered.
    Also, a school liaison office should be available at every 
Air Force installation if not already available. The school 
liaison office would be an advocate for military children and a 
bridge between the military family and local schools.
    I applaud the Air Force for its commitment to finding new 
ways to support our military families. There are so many 
programs that are working and working well. The military family 
is truly the backbone of the Air Force. I am proud to say I 
served 22 years in the Air Force, and I am just as proud to say 
that I know the Air Force is committed to creating and 
sustaining healthy, well adjusted, and successful families. Go, 
Air Force.
    Thank you.
    Senator Ben Nelson. Thank you, Ms. Davis.
    Ms. Moakler, it is good to have you back. We appreciate 
your being here.

    STATEMENT OF KATHLEEN B. MOAKLER, DIRECTOR, GOVERNMENT 
        RELATIONS, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Thank you, Senator Nelson.
    Good afternoon, Chairman Nelson, Senator Graham, and other 
distinguished members of the subcommittee.
    I would like to take this time to thank you for introducing 
and supporting the resolution that makes 2009 the Year of the 
Military Family. We really, really appreciate that.
    Senator Akaka, thank you for your kind words on the 40th 
birthday of the NMFA.
    Today, I will talk with you about military families, our 
Nation's families. These families serve and sacrifice alongside 
their servicemembers. Some families are experiencing third or 
fourth deployments. Children are growing up with a parent who 
has been in and out of their lives to Iraq, Afghanistan, and 
numerous training locations for months at a time.
    They may spend time in the local child development center 
or youth program. They may have had a chance to talk to a 
Military OneSource counselor if they are having trouble dealing 
with deployment. They could even have attended one of our 
Operation Purple camps. We need to know how our military 
children are handling deployment and what lies ahead for them.
    Our seasoned military spouses have been there, done that. 
They think they know the drill, but each deployment is 
different--a new baby, a difficult adolescent, a sick parent. 
Maybe they find they are just not as resilient as before. Our 
spouses need to know about different resources or programs with 
each deployment.
    While once they could juggle it all, they now realize that 
talking to a counselor may help. Will they be able to find that 
counselor when they need one?
    Some families are new to the military. Fresh from basic 
training, they need to find out about resources and programs 
that are available to them in language they understand, be it 
Spanish or Twitter. Financial training programs can teach them 
why shopping at the commissary can make their paychecks go 
further, and why payday lenders can stop their career in its 
tracks.
    Spouse career advancement programs can provide training and 
skills to help a new spouse find a portable career. Engage 
these young families, and they will become active members of 
our military community.
    Some families support deployed members of the Guard and 
Reserve. They depend on the support services that you have 
provided and they have come to expect through their States and 
regions. The joint family assistance centers, subsidized 
childcare during deployments, access to TRICARE providers and 
mental health counselors when they are far from the flagpole. 
Greater access for families to the Yellow Ribbon program could 
help them learn how to bring their servicemember all the way 
home from the horrors of war and become a whole family again.
    Some families have had to change their plans. When their 
servicemember is severely wounded, ill, or injured, many of 
them have to quit their jobs to journey to the side of their 
loved one to become part of the care team. How can we support 
these caregivers so they can support their servicemember? How 
do we help these families transition to a life that wasn't in 
their plans?
    Some families lose a family member forever. How do we help 
them with their grief? What else can we do to help ensure their 
financial well-being for the long term?
    Some families have children affected by disabilities. How 
can we best support them? How can we help them transition as 
they move from installation to installation, from Active Duty 
to retirement?
    Our association recognizes and appreciates the many 
resources and programs that support our military families 
during this time of war. The need will not go away the day the 
war ends. We believe that it is imperative that these programs 
be included in the regular budget process.
    We hope the Military Family Readiness Council mandated by 
this body 2 years ago will help identify best practices and 
programs and help eliminate overlapping or redundant programs. 
In our written statement, we have identified other ways to 
assist military families, and I will be glad to expand on those 
suggestions should you have questions.
    In military families, one size does not fit all, but they 
are united in their sacrifices and support of their 
servicemembers and our Nation. We ask you to help the Nation 
sustain and support them.
    Thank you.
    [The prepared statement of Ms. Moakler follows:]
               Prepared Statement by Kathleen B. Moakler
    Chairman Nelson and distinguished members of this subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony on the quality of life of military 
families--the Nation's families. You recognize the sacrifices made by 
today's servicemembers and their families by focusing on the many 
elements of their quality of life package: access to quality health 
care, robust military pay and benefits, support for families dealing 
with deployment, and special care for the families of the wounded, ill, 
and injured and those who have made the greatest sacrifice.
    We endorse the recommendations contained in the statement 
previously submitted to this subcommittee by The Military Coalition. In 
this statement, our Association will expand on several issues of 
importance to military families:

          I. Family Readiness
          II. Family Health
          III. Family Transitions
                          i. family readiness
    The National Military Family Association believes policies and 
programs should provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. It is imperative full 
funding for these programs be included in the regular budget process 
and not merely added on as part of supplemental funding. We promote 
programs that expand and grow to adapt to the changing needs of 
servicemembers and families as they cope with multiple deployments and 
react to separations, reintegration, and the situation of those 
returning with both visible and invisible wounds. Standardization in 
delivery, accessibility, and funding are essential. Programs should 
provide for families in all stages of deployment and reach out to them 
in all geographic locations. Families should be given the tools to take 
greater responsibility for their own readiness.
    We appreciate provisions in the National Defense Authorization Acts 
(NDAAs) of the past several years that recognized many of these 
important issues. The increased access to resources and programs 
provided by the Joint Family Support Assistance Program, now offered in 
all states and territories, allows families to receive added help when 
they need it during all cycles of deployment. The Military Family 
Readiness Council held its first informal meeting in December. We feel 
this will be an effective tool in identifying programs that work and in 
helping to eliminate overlapping or redundant programs as the Council 
reviews existing resources for military families. Our Association is 
proud to represent military families as a member of the Council.
Child Care
    The Services--and families--continue to tell us more child care is 
needed to fill the ever growing demand, including hourly, drop-in, 
respite, and after-hour child care. We've heard stories like this:

          Child care facilities on base are beyond compare--for spouses 
        and military members who work nine to five. In our increasingly 
        service-oriented economy, the job I have has me working until 
        at least seven most days, and usually as late as midnight 1 to 
        2 days a week. When my husband deploys or has a stint on second 
        shift, I run out of options quickly. I have been unable to get 
        another, more conventional job in the 2 years I have been in 
        this area . . . there are minimum requirements as to what 
        shifts I need to work to maintain full-time employment at my 
        current workplace, and I cannot have those waived for an entire 
        deployment.

    Innovative strategies are needed to address the non-availability of 
after-hour child care (before 6 a.m. and after 6 p.m.) and respite 
care. We applaud the partnership between the Services and the National 
Association of Child Care Resource and Referral Agencies that provides 
subsidized childcare to families who cannot access installation based 
child development centers. Families often find it difficult to obtain 
affordable, quality care especially during hard-to-fill hours and on 
weekends. Both the Navy and the Air Force have programs that provide 
24/7 care. These innovative programs must be expanded to provide care 
to more families at the same high standard as the Services' traditional 
child development programs. The Army, as part of the funding attached 
to its Army Family Covenant, has rolled out more space for respite care 
for families of deployed soldiers. Respite care is needed across the 
board for the families of the deployed and the wounded, ill, and 
injured. We are pleased that the Services have rolled out more respite 
care for special needs families, but since the programs are new we are 
unsure of the impact it will have on families.
    At our Operation Purple Healing Adventures camp for families of the 
wounded, ill and injured, we were told there is a tremendous need for 
access to adequate child care on or near military treatment facilities. 
Families need the availability of child care in order to attend medical 
appointments, especially mental health appointments. Our Association 
encourages the creation of drop-in child care for medical appointments 
on the Department of Defense (DOD) or Department of Veterans Affairs 
(VA) premises or partnerships with other organizations to provide this 
valuable service.
    Our Association urges Congress to ensure resources are available to 
meet the child care needs of military families to include hourly, drop-
in and increased respite care for families of deployed servicemembers 
and the wounded, ill, and injured.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Our Association is working to meet this pressing need through our 
Operation Purple summer camps. Unique in its ability to reach out and 
gather military children of different age groups, Services, and 
components, Operation Purple provides a safe and fun environment in 
which military children feel immediately supported and understood. Last 
year, with the support of private donors, we achieved our goal of 
sending 10,000 military children to camp. We also were successful in 
expanding the camp experience to families of the wounded and bereaved. 
This year, we expect to maintain those numbers by offering 95 weeks of 
camp in 37 States and territories, as well as conducting several pilot 
family reintegration retreats in the National Parks.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we contracted with the RAND 
Corporation in 2007 to conduct a pilot study aimed at the current 
functioning and wellness of military children attending Operation 
Purple camps and assessing the potential benefits of the OPC program in 
this environment of multiple and extended deployments. The results of 
the pilot study were published last spring and confirmed much of what 
we have heard from individual families. They also highlighted gaps in 
our current knowledge, including how family relationships are affected 
by deployment and reintegration. The study looked at differences in 
child and caregiver experiences based on Service component, such as how 
life is different during deployment for families from the Active 
component compared to those in the Guard or Reserve.
    In May 2008, we embarked on phase two of the project--a 
longitudinal study on the experience of 1,507 families, which is a much 
larger and more diverse sample than included in our pilot study. RAND 
is following these families for 1 year, and interviewing the 
nondeployed caregiver/parent and one child per family between 11 and 17 
years of age at three time points over that year. Recruitment of 
participants has been extremely successful because families are eager 
to share their experiences. RAND is currently gathering information 
from these families for the 6 month follow-up survey. Preliminary 
findings from the first round of surveys provide additional support for 
the pilot study results and identify new areas to investigate. This 
includes examining the relationship between the total months of 
deployment that a family experiences and its association with non-
deployed caregiver's mental health and child's well-being at school and 
at home. In addition, RAND is assessing the impact of reintegration on 
the families and how this varies by a servicemember's rank and Service 
component.
    This study will provide valuable data to inform the future creation 
and implementation of services for children and families. More 
specifically, we hope this study will provide more detailed and clearer 
understanding of the impact of multiple and extended deployments on 
military children and their families. We expect to present the final 
study results in spring 2010.
Dwell Time
    Reintegrating the servicemember back into the family is a critical 
transition for many military families. Unfortunately, high operation 
tempo and multiple training assignments have prevented many 
servicemembers from this needed ``dwell time''. Military families tell 
us they do not have enough time to fully reintegrate as a family before 
the servicemember redeploys. We also hear from family members about 
their frustration of sending their servicemembers back into theater 
when they haven't had enough time to recover mentally or physically 
from the previous deployment.
    Legislation so far introduced to address this issue would track 
dwell time at the unit level, not by servicemember. To preserve the 
physical and mental well-being of the military family unit, all 
servicemembers need time at home.
Military Expansion of FMLA
    Our Association appreciates the work that the Department of Labor 
did on behalf of military families when they crafted the regulations 
for the expansion of the Family and Medical Leave Act included in the 
2008 NDAA. However, we were disappointed that leave allowing family 
members to take care of issues arising out of the deployment was not 
extended to Active Duty families. Active Duty families are struggling 
with the same deployment issues that their Reserve component 
counterparts are--the law should reflect that.
National Guard and Reserve
    Our Association would like to thank Congress for authorizing many 
provisions that affect our Reserve component families, who have 
sacrificed greatly in support of our Nation. We continue to ask 
Congress to fully fund these programs so vital to the quality of life 
of our National Guard and Reserve families.
    The National Military Family Association has long realized the 
unique challenges our Reserve component families face and their need 
for additional support. This need was highlighted in the final report 
from the Commission on the National Guard and Reserves, which confirmed 
what we had always asserted: ``Reserve component family members face 
special challenges because they are often at a considerable distance 
from military facilities and lack the on-base infrastructure and 
assistance available to Active Duty families.'' While citing a robust 
volunteer network as crucial, the report also stated that family 
readiness suffers when there are too few paid staff professionals 
supporting the volunteers.
    Our Association would also like to thank Congress for the 
provisions which allowed for the implementation of the Yellow Ribbon 
Reintegration program which is so crucial to the well-being of our 
Reserve component families. We urge Congress to make the funding for 
this program permanent. We also believe that family members should be 
paid a travel allowance to attend these important reintegration 
programs. Furthermore, DOD and service providers need to move away from 
the one-size-fits-all approach to reintegration which does not work for 
all the Reserve components due to the specific nature of each mission 
and the varying length of deployments.
    Our Association asks Congress to fully fund the Yellow Ribbon 
Reintegration program and other provisions affecting our Reserve 
component families and to move away from the one-size-fits-all approach 
to reintegration.
Military Housing
    Privatized housing is a welcome change for military families and we 
are pleased the NDAA for Fiscal Year 2009 called for an annual report 
that addresses the best practices for executing privatized housing 
contracts. With our depressed economy, increased oversight is critical 
to ensure timely completion of these important projects. Project delays 
negatively impact the quality of life of our families.
    Commanders must be held accountable for the quality of housing and 
customer service in privatized communities. Housing areas remain the 
responsibility of the installation commander even when managed by a 
private company. Services members who are wounded and must move to a 
handicap accessible home or break their lease provisions due to short-
notice PCS orders should not be penalized. Servicemembers should not 
languish on wait lists while civilians occupy housing. While 
privatization contracts permit other nonmilitary occupants for vacant 
units, commanders must ensure that privatized housing is first and 
foremost meeting the needs of the Active Duty population of the 
installation. In some cases, this will require modification or 
renegotiation of contracts. On an aesthetic and health care note, our 
Association asks that a minimum number of nonsmoking quarters be 
designated at each installation. Nonsmokers, especially in multi-family 
dwellings, are being forced to live with second-hand smoke in far too 
many cases. Our Association has received complaints from families who 
are suffering health consequences of living with a neighbor's smoking 
habit. This is unacceptable.
    Our Association feels there needs to be a review of BAH standards. 
While families who live on the installation are better off, families 
living off the installation are forced to absorb more out-of-pocket 
expenses in order to live in a home that will meet their needs. BAH 
standards are based on an outdated concept of what would constitute a 
reasonable dwelling. For example, in order to receive BAH for a single 
family dwelling a servicemember must be an E9. However, if that same 
servicemember lived in military housing, he or she would likely have a 
single family home at the rank of E6 or E7. BAH standards should mirror 
the type of dwelling a servicemember would occupy if government 
quarters were available.
Commissaries and Exchanges
    The commissary is a key element of the total compensation package 
for servicemembers and retirees and is valued by them, their families, 
and survivors. Not only do our surveys indicate that military families 
consider the commissary one of their most important benefits, during 
this economic downturn, many families are returning to the commissary 
to help them reduce their grocery budget. In addition to providing 
average savings of more than 30 percent over local supermarkets, 
commissaries provide an important tie to the military community. 
Commissary shoppers get more than groceries at the commissary. They 
gain an opportunity to connect with other military family members and 
to get information on installation programs and activities through 
bulletin boards and installation publications. Finally, commissary 
shoppers receive nutrition information and education through commissary 
promotions and educational campaigns contributing to the overall health 
of the entire beneficiary population.
    Our Association appreciates the provision included in the NDAA for 
Fiscal Year 2009 allowing the use of proceeds from surcharges collected 
at remote case lot sales for Reserve component members to help defray 
the cost of those case lot sales. This inclusion helps family members, 
not located near an installation partake in the valuable commissary 
benefit.
    Our Association is concerned there will not be enough commissaries 
to serve areas experiencing substantial growth, including those 
locations with servicemembers and families relocated by BRAC. The 
surcharge was never intended to pay for DOD and Service transformation. 
Additional funding is needed to ensure commissaries are built or 
expanded in areas that are gaining personnel as a result of these 
programs.
    The military exchange system serves as a community hub, in addition 
to providing valuable cost savings to members of the military 
community. Equally important is the fact that exchange system profits 
are reinvested in important Morale, Welfare, and Recreation (MWR) 
programs, resulting in quality of life improvements for the entire 
community. We believe that every effort must be made to ensure that 
this important benefit and the MWR revenue is preserved, especially as 
facilities are down-sized or closed overseas. Exchanges must also 
continue to be responsive to the needs of deployed servicemembers in 
combat zones and have the right mix of goods at the right prices for 
the full range of beneficiaries.
Flexible Spending Accounts
    Flexible Spending Accounts have done a great deal to help Federal 
employees and corporate civilian employees defray out-of-pocket costs 
for both their health care and dependent care needs. Our Association 
believes this important program should be extended to military 
servicemembers, and urges Congress to work with DOD to accomplish this 
much needed change. It is imperative that we include Active Duty and 
Selected Reserve members in this cost saving benefit. This benefit 
would put more money into our families' pockets and help defray rising 
health care and child care costs.
    Our Association requests that a flexible spending account benefit 
be extended to military servicemembers.
Financial Readiness
    Financial readiness is a critical component of family readiness. 
Our Association applauds DOD for tackling financial literacy head-on 
with their Financial Readiness Campaign. Financial literacy and 
education must continue to be on the forefront. We are strong 
supporters of the Military Lending Act (MLA). With the depressed 
economy, many families may turn to payday lenders. DOD must continue to 
monitor the MLA and its effectiveness of derailing payday lenders.
    Military banks and credit unions must continue to develop 
alternatives to payday loans. Small dollar, short-term loan products 
through reputable lenders are needed to pull families away from 
predatory lenders. We encourage DOD to continue to educate military 
servicemembers and their families aware of the need to improve their 
money management skills and avoid high cost credit cards and other 
lenders. DOD must continue to monitor high cost, low value financial 
products targeted at military families.
Family Care Plans and Custody Concerns
    As the war has progressed, we hear from servicemembers about 
custody concerns. A frequent scenario is that the servicemember, as 
part of his/her family care plan, places his/her children in the care 
of a noncustodial parent or other family member. The noncustodial 
parent chooses the time of deployment as a time to sue for a change in 
custodial status, often citing abandonment by the servicemember as a 
reason for change. We know that protections for the custodial parent 
can be improved by changes to the Servicemembers' Civil Relief Act, but 
wonder if there is any other relief that might come under the 
jurisdiction of this subcommittee to address the needs of these 
servicemembers. The American Bar Association is trying to address this 
problem as well and is tracking the state initiatives that are 
addressing this issue. We are unsure if better education of the 
servicemember on protecting his/her custodial rights might be the 
answer or if it falls completely in the realm of a state issue. We 
suggest you consider directing DOD to conduct a study on how prevalent 
this problem is for servicemembers and what solutions might be 
implemented.
    We have heard from single parent and dual military families about 
the expenses incurred when they have to relocate their children to 
another location when they are activated for deployment. This issue was 
raised within the Army Family Action Plan process. Servicemembers 
requiring activation of Family Care Plans are not compensated for the 
travel of dependents and shipment of the dependent's household goods. 
Some items such as infant equipment, computers and toys are necessary 
for the emotional and physical well-being of the children in their new 
environment during an already stressful time. Implementation of the 
Family Care Plan should not create additional financial hardship and 
emotional stress on the servicemember and family.
    We recommend that DOD conduct a study on how the deployment affects 
custody arrangements for servicemembers and how these arrangements can 
be protected. We also recommend that changes be made to the DOD Joint 
Travel Regulations to provide for travel and shipment of household 
goods to fulfill the needs of a deploying servicemember's Family Care 
Plan.
                           ii. family health
    Family readiness calls for access to quality health care and mental 
health services. Families need to know the various elements of their 
military health system (MHS) are coordinated and working as a 
synergistic system. Our Association is concerned the DOD military 
health care system may not have all the resources it needs to meet both 
the military medical readiness mission and provide access to health 
care for all beneficiaries. It must be funded sufficiently, so the 
direct care system of military treatment facilities (MTF) and the 
purchased care segment of civilian providers can work in tandem to meet 
the responsibilities given under the TRICARE contracts, meet readiness 
needs, and ensure access for all military beneficiaries.
Military Health System
    Improving Access to Care
    In an interview with syndicated Military Update columnist Tom 
Philpott in December 2008, MG (Dr.) Elder Granger, deputy director of 
TRICARE, gave the MHS an overall grade of ``C-plus or B-minus''. His 
discussion focused on access issues in the direct care system--our 
military hospitals and clinics--reinforcing what our Association has 
observed for years. We have consistently heard from families that their 
greatest health care challenge has been getting timely care from their 
local military hospital or clinic. In previous testimony before this 
subcommittee we have noted the failure of MTFs to meet TRICARE Prime 
access standards and to be held accountable in the same way as the 
TRICARE contractors are for meeting those standards in the purchased 
care arena.
    In discussions with families the main issues are: access to their 
Primary Care Managers (PCM); getting appointments; getting someone to 
answer the phone at central appointments; having appointments available 
when they finally got through to central appointments; after hours 
care; getting a referral for specialty care; being able to see the same 
provider or PCM; and having appointments available 60, 90, and 120 days 
out in our MTFs. Families familiar with how the MHS referral system 
works seem better able to navigate the system. Those families who are 
unfamiliar experienced delays in receiving treatment or decide to give 
up on the referral process and never obtain a specialty appointment.
    Case management for military beneficiaries with special needs is 
not consistent across the MHS, whether within the MTFs or in the 
purchased care arena. Thus, military families end up managing their own 
care. The shortage of available health care providers only adds to the 
dilemma. Beneficiaries try to obtain an appointment and then find 
themselves getting partial health care within the MTF, while other 
health care is referred out into the purchased care network. Meanwhile, 
the coordination of the military family's care is being done by a non-
synergistic health care system. Incongruence in the case management 
process becomes more apparent when military family members transfer 
from one TRICARE region to another and is further exasperated when a 
special needs family member is involved. Each TRICARE Managed Care 
Contractor has created different case management processes. There needs 
to be a seamless transition and a warm handoff between TRICARE regions 
for these families and the establishment of a universal case management 
process across the MHS.
    Our wounded, ill, and injured servicemembers, veterans, and their 
families are assigned case managers. In fact, there are many different 
case managers: Federal Recovery Coordinators (FRC), Recovery Care 
Coordinators, each branch of Service, TBI care coordinators, VA 
liaisons, etc. The goal is for a seamless transition of care between 
and within the two governmental agencies: DOD and the VA. However, with 
so many to choose from, families often wonder which one is the 
``right'' case manager. We often hear from families, some who have long 
since been medically retired with a 100 percent disability rating or 
others with less than 1 year out from date-of-injury, who have not yet 
been assigned a FRC. We need to look at whether the multiple, layered 
case managers have streamlined the process, or have only aggravated it. 
Our Association still finds these families alone trying to navigate a 
variety of complex health care systems trying to find the right 
combination of care. Many qualify for and use Medicare, VA, DOD's 
TRICARE direct and purchased care, private health insurance, and State 
agencies. Does this population really need all of these different 
systems of receiving health care? Why can't the process be streamlined?
    TRICARE
    While Congress temporarily forestalled increases over the past 2 
years, we believe DOD officials will continue to support large 
increased retiree enrollment fees for TRICARE Prime combined with a 
tiered system of enrollment fees, the institution of a TRICARE standard 
enrollment fee and increased TRICARE Standard deductibles. Two reports, 
the Task Force on the Future of the Military Health Care and The Tenth 
Quadrennial Review of Military Compensation Volume II, recently 
recommended the same.
    We acknowledge the annual Prime enrollment fee has not increased in 
more than 10 years and that it may be reasonable to have a mechanism to 
increase fees. With this in mind, we have presented an alternative to 
DOD's proposal should Congress deem some cost increase necessary. The 
most important feature of our proposal is that any fee increase be no 
greater than the percentage increase in the retiree cost-of-living 
adjustment (COLA). If DOD thought $230/$460 was a fair fee for all in 
1995, then it would appear that raising the fees simply by the 
percentage increase in retiree pay is also fair. We also suggest it 
would be reasonable to adjust the TRICARE Standard deductibles by tying 
increases to the percentage of the retiree annual COLA. We stand ready 
to provide more information on this issue if needed.
    Support for Special Needs Families
    We applaud Congress and DOD's desire to create a robust health care 
and educational service for special needs children. But, these robust 
services do not follow them when they retire. We encourage the Services 
to allow these military families the opportunity to have their final 
duty station be in an area of their choice. We suggest the Extended 
Care Health Option (ECHO) be extended for 1 year after retirement for 
those already enrolled in ECHO prior to retirement.
    There was discussion last year by Congress and military families 
regarding the ECHO program. The NDAA for Fiscal Year 2009 included a 
provision to increase the cap on certain benefits under the ECHO 
program to $36,000 per year for training, rehabilitation, special 
education, assistive technology devices, institutional care and under 
certain circumstances, transportation to and from institutions or 
facilities, because certain beneficiaries bump up against it. The ECHO 
program was originally designed to allow military families with special 
needs to receive additional services to offset their lack of 
eligibility for State or federally provided services impacted by 
frequent moves. We suggest that before making any more adjustments to 
the ECHO program, Congress should direct DOD to certify if the ECHO 
program is working as it was originally designed and has been effective 
in addressing the needs of this population. We need to make the right 
fixes so we can be assured we apply the correct solutions.
    National Guard and Reserve Member Family Health Care
    National Guard and Reserve families need increased education about 
their health care benefits. We also believe that paying a stipend to a 
mobilized National Guard or Reserve member for their family's coverage 
under their employer-sponsored insurance plan may prove to be more 
cost-effective for the government than subsidizing 72 percent of the 
costs of TRICARE Reserve Select for National Guard or Reserve members 
not on active duty.
    TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. As the 111th Congress takes up Medicare legislation, we 
request consideration of how this legislation will impact military 
families' health care, especially access to mental health services.
    National provider shortages in the psychological health field, 
especially in child and adolescent psychology, are exacerbated in many 
cases by low TRICARE reimbursement rates, TRICARE rules, or military-
unique geographic challenges--for example large populations in rural or 
traditionally underserved areas. Many psychological health providers 
are willing to see military beneficiaries on a voluntary status. 
However, these providers often tell us they will not participate in 
TRICARE because of what they believe are time-consuming requirements 
and low reimbursement rates. More must be done to persuade these 
providers to participate in TRICARE and become a resource for the 
entire system, even if that means DOD must raise reimbursement rates.
    We have heard the main reason for the VA not providing health care 
and psychological health care services is because they cannot be 
reimbursed for care rendered to a family member. However, the VA is a 
qualified TRICARE provider. This allows the VA to bill for services 
rendered in their facilities to a TRICARE beneficiary. There may be a 
way to bill other health insurance companies as well. The VA needs to 
look at the possibility for other methods of payments.
    Pharmacy
    We caution DOD about generalizing findings of certain beneficiary 
pharmacy behaviors and automatically applying them to our Nation's 
unique military population. We encourage Congress to require DOD to 
utilize peer-reviewed research involving beneficiaries and prescription 
drug benefit options, along with performing additional research 
involving military beneficiaries, before making any recommendations on 
prescription drug benefit changes, such as co-payment and tier 
structure changes for military servicemembers, retirees, their 
families, and survivors.
    We appreciate the inclusion of Federal pricing for the TRICARE 
retail pharmacies in the NDAA for Fiscal Year 2008. However, we need to 
examine its effect on the cost of medications for both beneficiaries 
and DOD. Also, we will need to see how this potentially impacts the 
overall negotiation of future drug prices by Medicare and civilian 
private insurance programs.
    We believe it is imperative that all medications available through 
TRICARE Retail Pharmacy (TRRx) should also be available through TRICARE 
Mail Order Pharmacy (TMOP). Medications treating chronic conditions, 
such as asthma, diabetes, and hypertension should be made available at 
the lowest level of co-payment regardless of brand or generic status. 
We agree with the recommendations of The Task Force on the Future of 
Military Health Care that over-the-counter drugs be a covered pharmacy 
benefit and there be a zero co-pay for TMOP Tier 1 medications.
    National Health Care Proposal
    Our Association is cautious about current rhetoric by the 
administration and Congress regarding the establishment of a national 
health care insurance program. As the 111th Congress takes up a 
national health care insurance proposal, we request consideration of 
how this legislation will also impact TRICARE, military families' 
access to health care, and especially recruitment and retention of our 
servicemembers at a time of war.
    DOD Must Look for Savings
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:

        <bullet> requiring the Comptroller General to audit MTFs on a 
        random basis until all have been examined for their ability to 
        provide quality health care in a cost-effective manner;
        <bullet> creating an oversight committee, similar in nature to 
        the Medicare Payment Advisory Commission, which provides 
        oversight to the Medicare program and makes annual 
        recommendations to Congress. The Task Force on the Future of 
        Military Health Care often stated it was unable to address 
        certain issues not within their charter or the timeframe in 
        which they were commissioned to examine the issues. This 
        Commission would have the time to examine every issue in an 
        unbiased manner; and
        <bullet> establishing a Unified ``Joint'' Medical Command 
        structure, which was recommended by the Defense Health Board in 
        2006.
    Our Association does not support the recommendation of the Task 
Force on the Future of Military Health Care to carve out one regional 
TRICARE contractor to provide both the pharmacy and health care 
benefit. We agree a link between pharmacy and disease management is 
necessary, but feel this pilot would only further erode DOD's ability 
to maximize potential savings through TMOP. We were also disappointed 
to find no mention of disease management or a requirement for 
coordination between the pharmacy contractor and Managed Care Support 
Contractors in the Request for Proposals for the new TRICARE pharmacy 
contract. The ability certainly exists for them to share information 
bidirectionally and should be established.
    Our Association believes optimizing the capabilities of the 
facilities of the direct care system through timely replacement of 
facilities, increased funding allocations, and innovative staffing 
would allow more beneficiaries to be cared for in the MTFs, which DOD 
asserts is the most cost effective. The Task Force made recommendations 
to make the DOD MHS more cost-efficient which we support. They conclude 
the MHS must be appropriately sized, resourced, and stabilized; and 
make changes in its business and health care practices.
    Our Association suggests this subcommittee DOD reassess the 
resource sharing program used prior to the implementation of the T-Nex 
contracts and take the steps necessary to ensure Military Treatment 
Facilities (MTF) meet access standards with high quality health care 
providers.
    We also suggest this subcommittee direct the Department to make 
case management services more consistent across the direct and 
purchased care segments of the MHS.
    Our Association recommends a 1 year transitional Active Duty ECHO 
benefit for the family members of servicemembers who retire.
    We believe tying increases in TRICARE enrollment fees to the 
percentage increase in the Retiree COLA is a fair way to increase 
beneficiary cost shares should Congress deem an increase necessary.
    We oppose DOD's proposal to institute a TRICARE Standard enrollment 
fee and believe Congress should reject this proposal because it changes 
beneficiaries' entitlement to health care under TRICARE Standard to 
just another insurance plan.
    Our Association strongly believes an enrollment fee for TFL is not 
appropriate.
    We believe that Reserve component families should be given the 
choice of a stipend to continue their employer provided care during 
deployment.
Behavioral Health Care
    Our Nation must help returning servicemembers and their families 
cope with the aftermaths of war. DOD, VA, and State agencies must 
partner in order to address behavioral health issues early in the 
process and provide transitional mental health programs. Partnering 
will also capture the National Guard and Reserve member population, who 
often straddle these agencies' health care systems.
    Full Spectrum of Care
    As the war continues, families' need for a full spectrum of 
behavioral health services--from preventative care to stress reduction 
techniques, to individual or family counseling, to medical mental 
health services--continues to grow. The military offers a variety of 
psychological health services, both preventative and treatment, across 
many agencies and programs. However, as servicemembers and families 
experience numerous lengthy and dangerous deployments, we believe the 
need for confidential, preventative psychological health services will 
continue to rise. It will also remain high for some time even after 
military operations scale down.
    Access to Behavioral Health Care
    Our Association is concerned about the overall shortage of 
psychological health providers in TRICARE's direct and purchased care 
network. DOD's Task Force on Mental Health stated timely access to the 
proper psychological health provider remains one of the greatest 
barriers to quality mental health services for servicemembers and their 
families. While families are pleased more psychological health 
providers are available in theater to assist their servicemembers, they 
are disappointed with the resulting limited access to providers at 
home. Families are reporting increased difficulty in obtaining 
appointments with social workers, psychologists, and psychiatrists at 
their MTFs and clinics. The military fuels the shortage by deploying 
some of its child and adolescent psychology providers to combat zones. 
Providers remaining at home report they are overwhelmed by treating 
Active Duty members and are unable to fit family members into their 
schedules. This can lead to compassion fatigue, creating burnout and 
exacerbating the provider shortage problem.
    We have seen an increase in the number of psychological health 
providers joining the purchased care side of the TRICARE network. 
However, the access standard is 7 days. We hear from military families 
after accessing the psychological health provider list on the 
contractor's Web sites that the provider is full and no longer taking 
patients. The list must be up-to-date in order to handle real time 
demands by families. We need to continue to recruit more psychological 
health providers to join the TRICARE network and we need to make sure 
we specifically add those in specialty behavioral health care areas, 
such as child and adolescence psychology and psychiatrists.
    Families must be included in mental health counseling and treatment 
programs for servicemembers. Family members are a key component to a 
servicemember's psychological well-being. We recommend an extended 
outreach program to servicemembers, veterans, and their families of 
available psychological health resources, such as DOD, VA, and State 
agencies. Families want to be able to access care with a psychological 
health provider who understands or is sympathetic to the issues they 
face.
    Frequent and lengthy deployments create a sharp need in 
psychological health services by family members and servicemembers as 
they get ready to deploy and after their return. There is also an 
increase in demand in the wake of natural disasters, such as hurricanes 
and fires. We need to maintain a flexible pool of psychological health 
providers who can increase or decrease rapidly in numbers depending on 
demand on the MHS side. Currently, Military Family Life Consultants and 
Military OneSource counseling are providing this type of service for 
military families on the family support side. We need to make the 
Services, along with military family members, more aware of resources 
along the continuum. We need the flexibility of support in both the MHS 
and family support arenas.
    Availability of Treatment
    Do DOD, VA, and State agencies have adequate psychological health 
providers, programs, outreach, and funding? Better yet, where will the 
veteran's spouse and children go for help? Many will be left alone to 
care for their loved one's invisible wounds resulting from frequent and 
long combat deployments. Who will care for them when they are no longer 
part of the DOD health care system?
    The Army's Mental Health Advisory Team (MHAT) IV report links 
reducing family issues to reducing stress on deployed servicemembers. 
The team found the top non-combat stressors were deployment length and 
family separation. They noted soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment and 
the level of combat was the major contribution for their psychological 
health status upon return. These reports demonstrate the amount of 
stress being placed on our troops and their families.
    Our Association is especially concerned with the scarcity of 
services available to the families as they leave the military following 
the end of their activation or enlistment. Due to the servicemember's 
separation, the families find themselves ineligible for TRICARE, and 
are very rarely eligible for healthcare through the VA. Many will 
choose to locate in rural areas lacking available psychological health 
providers. We need to address the distance issues families face in 
finding psychological health resources and obtaining appropriate care. 
Isolated servicemembers, veterans, and their families do not have the 
benefit of the safety net of services and programs provided by MTFs, VA 
facilities, Community-Based Outpatient Centers and Vet Centers. We 
recommend:

        <bullet> using alternative treatment methods, such as 
        telemental health;
        <bullet> modifying licensing requirements in order to remove 
        geographic practice barriers that prevent psychological health 
        providers from participating in telemental health services 
        outside of a VA facility; and
        <bullet> educating civilian network psychological health 
        providers about our military culture as the VA incorporates 
        Project Hero.
    National Guard and Reserve Members
    The National Military Family Association is especially concerned 
about fewer mental health care services available for the families of 
returning National Guard and Reserve members as well as servicemembers 
who leave the military following the end of their enlistment. They are 
eligible for TRICARE Reserve Select, but as we know, National Guard and 
Reserve members are often located in rural areas where there may be no 
mental health providers available. Policy makers need to address the 
distance issues that families face in linking with military mental 
health resources and obtaining appropriate care. Isolated National 
Guard and Reserve families do not have the benefit of the safety net of 
services provided by MTFs and installation family support programs. 
Families want to be able to access care with a provider who understands 
or is sympathetic to the issues they face. We recommend the use of 
alternative treatment methods, such as telemental health; increasing 
mental health reimbursement rates for rural areas; modifying licensing 
requirements in order to remove geographic practice barriers that 
prevent mental health providers from participating in telemental health 
services; and educating civilian network mental health providers about 
our military culture.
    Wounded, Ill, and Injured Families
    When designing support for the wounded, ill, and injured in today's 
conflict, our Association believes the government, especially DOD, VA, 
and State agencies, must take a more inclusive view of military and 
veterans' families. Those who have the responsibility to care for the 
wounded servicemember must also consider the needs of the spouse, 
children, parents of single servicemembers, siblings, and other 
caregivers. Family members are an integral part of the health care team 
and recovery process.
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded servicemembers and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA health care providers 
because they tend to the needs of the servicemembers and the veterans 
on a regular basis. Their daily involvement saves DOD, VA, and State 
agency health care dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured services members who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The Vet Centers are an available resource for veterans' families 
providing adjustment, vocational, and family and marriage counseling. 
The VA health care facilities and the community-based outpatient 
clinics (CBOCs) have a ready supply of mental health providers, yet 
regulations restrict their ability to provide mental health care to 
veterans' families unless they meet strict standards. Unfortunately, 
this provision hits the veteran's caregiver the hardest. We recommend 
DOD partner with the VA to allow military families access to mental 
health services. We also believe Congress should require the VA, 
through its Vet Centers and health care facilities to develop a 
holistic approach to care by including families when providing mental 
health counseling and programs to the wounded, ill, or injured 
servicemember or veteran.
    The Defense Health Board has recommended DOD include military 
families in its mental health studies. We agree. We encourage Congress 
to direct DOD to include families in its Psychological Health Support 
survey; perform a pre and post-deployment mental health screening on 
family members (similar to the PDHA and PDHRA currently being done for 
servicemembers); and sponsor a longitudinal study, similar to DOD's 
Millennium Cohort Study, in order to get a better understanding of the 
long-term effects of war on our military families.
    Children
    Our Association is concerned about the impact deployment and/or the 
injury of the servicemember is having on our most vulnerable 
population, children of our military and veterans. Multiple deployments 
are creating layers of stressors, which families are experiencing at 
different stages. Teens especially carry a burden of care they are 
reluctant to share with the non-deployed parent in order to not ``rock 
the boat.'' They are often encumbered by the feeling of trying to keep 
the family going, along with anger over changes in their schedules, 
increased responsibility, and fear for their deployed parent. Children 
of the National Guard and Reserve members face unique challenges since 
there are no military installations for them to utilize. They find 
themselves ``suddenly military'' without resources to support them. 
School systems are generally unaware of this change in focus within 
these family units and are ill prepared to lookout for potential 
problems caused by these deployments or when an injury occurs. Also 
vulnerable, are children who have disabilities that are further 
complicated by deployment and subsequent injury of the servicemembers. 
Their families find stress can be overwhelming, but are afraid to reach 
out for assistance for fear of retribution to the servicemember's 
career. They often choose not to seek care for themselves or their 
families.
    The impact of the wounded, ill, and injured on children is often 
overlooked and underestimated. Military children experience a 
metaphorical death of the parent they once knew and must make many 
adjustments as their parent recovers. Many families relocate to be near 
the treating Military Treatment Facility (MTF) or the VA Polytrauma 
Center in order to make the rehabilitation process more successful. As 
the spouse focuses on the rehabilitation and recovery, older children 
take on new roles. They may become the caregivers for other siblings, 
as well as for the wounded parent. Many spouses send their children to 
stay with neighbors or extended family members, as they tend to their 
wounded, ill, and injured spouse. Children get shuffled from place to 
place until they can be reunited with their parents. Once reunited, 
they must adapt to the parent's new injury and living with the ``new 
normal.''
    We encourage partnerships between government agencies, DOD, VA, and 
State agencies and recommend they reach out to those private and 
nongovernmental organizations who are experts on children and 
adolescents. They could identify and incorporate best practices in the 
prevention and treatment of mental health issues affecting our military 
children. We must remember to focus on preventative care upstream, 
while still in the Active Duty phase, in order to have a solid family 
unit as they head into the veteran phase of their lives. School systems 
must become more involved in establishing and providing supportive 
services for our Nation's children.
    Caregivers
    In the seventh year of the global war on terror, care for the 
caregivers must become a priority. Our Association hears from the 
senior officer and enlisted spouses who are so often called upon to be 
the strength for others. We hear from the health care providers, 
educators, rear detachment staff, chaplains, and counselors who are 
working long hours to assist servicemembers and their families. They 
tell us they are overburdened, burnt out, and need time to recharge so 
they can continue to serve these families. These caregivers must be 
afforded respite care; given emotional support through their command 
structure; and, be provided effective family programs.
    Education
    The DOD, VA, and State agencies must educate their health care and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
servicemember's condition. They must be able to deal with polytrauma--
Post-Traumatic Stress Disorder (PTSD) in combination with multiple 
physical injuries. We need more education for civilian health care 
providers on how to identify signs and symptoms of mTBI and PTSD.
    The families of servicemembers and veterans must be educated about 
the effects of mTBI and PTSD in order to help accurately diagnose and 
treat the servicemember/veteran's condition. These families are on the 
``sharp end of the spear'' and are more likely to pick up on changes 
attributed to either condition and relay this information to their 
health care providers.
    Reintegration programs
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information; education 
on identifying mental health, substance abuse, suicide, and traumatic 
brain injury; and encouraging them to seek assistance when having 
financial, relationship, legal, and occupational difficulties.
    Successful return and reunion programs will require attention over 
the long term, as well as a strong partnership at all levels between 
the various mental health arms of DOD, VA, and State agencies.
    DOD and VA need to provide family and individual counseling to 
address these unique issues. Opportunities for the entire family and 
for the couple to reconnect and bond must also be provided. Our 
Association has recognized this need and is piloting two family 
retreats in the National Parks to promote family reintegration 
following deployment.
    We recommend an extended outreach program to servicemembers, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey; perform a pre and post-deployment 
mental health screening on family members (similar to the PDHA and 
PDHRA currently being done for servicemembers); and sponsor a 
longitudinal study, similar to DOD's Millennium Cohort Study, in order 
to get a better understanding of the long-term effects of war on our 
military families.
    We recommend the use of alternative treatment methods, such as 
telemental health; increasing mental health reimbursement rates for 
rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    Caregivers must be afforded respite care; given emotional support 
through their command structure; and, be provided effective family 
programs.
Wounded Servicemembers Have Wounded Families
    Our Association asserts that behind every wounded servicemember and 
veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured servicemember must also consider the 
needs of the spouse, children, parents of single servicemembers and 
their siblings, and the caregivers. We appreciate the inclusion in the 
NDAA for Fiscal Year 2008 Wounded Warrior provision for health care 
services to be provided by the DOD and VA for family members. DOD and 
VA need to think proactively as a team and one system, rather than 
separately; and addressing problems and implementing initiatives 
upstream while the servicemember is still on Active Duty status.
    Reintegration programs become a key ingredient in the family's 
success. In the spring of 2008, our Association held a focus group 
composed of wounded servicemembers and their families to learn more 
about issues affecting them. Families find themselves having to 
redefine their roles following the injury of the servicemember. They 
must learn how to parent and become a spouse/lover with an injury. Each 
member needs to understand the unique aspects the injury brings to the 
family unit. Parenting from a wheelchair brings a whole new challenge, 
especially when dealing with teenagers. Parents need opportunities to 
get together with other parents who are in similar situations and share 
their experiences and successful coping methods. Our Association 
believes we need to focus on treating the whole family with programs 
offering skill based training for coping, intervention, resiliency, and 
overcoming adversities. Injury interrupts the normal cycle of 
deployment and the reintegration process. We must provide opportunities 
for the entire family and for the couple to reconnect and bond, 
especially during the rehabilitation and recovery phases. We piloted a 
Operation Purple Healing Adventures camp to help wounded servicemembers 
and their families learn to play again as a family and plan one more in 
the summer of 2009.
    Brooke Army Medical Center (BAMC) has recognized a need to support 
these families by expanding in terms of guesthouses co-located within 
the hospital grounds and a family reintegration program for their 
Warrior Transition Unit. The on-base school system is also sensitive to 
issues surrounding these children. A warm, welcoming family support 
center located in guest housing serves as a sanctuary for family 
members. The DOD and VA could benefit from looking at successful 
programs like BAMC's which has found a way to embrace the family unit 
during this difficult time.
    Transitioning for the Wounded and Their Families
    Transitions can be especially problematic for wounded, ill, and 
injured servicemembers, veterans, and their families. The DOD and the 
VA health care systems, along with State agency involvement, should 
alleviate, not heighten these concerns. They should provide for 
coordination of care, starting when the family is notified that the 
servicemember has been wounded and ending with the DOD, VA, and State 
agencies working together, creating a seamless transition, as the 
wounded servicemember transfers between the two agencies' health care 
systems and, eventually, from Active Duty status to veteran status.
    Transition of health care coverage for our wounded, ill, and 
injured and their family members is a concern of our Association. These 
servicemembers and families desperately need a health care bridge as 
they deal with the after effects of the injury and possible reduction 
in their family income. We have created two proposals. Servicemembers 
who are medically retired and their families should be treated as 
active duty for TRICARE fee and eligibility purposes for 3 years 
following medical retirement. This proposal will allow the family not 
to pay premiums and be eligible for certain programs offered to active 
duty, such as ECHO for 3 years. Following that period, they would pay 
TRICARE premiums at the rate for retirees. Servicemembers medically 
discharged from Service and their family members should be allowed to 
continue for 1 year as active duty for TRICARE and then start the 
Continued Health Care Benefit Program (CHCBP) if needed.
    Caregivers
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. The VA has made a strong effort in 
supporting veterans' caregivers. The DOD should follow suit and expand 
their definition. Caregivers of the severely wounded, ill, and injured 
services members have a long road ahead of them. In order to perform 
their job well, they must be given the skills to be successful. This 
will require the caregiver to be trained through a standardized, 
certified program, and appropriately compensated for the care they 
provide. The time to implement these programs is while the 
servicemember is still on Active Duty status.
    Our Association proposes that new types of financial compensation 
be established for caregivers of injured servicemembers and veterans 
that could begin while the hospitalized servicemember is still on 
active duty and continue throughout the transition to care under the 
VA. This compensation should recognize the types of medical and non-
medical care services provided by the caregiver, travel to appointments 
and coordinating with providers, and the severity of injury. It should 
also take into account the changing levels of service provided by the 
caregiver as the veteran's condition improves or diminishes or needs 
for medical treatment changes. These needs would have to be assessed 
quickly with little time delay in order to provide the correct amount 
of compensation. The caregiver should be paid directly for their 
services, but the compensation should be linked to training and 
certification paid for by the VA and transferrable to employment in the 
civilian sector if the care is no longer needed by the servicemember. 
Our Association looks forward to discussing details of implementing 
such a plan with members of this subcommittee.
    Consideration should also be given to creating innovative ways to 
meet the health care and insurance needs of the caregiver, with an 
option to include their family. Perhaps, caregivers of severely injured 
servicemembers or veterans can be given the option of buying health 
insurance through the Federal Employees Health Benefit Program or 
through enrollment in CHAMPVA. A mechanism should also be established 
to assist caregivers who are forced out of the work force to save for 
their retirements, for example, through the Federal Thrift Savings 
Plan.
    There must be a provision for transition for the caregiver if the 
caregiver's services are no longer needed, chooses to no longer 
participate, or is asked by the veteran to no longer provide services. 
The caregiver should still be able to maintain health care coverage for 
1 year. Compensation would discontinue following the end of services/
care provided by the caregiver.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve health care education and provide needed training 
and resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for themselves. Caregivers' responsibilities 
start while the servicemember is still on active duty.
    Relocation Allowance
    Active Duty servicemembers and their spouses qualify through the 
DOD for military orders to move their household goods (known as a 
Permanent Change of Station (PCS)) when they leave the military 
Service. Medically retired servicemembers are given a final PCS move. 
Medically retired married servicemembers are allowed to move their 
family; however, medically retired single servicemembers only qualify 
for moving their own personal goods.
    The National Military Family Association is requesting the ability 
for medically retired single servicemembers to be allowed the 
opportunity to have their caregiver's household goods moved as a part 
of the medical retired single servicemember's PCS move. This should be 
allowed for the qualified caregiver of the wounded servicemember and 
the caregiver's family (if warranted), such as a sibling who is married 
with children or mom and dad. This would allow for the entire 
caregiver's family to move, not just the caregiver. The reason for the 
move is to allow the medically retired single servicemember the 
opportunity to relocate with their caregiver to an area offering the 
best medical care, rather than the current option that only allows for 
the medically retired single servicemember to move their belongings to 
where the caregiver currently resides. The current option may not be 
ideal because the area in which the caregiver lives may not be able to 
provide all the health care services required for treating and caring 
for the medically retired servicemember. Instead of trying to create 
the services in the area, a better solution may be to allow the 
medically retired servicemember, their caregiver, and the caregiver's 
family to relocate to an area where services already exist.
    The decision on where to relocate for optimum care should be made 
with the FRC (case manager), the servicemember's medical physician, the 
servicemember, and the caregiver. All aspects of care for the medically 
retired servicemember and their caregiver shall be considered. These 
include a holistic examination of the medically retired servicemember, 
the caregiver, and the caregiver's family for, but not limited to, 
their needs and opportunities for health care, employment, 
transportation, and education. The priority for the relocation should 
be where the best quality of services is readily available for the 
medically retired servicemember and his/her caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    Medical Power of Attorney
    We have heard from caregivers of the difficult decisions they have 
to make over their loved one's bedside following an injury. We support 
the Traumatic Brain Injury Task Force recommendation for DOD to require 
each deploying servicemember to execute a Medical Power of Attorney and 
a Living Will.
    Provide transitioning wounded, ill, and injured servicemembers and 
their families a bridge of extended Active Duty TRICARE eligibility for 
3 years, comparable to the benefit for surviving spouses.
    Caregivers of the wounded, ill, and injured must be provided with 
opportunities for training, compensation, and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the servicemember.
    DOD should require each deploying servicemember to execute a 
Medical Power of Attorney and a Living Will.
    Servicemembers medically discharged from service and their family 
members shall be allowed to continue for 1 year as Active Duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Senior Oversight Committee
    Our Association is appreciative of the provision in the NDAA for 
Fiscal Year 2009 continuing the DOD/VA Senior Oversight Committee (SOC) 
for an additional year. We understand a permanent structure is in the 
process of being established and manned. We urge Congress to put a 
mechanism in place to continue to monitor DOD and VA's partnership 
initiatives for our wounded, ill, and injured servicemembers and their 
families, while this organization is being created.
    The National Military Family Association encourages the Armed 
Services Committee along with the Veterans' Affairs Committee to talk 
on these important issues. We can no longer be content on focusing on 
each agency separately because this population moves too frequently 
between the two agencies, especially our wounded, ill, and injured 
servicemembers and their families.
    We would like to thank you again for the opportunity to provide 
information on the health care needs for the servicemembers, veterans, 
and their families. Military families support the Nation's military 
missions. The least their country can do is make sure servicemembers, 
veterans, and their families have consistent access to high quality 
mental health care in the DOD, VA, and within network civilian health 
care systems. Wounded servicemembers and veterans have wounded 
families. The caregiver must be supported by providing access to 
quality health care and mental health services, and assistance in 
navigating the health care systems. The system should provide 
coordination of care with DOD, VA, and State agencies working together 
to create a seamless transition. We ask Congress to assist in meeting 
that responsibility.
                        iii. family transitions
    Our Association will promote policies and access to programs 
providing training and support for families during the many transitions 
they experience.
Survivors
    In the past year, the Services have been focusing on outreach to 
surviving families. In particular, the Army's SOS (Survivor Outreach 
Services) program makes an effort to remind these families that they 
are not forgotten. DOD and the VA must work together to ensure 
surviving spouses and their children can receive the mental health 
services they need, through all of VA's venues. New legislative 
language governing the TRICARE behavioral health benefit may also be 
needed to allow TRICARE coverage of bereavement or grief counseling. 
The goal is the right care at the right time for optimum treatment 
effect. DOD and the VA need to better coordinate their mental health 
services for survivors and their children.
    We ask that the Active Duty TRICARE dental benefit be extended to 
surviving children to mirror the Active Duty TRICARE medical benefit to 
which they are now eligible. We also ask that eligibility be expanded 
to those Reserve component family members who had not been enrolled in 
the Active Duty TRICARE dental benefit prior to the servicemember's 
death.
    Our Association recommends that surviving children be allowed to 
remain in the TRICARE dental program until they age out of TRICARE 
eligibility and that eligibility be expanded to those Reserve component 
survivors who had not been enrolled prior to the servicemember's 
death.. We also recommend that grief counseling be more readily 
available to survivors.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the servicemember's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service connected disability, their 
survivor becomes eligible for DIC.
    Surviving Active Duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the servicemember was alive 
and on active duty. The percentage of loss is even greater for 
survivors whose servicemembers served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We appreciate the establishment of a special survivor indemnity 
allowance as a first step in the process to eliminate the DIC offset to 
SBP.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. The government should be 
able to switch SBP payments to children if a surviving spouse is 
convicted of complicity in the member's death.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career servicemember and spouse. We 
also request that SBP benefits be allowed to be paid to a Special Needs 
Trust in cases of disabled family members.
Spouse Employment, Unemployment
    Our Association appreciates the expansion of the Military Spouse 
Career Advancement Accounts. We look forward to the rollout and full 
implementation of the expanded program and hope that the definition of 
``portable careers'' is broad enough to support the diverse military 
spouse population. To further spouse employment opportunities, we 
recommend an expansion to the Workforce Opportunity Tax Credit for 
employers who hire spouses of Active Duty and Reserve component 
servicemembers, and to provide tax credits to military spouses to 
offset the expense in obtaining career licenses and certifications when 
servicemembers are relocated to a new duty station within a different 
state.
    Our Association appreciates the 2008 Executive Order of 
Noncompetitive Appointment of Certain Military Spouses, but we are 
concerned that this will only assist a limited number of military 
spouses. We are also concerned this Executive Order has not yet been 
made effective. Many noncompetitive positions are temporary or term 
positions that will not afford the military spouse the opportunity to 
continue in Federal service when they move to a new duty station. 
Military spouses seek Federal employment due to the job stability and 
opportunities for employment as they move from one location to another.
    Our Association urges Congress recognize the value of military 
spouses by expanding the military spouse hiring preference beyond the 
DOD to the entire Federal Government.
Families on the Move
    Our Association is concerned about the timely implementation of the 
Defense Personal Property Program, formerly titled ``Families First.'' 
Worldwide rollout is still incomplete and it is unclear if customer 
satisfaction surveys are incorporated into the carrier ranking process. 
Full Replacement Value has been rolled out, but is handled differently 
by each carrier. Families are confused about how and where to file 
claims. Congressional oversight is needed to press for implementation 
of this program and deliver the best possible service to our families.
    Our Association is grateful for the addition of the weight 
allowance for spousal professional materials. We ask that Congress 
broaden the language to require the Service Secretaries to implement 
this much needed benefit.
    A PCS move to an overseas location can be especially stressful. 
Military families are faced with the prospect of being thousands of 
miles from extended family and living in a foreign culture. At many 
overseas locations, there are insufficient numbers of government 
quarters resulting in the requirement to live on the local economy away 
from the installation. Family members in these situations can feel 
extremely isolated; for some the only connection to anything familiar 
is the local military installation. Unfortunately, current law permits 
the shipment of only one vehicle to an overseas location, including 
Alaska and Hawaii. Since most families today have two vehicles, they 
sell one of the vehicles.
    Upon arriving at the new duty station, the servicemember requires 
transportation to and from the place of duty leaving the military 
spouse and family members at home without transportation. This lack of 
transportation limits the ability of spouses to secure employment and 
the ability of children to participate in extra curricular activities. 
While the purchase of a second vehicle alleviates these issues, it also 
results in significant expense while the family is already absorbing 
other costs associated with a move. Simply permitting the shipment of a 
second vehicle at government expense could alleviate this expense and 
acknowledge the needs of today's military family.
    Our Association requests that Congress ease the burden of military 
PCS moves on military families by pressing for the full implementation 
of the Defense Personal Property Program and by authorizing the 
shipment of a second vehicle for families assigned to an overseas 
location on accompanied tours.
Education of Military Children
    While our Association remains appreciative for the additional 
funding you provide to civilian school districts educating large 
numbers of military children, DOD Impact Aid still remains underfunded. 
We urge Congress to increase funding for schools educating large 
numbers of military children to $60 million for fiscal year 2010. We 
also encourage you to make the additional funding for school districts 
experiencing growth available to all school districts experiencing 
significant enrollment increases and not just to those districts 
meeting the current 20 percent enrollment threshold. The arrival of 
several hundred military students can be financially devastating to any 
school district, regardless of how many of those students the district 
already serves. This supplement to Impact Aid is vital to school 
districts that have shouldered the burden of ensuring military children 
receive a quality education despite the stresses of military life.
    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
further and further away from the installation. Thus, military children 
may be attending school in districts whose familiarity with the 
military lifestyle may be limited. Educating large numbers of military 
children will put an added burden on schools already hard-pressed to 
meet the needs of their current populations. With over 70,000 military 
families returning to the United States, at the same time the Army is 
moving over one third of its soldiers within the U.S., we urge Congress 
to authorize an increase in this level of funding until BRAC and Global 
Rebasing moves are completed.
    Although it does not fall under the purview of this Subcommittee, 
we thank Congress for passing the Higher Education Opportunity Act of 
2008, which contained many new provisions affecting military families. 
Chief among them was a provision to expand in-State tuition eligibility 
for military servicemembers and their families. Under this provision, 
colleges and universities receiving Federal funding under the act will 
be required to offer in-State tuition rates for Active Duty 
servicemembers and their families and provide continuity of in-State 
rates if the servicemember receives orders for an assignment out of 
state. However, family members have to be currently enrolled in order 
to be eligible for continuity of in-State tuition. Our Association is 
concerned that this would preclude a senior in high school from 
receiving in-State tuition rates if his or her family PCS's prior to 
matriculation. We urge Congress to amend this provision.
    Our Association congratulates the DOD Office of Personnel and 
Readiness and the Council of State Governments (CSG) for drafting the 
Interstate Compact on Educational Opportunity for Military Children and 
for spearheading the adoption of this important legislation. Designed 
to alleviate many of the transition issues facing military children, 
the Compact has now been adopted in 20 States. In addition, Hawaii has 
a Compact bill awaiting their Governor's signature, and 11 other States 
are working active legislation this year. With 10 States needed to 
enact the Compact, the first meeting of the Interstate Commission on 
Educational Opportunity for Military Children met in October 2008. Our 
Association is pleased to have been a member of both the Advisory Group 
and Drafting Team, and has been working actively to support the 
adoption of this Compact, which will greatly enhance the quality of 
life of our military children and families.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million to help districts better meet the additional demands caused by 
large numbers of military children, deployment-related issues, and the 
effects of military programs and policies. We also ask Congress to 
allow all school districts experiencing a significant growth in their 
military student population due to BRAC, Global Rebasing, or 
installation housing changes to be eligible for the additional funding 
currently available only to districts with an enrollment of at least 20 
percent military children.
Spouse Education
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program, with the 
generosity of donors who wish to help military families. In 2007, we 
published Education and the Military Spouse: The Long Road to Success, 
based on spouse scholarship applicant survey responses, identifying 
education issues and barriers specific to military spouses. The entire 
report may be found at www.nmfa.org/education.
    The survey found military spouses, like their servicemembers and 
the military as a whole, value education and set education goals for 
themselves. Yet, military spouses often feel their options are limited. 
Deployments, the shortage of affordable and quality child care, 
frequent moves, the lack of educational benefits and tuition assistance 
for tuition are discouraging. For military spouses, the total cost of 
obtaining a degree can be significantly higher than the cost for 
civilian students. The unique circumstances that accompany the military 
lifestyle have significant negative impacts upon a spouse's ability to 
remain continuously enrolled in an educational program. Military 
spouses often take longer than the expected time to complete their 
degrees. More than one-third of those surveyed have been working toward 
their goal for 5 years or more. The report offers recommendations for 
solutions that Congress could provide:

        <bullet> Ensuring installation education centers have the 
        funding necessary to support spouse education programs and 
        initiatives,
        <bullet> Providing additional child care funding to support 
        child care needs of military spouse-scholars,
        <bullet> Helping to defray additional costs incurred by 
        military spouses who ultimately spend more than civilian 
        counterparts to obtain a degree.

    Our Association wishes to thank Congress for passing the Post-
September 11 G.I. Bill for servicemembers and for including 
transferability of the benefit to spouses and children. We will 
continue to monitor the implementation of this benefit, and hope to see 
the regulations posted soon.
Military Families--Our Nation's Families
    We thank you for your support of our servicemembers and their 
families and we urge you to remember their service as you work to 
resolve the many issues facing our country. Military families are our 
Nation's families. They serve with pride, honor, and quiet dedication. 
Since the beginning of the war, government agencies, concerned citizens 
and private organizations have stepped in to help. This increased 
support has made a difference for many servicemembers and families, 
yet, some of these efforts overlap while others are ineffective. In our 
testimony, we believe we have identified improvements and additions 
that can be made to already successful programs while introducing 
policy or legislative changes that address the ever changing needs of 
our military population. Working together, we can improve the quality 
of life for all these families.

    Senator Ben Nelson. Thank you, Ms. Moakler.
    We will do a 5-minute question round. Ranking Member Graham 
has another engagement in a little bit so we will ask him to go 
first.
    Senator Graham. Thank you, Mr. Chairman. I appreciate that 
courtesy.
    Starting with Ms. Casey and going across the panel, give a 
grade to TRICARE from an A to an F.
    Ms. Casey. Boy, that is a tough one. I would say C minus.
    Senator Graham. Ma'am?
    Ms. Mancini. From my personal experience, a B.
    Ms. Smith. I would have to agree with Ms. Casey--C, C 
minus.
    Ms. Davis. I would have to say B.
    Ms. Moakler. I have a two-parter. Quality of care, B. 
Access to care, C minus.
    Senator Graham. That is great. Everybody kind of agreed on 
that?
    We are trying to get more providers. But the cost of 
military healthcare in the budget is exploding like it is 
throughout the private sector, and we are just going to have to 
get our hands around this and find a system that can provide 
better quality and have more providers. That is tough because 
of the reimbursements. We will just keep doing the best we can.
    The voucher idea, that is the first I have heard of that, 
actually. Ms. Davis, that was the vouchers when you move from 
one school. Starting with Ms. Casey, do you agree that would be 
a good idea?
    Ms. Casey. Yes, actually, I hear that a lot when I go 
because people are concerned about the quality of the schools, 
where they are necessarily bused off base to outlying schools, 
what ones they end up in. I have been asked that question also, 
if we couldn't have vouchers where then you would have a 
choice.
    Senator Graham. Ms. Mancini?
    Ms. Mancini. Yes. I agree completely. I think that would be 
a great idea to be able to allow these families to have an 
adequate school for their children.
    Senator Graham. Ms. Smith?
    Ms. Smith. I agree. Our children, we live here on Capitol 
Hill, and our four children go to a private school.
    Senator Graham. On the mental health side, we got the 
message. It is just a capacity problem. We are trying. There 
are just not that many people available. It is a problem. The 
ones in the mental health professions in the military are being 
worn out. They deploy, too.
    We are going to try to come up with a new program to home 
grow some mental health professionals, to get some people who 
are in the military to make a career change. We got the 
message. It is just a capacity problem, and it is just hard to 
fill these slots.
    I want you to know that the committee is working on that. 
Through the Wounded Warrior program, we have learned, that is a 
big problem, providing mental health services, and now to the 
families themselves.
    Ms. Casey, you mentioned something about spouses who are 
licensed professionals or needing licensing to work. Is there 
any reciprocity program that DOD has if you move from one State 
to the other because you are a DOD family member you can get 
reciprocity?
    Ms. Casey. No. But I do know that the Department of Labor 
has a pilot program going right now where up to $3,000 can be 
covered. We found we have that with lawyers, with some 
teachers, with some----
    Senator Graham. Nurses.
    Ms. Casey.--medical personnel that when they move, and some 
of them, they have to take tests.
    Senator Graham. Mr. Chairman, that is something maybe the 
committee could look at. It would make it easier for spouses 
who move to get jobs not to have to go through the 
qualifications as long as they are overall qualified.
    Thank you for your service. We got the message. On-base 
housing, we are looking at privatizing housing because of 
money. I do understand the value of on-base housing. You have 
Guard and Reserve members who are far away from a military 
base, and trying to get them services is its own unique 
challenge.
    Thank you very much. It has been very helpful, very 
educational, and the committee will, from your testimony, I 
think, look at some new idea that would not have come about if 
you hadn't been here.
    Thanks.
    Senator Ben Nelson. Thank you, Mr. Graham.
    There was a recent op-ed piece in the Washington Post where 
the wife of an Army officer wrote, ``Too many military families 
are quietly coming apart at the seams.'' That seems to be 
consistent with what you all are saying today, that the stress 
that your families are feeling is, in fact, adversely affecting 
the families.
    No matter what we try to do, it is not enough. You need 
more support, particularly in the area of mental healthcare 
providers, both for the military members as well as for the 
family members. As Senator Graham indicated, trying to get 
those skilled, trained individuals is a challenge for us, and 
we are working at it.
    Do you think that, overall, the military is listening? When 
you have the support groups come and talk to you, do you have a 
feeling that you are being listened to? Hopefully, you feel 
like you are being listened to here, but do you feel like you 
are being listened to internally within the military?
    Ms. Casey, you have a direct line to the chief.
    Ms. Casey. Yes, part of the problem is they are talking to 
me. I have to tell you that when I meet with these families, 
they are very candid. They tell you exactly what is on their 
mind and exactly what they need. Quite frankly, we are pedaling 
as fast as we can.
    Some of these things can be dealt with more quickly than 
others. We are very grateful for the amount of money that has 
been given to us for family programs. Now we just need to make 
sure it is all out of the supplemental and into the base budget 
so we can continue with these programs.
    But some of them take time, and they not only take time, 
but some of the things we are doing now have to be evaluated 
and we need to make sure that they are hitting the right people 
they are supposed to be hitting. There is a lot of work to be 
done.
    Senator Ben Nelson. Do the rest of you feel that your 
concerns are being listened to and hopefully responded to, even 
maybe inadequately, but you feel that they are being responded 
to?
    Ms. Smith. I feel that establishment of the Professional 
Family Readiness Officer Program at each base has helped 
tremendously.
    Senator Ben Nelson. Do others feel the same way?
    Ms. Davis. It is definitely helping, but I think there is 
more need for more family-type counseling, not just for the 
military member because as we are seeing the suicide rates 
rise, and it is not always so much what happened in the area of 
deployment. It is when you come home and have the stresses that 
the family went through while you were gone and then the added 
stress the wife is adding that she has been stressed.
    I think there should definitely be family counseling, and I 
think the availability of that and, to take the stigma out of 
the word ``counseling'' because military personnel family know 
that sometimes if a military member is in counseling, that can 
affect job opportunities and continual stigmas that go along 
with that.
    I definitely think counseling, but it should be more along 
the lines of family, especially including the children, because 
our children are the ones that we are really missing sometimes 
with this counseling.
    Senator Ben Nelson. There is no question about that. It 
sort of leads me to the next question where families are often 
the first line of defense to recognize or deal with potential 
suicide or PTSD. Do you get any help to be able to detect that 
condition when reuniting with your servicemember, your family 
member when he comes home?
    Ms. Smith. I know the Marine Corps, under homecoming brief, 
will give you information on signs and warnings.
    Ms. Davis. Absolutely. There are reintegration briefings. 
Again, but my concern is that the spouses aren't always 
attending those.
    Senator Ben Nelson. On the other side as well. I understand 
both sides.
    Ms. Davis. Yes. Yes. I think our family support centers are 
doing a wonderful job of having programs available to spouses, 
letting them know what to expect when the member comes back. We 
all go through the honeymoon period, and then life sets in.
    Yes, I think that there is support there for them.
    Senator Ben Nelson. Good. That is critically important. I 
am glad that you are getting some help in that area.
    In your experience about military dependents, you said that 
you thought the quality of care was a B, access was, am I 
right, a C and a C minus. Is that true for you individually as 
the spouse, or does that apply to your children, your family 
members? Or is there any difference between the quality of care 
that you might get and your family might get?
    Ms. Casey. I don't see a difference in that. I mean, we 
have always said that once you get past the gatekeeper and you 
can get into the system, the quality of care is wonderful. It 
is getting in there that is the issue.
    Senator Ben Nelson. Is the access a problem for the spouse 
as well as the children or more so for the children or the 
spouse?
    Ms. Casey. It is worse--at least in the Army. It is worse 
for the family members than it is for the Active Duty personnel 
because we also have doctors who are deployed. You don't have 
full staffs necessarily at hospitals. They are doing the best 
they can. So people are being forced to go outside.
    Some of the major hospitals don't have the personnel to 
even see family members.
    Ms. Moakler. Senator Nelson?
    Senator Ben Nelson. Yes.
    Ms. Moakler. We find that sometimes the military treatment 
facilities are rationing care because it is more expensive for 
them to send families out into the network. That is what we 
hear from families, that it is harder for them to sometimes get 
appointments. They would call and say there wouldn't be another 
appointment available until 2 weeks from now, but they never 
offer the family member the choice of going to one of the 
network providers where they could get an appointment sooner.
    Senator Ben Nelson. I see.
    Ms. Moakler. There is an education piece to our families. 
It shouldn't be, but they need to know to ask the right 
questions about what the access standards are.
    Senator Ben Nelson. I understand.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me say to all of you, first of all, how much we 
appreciate your service. We understand that a commitment to the 
military is a family commitment, and without great support from 
spouses, as well as children, our men and women would not be 
able to do the great job they do. We just say thank you for 
what you do.
    I have had the privilege of meeting with spouses at our 
installations both within Georgia as well as overseas on a 
number of occasions. It is kind of interesting to occasionally 
have a male show up at a spouses meeting, but it is important 
that we don't forget that there are a lot of females out there 
in service, too.
    Ms. Davis, you obviously have been there. Your idea about a 
voucher program I think is unique. There is no reason, Ms. 
Smith, you ought to be required to fund private school for your 
children because schools in Washington, DC are inadequate. Yet 
I think it is pretty generally known that that is the case, and 
I think, Mr. Chairman, we might ought to look at some sort of 
pilot program for the military.
    Perhaps Washington, DC where we have some experience 
already with a voucher program, and we have a school system 
that has actually promoted that, that might be a good place to 
start.
    But before we really move on to new programs, we always 
like to make sure that the things that we have done are working 
and that we are seeing some real progress in certain areas. 
That is why I appreciate Senator Graham's comment about 
TRICARE, and your responses are pretty interesting.
    I will have to say that seems to be an improvement over 
what I have heard in years past. So I hope that is the case.
    Let me ask you about another program that is kind of 
different from different States. But we have 13 installations 
in my State, and we have a program that provides reciprocity 
with other States regarding high school graduates and whether 
or not they have to take the Georgia history exam, which has 
been a problem. But I think we are working through that.
    The other thing that we have done is we grant exemption 
from out-of-State tuition to all military children who graduate 
from State high schools. Can you all tell me how that is 
working across the country?
    Ms. Casey, you first.
    Ms. Casey. I am not sure how many States have actually 
signed on to that. But one of the things that has occurred over 
time is the fact that if you, like my husband, had been in four 
different high schools, you would have needed four different 
State history classes. A lot of States have gotten away from 
doing that. If you have had it in one, you don't have to do it.
    The Military Child Education Coalition has done great work 
with that as well, helping children transfer and transfer 
credits. We are finding great success with the in-State tuition 
with colleges for spouses and for family members. In some 
States, that if the servicemember leaves that State and you are 
in the middle of college in that State, sometimes then all of a 
sudden you become an out-of-State resident. Not all States have 
done that, but I think a good number of them have.
    Kathy, do you have the stats on that?
    Ms. Moakler. With recent legislation within the past 2 
years, it required State universities that accepted Federal 
funds to provide in-State tuition for military servicemembers 
and their family members. So that has taken care of the problem 
at State institutions for our military families.
    The Interstate Compact, which addresses transitioning needs 
of our children, such as the need to take State history in each 
high school that they attend, availability of spaces on the 
yearbook staff or on sports teams, or availability for special 
classes, beginning age for kindergarten enrollment or first 
grade enrollment, all of these things are being addressed in 
the Interstate Compact.
    Last year, it was approved by 10 States. Now we are up to 
about 20 States or so. There will be a commission that will be 
looking at reciprocities between the States on how they can 
handle these things, and the States that have already joined 
the compact will be able to take part in how those things are 
agreed upon.
    Senator Chambliss. If there is something with respect to 
those Interstate Compacts that you think we need to deal with 
legislatively, I wish you would give us some recommendations 
there.
    Because I know it is a problem in my State.
    Ms. Moakler. It is up to the States right now, and DOD has 
a State liaison office that is working with all the different 
States as the legislation comes up before their State 
legislatures. We have been working with them, and other 
agencies have been testifying before the State legislatures 
when these come up.
    Senator Chambliss. Thank you, Mr. Chairman.
    Senator Ben Nelson. Senator Chambliss, one thought occurred 
to me. We always want to be careful about a lot of preemption 
coming from Washington on State laws. But what about a sense of 
the Senate resolution urging the States to take this up, and 
maybe that will be more than a subtle nudge to the States to 
consider this within their own State borders and their own 
State schools.
    Would that be helpful?
    Ms. Moakler. That would be very helpful.
    Senator Ben Nelson. Well, let us consider that.
    Senator Chambliss. Sign me up.
    Senator Ben Nelson. Okay. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I look upon all of you on this panel as a tremendous source 
of strength of our military leaders. I want to thank you very 
much for what you have done for military families over the 
years. I am sure each of you bring different experiences, but 
they are all built upon the foundation of caring for our 
military families.
    As military spouses and advocates in the military 
community, I would like to ask each of you the following 
question. In your opinion, what is the number-one issue or area 
of concern for our military families? Ms. Casey?
    Ms. Casey. I think I have to stick with medical, both 
medical care and mental healthcare. As our families are quietly 
or not so quietly coming apart at the seams, the mental 
healthcare piece is very, very important right now.
    I think it is probably so important, because we realize, 
the Services realize that there is a lack of mental healthcare 
professionals in the United States, not just within the 
military, which makes this job of finding that much harder, I 
would probably say that I hear that everywhere.
    Senator Akaka. Ms. Mancini?
    Ms. Mancini. In my experience, it would have to be OPTEMPO, 
along with the mental health. Several of our sailors come home, 
and they go straight to training. The downtime is very minimal. 
They don't have enough time to even reconnect, reintegrate with 
their family, much less take off their boots, and they are 
going again.
    Mental health would definitely benefit us. It would benefit 
our families, our spouses, and to take that stigma off of it. 
Maybe it could be offered continually pre-, post-, and during 
deployment. Take the stigma away and have everyone go see a 
mental healthcare provider so that you can't pinpoint someone 
and then there are no repercussions from that.
    Senator Akaka. Thank you.
    Ms. Smith?
    Ms. Smith. I agree. I think OPTEMPO right now is so high. I 
know in my personal situation, my husband had come home. That 
day, we were excited, his homecoming, and found out that same 
day he was turning around and leaving again in just a few short 
months.
    Our families are tired. I think that counseling would help 
tremendously.
    Senator Akaka. Ms. Davis?
    Ms. Davis. Yes, I agree. OPTEMPO definitely is the number-
one area of concern, and a big one from what I am seeing--
again, I have younger children as well--is education. Education 
is huge because, again, like Ms. Smith, I have been funding 
education for our two children as well. Whereas, if I go to 
another base, I may not need to because we came from locations 
where there were blue ribbon schools. We are in a location now 
where the schools are not really rated very high.
    We are up and down with funding, and of course, that 
affects families' incomes. You are funding school for your 
children in one location, but in another location you are not. 
OPTEMPO, by far, is the number one, but I think education is 
creeping up there as well because of the amount of PCS moves.
    Senator Akaka. Yes, Ms. Moakler?
    Ms. Moakler. I think that something that touches on 
everything that the spouses said at this panel, sustained 
funding and support for our programs and resources that are out 
there. So we can keep supporting our families.
    Senator Akaka. Ms. Moakler, many military families in 
Hawaii have benefited from the ongoing privatized housing 
efforts at our installations. I believe military housing 
directly impacts the quality of life of our military families. 
Therefore, we must closely monitor the implementation and 
operation of privatized housing.
    What is your assessment, Ms. Moakler, of the overall impact 
of privatized housing on the quality of life for our military 
families?
    Ms. Moakler. As someone who in 28 years of my husband's 
service in the Army lived in quarters, as we say, for 24 of 
those years, I understand how important housing on the 
installation is to our military families, to their morale and 
to their spirit.
    We hear from families in our association how pleased they 
are with the privatized housing, where there is the 
availability of more new housing, where existing housing has 
been rehabbed to bring it up from a 1950s-style house to 
something in the 21st century, with new appliances, outlets 
where you can plug in your computers and your TVs without 
having to worry if everything is going to blow up.
    There have been great, great strides. That said, there are 
some installations where we are not moving quite as quickly as 
we might in bringing all the housing up to that standard. We 
would also like to see a greater involvement of the 
installation commander with the privatized housing contractor 
when military families can't get problems resolved with the 
contractor.
    Senator Akaka. Before my time expires, I would like to ask 
this question, Ms. Moakler. I am a strong advocate for 
financial literacy. I sponsor annual legislation designating 
April as financial literary month to highlight the need for 
increased financial literacy.
    Financial education helps our military families be better 
able to make informed financial decisions and deal more 
effectively with difficult financial situations. DOD has 
several programs in place to support financial readiness. How 
would you assess the success of DOD's financial readiness 
efforts?
    Ms. Moakler. I think that the many prongs that they have 
been following to help military families, both with supporting 
the elimination of payday lenders, which was huge and, more 
importantly, making more opportunities for military families to 
learn how to be better financial managers through the 
availability and the support centers of financial counselors. 
The financial counselors can also be made available through the 
defense credit unions and military banks and the Military Saves 
program.
    It all encourages families to be more aware of their 
financial responsibilities, and this is directly tied to 
readiness because when a family feels more financially secure, 
then the servicemember can go off and serve in a combat area 
without worry.
    Senator Akaka. Thank you very much, Mr. Chairman. My time 
has expired.
    Senator Ben Nelson. Thank you, Senator Akaka.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman.
    I would like to also add my comments to these distinguished 
family members whose spouses and Ms. Davis have served our 
country so valiantly and so gallantly. I think Admiral Mullen 
had it very right when, as Chairman of the Joint Chiefs of 
Staff, he said, ``Our future is guaranteed from a national 
standpoint if we take care of our people.''
    I agree with the Admiral. I can think of no more important 
issue facing the Services than taking care of our families. 
With that in mind, Ms. Casey, I just heard you say that if you 
take your children to the doctor--or was it Ms. Mancini, that 
you can only get one appointment?
    Oh, it was Ms. Smith. You said it. If your child has some 
other type of illness, the doctor is only going to see one 
illness? Why is that?
    Ms. Smith. Because they say there is not enough time to 
discuss more than one issue at a time.
    Senator Burris. Is there a specific base or city where this 
is taking place?
    Ms. Smith. You see the signs up in hospitals--or doctors' 
offices throughout the military.
    Ms. Mancini. For the Navy, in Norfolk, when you call, they 
tell you that. ``What is your symptom?''
    Senator Burris. If you have a sick child, you probably 
don't even know what the symptom is. I mean, I have two 
grandchildren, and one is 1 year old, and the other is 4 years 
old. You can't tell what is wrong with them sometimes.
    You have some young children. One of you all has young 
children. I think you, Ms. Davis?
    Ms. Davis. Yes.
    Senator Burris. Ms. Davis, let me ask you this. I notice, 
and I don't want to sound like I am sexist on this, but your 
husband also is in the military, right?
    Ms. Davis. Yes. Yes, he is.
    Senator Burris. Were any of you other ladies in the 
military yourselves? Now, do you think if a male were here 
testifying that he is the home person and the female is 
deployed, is he experiencing the same thing that you all would 
be experiencing? Since we have now got so many females in the 
military, I mean, I would assume that that is also taking 
place.
    But, have you heard any comments from males who stayed back 
as to how are they coping because you have this situation where 
the mother can better cope with the children than the father 
can. Have we heard anything in that regard?
    Ms. Casey. I think it varies on individuals and their 
coping mechanisms.
    Senator Burris. Have you heard of any experience like that 
from a male? How would your husband--were you ever deployed, 
Ms. Davis?
    Ms. Davis. I have not been deployed. My husband has taken 
care of the children when I have been on temporary duty (TDY). 
I had to go TDY for 6 weeks, and I had a 4-month old and a 2-
year old, and my husband obviously was left with two very young 
children.
    Again, coping mechanisms are the key because in my house, 
and I am sure every other house, I am not a single parent in my 
house. There are two parents. Obviously, he was very active in 
child rearing, and I wouldn't say he had any issues other than 
issues I would have had, other than trying to understand how a 
female does it all. [Laughter.]
    Senator Burris. That is a major issue. That is where I am 
going.
    Ms. Davis. Right.
    Senator Burris. You all have that natural ability--am I 
wrong? An instinct that is sort of inherent. I think about my 
trying to handle my two children, I couldn't do it the way my 
wife did. No way I could have done that.
    Ms. Davis. I do feel, though, the issues and concerns we 
have brought forth today would be the exact same issues because 
they have to deal with the exact same offices. They have 
TRICARE issues. Any need that I have as an Active Duty spouse 
or a dependent spouse, so to speak, my husband as a dependent 
would have the same issue.
    We would have to call and make an appointment and be told, 
``I am sorry there are no appointments for 2 weeks.'' Or ``I am 
sorry we can only see this one issue because we have five 
doctors deployed.''
    I can't imagine any issues being any different other than 
the standpoint it is a male you are speaking to, and I couldn't 
obviously give you a male perspective.
    Senator Burris. Now, Ms. Davis, were you ever stationed at 
Scott Air Force Base?
    Ms. Davis. No, I have not. But I have been at Offutt. I was 
at Offutt for almost 11 years.
    Senator Burris. I was at Scott Air Force Base a few weeks 
back, and they had the dedication of a high school, and the 
military was very involved. Scott is a major command Air Force 
center, and they were building a new high school. There was, 
naturally, Federal Impact Aid funds that come to those schools 
because of the military families that are stationed there.
    Ms. Davis. Absolutely.
    Senator Burris. Now you mentioned the fact of vouchers that 
would be an answer to that.
    Ms. Davis. Yes.
    Senator Burris. I am trying to reconcile the voucher 
situation with a situation where there are Impact Aid Funds 
being paid to a school district because of the military 
children that are attending those schools. How would you 
reconcile that?
    Ms. Davis. In my particular situation because of where we 
are currently assigned, the local schools are not rated very 
highly. A big portion of the military personnel either home 
school or they are actually paying to send their children to 
school.
    If I am living in whatever county as an Active Duty member 
and the schools in that particular county are not very adequate 
to the standards I would like for my child, I believe that a 
voucher program would allow me to be able to take my children 
outside of that district because schools are districted of some 
sort.
    But I can't, as far as the impact on the schools and 
funding----
    Senator Burris. Now are you in a military environment?
    Ms. Davis. Yes.
    Senator Burris. So, therefore, the other military students 
are going to that same school?
    Ms. Davis. Yes. Obviously, yes.
    Senator Burris. There are some Impact Aid Funds coming in 
for that school?
    Ms. Davis. Absolutely, yes.
    Senator Burris. So you are saying Impact Aid Funds along 
with the voucher funds?
    Ms. Moakler. If I could address this, Senator Burris, 
please? Taking the voucher program separately because there is 
an installation in that area, a military installation that 
impacts that school district's ability to raise taxes, they, 
along with other schools that have military children in them or 
other schools that are near a military installation, other 
school districts that might have an Indian reservation in them, 
other schools that might have some other kind of Federal entity 
within that school district are eligible for what is known as 
``Impact Aid.''
    It comes from the Department of Education, and it is 
dependent upon how many children are supported by that Federal 
installation, be they military, be they Indians on the 
reservation, be they children of those Federal employees, that 
school district then receives a certain amount of money for 
those children. It is a fairly involved process.
    Senator Burris. I am familiar with the process. I am trying 
to get a comparison here whether or not we would be also, if 
you are in that environment where Impact Aid is received 
because there are military children and then you are also 
asking for vouchers not to send your child to that school, but 
you want to send your child to another school, I am trying to 
figure out how you reconcile that?
    Ms. Moakler. Well, traditionally, we have not equated 
Impact Aid with tuition. Impact Aid is not tuition.
    Senator Burris. No, because what you are saying is you want 
to send your child to a religious school or some other type of 
special school, and not send them to the school where the 
Impact Aid is supposed to be calculated based on so many 
military families being in that community.
    Ms. Moakler. But it is to offset the taxes that they are--
--
    Senator Burris. Yes, I know what it is for.
    Ms. Moakler. I know what you are asking. I mean, I don't 
know what the answer to that question is, but I know exactly 
what you are asking. What happens if we then give vouchers, 
what happens to that Impact Aid money?
    Senator Burris. That is correct, yes.
    Ms. Moakler. I don't know the answer to that.
    Senator Burris. Mr. Chairman, that is an issue that----
    Senator Ben Nelson. Senator Burris, I think that is 
something maybe we can talk about within the committee and see 
if we can come to a resolution because you raise an interesting 
question.
    Senator Burris. Mr. Chairman, I do have to go to preside 
over the Senate. So I take leave.
    Senator Ben Nelson. I appreciate it. Thank you.
    I have to ask Ms. Davis, what years were you at Offutt?
    Ms. Davis. I am going to tell my age. Let us see, I was 
there from 1988 to 1999.
    Senator Ben Nelson. 1999. Well, I was Governor during most 
of that time.
    Ms. Davis. Yes, you were. Yes, you were.
    Senator Ben Nelson. I hope you were able to have good 
schools within that district.
    Ms. Davis. I did not have any children, sir. I did not. But 
actually, there were some awesome schools in Offutt. So, yes, 
there was.
    Senator Ben Nelson. All right. I thank you. I want the 
record to reflect they have good schools. [Laughter.]
    Thank you. Thank you all for coming here today and 
expressing very sincerely and openly your concerns and 
experiences. It is essentially what we have to have in order to 
be able to try to help in areas where help is required.
    It is encouraging to know that some things are working, but 
discouraging that some things aren't working as well as we 
would like them to. But at least we are aware and we will do 
what we can to try to rectify some of these challenges.
    The OPTEMPO is something that we have always hoped would 
take care of itself. It hasn't to date. But I know there are 
efforts underway to try to get more dwell time, and we are 
going to continue to work, to do everything we possibly can, 
including expanding end strength, to try to get to that.
    Thank you very, very much. We appreciate it. God bless you, 
and God bless your families. [Pause.]
    For our second panel, we are pleased to have Arthur J. 
Myers, the Principal Director and the acting Deputy Under 
Secretary of Defense for Military Community and Family Policy.
    Kathleen Marin, Director, Installation Services, Office of 
the Assistant Chief of Staff for Installation Management, 
United States Army.
    Terri J. Rau, Ph.D., Deputy Director for Research, 
Development, and Performance Measurement, Navy Installations 
Command, United States Navy.
    Major General Timothy R. Larsen, USMC (Ret.), Director of 
Personnel, Family Readiness Division, Manpower and Reserve 
Affairs Department, United States Marine Corps.
    Eliza G. Nesmith, Chief Airman and Family Services 
Division, United States Air Force.
    We are eager to hear the various departments' and services' 
family support programs and initiatives, including how each 
plans to resource these programs.
    With that, let me first call on Mr. Myers to begin the 
panel's opening statements.

  STATEMENT OF ARTHUR J. MYERS, PRINCIPAL DIRECTOR AND ACTING 
 DEPUTY UNDER SECRETARY OF DEFENSE FOR MILITARY COMMUNITY AND 
              FAMILY POLICY, DEPARTMENT OF DEFENSE

    Mr. Myers. Thank you, sir.
    Chairman Nelson, the Secretary of Defense and all the men 
and women of the Armed Forces, as well as their families, thank 
you for your support.
    We are very appreciative that you are holding this hearing 
on family support issues. It is our opportunity to tell you 
about our many initiatives and validate our need for continued 
authorization of funds.
    One of our biggest successes is Military OneSource. This 
service is well known for its individually tailored services 
and its availability any time, any place, which is particularly 
helpful for those who are geographically isolated from 
installation support.
    As a result of the Senate's insight into the special needs 
of this population who are separated from installation support, 
we established a joint family assistance program in 15 States 
and then extended the service to all States and territories. We 
have also implemented a program of face-to-face nonmedical 
counseling for military families experiencing normal stress of 
multiple deployments and reunions.
    Additionally, we have placed military family life 
consultants in schools selected by the military departments to 
provide consultation, education, training and workshops to 
faculty, parents, and children to help cope with deployments. 
This pilot program was offered at six schools in Europe and at 
Fort Hood and at Fort Campbell in the United States.
    We are also assisting spouses to develop portable careers 
by offering Military Spouse Career Advancement Accounts. A 
total of up to $6,000 per spouse is available for credentialing 
and licensure. This initiative began in March, and already 
15,000 military spouse profiles have been received. About 45 
percent of those spouses are seeking careers in health 
professions.
    Our financial readiness campaign focuses on empowering 
servicemembers and their families with the tools and 
information they need to meet their financial goals. We want to 
place them on the path to financial freedom. Also, our youth 
program and DOD schools encourage financial literacy at a very 
early age.
    We are ready to accept the challenge to meet the emerging 
needs of our military members and their families. We know there 
is always more to be done to meet their many requirements. I 
would like to highlight some areas for your consideration.
    Several years ago, Congress granted temporary authority for 
minor military construction of child development centers that 
allowed us to accelerate childcare capacity and increase spaces 
by 15,000 on a rapid basis. To meet our goals for childcare and 
to keep our members fit to fight and win, we require similar 
authority for fitness centers and family centers and for 
childcare for children through 12 years of age.
    We need to extend the authority, which ends this fiscal 
year, through fiscal year 2012 and also increase the projected 
threshold to $15 million. In addition, we need to eliminate 
barriers to our partnerships with military providers of 
childcare, such as relief from the Service Contract Act.
    Thank you again for your strong support of the military 
members and their families. I will be happy to respond to any 
of your questions.
    [The prepared statement of Mr. Myers follows:]
                 Prepared Statement by Arthur J. Myers
    The Department of Defense (DOD) has made family support a high 
priority in recognition of the crucial role families play in supporting 
servicemembers on the battlefield, a concept that has resounded during 
these times of multiple deployments. To ensure continuity in program 
delivery, the Department increased the fiscal year 2010 Defense-wide 
baseline by shifting $234 million from the Overseas Contingency 
Operations funding to the baseline. The total fiscal year 2010 Defense-
wide Family Assistance budget request is $472 million to fund programs 
such as child care expansion, outreach to Guard and Reserve, non-
medical counseling, financial education and training and access to 
training and certification opportunities for spouses. These programs 
are lifelines of support for military members and their families who 
are stationed around the globe. The purpose of my statement today is to 
describe our many successes and build a record that supports 
authorization of funds and programs needed for family support. Our 
military leaders stand with me in this important endeavor to reiterate 
the inextricable link between investments in quality of life programs 
and readiness of soldiers, sailors, airmen, and marines. It is clear, 
at a time of increased deployment and demand on our servicemembers and 
their families, there is need for consistent, commensurate family 
support.
    Improvements to military quality of life are framed by the past 
with a view toward the future. Today, the Department has a wide range 
of quality of life policies, services and programs to address personal 
and family issues. Initiatives address the nexus of work life and 
personal/family life; all are concerned with key organizational goals 
related to recruitment, retention, morale and mission readiness.
                               child care
    The Department considers care for children of military members to 
be a key work force issue with a direct impact on the effectiveness and 
readiness of the force. Though the Department has a strong commitment 
to child care and youth programs, some components still have unmet 
demand for child care. Efforts are ongoing to address an estimated 
shortage of approximately 37,000 child care spaces needed for Active 
Duty, Guard, and Reserve families. The fiscal year 2010 Defense-wide 
budget includes $60 million to expand child care in civilian 
communities for public-private ventures. Plans to build this capacity 
involve utilizing a myriad of delivery systems to include existing 
child care facilities, schools, recreation and after-school programs, 
and home-based care programs. We will aid in the recruitment of private 
sector licensed child care providers at locations where child care 
needs are identified, such as locations from which Guard or Reserve 
units are being deployed. The Department will ensure the level of 
quality is comparable to that offered on-installation by implementing 
an assistance plan geared to the specific needs of the community. We 
will utilize existing State and local resources, supplementing when 
needed, to raise the quality of care.
    Increased child care capacity requires a high-quality, well-trained 
workforce. We need to eliminate barriers to hiring practices key to 
expanding our partnerships with community providers of child care. The 
Department has exercised a robust construction program to accelerate 
child care capacity and increase spaces by over 15,000 on a rapid 
basis. The temporary program to use minor military construction 
(MILCON) authority for the construction of child development centers 
provided a means to increase the availability of quality, affordable 
child care for servicemembers and their families. I thank you for your 
strong support.
    The Department has initiated outreach to universities and 
nonprofits for the purpose of developing recruitment and retention 
programs and to strengthen existing partnerships. These strategic 
efforts will enhance DOD's capacity to recruit and retain talented 
professionals in Child Development, Youth Development, Counseling, 
Family Support, & Financial Management. In addition, outreach efforts 
designed to increase the number of students completing internships and 
pursuing professional careers are also under development. The 
Department is working with campus-based partnerships to identify 
promising or best practices, develop training programs, create campus-
based seminars, colloquia, workshops, and distance learning and to 
provide research on the impact and quality of programs.
    The Department continues to lead the Nation with 98 percent of DOD 
Child Development Centers accredited by the National Academy of Early 
Childhood Programs, as compared to 8-10 percent of civilian child care 
centers. To be accredited, early childhood programs voluntarily undergo 
a comprehensive self-study and an external, professional review. 
Criteria are aimed at providing a safe and nurturing environment while 
promoting the physical, social, emotional and intellectual development 
of young children. Additionally, a report released by the National 
Association of Child Care Resources and Referral Agencies in March 2009 
rated the DOD child care system oversight and standards as the top 
ranking among all 50 states and the District of Columbia with a score 
of 131 out of 150 points, 20 points ahead of its nearest competitors 
(District of Columbia, Oklahoma, and Tennessee).
                             youth programs
    DOD promotes positive youth development by designing programs to 
recognize the achievements of youth and by developing partnerships with 
other youth-serving organizations like the Boys & Girls Clubs of 
America and 4-H that offer a variety of resources. Programs prepare 
pre-teens and teenagers to meet the challenges of military life, 
adolescence, and adulthood. Recognizing that developing good financial 
habits needs to start earlier, we launched the Military Youth Financial 
Readiness Campaign as part of the Military Saves Week in 2008. In 2008, 
we had over 5,000 youth participants and this year that number grew to 
more than 7,000.
    This month, DOD launched a new Web site, Military Youth on the 
Move, http://apps.mhf.dod.mil/myom, to replace Military Teens on the 
Move. This site is an easy to use resource that reaches out to youth 
with creative ways to cope with issues that arise in the face of a 
move, such as transitioning to a new school, saying goodbye to friends, 
and getting involved in a new community. The Web site is divided into 
three target audiences: elementary school, middle school, and high 
school. Users simply click on their age group to get started. Once 
inside the site, users search different topics that pertain to both 
military youth in particular and youth in general. Moving once or 
repeatedly has a significant impact on our youth. Military Youth on the 
Move helps to make the transition as smooth as possible by giving them 
a safe place for information and advice.
    To support military youth impacted by deployment, Operation: 
Military Kids (OMK), collaborated with the Joint Family Support 
Assistance Program in 15 pilot States. 4-H/Army Youth Development 
Project Youth Program Specialist staff assigned to support OMK trained 
26,543 community members at Ready, Set, Go community events, informed 
16, 267 partners and decisionmakers at Informational Briefings, trained 
1,270 youth at Speak Out for Military Kids events, presented 2,264 Hero 
Packs to military youth, engaged 289 nonmilitary youth, involved 1,946 
military youth and 399 nonmilitary youth, 1,835 family members and 387 
community members at Mobile Technology Lab events, and involved 7,872 
military youth in other youth program events.
    DOD provided funds to OMK states for the expansion of OMK camping 
opportunities that advance the accomplishment of national OMK goals, 
support the Joint Family Support Assistance Program and enhance the 
effective implementation of OMK elements to reach more military youth. 
Thirty eight states with current OMK grants and the District of 
Columbia will be eligible to apply for supplemental OMK Camp funding in 
the amount of $50,000. Because of larger military populations, the 
following 10 States will be eligible for an additional $35,000 (total 
of $85,000): California, Texas, North Carolina, Virginia, Georgia, 
Florida, Washington, South Carolina, Hawaii, and Kentucky. Summer Camps 
are defined as weekend events, special focus camps (computer, 
conservation, leadership, etc.), day camps, school break retreats, or 
residential experiences of varying lengths organized and operated by 
OMK. The outcomes for military youth include opportunities, in a camp 
setting, to ease the stress associated with the deployment of a parent 
and to form a support network of military peers. The outcomes for 
parents include opportunities for youth to attend a no cost camping 
experience with other military youth impacted by deployment throughout 
their State and/or neighboring States.
                department of defense education activity
    A key quality of life issue is the education of military children. 
servicemembers often make decisions about assignments based on the 
availability of quality educational opportunities for their children. 
The Department of Defense Education Activity (DODEA) provides quality 
pre-kindergarten through 12th grade educational opportunities and 
services to military dependents around the globe, who would otherwise 
not have access to U.S.-accredited public education. Of the 
approximately 1.2 million military school-age children, DODEA educates 
nearly 85,000 in 192 schools in 12 foreign countries, 7 States, Guam, 
and Puerto Rico with 8,700 educators. The excellent ratio of educators 
to students (1:10 overall) contributes to the quality individual 
attention and education afforded throughout the DODEA system. DODEA 
also operates a tuition reimbursement program for military assigned 
overseas without a DODEA school. Through the Educational Partnership 
Initiative and new technologies, DODEA can expand its reach to the 
approximately 92 percent of military students who do not attend DODEA 
Schools.
    The ongoing relocation of thousands of military students through 
force structure changes has created an urgent need and responsibility 
to enrich and expand partnerships with military-connected communities 
to ensure the best possible educational opportunities for military 
children. DODEA works collaboratively with the Secretary of Education 
to ease the transition of military students, to use DODEA funds to 
share experience with local educational agencies (LEAs) who educate 
military students, and to provide programs such as distance learning 
and teacher training to LEAs with military students undergoing 
transition from force structure changes. DODEA is developing a new 
approach to provide a fully accredited virtual school program for 
grades 9-12 for eligible students. Beginning in school year 2009-2010, 
DODEA plans to increase course offerings within the existing distance 
learning program to implement a comprehensive accredited virtual high 
school by school year 2010-2011. A middle and upper elementary program 
is also planned for delivery in subsequent years.
    Many of the school facilities within DODEA have exceeded the life 
expectancy and do not meet today's educational standards. Schools are 
currently operating within structures that were erected in the 1930s 
through the 1960s. These aged buildings were either built for other 
purposes (i.e., barracks, administration buildings) or were constructed 
prior to major technological advances for the kindergarten to high 
school learning environment. Independent condition assessments indicate 
that it is more cost effective to replace these buildings than to 
upgrade or modernize them. Many are due for replacement in the next 10 
years. Continued support of the DODEA effort is needed and appreciated. 
This supports the Department's force management quality of life and 
retention goals of attracting and retaining the highest quality 
personnel.
    DODEA continues to make significant improvements to facilities due 
to gains in the facilities sustainment, restoration, and modernization 
(FSRM) budget. In fiscal year 2009 DODEA, will meet the Department 
standard for FSRM with obligations of $86 million; of this amount 
sustainment funding is $72.6 million. The fiscal year 2010 DODEA FSRM 
budget is currently $93.7 million with $73.8 million allocated to 
sustainment. Both these figures are vast improvements over fiscal year 
2008 and previous years. In fiscal year 2008 the sustainment budget was 
$55.8 million. The current and projected budget will allow DODEA to 
target high-cost, priority repairs on roofs; heating, ventilation, and 
air conditioning; other critical systems that may be failing; and 
improvements to support technology requirements in the classrooms. 
Complimenting the O&M increase in FSRM is the increase to the DODEA 
MILCON program. The fiscal year 2009 DODEA MILCON budget is $102 
million and the fiscal year 2010 budget is programmed for $208 million, 
a major increase from the previous DODEA MILCON budgets of 
approximately $45 million a year. This increase is attributed to 
Department recognition and support of DODEA requirements. In the 
future, DODEA plans to replace three to four schools a year as a well 
as meet new requirements.
    New information today can make educational programs that were 
developed and implemented yesterday obsolete. To that end, DODEA is 
conducting a multi-phased comprehensive program evaluation process to 
review the current status of its educational programs to develop 
recommendations to increase the impact of those programs as well as 
increase accountability and student achievement. Some programs can be 
modified to make them more effective, while others may have to be 
discontinued. The entire DODEA staff will continually assess data and 
review research to meet the needs of students to show continuous gains 
in student achievement.
    The process of program evaluation follows the steps of planning, 
implementing, evaluating, reviewing, and refining. We look to you for 
your support in continuing this effort. This effort includes an 
assessment program that will align DODEA's assessment of student 
achievement in accordance with state; administrative and teacher 
professional development programs to support data-driven differentiated 
instruction; and a comprehensive grade 9-12 Virtual School program by 
school year 2010/2011. This is a significant commitment to ensure the 
children of our uniformed servicemembers are receiving the best 
education possible.
    Many military installations have school liaison officers to advise 
military parents of school-aged children on educational issues and 
needs and to assist in solving education-related problems. School 
liaison officers are helping to identify barriers to academic success 
and develop solutions, promote parental involvement, develop and 
coordinate partnerships in education and provide parents with the tools 
they need to overcome obstacles to education that stem from the 
military lifestyle. The School liaison officer acts as an advocate and 
communication link between the installation and the surrounding school 
districts to ``level the playing field'' for transitioning military 
children and youth. The purpose of the program is to provide a link 
between military families on- and off-installation schools to assist 
them with those unique problems facing military children, i.e., PCS 
moves, deployments, varying graduation and records transfer 
requirements, differences in curriculum and schedules between stateside 
and overseas schools, and DOD schools and civilian schools. Their 
mission is to mobilize and utilize community resources to reduce the 
impact of the mobile military lifestyle on children/youth, implement 
predictable support services that assist children/youth with 
relocations, life transitions and achievement of academic success, and 
provide access for parents, children, youth, schools, commanders, and 
communities to a wide range of resources to facilitate school 
transitions.
                   exceptional family member program
    Through the military medical departments, at no charge to families, 
DOD provides early intervention services, from birth until 3 years of 
age, to infants and toddlers who are developmentally delayed or at high 
risk for a developmental delay and who (but for age) are eligible to 
attend a DOD school. The DOD schools provide specially designed 
instruction, support, and services to children with educational 
disabilities, who are 3 years of age and until they are 21 years of 
age. The DOD schools provide a full continuum of programs to meet the 
needs of children with disabilities in our military families. During 
the last 6 years, the DOD schools have focused on children with 
moderate to severe disabilities by purchasing new equipment and 
assistive technology devices and providing professional development for 
all special education personnel. The intent is for consistency in 
curriculum and instruction as families move from one DOD school to 
another. In response to the increased incidence of children with autism 
in our DOD schools, the DOD school system hired autism consultants to 
help design the curriculum and interventions for students with autism.
    The Department publishes an annual directory to assist the medical 
and educational assignment coordinators to identify those military 
communities outside the continental United States with pre-established 
programs or services for children with special needs, including those 
with more serious needs, such as those with intellectual impairments, 
autism or physical disabilities such as blindness.
    Recently, the Department embarked on a joint Service campaign to 
raise awareness of the Exceptional Family Member Program, the issues 
that these families face, and the resources available to address their 
needs.
                           interstate compact
    The mobile military lifestyle creates tough challenges for children 
who attend, on average, six to nine different school systems from 
kindergarten to 12th grade. To help overcome these issues, the 
Department is working with the states to implement the Interstate 
Compact on Educational Opportunity for Military Children. A variety of 
Federal, State, and local officials as well as national stakeholder 
organizations helped develop this interstate agreement whose goal is to 
replace the widely varying treatment of transitioning military students 
with a comprehensive approach that provides a uniform policy on 
eligibility, enrollment, placement, and graduation in every State that 
chooses to join.
    Eleven States--Arizona, Colorado, Connecticut, Delaware, Florida, 
Kansas, Kentucky, Michigan, Missouri, North Carolina, and Oklahoma--
adopted the compact in 2008. This was sufficient to activate the 
Compact and establish the Commission to finalize implementing rules and 
provide operational oversight. Although it is still fairly early in 
2009, Alabama, Alaska, Indiana, Iowa, Maryland, Mississippi, Texas, 
Virginia, and Washington have joined the Compact bringing the total 
number of member States to 20 and covering approximately 64 percent of 
military children. In addition, legislation is being actively 
considered in 12 States.
  voluntary education: the first joint service graduation ceremony in 
                                  iraq
    Personal development is so ingrained in our culture that, even in a 
war zone, military personnel strive to continue their educational 
pursuits and personal improvement. To meet those needs, there are two 
full service Joint Education Centers operating in Iraq at Camp Victory 
and Camp Balad, with plans to open six more in the near future. Seven 
days a week, servicemembers may participate in traditional (instructor-
led) on-the-ground classes, through Central Texas College, University 
of Maryland University College and Embry-Riddle Aeronautical, or via 
distance learning education. The centers also provide an extensive 
testing program, improvement courses, and Leader Skill Enhancement 
Instruction Courses.
    On 17 May 2009, beneath the United States flag in the rotunda of 
the Al Faw Palace in Baghdad, a Graduation Commencement Ceremony was 
conducted in Iraq--a first for any combat zone. This was the conclusion 
of a long journey for many of the servicemembers pursuing their 
educational goals. The degrees conferred represented all levels of 
mastery--associate, baccalaureate, and masters.
    All servicemembers deployed to Iraq who graduated in the 2008-2009 
college year were invited to participate. Of the 130 identified as 
graduates, only 79 could participate in the ceremony due to operational 
reasons.
    A tangible demonstration of the importance the military places on 
education, the graduation ceremony epitomized self improvement as a 
critical component of the warrior ethos. The warrior-scholars 
demonstrated their desire to pursue intellectual knowledge that will be 
applied in their job and to the military mission in Iraq.
                                fitness
    All of the military Services continue to expand and provide 
innovative fitness programs that sustain a physically fit, healthy 
force in our military communities and for deployed men and women around 
the world. Long-term plans will modernize the fitness infrastructure 
beginning with the Services' request for 10 fitness center MILCON 
projects in fiscal year 2009 and another 71 fitness centers programmed 
through fiscal year 2014. The inclusion of fitness facilities in the 
minor MILCON authority would serve as a boost to facilitate future 
construction. Installation fitness facilities are one of the most 
important facilities on base for troops to release stress after 
returning from combat, combat obesity, and remain physically and 
mentally fit. Also, more and more, our installation fitness centers are 
becoming ``family friendly.'' Many installation fitness centers are 
carving out space for supervised child care to assist parents who 
otherwise could not work out because of lack of available child care. 
Programming is being expanded to include older children/youth in 
classes to help foster a healthier lifestyle and combat obesity. The 
key initiative is ensuring our military members and their families are 
fit!
                              mwr outreach
    To promote a healthy lifestyle and expand the military MWR benefit 
to Active Duty, Guard, and Reserve and their families who do not have 
access to installation MWR programs, we have contracted with the Armed 
Services YMCA to offer free YMCA family memberships at local, 
participating YMCAs to families of deployed Guard and Reserve 
Personnel, Active Duty servicemembers and their families assigned to 
Independent Duty locations, any relocated spouse of a deployed Active 
Duty servicemember and a limited number of families assigned to the 
Joint Base locations. In just 7 months we funded over 15,000 
memberships which include over 27,000 family members. Feedback has been 
overwhelmingly positive with comments such as ``with four children in 
tow, exercise would be impossible without child watch at the YMCA--
thank you for finding military spouses/families worth it to use funds 
in this way'' and ``I have lost 30 pounds in just a couple of months 
since coming to the YMCA; I absolutely love it!'' We are expanding our 
marketing efforts to reach more families who meet the eligibility 
requirements.
    We also created a DOD MWR Online Library with library resources in 
print, electronic and downloadable format for entertainment, learning 
or solace, available for free from Military OneSource, virtually 
anytime, anywhere. Resources include auto, home and small engine 
repair, Career Library, Peterson's Life Long learning, Tumblebooks for 
kids, NetLibrary audio and e-books just to name a few. The online 
library is also available through the Military Services Portal. Again 
customer feedback has been excellent with comments such ``You guys hit 
a home run with offering these books--great for the long plane rides to 
and from deployment--thank you for the great benefit!'' and ``Great 
job--love the free stuff.'' Supplemental funding has allowed us to 
renew these on-line resources for another year.
                 communication services in combat areas
    The ability to communicate with family and friends is the number 
one factor in being able to cope with longer and more frequent 
deployments. Servicemembers have free access to the non-secure military 
Internet by using their military e-mail address, including aboard 
ships. They also have free Internet access at 794 MWR Internet Cafes in 
Iraq and Afghanistan with 9,107 computers and 4,015 VOIP phones (with 
call rates of less than 4 cents a minute). To enhance MWR provided 
services, the Exchanges provide personal information services for a 
usage fee for this customer convenience. Back home, computers and 
Internet service located in our family support centers, recreation 
centers, libraries, and youth centers help ensure families can connect.
    Additionally, the Exchanges contract for telephone services in 
combat zones, operating 72 calling centers with 1,536 phones in Iraq, 
Afghanistan, and Kuwait, plus calling centers on-board ships in 
theater. Rates are 45 cents per minute afloat and 15 cents per minute 
ashore. The Exchanges are in compliance with the DOD policy and the 
law, which require that contracts for telephone service be awarded 
through competitive procedures and include options to minimize costs to 
individual users. Where feasible, the contracts provide the flexibility 
to use a variety of phone cards.
    MilitaryHOMEFRONT (www.militaryhomefront.dod.mil) is the DOD 
library of official information about quality of life programs for 
helping professionals and military families. The Homefront provides 
access to information about benefits, entitlements and programs 
available to military members and their families including policies, 
reports, and directives on topics from child care to relocation, 
special needs to voluntary education, morale welfare and recreation to 
combat stress. MilitaryHOMEFRONT provides a searchable directory of 
educational programs and services and state-specific resources as well 
as hundreds of Autism and general disability resources. Parents who 
have children with autism can communicate directly with each other 
using HOMEFRONTConnections, a DOD social networking site available on 
MilitaryHOMEFRONT.
    Further, DOD uses MilitaryHOMEFRONT to develop tools, accessible 
through both the Military OneSource and MilitaryHOMEFRONT Web sites, to 
assist families--including the very popular ``Plan My Move'' and 
``Military Installations.'' Military Installations, an on-line 
directory within the Web site, provides access to points of contact for 
56 activities on installations worldwide, including the commissary, 
exchanges, MWR programs, child development centers and the military 
health care facilities.
                   military onesource outreach center
    Six years of deployments and multiple deployments have prompted DOD 
to rethink methods and strategies to deliver family support. Two major 
issues drove the development of the new delivery system: 1) how do we 
meet the needs of the National Guard and Reserve families and those 
geographically dispersed, and 2) how can we meet the needs of 
commanders for surge support surrounding deployments.
    Primary among those responses was the opening of the Military 
OneSource Center, designed to provide Active Duty and Guard and Reserve 
Commanders the vehicles for surge support during deployments. The 
Military OneSource Center, along with the Military OneSource 24/7/365 
call center and web-site, provide the scaffolding for our outreach and 
support.
1. Military OneSource.com and Call Center
    Launched in 2002, Military OneSource provides support services 24/
7/365 to Active Duty, National Guard, and Reserve component 
servicemembers and their families worldwide. This backbone of the 
Military OneSource Center provides toll-free confidential telephonic 
support and a Web site that provide interactive tools, educational 
materials, discussion boards, links to military and community 
resources, and tax filing services, among other services. Testimony to 
its usefulness is the fact that over 600,000 tax returns were prepared 
through Military OneSource this tax season, at no charge to 
servicemembers.
2. Outreach Counseling
    Outreach Counseling offers servicemembers and families with 
confidential, short term, situational, problem-solving assistance, 
instrumental for coping with normal reactions to the stressful 
situations created by deployments, family separations and 
reintegration.
    Military OneSource offers confidential face-to-face, telephonic, 
and on-line counseling up to twelve sessions. Telephonic and on-line 
counseling sessions are new and beginning to grow.
    The Military and Family Life Consultant (MFLC) program provides 
professional, confidential, and flexible service delivery on a 30- to 
90-day rotational basis on military installations to meet surge support 
requirements and to support Guard and Reserve events.
3. Financial Counseling
    Additionally, financial counseling is available, through both 
Military OneSource and the MFLC program, to assist with the financial 
concerns of military members and their families during all stages of 
the deployment cycle. The Military OneSource Center has been highly 
successful in making these services available worldwide.
    Financial Readiness Installation Roadshows: Installation workshops 
are delivered on demand that include information about budgeting, 
mortgage and foreclosure, debt reduction, saving and investing, 
identity theft and retirement planning.
    Twenty-three road shows have been conducted since November 2008; 
over 20 additional events are scheduled in 2009.
4. Military Spouse Career Advancement Accounts
    To jump start portable careers in health services, education, 
information technology, and financial services, DOD will provide up to 
$6,000 per spouse to assist spouses in developing portable careers in 
fields such as nursing, teaching, real estate, and banking. This, in 
turn, supports families in attaining their aspirations and goals that 
may be interrupted as a result of the mobile military lifestyle.
5. Outreach support to the National Guard and Reserve--Joint Family 
        Support Assistance Program
    A continuum of support and services for National Guard and Reserve 
members and their families during pre-deployment, deployment, post-
deployment, reunion and reintegration. Services have reached 364,000 
servicemembers and families over the last year. It is a support service 
multiplier by broadening the network of resources beyond those that 
exist on installations. This program also supports the Yellow Ribbon 
Reintegration Program 30-60-90 day events during post-deployment.
6. Wounded Warrior Resource Call Center
    Embedded in the Military OneSource Call Center, this feature 
provides servicemembers who have become wounded, ill, or injured, as 
well as their families and their primary caregivers, with a single 
point of contact for referral to Services' resources. Assistance is 
provided with reporting deficiencies in covered military facilities, 
obtaining health care services, receiving benefits information and any 
other difficulties encountered.
                       commissaries and exchanges
    The commissary and exchange programs are vital to mission 
accomplishment and, as components of the military compensation system, 
are important contributors to morale and readiness. The Defense 
Commissary Agency (DeCA) operates 254 commissaries around the world 
providing groceries and household products to military personnel, 
retirees, and their families at cost plus a 5 percent surcharge to fund 
commissary construction and equipment. Savings exceed 30 percent 
compared to commercial prices; savings that contribute nearly $3,400 
per year in disposable income for a family of four that does all of its 
grocery shopping at the commissary. Sales exceed $5.8 billion; 
operations are funded by appropriations of $1.3 billion. DeCA met or 
exceeded all performance goals in fiscal year 2008 and is performing 
equally well in 2009, with year-to-date sales above target. DeCA is 
bringing the commissary benefit to Guard and Reserve personnel who 
don't live near a commissary through their 208 on-site sales at Guard 
and Reserve locations. The three exchange systems--the Army and Air 
Force Exchange System (AAFES), the Navy Exchange System Command and the 
Marine Corps Exchange--operate over 3,700 retail outlets at 300 
military installations, in 89 contingency operations, and aboard 161 
ships. The exchanges sell a wide range of goods and services and 
distribute about 70 percent of their profits to support MWR programs. 
Savings exceed 20 percent, not including sales tax savings. Soon, AAFES 
will deploy new mobile exchanges specially outfitted to serve Guard and 
Reserve units together with DeCA. In combat areas, the exchanges 
provide 129 retail operations ranging from exchanges to imprest funds, 
228 name brand fast food outlets, 600 service concessions, and 
telephone services that minimize costs for deployed members to call 
home. The exchanges had sales of $11.9 billion in fiscal year 2008 with 
profits of $523 million and project sales of $13 billion in fiscal year 
2009.
    The Department will continue to make family support a high 
priority. As the needs of servicemembers and their families evolve, the 
Department stands ready to improve the quality of life of its greatest 
resource--people.
    In conclusion, thank you for your support of the dedicated men and 
women who chose the highest calling of public service in defense of our 
Nation. We share a passion for improving the quality of life of our 
soldiers, sailors, airmen, and marines and their families.

    Senator Ben Nelson. Thank you, Mr. Myers.
    Ms. Marin?

 STATEMENT OF KATHLEEN MARIN, DIRECTOR, INSTALLATION SERVICES, 
    OFFICE OF THE ASSISTANT CHIEF OF STAFF FOR INSTALLATION 
                 MANAGEMENT, UNITED STATES ARMY

    Ms. Marin. Mr. Chairman, I am honored to appear here today 
to share how the Army is enhancing programs to restore our 
soldiers' and families' sense of balance.
    Never before in history have we asked so much of our Army 
families. They make incredible sacrifices, as we have heard 
here today. They remain steadfast in support of their soldiers, 
but families are showing the stress of nearly 8 years at war.
    The Army recognizes that soldier readiness and family 
readiness are inextricably linked, and that is why we have 
doubled our investment in base funding for family programs from 
2007 to 2010. The Army's request for fiscal year 2010 soldier 
and family programs is $1.726 billion. Continuing predictable 
funding is crucial to sustain and preserve the All-Volunteer 
Force.
    We are investing the Nation's resources wisely. We are 
focusing on areas to promote readiness and resilience, reducing 
the turbulence and stress that comes with military life. Our 
primary focus areas have been to standardize services across 
the Army, close gaps in underfunded programs, and to enhance 
and adapt services to meet the constantly evolving requirements 
associated with multiple deployments and frequent relocations.
    For example, we are augmenting the Office of the Secretary 
of Defense program of military family life consultants due to 
such a high demand. As a way to reach out to geographically 
dispersed soldiers and families, we have expanded the National 
Guard's model Yellow Ribbon Reintegration program, and we have 
established our own Army OneSource.
    We are expanding education and employment opportunities for 
family members and better serving the unique needs of the 
families of our fallen and wounded. We have provided them 
places to connect and be connected with others going through 
the same experiences. We are providing for the fundamental 
safety and security of our military children by building more 
child and youth centers, increasing available hours, as well as 
offering specialized activities to combat stress, isolation, 
and loneliness.
    We have reduced program fees, provide free childcare for 
spouses who must now fill both parenting roles, and we provide 
support to those in geographically dispersed locations by 
subsidizing high-quality local childcare. We are continuing to 
fund respite care for those with exceptional family members, 
and we are easing the burdens created by frequent military 
moves, ensuring our youth receive credit for academic 
achievement from school to school and State to State.
    We are keenly aware of the unique stressors facing our 
soldiers and their families today. In fact, new challenges are 
constantly emerging. While we don't have all the answers, we 
are working on how to assess the relevance and the impact of 
the full spectrum of our programs.
    One way we measure effectiveness is by surveying on a 
regular basis to seek the opinions of our soldiers and families 
and assess their satisfaction and, most importantly, to monitor 
their adaptation to the unique challenges of Army life. These 
measurements assist us in matching the capabilities of our 
programs to the expectations of our soldiers and families, 
keeping the Army strong, ready, and resilient.
    Thank you, sir, for the opportunity to speak to you today, 
and thank you for all you do for our soldiers and families. I 
stand ready to answer your questions.
    [The prepared statement of Ms. Marin follows:]
                  Prepared Statement by Kathleen Marin
    Mr. Chairman and members of the subcommittee, I am honored to 
appear before you to share the progress we are making in the mission of 
providing our soldiers and their families a quality-of-life 
commensurate with the quality of their service. Never before in the 
history of our Army have we asked so much of our families. They make 
incredible sacrifices, and while remaining steadfast in support of 
their soldiers, families are showing the stress of 7 years at war. In 
response, the Army continues to enhance programs and services to enable 
soldiers and families to become resilient and ready to address the 
challenges of deployment and separation.
    As Director of Installation Services, I am responsible for Army 
housing, environmental programs, privatization initiatives, and support 
to soldiers and families. I feel particularly privileged to be 
entrusted with guiding and overseeing the Soldier Family Action Plan, 
which brings to life the Army's deep, authentic commitment to provide a 
supportive environment for those who are sacrificing so greatly for our 
Nation.
    In her ``First Lady's Message to Families,'' commenting on the 
people she had met on the campaign trail, Michelle Obama remarked, ``I 
particularly cherished my visits with military families all across the 
country . . . and if there's one thing I learned, it's that when our 
service men and women go to war, their families go with them.'' She has 
learned what this subcommittee and the Army have known for a very long 
time. They are serving side by side with our soldiers, enduring their 
hardships, and providing the unconditional love and support that truly 
make our Army strong.
    My statement focuses on a few of the programs we have in place for 
Active and Reserve component soldiers and families in the arenas of 
Support to Families, Child, Youth & School Services, Community Support, 
Support for Single Soldiers, Recreation Programs, Support to Deployed 
Soldiers, and Measuring Success.
                          support to families
    In a February 27, 2009, speech to marines at Camp Lejeune, 
President Obama referenced his wife's commitment to military families: 
``My wife Michelle has learned firsthand about the unique burden that 
your families endure every day. I want you to know this: military 
families are a top priority for Michelle and me, and they will be a top 
priority for my administration.'' Families have been, and will continue 
to be, a top priority for the Army.
Fiscal Year 2010 Budget Request
    The Army has doubled its investment in base funding from fiscal 
year 2007 to 2010. The Army's request for fiscal year 2010 soldier and 
family programs is $1.726 billion. This increase will sustain funding 
for the family programs in the out years.
    From fiscal year 2009 to 2010, the funding for Family Programs 
increased by $168 million. This funding does not include Overseas 
Contingency Operations funds. The Army leadership is committed to 
enhancing quality of support to soldiers and families across the Army 
and has funded enduring requirements in the Base Budget. This funding 
provides programs and services to Reserve component soldiers and 
families 24/7; resources the Reserve Component Yellow Ribbon program; 
resources child care services and youth development programs to the DOD 
standard of 80 percent and 35 percent of demand, respectively; and 
funds Survivors Outreach Services, a standardized program for family 
members of the fallen for all components that includes benefits 
advisors, additional financial counselors, and support coordinators to 
provide specialized services to survivors for as long as they need 
them. Additionally, the funding also supports Family Readiness Support 
Assistants to support the volunteer Family Readiness Group (FRG) 
leaders down to the battalion level in fiscal year 2010 and out as well 
as voluntary education and tuition assistance.
The Army Family Covenant
    Recognizing that the strength of our Army comes from the strength 
of our Army families, the Army leadership unveiled the Army Family 
Covenant in October 2007. The Covenant institutionalizes the Army's 
commitment to provide soldiers and families--Active, Guard, and 
Reserve--a quality of life equal to their level of commitment and 
service and recognizes the important sacrifices they make every day to 
defend the Nation. The Covenant compels the Army to improve soldier and 
family readiness by standardizing soldier and family programs and 
services, increasing accessibility to health care, improving soldier 
and family housing, ensuring excellence in schools and child and youth 
services, and expanding education and employment opportunities for 
family members.
    The Army Family Covenant is in its second year, and the commitment 
is enduring. The Soldier and Family Action Plan provides the roadmap to 
review and strengthen existing programs and services. Although there is 
much work to do, the Army has made significant progress in improving 
soldier and family programs; health care; housing; child, youth, and 
school services; recreation; education; and employment opportunities. 
We have closed the staffing gaps in Army Community Service, and we are 
systematically evaluating family programs through surveys, feedback, 
and focus groups in order to calibrate services to address customer 
needs.
    The Army Family Covenant continues a legacy of service and support 
to soldiers and families. It reflects a continuum of Army dedication to 
sustain and partner with soldiers and their families to build an 
environment where they can prosper and realize their potential, all 
essential in sustaining an All-Volunteer Force.
The Army Family Action Plan
    The Army recently celebrated the 25th Anniversary of the creation 
of the Army Family Action Plan (AFAP). On August 15, 1983, Army Chief 
of Staff General John A. Wickham published a groundbreaking white paper 
The Army Family, which identified the need for the Army to increase 
support to its Families. General Wickham asserted that a healthy family 
environment allows soldiers to concentrate more fully on their mission. 
The Army was in transition in 1983, moving its programs from those 
which supported an organization composed mostly of draftees and short-
term enlistees, to an all-volunteer, professional force, more than half 
of which is married. General Wickham set a new vision and course for 
Army Families that carries on to this day.
    Created in 1980 through focus groups, AFAP was fully developed with 
the first official AFAP Conference in July 1983. Its mission is to help 
Army leaders address the needs and concerns of the Army Family from a 
grass roots perspective. The program uses Army family representatives 
from around the world to identify issues that will improve the standard 
of living for soldiers and families. This feedback to leaders provides 
a way for policy change to become a tangible end-product for the Army 
family. It addresses quality-of-life issues for soldiers, retirees, 
Department of Army civilian employees, and their family members, and 
now includes Warriors in Transition (WT) and Survivors of Fallen 
Soldiers. The Army remains committed to AFAP as a means for soldiers 
and families to let the Army know what works, what doesn't, and what 
they think will fix it.
    During AFAP's 25 years, 651 issues have been worked by the Army. Of 
those: 84 are active, 5 have been combined with other active issues; 
442 have been completed; and 120 have been determined to be 
unattainable. AFAP issues have resulted in 110 legislative changes, 155 
changes to Department of Defense (DOD) or Army policies; and 177 new or 
improved programs or services. Over 60 percent of AFAP issues impact 
all Services. The majority AFAP issues are related to force support (32 
percent), followed by medical (21 percent), relocation (20 percent), 
family support (17 percent), and youth (10 percent).
    As a result of congressional legislation passed in 2008, three of 
the most critical active AFAP issues were successfully resolved: 
Distribution of the Montgomery G.I. Bill Benefits to Family Members, 
Paternity Permissive Temporary Duty, and In-State College Tuition. 
Thank you for hearing and supporting our families' issues by passing 
this legislation.
    Quality of life and support to soldiers and families will remain a 
primary focus through AFAP and the Army Family Covenant. AFAP will 
continue to support the Army family as emerging quality-of-life issues 
are brought to the Army leadership for resolution. AFAP will continue 
to be the ``Voice of the Army Family,'' taking on issues such as 
increasing support for Warriors in Transition and Survivors of the 
Fallen, refining Soldier Family Action Plan (SFAP) tasks, and reaching 
out to geographically dispersed soldiers and families.
Army OneSource
    Army OneSource (AOS) is the centerpiece of the Army's efforts to 
integrate family programs and services. It is the Army's outreach to 
geographically dispersed soldiers and families through technology and 
people (Community Support Coordinators). The web portal technology 
brings the latest information to soldiers and families, wherever they 
reside. It establishes a comprehensive multi-component approach for 
community support and services for Active, Guard, and Reserve soldiers, 
families, and employers throughout the entire deployment cycle. 
Soldiers and families can connect to support services by personal touch 
(telephone or office visit) and the World Wide Web 
(www.armyonesource.com).
    AOS is an Army asset integrator. It ensures families--regardless of 
where they live or how they are related to soldiers--have access to 
support before, during, and after deployment.
Survivor Outreach Services
    Survivor Outreach Services (SOS) provides a standardized, multi-
agency, decentralized approach to improving support for Survivors of 
Fallen Soldiers in communities closest to where families live. The 
program standardizes services for survivors and provides trained 
experts in benefits counseling, financial counseling, grief counseling, 
and casualty assistance. The SOS process also places emphasis on the 
soldier's responsibility to prepare, prior to deployment, for the 
possibility of death. This preparation involves the soldier, the 
soldier's spouse, children, and extended family. The loss of life in 
combat operations is a reality we must address because readiness 
includes being prepared for that possibility. SOS supports soldier and 
family readiness during and after the painful and devastating 
experience of the loss of a loved one.
    SOS provides support to Casualty Assistance Officers to ensure 
families receive the most current information on benefits and 
entitlements and have access to long-term financial and emotional 
support. Legal support for survivors includes estate planning, will 
preparation, probate planning, and assistance in preparing estate-
related tax documents.
    Service delivery strategies include a variety of modalities such as 
Web-based accessibility, outreach, face-to-face, and group services. 
SOS is available 24/7 with foreign language and special needs 
accommodation capabilities. Services are offered at stateside, 
overseas, and geographically dispersed locations.
Family Readiness Groups and Family Readiness Support Assistants:
    The Family Readiness Group (FRG) is a commander's program that 
includes unit soldiers, civilian employees, family members (immediate 
and extended), and volunteers. FRGs are critical to maintaining the 
strength, morale, and information chain for soldiers, families, and 
commands, and are vital to the morale and support of soldiers and 
families before, during, and after deployments.
    FRGs provide mutual support and assistance and function as 
communication mechanisms, bringing accurate information to families 
from commands, and serving as an informal chain of concern to bring 
issues back up to commands. Structured by the needs of the unit, some 
FRGs are large, active, and all encompassing, while others are small, 
tailored only to the immediate requirements of a nondeployed unit.
    We recognized volunteer FRG leaders were overwhelmed with 
responsibilities. The Family Readiness Support Assistants (FRSA) are 
one way to mitigate the stress. FRSAs provide administrative and 
logistical support to volunteer FRG leaders and lend consistency to the 
unit FRG and rear detachment team. Primary missions of FRSAs are 
coordination of training for rear detachment commanders (RDC) and FRG 
leaders, maintaining the critical communication link between RDCs and 
FRG leaders, and ensuring the responsiveness of established community 
resources. The FRSA position is primarily designed to relieve the 
administrative burden placed on the volunteer FRG leaders.
    There are 1,029 FRSAs--located in deployable Active, Guard, and 
Reserve battalions--who are paid employees and components of the 
commander's Unit Family Readiness Program. As members of the brigade or 
battalion commander's staff, FRSAs coordinate FRG activities within 
units and update commanders on program status and services available to 
soldiers and their families. FRSAs link family members with other Army 
support agencies and programs.
    FRSAs assist with the preparation of pre-deployment and 
redeployment activities, schedule, and coordinate family readiness or 
unit-sponsored training, assist in development and distribution of unit 
newsletters, coordinate video teleconferences for families and deployed 
soldiers, and serve as links between garrison community agencies and 
units. FRSAs utilize AOS to gather information of value to the FRG 
leaders. The FRSA position remains in place even when the unit is not 
deployed, providing continuity in a world climate that requires units 
to participate in multiple deployments.
Virtual Family Readiness Groups
    The Virtual Family Readiness Groups (vFRGs) provide all of the 
functionality of traditional FRGs in an ad hoc, online setting to meet 
the needs of geographically dispersed families. The vFRG is a web-based 
system to conduct two-way communication between units, family members, 
and soldiers in theater.
    The vFRG links the deployed soldier, family, FRG leader, unit and 
RDCs, and other family readiness personnel on their own controlled-
access web portal to facilitate the exchange of information and provide 
a sense of community, using technology to automate manual processes and 
provide enhanced services and communications. Unit commanders are 
responsible for maintaining vFRG content and user access. A new and 
innovative component of AOS is the eArmy Family Messaging System. The 
messaging system is a state-of-the-art multimedia tool for commanders 
to instantaneously communicate with soldiers and families by 
broadcasting a message through various communication devices to help 
fulfill their family readiness mission. To date, the Army has 
established approximately 2,000 vFRGs.
Soldier and Family Assistance Centers
    The Army developed Soldier and Family Assistance Centers (SFACs) at 
installations with Warrior Transition Units (WTUs). Centers provide a 
safe haven where Warriors in Transition and DOD civilians and their 
families can gather for mutual support and camaraderie to aid physical, 
spiritual, and mental healing. Services include transition support, 
financial counseling, child care and education counseling. SFACs act as 
a conduit for other Federal, State, local, and nongovernmental 
agencies.
                   child, youth, and school services
    Our Child, Youth, and School (CYS) programs are a key component of 
the Army Family Covenant because they reduce the conflict between 
mission readiness and parental responsibility.
    Garrison Child Development Centers and Family Child Care Homes have 
extended their operating hours to better accommodate the current high 
operating tempo. We have extended hours to cover weekends, evenings, 
and even 24/7 services and crisis care where necessary.
    Soldiers who work an extended duty day are not charged for the 
extra child care hours. Families of deployed soldiers receive child 
care discounts and 16 hours of free respite child care per month per 
child. The respite care is also available for FRG and FRSA personnel, 
Families of deployed, Exceptional Family Members, Warriors in 
Transition Families, and Survivor Families. This respite gives parents 
time to tend to personal needs or take breaks from the everyday 
stresses of parenting. Our families are grateful for this well-deserved 
service.
    Families of our Warriors in Transition are especially vulnerable 
and we provide child care for them during medical appointments and 
support group meetings. Army Families of Fallen Soldiers receive child 
care during the bereavement period and special consideration 
thereafter.
    When soldier parents are absent, many children no longer have 
transportation that allows them to participate in after school programs 
and sports. The Army Family Covenant has enabled us to add more bus 
routes and transportation options to assist children in accessing these 
vital activities.
    We are grateful for your support of our Child and Youth 
Construction Program which will significantly reduce our child care 
shortfall. Our Military Construction Program reflects this commitment: 
42 Child Care Centers funded in fiscal years 2008 and 2009 with an 
additional 11 centers programmed for fiscal years 2010 through 2014. In 
addition, we have used the temporary authority provided under the 
National Defense Authorization Act for 44 Child Care Centers in fiscal 
year 2008 and 4 in fiscal year 2009 with Operations and Maintenance 
dollars. Thank you for your support that enables the Army to rapidly 
meet installation child care requirements.
    We are attentive to the need to ensure the health, safety, and 
well-being of the children in our care and take great pride in the fact 
that in fiscal year 2008 all of our eligible Child Development Centers 
and Army School Age Programs were nationally accredited. This is a 
milestone representing the culmination of years of hard work which 
addresses quality as well as quantity.
    Initiatives used to transform the military child care system into a 
model for the Nation can be implemented in civilian communities to 
improve the quality of care for all children. In a report released on 
November 24, 2008, ``Making Quality Child Care Possible: Lessons 
Learned,'' from the National Association of Child Care Resource and 
Referral Agencies (NACCRRA) military partnerships examined lessons 
learned from the military child care system that could be applied in 
the private sector. The report concludes that many of the basic 
initiatives implemented by the military can significantly improve the 
quality of child care in civilian communities across the Nation. These 
initiatives include establishment of basic child care health and safety 
standards, routine inspections and oversight, and training and 
incentives for child caregivers.
    Longer and multiple deployments are increasing the stress on our 
families, and the support they need includes strengthening the 
connection with folks who teach and monitor our children every day in 
school settings. In the last year, we have added 40 more school liaison 
officers, which now total 140 throughout the Army, and increased the 
number of school districts to 380 that have signed a memorandum of 
understanding to help minimize academic disruptions for transferring 
military students. We have also expanded training to help school 
officials understand challenges faced by military students.
    The Army is partnering with outside agencies on the following 
initiatives:

        <bullet> DOD Interstate Compact on Educational Opportunity for 
        Military Children (effective 2008) addresses the educational 
        transition issues of children of military families. The purpose 
        of the Compact is to remove barriers to educational success 
        imposed on children of military families because of frequent 
        moves and deployment of their parents.
        <bullet> DOD and Department of Education Memorandum of 
        Agreement (signed June 2008) creates a formal partnership 
        between the two Departments to provide a comprehensive and 
        cohesive structure for collaboration between two Federal 
        agencies as well as with local, State, and other relevant 
        entities.
        <bullet> DOD Education Activity Partnership Branch initiative 
        is dedicated to promoting quality education for every military 
        child regardless of their location or how often their family 
        moves.

    I would like to emphasize that our CYS Services is a force 
multiplier that helps reduce lost duty time, impacts soldiers' 
decisions to remain in the Army, and sends a message that we care about 
our families. The Army considers these programs critical to mission 
readiness--our investment contributes to productivity and retention 
today as well as productive citizens in the future.
                           community support
    The Army Community Covenant: soldiers and families are integral 
members of the communities in which they live. The Army Community 
Covenant, a companion initiative of the Army Family Covenant, is a 
commitment of support at the state and local level by individuals, 
organizations, and government agencies to Active, Guard, and Reserve 
soldiers and families. It is designed to develop and foster effective 
state and community partnerships with the Army to sustain and improve 
soldier and family quality of life.
    There are many communities, organizations, and civic and business 
leaders across the country already supporting soldiers and families 
through a number of programs and initiatives. The Community Covenant 
recognizes that effort and advances initiatives like the Interstate 
Compact on Education Opportunity for Military Children, which replaces 
inconsistent treatment of transitioning military students with a 
unified, comprehensive approach that provides consistent policy in 
every State. Homes for Our Troops builds new homes or adapts existing 
homes to meet handicapped accessibility requirements for Warriors in 
Transition. These are just two of over 1,500 best practices highlighted 
on the Army Community Covenant Web site 
(www.communitycovenant.army.mil).
    Since the Community Covenant's inception on April 17, 2008, there 
have been 102 covenant signing ceremonies in 37 States that included 22 
Governors, 39 Members of Congress, 103 State legislators, and 269 
Mayors.
                      support for single soldiers
    While steadily increasing focus on family issues in recent years, 
the Army has not lost sight of the 44 percent of the force that is not 
married--our single soldiers.
Better Opportunities for Single Soldiers
    The mission of the Better Opportunities for Single Soldiers (BOSS) 
program is to enhance the morale and welfare of single soldiers, 
increase retention, and sustain combat readiness. BOSS is the 
collective voice of single soldiers through the chain of command. The 
program also serves as a tool for commanders to gauge the morale of 
single soldiers regarding quality-of-life issues. BOSS also sponsors a 
variety of activities before, during, and after deployment to maintain 
the morale of single soldiers affected by increased operational tempo 
and deployment stress.
    The BOSS program is facilitated through its three core components 
aimed at maintaining a balanced life: leisure and recreation, community 
service, and quality of life. BOSS affords soldiers the opportunity to 
assist in planning and execution of recreational activities for single 
soldiers and provides direction for soldiers interested in performing 
military and civilian community service-related projects. Community 
service projects provide soldiers valuable experience, skills, and a 
sense of community pride and ownership. In fiscal year 2007, 22 
garrison BOSS programs received the President's Volunteer Service Award 
for efforts representing over 150,574 volunteer hours.
    The BOSS program also serves as a tool to address many of the 
issues and concerns that our Army faces today. The program gives the 
Army the ability to tackle tough issues through peer-to-peer 
leadership. Single soldiers assist the chain of command in dealing with 
suicide prevention, sexual assault, and sexual harassment issues that 
single soldiers living in barracks might experience.
                          recreation programs
    Soldier and Community Recreation dramatically improved service to 
soldiers and their families by standardizing and increasing the quality 
of fitness center equipment and Wounded Warriors sports programs, for 
both garrisons and deployed forces in Iraq and Afghanistan.
Warrior Adventure Quest
    The Warrior Adventure Quest (WAQ) delivers high adventure 
recreation activities to help soldiers transition to ``new normal'' and 
reduce the potential for high risk behaviors that are counterproductive 
to unit cohesion. It combines existing high adventure, high adrenaline 
activities with battlemind to assist in mitigating the cumulative 
effects of sustained operations while mentally preparing soldiers to 
reintegrate and begin focused training for the next requirement. This 
integrated process involves Office of the Surgeon General, the 
Substance Abuse Program, Suicide Prevention, Combat Readiness Center, 
Chaplains, the National Guard, Reserves, and Morale, Welfare and 
Recreation (MWR).
Warrior in Transition Sports Program
    The Warrior in Transition Sports Program provides active-duty 
soldiers who have life-altering injuries an opportunity to compete in 
state and national level sporting events by paying for their athletic 
attire, registration fees, transportation, lodging, and per diem. 
Physically impaired soldiers can to apply for select competitions at 
which they believe they would be competitive. Selection is based on the 
soldier's prior experience and participation at local and regional 
competitions. Soldiers must qualify to compete in a State or national 
level sport competition for permanently physically impaired athletes.
Inclusive Recreation for Warrior in Transition Training
    We have partnered with DOD, in conjunction with the Pennsylvania 
State University Outreach Programs, to provide 12 ``Inclusive 
Recreation for Wounded Warrior'' training sessions over the next 3 
years. This training is a 4-day course designed to train staff who are 
recreation programmers/managers to successfully integrate Active Duty 
Warrior in Transition (WT) into existing MWR Recreation programs and 
services. This involves the ability to recognize the unique needs and 
characteristics of WT who have sustained war-related injuries and be 
able to respond to their needs. Students will also develop an 
``Inclusion Action Plan'' to implement upon return to their 
installations and will be able to apply the knowledge learned in this 
course to successfully meet the recreational needs of Active Duty WT. A 
byproduct of this course is the ability to integrate retirees and 
exceptional family members who may also have a disability. A total of 
60 recreation staff from all Services (20 from Army) has been trained 
since the program's inception in January 2009.
    To support the Army Family Covenant, recreation programs such as 
bowling, golf, and libraries continue to offer opportunities to 
soldiers and their families. Army bowling centers are soldier and 
family entertainment centers, which offer a multitude of amusement 
options including glow bowling, party rooms, video arcades, billiards, 
and Strike Zone snack bar operations. Bowling centers provide discount 
bowling to soldiers and families affected by extended deployments. 
Bowling managers are being trained to coach adaptive needs bowling to 
better serve Warriors in Transition and others with adaptive needs. The 
Army Golf Program provides high quality sports and leisure activities 
for the soldiers and families and supports the MWR ``First Choice'' 
service standard.
                      support to deployed soldiers
    MWR supports America's Army wherever it serves. We maintain MWR 
facilities at 58 sites in Iraq, Afghanistan, Kuwait, and Bosnia. Tens 
of thousands of deployed soldiers have received portable pocket fitness 
kits that can be used at any time and any place. Popular with soldiers, 
these kits contribute to their overall well-being as well as to the 
Army's warfighting capability.
    Recreation facilities include theaters, electronic games stations, 
traditional board games, ping-pong, and paperback book libraries that 
also offer preloaded audio books. Fitness facilities include pools, 
self-powered aerobic machines, cardiovascular and strength training 
equipment, and assorted free weight equipment.
    MWR programs help soldiers maintain physical fitness, alleviate 
combat stress, and foster readiness, as mission accomplishment is 
directly linked to soldiers' confidence that their families are safe 
and capable of carrying on during their absence until they return home 
from deployment.
    Soldiers can take advantage of rest and recuperation programs 
offered at the Edelweiss Lodge and Resort, Hale Koa Hotel, and Shades 
of Green, which provide discounted guest room and food and beverage 
packages for servicemembers and their sponsored guests during mid-tour 
leave or upon return from either Afghanistan or Iraq.
                           measuring success
    We listened to our customers when they told us in 2007 that they 
did not necessarily want more programs, they wanted standardized 
programs that they could count on regardless of where they lived. 
Utilizing that feedback, SFAP to support family programs and services, 
health care, housing CYS Services, education, and employment 
opportunities.
    While we have come a long way in designing the future of family 
programs, we fully appreciate and recognize that we still have much to 
do. In response to customer feedback, we are evaluating our programs 
and services utilizing a standardized disciplined methodology for 
capturing customer comments and using those responses to recalibrate 
and refine both the delivery and receipt of programs and services. 
Through a three-tiered feedback process, we gather the individual, 
constituent group, and corporate input to implement recommendations.
    Feedback on SFAP outcomes are collected through forums such as the 
aforementioned AFAP. The SFAP Senior Review Group and the Soldier 
Family Readiness Board of Directors, co-chaired by the Secretary of the 
Army and Chief of Staff of the Army, provide senior leader guidance and 
direction for SFAP implementation. We are also closely monitoring 
results from several soldier and family surveys to determine the 
effectiveness of the Army Family Covenant. We are particularly 
interested in soldier and family satisfaction with the military way of 
life and their adaptation strategies to the challenges of Army life.
                               conclusion
    Under the Army Family Covenant, the Army is implementing aggressive 
improvements to a broad range of family-oriented, quality of life 
programs and services to address the dynamic needs of soldiers and 
their families. These improvements are focused on improving post-combat 
support to mitigate the accumulated effects of conflict and to equip 
and empower the soldiers and families of our expeditionary Army . . . 
the strength of the Nation.
    We have invested the Nation's resources wisely, focusing on our 
soldiers and families in areas that enable readiness and resilience, 
while reducing the turbulence and stress that come with military life. 
Continuing predictable funding is crucial to sustain and preserve the 
All-Volunteer Force.
    While we are moving in the right direction with the Army Family 
Covenant, we know there is much more to achieve. The Army remains 
determined to provide a strong, supportive environment where soldiers 
and their families can thrive. With your support of our fiscal year 
2010 budget request, we will move closer to fulfilling our commitment 
to provide soldiers and families a quality of life commensurate with 
their level of service and sacrifice to the Nation.
    Thank you for the privilege of appearing before you today. I look 
forward to your questions.

    Senator Ben Nelson. Thank you very much.
    Dr. Rau?

STATEMENT OF TERRI J. RAU, PH.D., DEPUTY DIRECTOR FOR RESEARCH 
AND DEVELOPMENT AND PERFORMANCE MEASUREMENT, NAVY INSTALLATIONS 
                  COMMAND, UNITED STATES NAVY

    Dr. Rau. Chairman Nelson, it is my honor to testify today 
on Navy family readiness programs and initiatives. Thank you 
for your leadership and attention to this vital issue and for 
your continued support to our sailors and families.
    Navy family readiness programs include Navy fleet and 
family support programs, child and youth programs, and 
emergency preparedness and community alliance. Navy family 
readiness has been afforded the highest visibility, advocacy, 
and priority in recent years.
    The Navy's commitment to family readiness has resulted in 
increased capability for both Navy fleet and family support 
programs and child and youth programs. In practical terms, this 
has resulted in increased individual and group services for 
family members, including clinical counseling services, 
proactive outreach, and increased childcare capacity.
    Emergency preparedness and community alliance provides 
preparedness and coordinated family support during natural or 
manmade emergencies or noncombatant evacuation and repatriation 
events.
    This year marks the 30th anniversary of the establishment 
of Navy Fleet and Family Support Centers. We support individual 
and family resiliency and adaptation to military life by 
providing 12 core programs and services in 3 functional areas--
deployment readiness, career support and retention, and crisis 
response.
    As we have increased capability, we have become 
increasingly focused on prevention and, when necessary, early 
identification and assistance before more significant problems 
develop that require command, medical, or legal intervention. 
Services are delivered from 81 sites worldwide.
    Child development and youth programs help families balance 
the competing demands of mission readiness and family 
responsibilities. The Navy provides high-quality childcare, 
youth development, and school transition for 120,000 children 
from 4 weeks to 18 years of age.
    Our current capacity meets 72 percent of potential need, 
with a 6-month placement time, except in fleet concentration 
areas where placement times can be longer. To attain the DOD 
capacity goal of 80 percent of potential need, the Navy's 
expansion plan is adding approximately 7,000 new childcare 
spaces through several initiatives.
    Increasing our response capability to reach geographically 
dispersed family members of our active and Reserve component 
remains on the forefront of our efforts. Our primary focus 
remains to deliver the highest quality services at the right 
time and in the right place.
    Thank you for this opportunity and for your leadership and 
focus on this important issue.
    [The prepared statement of Dr. Rau follows:]
               Prepared Statement by Terri J. Rau, Ph.D.
    Chairman Nelson, Senator Graham and distinguished members of the 
committee, it is my distinct honor to appear before you and I welcome 
the opportunity to testify today on Navy family readiness programs and 
initiatives. I thank you for your leadership and attention to this 
vital issue and for your continued support to our sailors and families.
    I am a clinical psychologist by training and have worked for the 
past 20 years providing assistance to individuals and families. I have 
had the privilege of working for Navy Fleet and Family Support Programs 
(FFSPs) since 1997.
                               background
    Since 2005, Navy Family Readiness program management, 
implementation, execution and programming have been aligned within 
Commander, Navy Installations Command (CNIC). This alignment has 
resulted in increased effectiveness, flexibility and responsiveness in 
program management and service delivery from the headquarters to the 
installation level and has ensured that program development, and 
resourcing decisions are not divorced from the practical realities of 
delivering ground-level support and responding to the challenges faced 
by Navy families who are coping with increased operational tempo, 
nontraditional duty assignments, and sustained overseas contingency 
operations.
    Within CNIC, Navy Family Readiness programs consist of Navy FFSPs, 
Child and Youth Programs and Emergency Preparedness and Community 
Alliance Programs, the latter of which provides preparedness and 
coordinated family support during natural or manmade emergencies or 
noncombatant evacuation and repatriation events. Our preparedness and 
ability to respond to Navy families during emergencies through our 
support to Family Assistance Centers and focused assessment and case 
management has increased significantly since the Gulf Coast hurricanes 
in 2005.
    Since the establishment of CNIC in the fall of 2003, Navy Family 
Readiness programs have been afforded the highest visibility, advocacy 
and priority. In fact, the Navy's commitment to family readiness has 
resulted in increased capability for both Navy FFSPs and Child 
Development and Youth Programs. In practical terms, this has resulted 
in increased services to family members, increased individual 
assistance and consultation, more varied educational programs, more 
proactive outreach, delivery of family support services in locations 
most conducive to family member engagement and increased child care 
capacity.
                   fleet and family support programs
    This year marks the 30th anniversary of the establishment of Navy 
Family Service Centers (now called Fleet and Family Support Centers). 
FFSPs support individual and family readiness and adaptation to life in 
the Navy and include emergency preparedness and response, crisis 
intervention and response, personal and family wellness education and 
counseling, military and personal career development, financial 
education and counseling, spouse employment, and deployment support for 
sailors and their family members. Programs and services are currently 
delivered from 81 sites worldwide, with 58 of those sites delivering a 
full portfolio of programs and services.
    Navy FFSP is organized into three subfunctional areas: Deployment 
Readiness, Career Support and Retention, and Crisis Response. Across 
all three subfunctions, services include information and referral, 
individual clinical and nonclinical consultation and educational 
classes and workshops.
    Deployment Readiness includes services provided in the areas of 
deployment support, ombudsmen coordination, relocation assistance, and 
life skills education. Deployment Readiness has always been and remains 
the area of highest priority for Navy family support. Deployment 
support focuses on practical preparation, emotional aspects of 
separation, supporting children during deployment, maintaining 
communication and closeness during deployment, and homecoming and 
successful reintegration of the sailor into the family and community. 
Planned for 2010 is development and delivery of an electronic 
deployment toolkit/sea bag for school administrators and staff to 
better equip them in working with children of deployed sailors.
    As the nature of Navy deployment has changed, so have our 
deployment support services. We now understand that family deployment 
preparedness is not a predictable, cyclical process but a daily state 
to be maintained. For example, Fleet and Family Support Centers now 
provide outreach calls, assessment and recurring support to families of 
sailors on Individual Augmentee (IA) and Global War on Terror Support 
Assignments (GSA) serving in Iraq, Afghanistan and other locations in 
support of Overseas Contingency Operations. Efforts to better reach 
remotely located families impacted by these nontraditional duty 
assignments have included use of information technology to provide 
virtual family discussion groups and workshops, publication of a 
monthly electronic newsletter and of Family, Sailor and Command IA 
Handbooks.
    Command Ombudsmen are trained volunteers who serve as a vital two-
way communication link between command leadership and family members. 
Ombudsmen provide personalized support and guidance to families in 
adapting to the challenges of a mobile military lifestyle and extended 
operations necessary to meet the Navy's maritime strategy. There are 
currently over 2,200 registered Navy Family Ombudsmen. Fleet and Family 
Support Centers provide training, consultation, coordination and 
support to Ombudsmen.
    Navy Fleet and Family Support Centers also support the development 
and sustainment of Family Readiness Groups. These groups enhance 
preparedness by providing an informal and less structured opportunity 
for family members to meet on a regular basis for camaraderie, 
companionship and support. They plan family activities during 
deployments, mentor new family members and assist families in times of 
crisis.
    Career Support and Retention includes services provided in the 
areas of Personal Financial Management, Transition Assistance, and 
Family Employment Readiness. Managing money in today's economy can be 
challenging. The Navy's Personal Financial Management (PFM) program 
provides a collaborative and comprehensive approach to education and 
counseling that emphasizes a proactive, career lifecycle approach to 
behavior modification. Services include individualized assistance that 
fosters financial responsibility and accountability with primary 
emphasis on financial independence, sound money management, debt 
avoidance, and long-term financial stability. Personal financial 
fitness services are delivered by a network of Accredited Financial 
Counselors and educators at the Fleet and Family Support Centers, and 
Command Financial Specialists, with collaboration from partner 
organizations. Increased partnerships between Fleet and Family Support 
Centers and Child Development and Youth Programs at the installation 
level have increased youth education regarding financial fitness. The 
Navy PFM program was recognized as a Financial Education Program of the 
Year by the Association of Financial Counseling, Planning, and 
Education in 2006, and received recognition as an Exemplary Employer 
Initiative by the Personal Finance Employee Education Foundation in 
2008. More than 9,996 family members received financial education 
services during 2008, which represented a 100 percent increase over 
2007.
    Leaving the Navy is not just a matter of changing jobs; it's a 
total lifestyle change. Civilian life and the military life can seem 
like two different worlds, especially if a sailor's entire working 
career has been in the Navy. Fleet and Family Support Centers host the 
U.S. Department of Labor sponsored Transition Assistance Program (TAP) 
Employment Workshop. Sailors who are planning to leave the Navy or 
retire are encouraged to take advantage of all the services offered 
through the Centers at no cost. Similar services in the private sector 
would cost hundreds of dollars. TAP employment workshops are designed 
to provide sailors with the basic knowledge and skills necessary to 
plan and execute a successful job search. Department of Labor 
instructors conduct the 3-day TAP workshops, focusing on subjects such 
as skills identification, post-military goals and ambitions, conducting 
job searches, writing a resume, preparing for an interview and dressing 
for success in a new career. The core TAP curriculum also includes 
presentations by the Department of Veterans Affairs on VA benefits and 
information on disability transition assistance.
    Local FFSP professionals provide additional employment assistance 
and resources. These services often include individual counseling; job 
fairs, search libraries and access to employment listings; automated 
tools and personal assistance for preparing resumes, cover letters and 
Federal job applications; and guidance in preparing for interviews.
    The Navy recognizes that moving every few years creates career 
challenges for military spouses. The Family Employment Readiness 
Program addresses those challenges in workshops and through 
individualized assistance. We provide assistance with self-directed job 
search through an employment resource center, information and referral 
services, career development and coaching, staff assisted job search, 
and much more. Workshops and seminars are routinely provided and create 
a framework for further educational exploration in areas such as: 
Resume Writing, Effective Job Search Strategies, Interviewing 
Techniques, Federal Employment Opportunities, Entrepreneur Business 
Opportunities, Personal Skills Assessment, and Financing Career Change. 
During 2008, nearly 2,900 Navy spouses were awarded scholarships at 6 
Navy pilot locations through joint Department of Defense (DOD)/
Department of Labor Career Advancement Account (CAA) partnerships. The 
CAA program has now been expanded worldwide. Our staff conducted over 
3,000 employer education events to market military spouses as solutions 
to hiring needs. Notably, 49 percent of our Navy Child and Youth 
Programs professional workforce are military spouses, which affords 
them mobile career opportunities. More than 2,490 spouses voluntarily 
reported securing employment as a result of program efforts.
    Crisis Response includes programs and services provided in the 
areas of clinical counseling, family violence prevention, case 
management and victim advocacy, new parent support and sexual assault 
prevention and response.
    From the beginning, Fleet and Family Support Centers have offered 
clinical counseling services, which is unique to the Department of the 
Navy. Clinical counseling is provided by independently licensed mental 
health professionals, some of whom have additional training and 
experience providing counseling services to children. Counseling 
services are brief and solution-focused in response to commonly 
occurring life experiences such as marital discord, parent-child 
conflict, or occupational/school issues. The intent of these services 
is early identification and prevention of more significant conditions 
or problems, thereby promoting improved quality of life and increased 
resilience in individuals and families.
    Navy Fleet and Family Support Centers are also actively engaged in 
support of Navy Operational Stress Control (OSC) initiatives. OSC is a 
line owned and led program supported by Navy medicine. The goal of OSC 
is to promote psychological health, reduce stigma associated with 
seeking psychological services and improve overall resilience in our 
sailors and their families. OSC provides practical decisionmaking tools 
for sailors, leaders, and families so they can identify stress 
responses and mitigate problems before they become disruptive. In 
collaboration with the Navy line and medicine, we have launched a 
family awareness effort by incorporating OSC concepts into existing 
family support programs and services whenever possible. We are also 
working with Chaplains delivering OSC briefs to sailors awaiting IA/GSA 
deployments and are participating in the development of formal OSC 
curriculum to be delivered at key nodes of training throughout the 
sailor's career.
    FFSP facilitates Navy suicide prevention initiatives by 
coordinating with Chaplains to provide annual suicide prevention 
training to sailors and by providing suicide awareness and prevention 
programs to families and communities. When someone seeking counseling 
at the Fleet and Family Support Center is assessed to be clinically 
depressed or suicidal, they are referred to the local Medical Treatment 
Facility or to community mental health providers through TRICARE.
    The Family Advocacy Program (FAP) provides safety assessment and 
planning, clinical assessment, case management, victim advocacy, and 
intervention to military families referred for alleged child abuse/
neglect or domestic abuse. The primary goals of FAP are prevention, 
victim safety and support, rehabilitative intervention, offender 
accountability and provision of a consistent and appropriate response 
to allegations of family maltreatment. The location of FAP prevention 
and intervention services within Navy Fleet and Family Support Centers 
is unique to the Department of the Navy and provides an effective 
continuum of care whereby common stresses associated with family 
violence risk can be identified and addressed in a more holistic, less 
stigmatizing manner. Maintaining abuse-free and adaptive family 
relationships is critical to Navy mission readiness, maintenance of 
good order and discipline, and quality of service for our sailors and 
their families.
    The New Parent Support Home Visitation Program provides voluntary 
home visitation services for over-burdened expectant and new parents. 
Home visiting services are available for new parents of children age 0 
to 3. Single parents and parents with a deployed member are 
automatically screened as eligible for home visitation. The New Parent 
Support Program has a demonstrated, positive impact in the prevention 
of child maltreatment. New Parent Support personnel also coordinate 
closely with Navy medicine in delivery of special primary prevention 
initiatives such as reducing infant deaths from shaking and unsafe 
sleeping practices.
    Navy FFSPs work in collaboration with the Navy Safe Harbor Program 
to support family members of the wounded, ill, and injured. We provide 
information, resources and referral, relocation assistance, financial 
counseling, clinical counseling, and transition assistance.
    We work closely with the Navy Reserve Forces Family Support 
Coordinator and the five regional Family Support Administrators. 
Together we facilitate the connection of Reserve families to each 
other, to supportive military and community resources, and we improve 
community awareness of military families' experiences and needs. The 
primary focus of our efforts supports families living apart from 
military installations. The Family Support Administrators liaison with 
their assigned Navy Operational Support Center staffs to ensure 
families are supported by Navy and other services' family support 
programs, including the Joint Family Support Assistance Programs.
                  child development and youth programs
    The Child Development and Youth Programs help families balance the 
competing demands of mission readiness and family responsibilities. The 
Navy provides high quality child care, youth development, and school 
transition services for 120,780 children from 4 weeks to 18 years of 
age. We currently operate 128 Child Development Centers, 3,000 Child 
Development Homes, 86 School-Age Care programs, and 103 Youth Centers. 
Our programs continue to be ranked amongst the highest in the Nation 
for quality and oversight.
    The DOD goal is to achieve child care capacity for 80 percent of 
potential need which is sufficient capacity to place children from 
waiting lists within 3 months after care is requested. Our current 
capacity meets 72 percent of the potential need with a 6-month 
placement time, except in fleet concentration areas where placement 
time can be longer.
    The availability of child care remains a top issue among our single 
parents and dual-career families. To attain the DOD goal, the Navy's 
expansion plan is adding approximately 7,000 new child care spaces. 
This expansion includes construction of 26 new child development 
centers (including facilities open 24/7), the conversion of existing 
pre-school age spaces into infant spaces to meet the greatest demand, 
commercial contracts in communities throughout the United States, and 
expanding military certified home care. Combined, these initiatives 
will reduce the waiting time for child care to 3 months or less Navy-
wide with first priority given to single parents.
    Several of these expansion projects have utilized the temporary 
National Defense Authorization Act authority that increased the 
Department's minor construction threshold authority for child 
development centers.
    Our continuing expansion initiatives are not only meeting the needs 
of our families living on or near our installations but also those 
living and working throughout the United States, including Reserve 
members. Our contract programs ``Military Child Care in Your 
Neighborhood'' and ``Mission Youth Outreach'' provide subsidized child 
and youth services from commercial programs that meet community quality 
standards. We continue to work with communities, assisting them with 
raising the quality of their standards.
    Another area of expansion is our new contract program that provides 
subsidized, quality respite care to our families with severe special 
needs. This new program certifies qualified community and military 
providers to care for children that are not easily accommodated within 
existing programs.
    Support to our children with deployed members continues and 
includes our new ``Give Parents a Break'' program and the use of Child 
and Youth Behavior Consultants imbedded in our programs. These 
consultants provide a resource to observe and train our professionals 
on interventions to assist children and their families having 
challenges during deployments.
    We have also launched a new Navy-wide School Liaison Officer 
program which is designed to assist Navy families and local school 
districts with the dependent education issues arising from frequent 
moves and deployments.
                         summary and conclusion
    Increasing our response capability to reach geographically 
dispersed family members of our Active and Reserve components remain at 
the forefront of our efforts. We will continue our efforts, within our 
budgetary constraints, to provide resources and services to IA/GSA 
families, families of wounded, ill, or injured, and our ombudsmen 
network that supports them. We will continue to explore creative 
solutions to overcome impediments to full utilization of technology 
solutions that equip us to maintain unfettered communications with 
families. Our primary focus remains on delivering the best services at 
the right time and in the right place.
    As we continue to address the needs of sailors and their families, 
our guiding principles continue to:

        <bullet> Target our resources to the most critical 
        requirements, focusing on our fleet and family readiness, 
        resilience, and quality of life;
        <bullet> Aggressively identify opportunities to eliminate 
        redundancies, under-utilized services, and outdated standards 
        of practice;
        <bullet> Ensure consistent quality of service and performance 
        standards across all of our installations; and
        <bullet> Refine, strengthen, align, and integrate our family 
        support planning capabilities and processes to ensure optimized 
        results.

    Senator Ben Nelson. Thank you.
    General Larsen?

    STATEMENT OF MAJ. GEN. TIMOTHY R. LARSEN, USMC (RET.), 
DIRECTOR, PERSONAL AND FAMILY READINESS DIVISION, MANPOWER AND 
     RESERVE AFFAIRS DEPARTMENT, UNITED STATES MARINE CORPS

    General Larsen. Senator Nelson, thank you very much for the 
opportunity today to come and appear before the subcommittee 
and report on family support programs within the Marine Corps. 
It is really a great opportunity. Also, it helps us focus on 
the things we need to do and highlight some of the gaps that we 
have or areas where we need to refocus ourselves.
    First, I would like to say thanks to the panel that spoke 
before us. They did a great job, and it is really eye opening 
to listen to their feedback on the services and the programs 
that we provide. I think that they did a tremendous job, and it 
will help us very much.
    As far as the Marine Corps is concerned, we are in the 
second year of a multi-year program to change our programs and 
to reshape them and recast them. We did that at the guidance of 
the Commandant of the Marine Corps. At his direction, we did a 
series of functionality assessments to assess where we are on 
the programs, and then we went out and conducted a series of 
surveys across the Marine Corps and asked them what they 
thought about the programs that we had.
    We found out in a lot of cases we are missing the target. 
The things that we thought we were doing or the programs that 
we had in place sometimes weren't meeting the needs of the 
people that we are trying to help.
    The changes that we have put in place have been well 
received. There is a lot more work to do, and we have to get 
started on it. Basically, this past year, we have completely 
changed four of the fundamental programs we have for family 
support: the Marine Corps family teambuilding, unit family 
readiness, the Exceptional Family Member Program (EFMP), and 
the School Liaison Program.
    This year, we are going to first do a baseline assessment 
of all of our current programs and how they are being funded 
and what we think they need as we go forward so we can 
determine where we are, and then we are going to do a needs 
assessment of those programs and other programs at the 
installations to see where we go and what we need to do.
    We have found out that a lot of the things that we have 
done in the past have been focused on the installations. An 
installation-based program is not necessarily what we need to 
do as we go forward. We need more community-based programs to 
get those people that are not assigned to installations that 
are across the country in a lot of different locations.
    We also want to make sure that the programs that we have 
support the operational commander and meet the needs of the 
marines and their families. We are doing this largely because 
there is an expectation not only on the part of the leadership 
of the Marine Corps, but on the part of the individual marine 
and his family that they deserve a quality of life that 
supports their commitment to the country and their commitment 
to the Marine Corps and the mission that they are undergoing.
    We feel that we are obligated from our perspective to make 
sure that those families, their needs are taken care of. I wish 
I could have had the opportunity to answer a lot of the 
questions that were asked before. I am sure we will. Thank you 
very much.
    [The prepared statement of General Larsen follows:]
    Prepared Statement by Maj. Gen. Timothy R. Larsen, USMC, (Ret.)
    Chairman Nelson, Ranking Member Graham, and distinguished members 
of the Personnel Subcommittee, thank you for the opportunity to report 
on the quality of life and well-being of our marines and their families 
and the status of our family support programs offered through Marine 
Corps Community Services (MCCS).
                          marine corps family
    Today, the Marine Corps Family is comprised of many elements in and 
outside the traditional nuclear family definition. The expanded nature 
of family today means that they are often greatly dispersed from 
military installations and support mechanisms. The family is more than 
those who hold dependent identification cards. The parents of our 
marines--particularly those under the age of 30 and part of the 
Millennial Generation have joined our definition of family and within 
our commitment of care.
    For Active Duty families within the nuclear definition, we have 
just over 94,000 spouses and 110,077 children. Marines are also caring 
for parents and other dependents totaling over 500, bringing our entire 
family population to nearly 205,000. This does not include the over 
100,000 retired marines and their families we support. We should also 
note that the Marine Corps has experienced a baby boom with a 12 
percent increase in infants, pre-toddlers, and toddlers since 2007. Our 
parental unit--Mother and Father--experience multiple deployment 
separations and increased operational tempo (OPTEMPO) which directly 
impact the time available with their family. Concerns of danger and 
worry over family conditions are mutually shared by the warfighter, 
their spouses, children and parents/grandparents. The Marine Corps has 
the youngest fighting force and youngest family. These young families 
are required to mature rapidly and are those at the greatest risk for 
set back. As an unfortunate result, our divorce rates have increased 
for the first time in many years, particularly for women marines and 
enlisted.
    Our Marine families, including activated Reserves and independent 
duty marines, are dispersed and no longer living solely on or around 
Marine Corps or other military installations. For example, our 
activated Reserve families are more likely to remain in hometowns 
scattered across every State. While civilians greatly respect and 
admire the commitment and contribution of our marines, they often do 
not understand the role and commitment of our families. The civilian 
communities are often not equipped to help these families navigate the 
challenges of the military lifestyle, particularly the impacts 
associated with deployments and the wartime environment.
    From our Quality of Life in the Marine Corps Study, we know that 
Marine Corps families are proud of their marines and believe that his 
or her commitment to the Nation to protect and defend is a worthy 
mission. So worthy, that they agree to sacrifice and make a commitment 
to the Marine Corps and Nation that is recognized as stressful to 
family well-being. The military lifestyle and expeditionary nature of 
the Marine Corps challenge the strengths and character of our families. 
We believe that when marines make the commitment to our Corps and 
Country, we owe them and their families an appropriate quality of life. 
We know that Congress equally believes this and we appreciate your 
steadfast support to the family today and into the future.
              determining family member needs--we hear you
    In 2006, the Commandant of the Marine Corps challenged our family 
support program management team to consider the needs of families in 
view of wartime requirements and future sustainment. He asked two 
additional questions that gave us pause. He asked --``Do we really know 
the needs of our marines and their families?'' and ``Are we providing 
our commanders good guidance and have open communication lines to 
receive their execution feedback?'' For program managers in the fight--
meeting tempo and delivering programs--we had to acknowledge that we 
perhaps were missing the big picture (mission requirements of the 
Marine Corps). It was also time to assess the needs of marines and 
families and evaluate the capabilities of our programs.
    In the ensuing time, we have conducted extensive program and 
customer research, including the previously noted Quality of Life in 
the Marine Corps Study, functionality assessments on four major family 
support programs, and a recent effort to look at the communication 
needs of our marines and families. In the four areas of Unit Personal 
and Family Readiness, Exceptional Family Member, Marine Corps Family 
Team Building (MCFTB), and School Liaison Programs, we have 
fundamentally changed the way we view family support and our supported/
supporting relationships. Eliminating variation, giving good guidance 
to commanders and refreshing program support to meet the current and 
future needs of families has been our underlying basis of improvement. 
We developed extensive transition plans and received the Commandant's 
support for funding and immediate execution. A brief summary of our 
progress to date follows.
   unit personal and family readiness program and supporting role of 
                    marine corps community services
    Unit commanders are accountable for their unit's readiness and 
helping their marines and families achieve a high state of personal and 
family readiness. In discharging these duties, the commander typically 
called upon volunteers who utilized spouse-to-spouse connections and 
processes to contact and inform family members. Wartime operations and 
ensuing deployments overburdened our volunteer network due to 
increasing family contact and increased information requirements. This 
phenomenon occurred in the Reserve component as well as the Active 
component. While MCCS, the primary community services support arm of 
the Marine Corps, was capable of flexing to support deployments, 
sustained deployments stressed our service delivery model. Finally, 
making positive contact with marines and families regarding their MCCS 
benefits and programs proved even more challenging. We have taken 
specific action to enhance the unit commander's capability by 
increasing staffing and procurement of a technology suite. Over 400 
full-time primary duty civilian Family Readiness Officers (FROs) are 
now on duty throughout the Marine Corps serving as part of the unit 
commanders' Unit and Personal Family Readiness Command Team. There are 
64 FROs and 150 Deputy FROs serving in the Reserve Component alone. The 
FRO, as a special staff officer, makes direct contact with unit marines 
and families to convey official command communication, arrange required 
deployment or readiness training, and conduct information and referral 
services. Our volunteers are still in strong support of our unit 
programs, but we have been able to significantly reduce the burden of 
their extended volunteer service hours. Finally, we have staffed MCCS 
Coordinators at major camps to help the commander plan and conduct unit 
support or socialization events and have increased their discretionary 
nonappropriated unit fund allocations.
    Understanding that communication is a key quality of life issue 
important to our marines and their families, we conducted research and 
analysis to assess the effectiveness of current communication methods, 
identify communication needs of marines and their families, and develop 
a formal organizational communication system that will facilitate 
three-way communication: commands to marines and families; marines and 
families to commands; and marines and families to each other. Three 
tools of that communication system have been developed and implemented: 
the Mass Communication Tool enables simultaneous broadcast of official 
communication via email, text messaging, or phone, and other technology 
enhancements to expand communications between the unit and marines and 
their families regarding official communication or important unit 
training events; the Volunteer Tracking Tool is a web-based tool that 
allows marines and families to track their volunteer hours and search 
for volunteer opportunities anywhere in the world; the Family Readiness 
Assessment Tool enables a commander to take a pulse on the health of 
his or her personal and family readiness program. All three of these 
tools are available to the Reserve component as well as the Active 
component.
    The Unit Personal and Family Readiness Program (UPFRP) is supported 
by the MCCS MCFTB Program, which provides high-quality training to 
support the life cycle of the marine and family through mission, career 
and life events. The UPFRP and MCFTB are enmeshed and that strong 
supported/supporting relationship is critical to ensuring personal and 
family readiness. We have expanded and enhanced our pre-, during, and 
post-deployment training to address the increased demands and potential 
impact of multiple, sustained deployments on marines and their 
families, including the Reserve component through the Yellow Ribbon 
Reintegration Program. We have developed an inventory of LifeSkills 
training courses that specifically address challenges of military life, 
but also personal and family life. Acknowledging the role extended 
family members play in fostering personal and family readiness, we have 
extended our family readiness support to embrace parents and extended 
family members of marines. We have incorporated Combat and Operational 
Stress Control and Suicide Prevention programs into our deployment 
training cycles. Finally, our MCFTB staff provides all Unit Command 
Teams training on the roles, responsibilities and supporting tools that 
are available to foster personal and family readiness.
    One of the most beneficial results of these investments is having 
the FRO as a unit level representative trained and aware of the 
multitude of MCCS, local community and Department of Defense (DOD) 
family support programs and capabilities. As a trusted agent of the 
commander and having direct access to unit marines and families, the 
FRO introduces these capabilities and resources as a positive force 
multiplier. The partnership of unit commanders, MCCS and the local 
community will continue to pay dividends for years to come.
       exceptional family member program and respite care program
    Today, we are actively helping over 6,500 families gain access to 
medical, educational, and financial services that may be limited or 
restricted at certain duty stations. Marines and their families 
enrolled in the Exceptional Family Member Program (EFMP) are now 
receiving case management services aimed at providing a continuum of 
care to facilitate a seamless transition from installation to 
installation. We are providing 40 hours of Marine Corps-funded respite 
care per month to all enrolled families. The EFMP Respite Care program 
is intended to reduce stress on Marine families who are caring for one 
or more family members with special needs, as well as handling the 
deployment cycle of one of the parents. This program, funded by the 
Marine Corps, may be used in conjunction with the TRICARE Extended Care 
Health Option (ECHO) respite care benefit.
    Gaining access to services can be most challenging to families who 
have members diagnosed with Autism Spectrum Disorder (ASD). The Marine 
Corps supports legislation, introduced in the House earlier this year, 
which would define ASD as a medical condition and authorize treatment 
if a health care professional determines that treatment is medically 
necessary.
    We sincerely appreciate the increased Government limit that 
Congress approved for fiscal year 2009 for certain benefits available 
through ECHO, in particular, the Special Education benefit. When fully 
implemented, this increase will provide a more robust level of Early 
Intervention Services, especially Applied Behavior Analysts, to 
beneficiaries with ASD.
                         school liaison program
    The education of over 52,000 school-aged children of Marine Corps 
parents directly contributes to the overall state of family readiness 
within our Corps. We recognize that our children, who are often as 
mobile as their military parents, face additional challenges associated 
with frequent moves between schools and educational systems of 
differing quality and standards. Some of these restrictive practices 
involve the transfer of records; course sequencing; graduation 
requirements; exclusion from extra-curricular activities; redundant or 
missed entrance and/or exit testing; kindergarten and first grade 
entrance age variations; and the power of custodial parents while 
parents are deployed. To address these challenges, we established 
School Liaison positions at each of our installations to help parents 
and commanders interact with local schools and districts. Installation 
School Liaisons work at local and district levels, while Regional 
School Liaisons work state issues. The national level School Liaison 
appropriately addresses Federal level issues and coordinates state 
agendas as necessary. Specifically, the School Liaisons advocate for 
school-aged children and form partnerships with schools and other 
agencies to improve access and availability to quality education as 
well as to mitigate education transition issues. School Liaisons are 
actively involved in efforts to assist school districts in applying for 
available competitive and noncompetitive grants focusing on issues 
arising with military school-aged children. Complimenting these 
efforts, the Marine Corps strongly supports the work of the Office of 
the Secretary of Defense (OSD) with respect to gaining the support of 
more states as signatories to the ``Interstate Compact on Educational 
Opportunity for Military Children'' to enable reciprocal acceptance of 
enrollment, eligibility, placement, and graduation requirements. To 
date, 20 States have passed the Compact. We are very appreciative of 
the actions taken by those states to approve the compact and we are 
hopeful that the remaining States in session will take similar action 
to approve it and join this year.
    With every step we take in our family support transition plan, we 
have been careful to let our families know that ``we hear you'' and are 
taking action to improve our support capabilities. Their requests are 
reasonable and the Marine Corps is committed to response. While so much 
progress has been made through our listening, learning, and responding 
actions, we have so much more to do. As we have sought feedback and let 
families know that we hear their needs, they are overwhelming satisfied 
and grateful for the refreshed or expanded programs. But, there is 
still more that we can do to ease their burdens and provide appropriate 
quality of life support.
                 identifying and resolving program gaps
    A recent study into the communication needs and styles of our 
marines and their families conducted by J. Walter Thompson provided 
some interesting insights into the Marine Corps family, particularly 
our Millennial families. As an example, we learned that a Marine Corps 
installation is the loneliest place on earth for a young spouse--
particularly those that are pregnant. Many junior marines arrive in the 
Corps missing basic life skills that prior generations might assume or 
take for granted (e.g., managing finances, living independently from 
parents). While the Marine Corps has dozens of resources available for 
families, they are generally used after problems escalate and not at 
the critical time of transition from civilian to military life. We have 
also learned that our Millennials are digital natives who prefer to use 
social networking systems and peer to peer connections for their 
information sources. While we believe that our FROs will pay great 
dividends in connecting families to assistance, the challenge of 
effective and pointed communication is a gap that must be attacked 
through an organizational communication system that ensures information 
passed is of the ``news you can use'' variety.
    Beyond the significant challenge of improving our communication 
effectiveness, there are other gaps noted below that need further 
research and problem resolution. We believe that critical coordination 
with sister Services and OSD will help us in this regard.
Installation vs. Community-Based Programming
    Military installations have served as the hub of our service 
delivery model for decades. Our program managers are naturally geared 
to development of programs and services that fit an installation 
delivery model--even when the customer resides off base. Our Marine 
Corps Reserve families are not well supported by installation-based 
programming and would be better served by community-based programming 
that utilizes and maximizes other Federal and State service platforms. 
Additionally, while we have significantly assessed our wartime footing 
requirements on installations, we have not considered fully the changes 
necessary to support the wartime ``citizen soldier''. We have recently 
engaged in discussion with OSD and sister Services on this topic.
Remote and Isolated Command Support and other Hot Spots
    Many Marine Corps installations are located in remote areas or 
around local counties or cities whose community services infrastructure 
is not robust or capable of supporting marines and their families. In 
these instances, it is necessary for the Marine Corps to increase 
capabilities aboard the base. We have conducted initial assessments at 
remote and isolated commands and are continuing our analysis and 
requirements definition.
Long-Term Care of Survivors and Caring for the Caregivers of Injured/
        Ill
    The families of our survivors and those of injured/ill often have 
individualized care requirements that present unique challenges. These 
family members--particularly surviving spouses--are not typically 
located around Marine Corps installation support systems. As noted 
above, a community-based programming approach is required. We have 
initiated action to explore partnerships with sister Services, State 
and local agencies, and nonprofit organizations.
Access and Availability to Health Care
    Over the past year, we have initiated town hall meetings through 
our Deputy Commandant for Manpower and Reserve Affairs, for the purpose 
of gathering customer feedback on health care concerns of our marines 
and families. Following these meetings, we act to address and resolve 
local and systemic issues. We are joined at these town halls by the 
Navy Surgeon General and TRICARE Management Activity (TMA). From a 
system-wide perspective, once in the system, marines and their families 
are traditionally satisfied, but there are some specific challenges 
with gaining access to care, availability of specialty care, and 
reimbursement for mileage to long distance medical appointments. We are 
working directly with Navy Medicine and TMA to resolve these concerns.
Behavioral Health
    Across the board, we are experiencing up ticks in suicides, 
domestic violence, substance abuse, and sexual assault. While we 
maintain our cautious concern, we must also directly assess the quality 
and effectiveness of our prevention and intervention programs. Since 
January, we have had teams of program analysts assessing our 
installation program operations. From these assessments, we believe 
that improved prevention efforts and corrective policies and procedures 
are warranted.
Availability of Child Care
    Per our annual report, we are providing 11,757 child care spaces 
and meeting 63.6 percent of the calculated total potential need. It is 
important to note that the Marine Corps has initiated rigorous data 
collection and analysis improvements. As a result, it will be necessary 
to correct the 2007 annual summary due to identified reporting errors. 
Our reported rate of 71 percent of calculated total potential need for 
2007 is more accurately stated as 59.1 percent. To meet the DOD 
standard of 80 percent of potential need, we would require slightly 
over 3,000 additional spaces. It is important to note that the 
potential need data is not static and fluctuates. To address child care 
requirements, Congress has funded 915 spaces in fiscal year 2008/2009. 
The American Recovery and Reinvestment Act and 2009 Overseas 
Contingency Operation projects provide 1,700 spaces. Based on 
forecasted data in 2010, we project an increase in our total potential 
need of approximately 500 additional spaces. The Marine Corps continues 
to assess requirements for infants and children through 12 years of age 
using multiple strategies and partnerships.
Family Member Employment Education and Training Assistance
    An important quality of life concern for our marines and their 
families is the ability of the spouse to establish and maintain a 
career regardless of the sponsor's duty station. As previously stated, 
the marine makes the commitment to serve, but the family also serves. 
Independent needs, goals, and desires for the family or sponsor are 
often sacrificed or constrained due to frequent relocations and 
responsibilities of single parenting upon deployment or during high 
OPTEMPO periods. While initiatives have been instituted to provide 
portable careers and education funding, we have more to do in 
documenting need and developing comprehensive and integrated strategies 
to support employment, training, and educational requirements of 
spouses.
Transition Assistance
    The final program contact that we have with marines and their 
families is through our Transition Assistance Management Program. It is 
critical that we ensure that this contact produces the kind of support 
that enables the return of responsible citizens to the civilian 
population who are accepted and productive in their new direction and 
life change. We are currently exploring opportunities to maximize our 
support by providing ways to more directly connect marines and their 
families to education, training, or jobs as they exit the Marine Corps.
Impact of the Economy
    As with all Americans, the marines and their families are not 
exempt from financial challenges. As noted previously, many of our 
junior marines lack basic financial management skills. We also have 
programs and services, such as our Marine Corps Exchange and Marine 
Marts, whose mission is to provide high value goods and merchandise. In 
our Exchange and Marine Marts, we have implemented value programs and 
pricing strategies specifically targeted to our at-risk populations. We 
have additionally conducted a functionality assessment on our Personal 
Financial Management Program and believe that opportunity exists to 
enhance our support.
Deployments and Impact on the Parental Unit
    Every marine is responsible for their family readiness. Family 
readiness means that they are self sufficient and resilient. It must be 
recognized, however, that when the marine deploys, the parental unit is 
diminished with the absence of the deployed parent. Providing respite 
care, tutoring services and other parent support tools helps the family 
successfully navigate the deployment and gain confidence. We must 
continue to explore Parental Unit impacts associated with OPTEMPO and 
deployments to ensure that we help marine families succeed.
                resourcing our programs and requirements
    We are grateful to Congress for providing supplemental funding 
during fiscal years 2008 and 2009 that enabled the initial start-up of 
our improved family readiness program. The Marine Corps' fiscal year 
2010 Quality of Life Activities (OP-34) baseline direct support 
operation and maintenance (O&M) budget request is $378 million and 
sustains many of the family support requirements previously funded with 
supplemental appropriations. When including the important $26 million 
of OSD-provided funding expected for the Family Advocacy, Transition 
and Relocation Assistance, and Drug Demand Reduction Programs, the 
Marine Corps' MCCS baseline O&M budget increases by $119 million from 
originally budgeted fiscal year 2009 to fiscal year 2010. This enduring 
commitment across the spectrum of programs operationalizes the 
Commandant of the Marine Corps' Guidance to ``Improve the quality of 
life for our marines and our families,'' with the specific goal to 
``Ensure our Family and Single Marine Programs have fully transitioned 
to a wartime footing in order to fulfill the promises made to our 
families.''
      warfighter and family services as category a mwr activities
    The Marine Corps intends to fully implement the recent OSD policy 
change that allows Warfighter and Family Services (WFS) programs to be 
treated as MWR Category A activities. This welcome change will greatly 
improve how we provide WFS programs to marines and their families. This 
change will allow us to use nonappropriated fund (NAF) support 
practices, such as NAF human resource and procurement practices. MWR 
and WFS programs are both vital to building the social fabric of the 
military community, and directly impact readiness and retention. 
Operating them via the same NAF mechanisms will offer a more integrated 
approach to providing service for marines and families, and mission 
support for commanders.
                               conclusion
    Going forward, we are committed to continuing improvements to our 
family readiness programs and equipping our families with the knowledge 
and skills to meet and surmount the challenges of a wartime military 
lifestyle. Our programs must contribute to the Marine Corps goals for 
recruitment, retention and readiness, while they address the varying 
needs of our ``generations'' of marines and families. Ongoing 
assessments, surveys and program evaluations will be instrumental in 
determining program effectiveness and further identifying service gaps 
and program requirements to be elevated to Marine Corps leadership. We 
recognize that more work needs to be done to deliver programs and 
services which meet reasonable quality of life expectations of our 
marines and their families. On behalf of the Marine Corps and Marine 
Corps families, I thank the committee for your continued advocacy and 
attention to the well-being of all America's servicemembers and their 
families. It is most sincerely appreciated.

    Senator Ben Nelson. Thank you, General.
    Ms. Nesmith?

    STATEMENT OF ELIZA G. NESMITH, CHIEF, AIRMAN AND FAMILY 
           SERVICES DIVISION, UNITED STATES AIR FORCE

    Ms. Nesmith. Chairman Nelson, Senator Graham, thank you for 
your service to this country and for the invitation to come to 
speak today on behalf of Air Force family support programs.
    Our Chief of Staff, General Norton Schwartz, recognizes the 
importance of families and has made developing and care for 
airmen and their families one of the top five Air Force 
priorities. I am honored to share with you today some of the 
programs supporting that objective.
    We take care of our airmen and their families through a 
variety of services, including child and youth development 
programs, airmen and family readiness, morale, welfare, and 
recreation programs, including libraries, fitness centers, 
outdoor recreation, and community centers.
    With high OPTEMPO, increased mobilization, and longer 
periods of time away from home, these programs help our airmen 
focus on the mission while we take care of the families. These 
programs and services make the Air Force a good place to live 
and work and to raise a family.
    You have my written statement, but I would like to 
highlight two key areas. The Air Force has always placed a high 
priority on families, and we are particularly proud of our 
child and youth development programs. We know that quality, 
affordable, and available childcare is a workforce issue that 
has a direct impact on mission readiness.
    This year marks the 20th anniversary of the Military 
Childcare Act of 1989. With your support, this act allowed 
military childcare to become a model for the Nation. We share 
this honor with DOD and the other services. Because of the 
quality associated with this program, our airmen and their 
families have come to rely on this benefit as a part of the 
daily fabric of being in the Air Force.
    One area where more support is needed is the EFMP. Our Air 
Force does a good job arranging assignments for over 14,000 Air 
Force families with special needs. However, we know we need to 
do more for these families once they reach those assignments. 
While some families may not need assistance, many of them do 
need help to navigate the school systems, find childcare, and 
balance their parental responsibilities with their duty 
demands.
    As this example shows, we continually assess our programs 
in light of the emerging needs of our airmen and their 
families. We employ a wide variety of techniques, including 
surveys, assessments, focus groups, online customer 
satisfaction polls, and just talking to people. We strive to 
close any gaps in service by identifying the requirements and 
seeking resources through our Air Force corporate structure.
    Your continued support will allow us to do even better in 
this area. Thank you again so much for this opportunity, and I 
will look forward to your questions.
    [The prepared statement of Ms. Nesmith follows:]
                 Prepared Statement by Eliza G. Nesmith
                              introduction
    Thank you, Mr. Chairman, Ranking Member Graham, and members of the 
Personnel Subcommittee, for the chance to appear before you today to 
highlight some of our Air Force initiatives we have implemented to 
support our most valued resource. Our airmen are committed to serving 
their country and do so around the world every day. Their 
accomplishments are a source of pride for Air Force leadership and our 
Nation. Airmen make a decision to stay in the Air Force based on many 
factors, one of which is the quality of support they and their families 
receive. Caring for families has a direct impact on mission readiness; 
when we take care of Air Force families, airmen are free from 
distractions and better able to focus on the mission. Our Chief of 
Staff has made developing and caring for airmen and their families a 
top priority for the United States Air Force.
                           deployment support
    We tailor programs on both the homefront and the frontline to meet 
the needs of single and married members and their families who are 
impacted by deployments. We offer programs and services across the 
three phases of the deployment cycle: predeployment, deployment or 
sustainment, and reintegration or reunion. These programs help airmen 
and families identify and resolve concerns related to deployment.
    At home-station, we offer information and referral services 
directly to spouses and families. This past year, our predeployment 
briefings armed 100,000 members and families with information and 
resources to help them prepare for extended separations, with special 
emphasis on personal, professional, and legal matters. During 
deployment, free morale calls help airmen and families stay connected, 
thereby increasing communication and decreasing the sense of isolation. 
During the sustainment phase, our Airman and Family Readiness Centers 
conduct workshops and activities which help family members address 
issues such as financial stability, parenting, and stress. Our 
reintegration briefings helped 22,000 spouses this year understand 
changes which their loved one may have experienced during deployment, 
and offered them ways to address those changes and improve the quality 
of the reunion. Over 15,000 family members attended our communication 
and life skills workshops, and 24,000 requested and received financial 
counseling. We also provided employment assistance to prepare 40,000 
spouses for portable careers. Although stressors associated with longer 
and multiple deployments may begin to wear on Air Force families, we 
ensure there are services and resources at their disposal to help 
address their concerns.
    On the frontline, our Deployed Airman and Family Readiness Center 
in Al Udeid provided over 8,100 consultations last year. Keeping single 
and married deployed airmen in touch with their families provides an 
emotional link to family and friends back home. Some of the most 
requested services by deployed members were financial management, 
family reintegration, and personal and work-life issues. Accessibility 
to morale phones, computers, and faxes allows deployed airmen to make 
frequent contact with families and friends.
                        military child education
    Air Force families include 145,000 children ages 6-18; these 
children typically move six to nine times during their school years. 
Academic standards, promotion and graduation requirements, services for 
children with special needs, eligibility for sports and other 
activities, and transfer and acceptance for records vary greatly from 
State to State and district to district. While these are not new 
issues, national emphasis on quality education and higher standards for 
admission to post high school education and training institutions 
increases the stakes for military children. Additionally, the added 
stress of family separation due to deployments combines with transition 
issues to increase the need for information and support to these 
families.
    Our new family structure enabled us to make great progress in 
institutionalizing support for Air Force-connected students attending 
public, private, Department of Defense Dependent Schools, and home and 
cyber schools. Overseas Air Force bases and 12 Stateside installations 
locally fund school liaisons; other Air Force bases use their Airman 
and Family Readiness Center staff to provide school liaison support as 
a collateral duty with other family support services. Also, a senior 
military officer or Department of Defense (DOD) civilian is designated 
to attend local school board meetings to advocate for the interests of 
Air Force families. Despite limited funding, major commands and 
installations employ creative initiatives such as providing webcasts of 
graduations so deployed parents can share in these occasions. We 
sponsor training in conjunction with the Military Child Education 
Coalition for staff working education issues, and partner with Army and 
Navy to offer training to schools located near installations. The Air 
Force continues to strengthen its partnerships with the National 
Military Family Association, Military Impacted Schools Association, 
Military Child Education Coalition, Department of Defense Education 
Agency, the other Services, and the U.S. Department of Education in a 
concentrated effort to ease the tough challenges that military students 
and their families face.
                      support for working spouses
    Today, more and more spouses seek the personal fulfillment of a 
full professional career and many families need two incomes. As a 
result, spouse employment and career development opportunities are 
crucial for recruitment and retention. Studies show over 50 percent of 
Air Force spouses currently work outside the home, and 77 percent wish 
to work outside the home. Typically, military spouses earn less than 
their civilian counterparts, even though 7 of 10 have some college 
education.
    Our Air Force programs provide spouses with the knowledge and 
skills they need to develop and maintain a successful career within the 
framework of the mobile military lifestyle. Installation-level staff 
members interface with employers in the community to raise awareness of 
the value of hiring military spouses. Airman and Family Readiness 
Centers provide classes and individual consultation on career planning 
and all phases of the job search, as well as assistance with on-line 
resources and access to computers. One Air Force spouse arrived at an 
Air Force base last year with a long and daunting to-do list, but said 
the one thing she didn't have to worry about was where to look for 
career and employment assistance: ``It was comforting to have one 
centralized area I could go to and find the resources I needed.''
    The Air Force is also working with DOD to support spouse employment 
initiatives through programs such as ``Spouses to Teachers'' and ``My 
Career Advancement Account,'' which provides up to $6,000 for 
education, licensure, certification, and continuing education for a 
portable career.
    The Air Force Aid Society sponsors a Spouse Tuition Assistance 
Program which grants up to $1,500 to a spouse stationed overseas to 
defer the cost of college tuition, and the Spouse Employment Training 
Program which funds up to $10,000 for Airman and Family Readiness 
Center programs that assist spouses with requirements for portable 
careers. In 2009, 32 grant proposals were approved across the Air 
Force. Participants will train in medical transcription, pharmacy 
technology, computers, nursing assistance, and special needs education.
                        child and youth programs
    We made significant progress this year helping airmen and their 
families balance the competing demands of parenting and military 
service. Readily available, quality and affordable child care and youth 
programs continue to be a workforce issue with direct impact on mission 
readiness. The challenging military environment includes higher 
operations tempo, increased mobilization, and longer periods of time 
away from home. Our challenge over the past several years has been to 
expand access to child care. With your support, and the assistance of 
the Department of Defense, we continue to increase child care spaces 
for airmen.
    Thanks to the temporary legislative authority for child care 
projects, the ``Growing Child Care Spaces'' initiative funded 18 minor 
construction projects. Congress also funded 8 military construction 
projects, plus 7 others in the American Recovery and Reinvestment Act. 
This construction boom is expected to significantly reduce the known 
Air Force child care space shortfall from 6,400 child care spaces to 
zero by the time all funded construction is complete. Our next 
challenge will be to renovate or replace the aging infrastructure at 
child development and youth centers.
    The ``Expanded Child Care'' program provides 16,000 hours of child 
care each month to assist airmen who require additional child care 
support during shifts, deployments, or when they work in excess of a 
normal duty day. The ``Returning Home Care'' program supports airmen 
returning or on leave from 30 days or more deployment in support of 
contingency operations with 16 hours of free child care. To ensure 
child care is affordable when a space is unavailable at the child 
development center or school age program, the ``Family Child Care 
Subsidy'' program provides an average subsidy of $142 per child per 
month in Air Force Family Child Care homes. Our partnership with the 
Air Force Aid Society in the ``Give Parents a Break program'' provides 
several hours of free child care each month to parents who are dealing 
with challenges inherent to military life, including deployments, 
remote tours of duty, and extended hours.
    We continue to expand the ``Home Community Care'' program, which 
reduces out-of-pocket expenses for Air Reserve component members by 
providing free in-home quality child care during drill weekends. We 
significantly expanded the program to new locations this past year, 
with a total of 43 participating family child care homes in 37 
locations in 26 States typically not near Active Duty bases. The 
program offered over 57,000 hours of child care last year, with 24,000 
hours provided in off-base, civilian contracted homes during Unit 
Training Assembly weekends. We expect the amount of off-base care to 
increase to 36,000 hours during 2009.
    We capitalize on our relationships with national family service 
organizations to expand child and youth programs. Our partnership with 
the National Association of Child Care Resource and Referral Agencies 
provides child care in off-base areas where on-base child care is not 
available. We will expand this relationship to include respite child 
care over the coming months.
    We continue to provide outstanding youth development opportunities 
for Air Force children, from elementary school through high school. 
Providing support for geographically-separated families has been an 
area of our focus this year, and partnership opportunities have allowed 
us to reach additional families living in civilian communities and on 
active installations.
    We also partner with Boys & Girls Clubs of America to offer a 1-
year free membership in a local Boys & Girls Club. This allows us to 
reach Active Duty, Guard, and Reserve families who do not live near a 
military installation, and provides their children with a safe and 
positive place to spend out-of-school time. Our partnership with United 
States Department of Agriculture/4-H and our sister Services fosters 
the development of 4-H clubs on Air Force bases and provides 
opportunities for military youth to participate in 4-H programs in 
every county in the United States, and in our overseas locations.
    The Air Force offers a variety of residential, specialty, and other 
base-specific camp opportunities. The ``Air National Guard and Air 
Force Reserve Teen Leadership Summits'' are no-cost summer camps for 
Reserve and Guard teens ages 15-18 years. We partner with Air Force 
Reserve and the University of Georgia 4-H to provide these camps in 
2009 for more than 150 youth. We also partner with the National 
Military Family Association to host seven Operation Purple camps on Air 
Force installations; these camps are geared toward teenagers who have 
experienced their parents' deployments and may not have a local support 
system that understands their unique issues. The European Keystone 
Summit, and camps developed in partnership with the National Military 
Family Association, provides residential youth camps during the summer. 
Over 25,000 Air Force youth participate in camps designed to help them 
achieve their potential, develop their self-esteem, and build their 
resistance to negative pressures.
    We focus on fitness through ``Air Force FitFactor,'' which 
encourages physical activity and healthy eating selections for youth 
ages 6-18 years. This successful program reaches over 15,000 youth each 
year. Our new Air Force FitFamily initiative will roll out in 2010 and 
allow families to register as a team to enhance family fitness and 
wellness.
    Additionally, the Air Force has made great efforts to expand or 
create fitness programs for parents and families. Most fitness centers 
have a family-oriented fitness room and programs that allow parents to 
work out with their children. For example, our fitness professionals 
created and supported programs such as Mommy and Me, Yoga for Kids, and 
Strollerrobics. Our programs and services allow families to participate 
in outdoor adventure activities, libraries, clubs, and community 
centers provide an outlet for families experiencing stressors. The rich 
variety of programs helps families connect with the larger Air Force 
Family, and others who are experiencing similar challenges.
              exceptional family members and special needs
    To identify gaps in services, our recent Caring for People forum 
brought together more than 200 Air Force behavioral specialists, 
chaplains, family advocacy personnel and other family support 
professionals. The Forum focused on issues on deployment, families, 
schools, special needs, Guard and Reserve families, and single airmen. 
The resultant top 11 initiatives included development of a special 
needs family support program, a social networking plan for military 
families similar to Facebook, expansion of family support resources for 
Air National Guard and Air Force Reserve, expansion of schools support 
functions, and a focus on single airmen.
    The Air Force identified an emerging need to standardize support 
and advocacy for families enrolled in the Exceptional Family Member 
Program. We have a longstanding and successful process for identifying 
families with special needs and facilitating personnel moves and 
assignments based on the families' requirements. However, we also 
determined there is need for a companion program to provide families 
with continuing support as they move from location to location. Over 
14,000 families have Exceptional Family Members, and it is important to 
minimize the adverse effects of these moves on the family or member's 
career. As such, we are actively engaged in creating a comprehensive 
program that offers these families consistent support and reassurance 
throughout their moves, extended or repeated deployments, and military 
career.
    Thank you for the opportunity to address these issues today for Air 
Force families. We look forward to working with you as we continue to 
enhance our support to the men and women of the United States Air Force 
and their families.

    Senator Ben Nelson. Thank you.
    Since you mentioned it, Ms. Nesmith, in terms of getting 
surveys and responses back from the members and families, do 
those result in a study, per se, or is that just to give you an 
idea of what the reaction is to the programs?
    Ms. Nesmith. One of the primary surveys that we use in the 
Air Force we call a community assessment, and we are going into 
about the 20th year of doing that every 2 years. We have a 
multifunctional cross-agency group, which we call a community 
action information board, made up of mental health 
professionals, family support professionals, chaplains, sexual 
assault resource people, and all of those people who come 
together to make the community decisions.
    We take that data at every level, installation, major 
command, and headquarters level, and we focus on an area of a 
year. Then we develop programs, if needed, to address the 
issues that have come up as a result of that.
    I will just give one example. From 2000, we recognized that 
we were providing childcare within the gates, and we needed to 
provide nights, weekends, for us people who were working in 
missiles 24 hours. At that time we started a program, and 
today, we provide about 18,000 hours a month of childcare 
through those programs--that is one example where we used that 
community assessment very gingerly.
    Senator Ben Nelson. One of the things that was very clear 
from the first panel, we are all concerned about the stress on 
the children of our military personnel, frequent and lengthy 
deployments and dangerous missions and the absence of a parent 
in the home.
    This question is for everyone. Is there any ongoing or are 
you aware of any ongoing or completed studies of the impact of 
this OPTEMPO on children or family personnel? Do we have a 
study that has gone through and established from reviews of 
scientific data and medical information, mental health 
information, a study that would establish that as an impact?
    Mr. Myers. I believe that data is gathered from all of the 
services and put together. In fact, yesterday, they had a 
briefing just going over all of that data.
    But with the force today, it is a young force. The issues 
are a lot different. For instance, at our Military OneSource 
center, we have a program to provide assistance. A lot of 
people didn't want to come up and ask for assistance and so 
forth. Our Military OneSource started a program where any 
family member or military member can get help either online, on 
the telephone, or, if they want, face to face. A lot of these 
issues with children are discussed.
    On the divorce rate, they talked about earlier in the 
session. The divorce rate has increased in the military. What 
we find out on this Military OneSource, many of the issues that 
are brought up is communication and relationships. You can see 
the war is taking a toll on the families. The families are 
trying to stick together.
    But all of these studies put together is the result. That 
is why we put these various programs in, and as the first group 
said, access to medical care is a key issue and mental health.
    Senator Ben Nelson. But do we have the opportunity to focus 
primarily, let us say, on children to see what the impact is? I 
think we know, but we need sometimes verification and concrete 
evidence of it to where we could focus on that, family as well, 
but on the children?
    Ms. Marin. Sir, in the Army, we have two ongoing studies 
right now. One is an academic study for the effects of multiple 
deployments on school-aged children, and we are to get the 
final results of that in the next several months. We have also 
kicked off a major study partnering with the Military Child 
Education Coalition, and they are going into districts, and 
they are partnering, going out into the schools--not just on 
post schools--and exploring the effects of multiple deployments 
on children.
    Senator Ben Nelson. Excuse me. On their academic and on 
their social performance?
    Ms. Marin. Yes, sir, both. We are going to be having those 
benefits, and we will be able to do an analysis and do 
programmatic adjustments based upon that information. That 
information is going to be available to us by the end of this 
summer and on into the next year.
    Senator Ben Nelson. That base of information may be very 
helpful in determining what we are doing and whether it is 
really reaching far enough into it or whether there ought to be 
some other approaches.
    Ms. Marin. Absolutely, sir.
    General Larsen. Sir?
    Senator Ben Nelson. General?
    General Larsen. The Marine Corps, through the Center of 
Naval Analysis and some other things that we have done, we have 
looked at parts of the issue. We have looked at it from a 
small, narrow perspective on some of the questions that we have 
asked, particularly dealing with wounded warriors and others 
and the impacts on their families.
    We would welcome some kind of a congressional study or some 
effort to look at the whole problem of the impact of stress on 
the families. But there is a lot of stuff that has been done on 
stress on the force. There is not a lot of stuff that has been 
done on stress on the family.
    I mean, if that is an opportunity, we would welcome that 
and we would welcome to participate in that program.
    Senator Ben Nelson. Make it DOD-wide on all the branches so 
that there may be some distinctions between some of the 
branches. I rather doubt it, but there could be.
    Dr. Rau. Senator Nelson, it is interesting that you ask 
that question. My staff and I have just been reviewing the 
scientific literature on that question in relation to 
supporting a three-star board that we have in the Navy called 
the Navy Preparedness Alliance. They have asked the question 
about the impact of deployment on children, specifically 
individual deployers within the Navy, which is a relatively new 
phenomenon.
    A review of that literature really suggests that there is a 
fair amount of literature, but it focuses a lot on teenagers 
and less on school age and even less on preschool. It is a 20-
year piece of literature. The body of literature that is more 
recent is less than the body of literature that is older. The 
issues are different now than they were 20 years ago when we 
were researching this question.
    But the results are what you would expect, that children of 
deployers are having more difficulties, and that is for young 
children as well as teenagers and school age.
    Senator Ben Nelson. It is unfortunate that we have 8 years 
of experience, but we do have 8 years of experience that we 
ought to capitalize on to know about the effects to help us 
understand what the current situation is. Not only how we can 
deal with it, but also with some idea of preparation for the 
future in the event that history repeats itself in a timely 
fashion. We hope it doesn't, but being prepared is certainly 
part of our response to the families.
    Thank you.
    Senator Graham.
    Senator Graham. Mr. Myers, preference for military spouse 
hiring. Where are we?
    Mr. Myers. Right now, spouses do have preference for hiring 
within the military. One of the problems I know they are 
working on, we have had cases where a spouse is offered a job, 
but doesn't want to take that job because they don't want to 
use their authorization. They want to work for a better job. 
Working through personnel, they are looking at that to try to 
fix that.
    Senator Graham. Anything the committee could do to help?
    Mr. Myers. I will take that for the record and talk to our 
personnel folks.
    [The information referred to follows:]

    Military spouses are only offered positions they voluntarily apply 
for or which they register for consideration through the Department of 
Defense (DOD) Priority Placement Program. They are counseled and 
advised they will be referred using their preference until they accept 
or decline a continuing position. While a spouse occasionally may later 
express remorse over his or her decision, this is generally not the 
case. Most understand their preference is to help them find continuing 
employment at their sponsors' new duty location; it was never intended 
to allow job shopping.
    Of greater concern to many military spouses is they are not 
eligible for noncompetitive Civil Service appointments. However, on 
September 25, 2008, President Bush signed Executive Order 13473 
allowing agencies to make noncompetitive appointments of spouses of 
certain members of the armed services. The Office of Personnel 
Management is currently coordinating proposed final regulations with 
the Office of Management and Budget (OMB).
    It is our understanding OMB will be publishing the final 
regulations via a Federal Register Notice in August 2009. While these 
new regulations will not provide a hiring or selection preference for 
eligible military spouses, it will certainly facilitate their entry 
into Civil Service jobs. In addition, military spouses who become 
eligible for this appointing authority by virtue of relocating with 
their military sponsors will also be afforded, under separate 
authority, military spouse preference in DOD.

    Senator Graham. Great.
    Mr. Myers. We appreciate that offer.
    Senator Graham. Okay. Good.
    The idea of vouchers available to military families as they 
move from school district to school district, starting with Ms. 
Nesmith and working down, how do you feel about that?
    Ms. Nesmith. The issue of vouchers is certainly something 
that has come up in the public over the years. Just in my 
experience looking at it is that the possibility of adding it 
to the tax burden that a military member would realize, that 
this voucher would add into their income and thereby raise 
their tax implication.
    Senator Graham. What if we made it income free?
    Ms. Nesmith. If you made it income free, it would certainly 
give some opportunities, as the panel mentioned, for parents to 
be able to seek out education that they desired for their 
children.
    Senator Graham. General Larsen, what is your view?
    General Larsen. Sir, one of the issues that we are working 
right now with the Council on Disabilities is the possibility 
of developing a voucher-type program, particularly for our 
EFMP.
    Senator Graham. Right. Right, absolutely.
    General Larsen. What I think we need to do, if you go 
across the Marine Corps and talk to people, education is one of 
our biggest issues.
    Senator Graham. Right.
    General Larsen. It is the reason people decide to become 
geographic bachelors and leave their family in one location and 
go to another location. It is because for a lot of reasons 
people decide that the education either where they are is what 
they are looking for or where they are going is not what they 
are looking for.
    A voucher program would help us a lot. I think it is a 
great idea, and there are a lot of opportunities for this.
    Senator Graham. What you are saying, General, is a lot of 
time when it comes to assignment rotation time, the families 
will stay in what they think to be the better school, and the 
military member will go unaccompanied?
    General Larsen. Exactly. That is one of the primary sources 
we have for geographic bachelors.
    We have schools in certain locations where the school that 
is adjacent to the installation is not necessarily a good 
school. It is not one of the schools that people want to have 
their children go, but they are prevented from going to the 
other schools in the public school system.
    Senator Graham. Gotcha. School choice within a public 
school setting.
    Dr. Rau?
    Dr. Rau. We would support anything or efforts that ease the 
transition of military families from one school system to 
another, and there might be a variety of options that would do 
that.
    Senator Graham. Okay. Ms. Marin?
    Ms. Marin. Yes, as the panel expressed earlier, the robust 
discussion, I think that is something we really want to look 
at. In the Army, we have school liaison officers on all of our 
installations. We already have a robust amount of information 
on the individual perceptions of the soldiers and families of 
the schools.
    We know that there have been a lot of requests for public 
school of choice, what you just talked about. We would like to 
look more into the school voucher issue and also how it would 
interplay with Impact Aid, which was a discussion earlier.
    General Larsen. Can I make a comment on Impact Aid? Impact 
Aid lags. It is a year after. The school system has to put in 
the request a year later to get Impact Aid. Impact Aid, like a 
voucher system, should follow the student. It shouldn't go to 
the school district. It ought to go to the school where the kid 
is attending.
    Senator Graham. Gotcha. Okay. Mr. Myers?
    Mr. Myers. I think a voucher program is very good.
    In the Washington, DC area there are several bases. On one 
base, over 90 percent of the children are being home schooled. 
Senator Graham, as you said, there are people that opt out of 
the Service or don't want the assignment because of education 
for the children. So that is a key issue with our military 
personnel.
    Senator Graham, I forgot to mention the Defense Center of 
Excellence for Psychological Health is sponsoring research on 
children. I think that will encompass all and be a good basis 
for us to look at how it affects children.
    Senator Graham. One last comment. This reciprocity issue of 
making sure that people who are licensed professionals in DOD 
families, when they move from State to State, that maybe we 
could do something to help them maintain their practices or 
their profession. That is something I am interested in. I 
really hadn't thought about that until the other panel spoke.
    The last comment is TRICARE. At the end of the day, you 
have just got to get doctors and providers into the system to 
make this thing work. I am going to ask you what I asked the 
first panel. From your perspective, from what you hear and what 
you know, Ms. Nesmith, rate TRICARE from A to F.
    Ms. Nesmith. Certainly I would concur with what I have 
heard. I am not a user of TRICARE myself. But from what I have 
heard, I would have to give B for access.
    General Larsen. I would like to give a longer answer, but 
the short answer is I would give it at best a D. In the last 
panel, we were mixing up the military treatment facilities and 
TRICARE. There are two separate problems, and there are two 
separate sets of issues that need to be discussed.
    Senator Graham. Gotcha.
    General Larsen. But I would say access to care and because 
of some of the problems that our people experienced, I would 
say a D.
    Senator Graham. Dr. Rau?
    Dr. Rau. Senator Graham, military medicine doesn't fall 
under my purview, and so I would really rather not give it a 
grade.
    Senator Graham. Fair enough.
    Dr. Rau. I don't have a lot of experience.
    Senator Graham. Sure. Good answer.
    Dr. Rau. Professionally or otherwise. I would defer to Ms. 
Mancini, who has the grassroots experience.
    Senator Graham. Ms. Marin?
    Ms. Marin. Sir, based upon what we are getting from our 
Family Readiness Group leaders and other inputs, I would echo 
Ms. Casey in that quality of care is rated very high. Access to 
care is lower.
    Senator Graham. Mr. Myers?
    Mr. Myers. What we hear when we go out, is that access to 
care is an issue.
    Senator Graham. Okay. Thank you all.
    Mr. Myers. Senator Graham, one other thing, we do have this 
Military Spouse Career Advancement Account, which gives up to 
$6,000 per spouse for credentialing and relicensing. If you 
have to get recertified, they can now use that money to get 
that done.
    Senator Graham. Okay.
    Dr. Rau. Senator Graham, I can also add that with regard to 
mental health professional licensing, there is reciprocity 
within the Federal system. If you work anywhere within the 
Federal system, you can practice within the Federal system, 
licensed in any State or U.S. territory.
    Senator Graham. Yes, that is what I am thinking about. That 
is good to know. But let us say for a nurse or a lawyer, how 
could we make it easier when they move?
    Thank you all.
    Thank you, Mr. Chairman.
    Senator Ben Nelson. Thank you.
    The EFMP was established to assist Active Duty 
servicemembers in providing for the special needs of family 
members before, during, and after relocation required by a 
change of duty assignment to a new location. I understand that 
implementation of this program varies between the Services. 
Would any of you be able to explain or wish to explain how your 
organization reaches out to servicemembers who have dependents 
with special medical and/or educational needs?
    General Larsen. I can start.
    Senator Ben Nelson. Sure. General?
    General Larsen. In the Marine Corps this last year, we 
established EFMP. Prior to that, we had a program that was 
basically an assignment program where we would make sure that 
the people, as they were moving from one location to another, 
had the type of care they needed for their family member in 
that location. It was basically an assignment policy for the 
Marine Corps.
    What we have established is a series of caseworkers and 
some legal assistance at locations across the Marine Corps that 
helps the family that has an exceptional family member in it do 
the things they need to do to get access to healthcare, to get 
some financial issues and educational issues addressed.
    We have done that by going from actually nothing a year ago 
to where we have about 6,500 people that are currently enrolled 
in the program, 6,500 families. We have 1 caseworker for 225 
families. We have spread that across the Marine Corps. They are 
in the major geographic areas or the major locations where we 
have a high concentration of services that are available.
    So southern California or areas like the area here in 
northern Virginia, where they might have services available, is 
where those families get assigned. We have a policy in place 
now to stabilize the family in that location so that they don't 
get moved from place to place every couple of years.
    The servicemember can go and do his or her overseas 
assignment or the things they need to do, but then they can 
come back to the place where their family is being stabilized 
in order to get into the system and get the care they need. 
Because often when we move them from one location to another, 
they get to the new location and they start over.
    That is another issue of reciprocity, where if they didn't 
have to start over, as we move them from California to North 
Carolina, then it would be better on the family. They would be 
more able to move from these different locations. That is kind 
of what we have done the last several months.
    Senator Ben Nelson. Any other comments regarding EFMP?
    Ms. Marin. Yes, sir. In the Army, about 10 percent of our 
active duty are registered in the EFMP. So that is about over 
51,000 soldiers who have exceptional family members, somewhat 
over 67,000 exceptional family members. It is mandatory to 
enroll.
    We have an exceptional family member coordinator on every 
installation, and they deal with what might be special needs 
for housing, for medical, and for education. We offer benefits 
such as 40 hours of respite care free per month for the primary 
caregiver for families with exceptional family members.
    Always, we are tweaking the nuances of this program. Just 
recently, it came up as an issue in our Army Family Action 
Plan, which is a yearly forum for improving policies, is that 
when a family is deploying overseas, even before the orders are 
cut, there needs to be an analysis of where they are going and 
what medical and housing and education is available for them.
    We have changed our policy so that is happening now. We are 
consistently looking at those and improving them.
    Senator Ben Nelson. Okay. Thank you.
    Building child development centers has really increased 
rapidly most recently, thanks in part, I hope, to the American 
Recovery and Reinvestment Act. What efforts are being made to 
increase access to childcare services by contracting out with 
child development centers that are off base if there isn't an 
adequate facility on base?
    I heard something about waiting lists a little bit ago, and 
does that continue to be an issue?
    Mr. Myers. Yes, sir. There are about 37,000 children on the 
waiting list, and we have seen a baby boom in the military in 
the last several years. We were able to build over 15,000 
spaces because we had that authority that we could build child 
development centers up to around $7 million or $8 million, 
which is going to expire this year. We need an extension on 
that.
    But we also need child development centers outside the 
gate. We have funds to work with child development centers 
outside the gate, Boys & Girls Clubs to get care providers, 
bring them up to standards. It will help those people out in 
the community. We think that will be another way of providing 
this effort.
    But childcare, the senior enlisted advisers tell me that is 
the number-one issue amongst our military families.
    Senator Ben Nelson. Ms. Davis, you left Offutt just too 
soon because we have a brand-new facility out there. It is 
state-of-the-art. Even though you didn't need it when you were 
there, if you decide to come back, it will fit and suit your 
needs.
    Were you part of the 55th Wing?
    Ms. Davis. Yes, sir.
    Senator Ben Nelson. Okay. Thank you.
    Thank you, everybody. It is great to have had the input 
from both panels. We thank the second panel in particular now 
for your input. It is helpful to us to understand what is 
happening in the real world and give us some idea of where we 
could be helpful to provide even more support for our military 
families.
    Thank you all, and this hearing is adjourned.
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
                 financial literacy education programs
    1. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, in the 2007 National Defense Authorization Act 
(NDAA), Congress passed tough restrictions on the terms of certain 
credit extended to servicemembers and their dependents. This was an 
effort to help the Department of Defense (DOD) fight predatory lending 
practices in and around military installations. The predatory lending 
issue highlighted the financial practices of some servicemembers, 
especially, and most painfully, some of the most junior, and called for 
greater financial education for servicemembers. What financial literacy 
education programs are in place now to help servicemembers better 
manage their money and plan for life events such as college and 
retirement?
    Mr. Myers. The predatory lending regulation, which placed limits on 
the three types of loans identified as being particularly predatory on 
our troops and families--payday loans, vehicle title loans, and tax 
refund anticipation loans, was a key effort of the Department's 
Financial Readiness Campaign, which began in May 2003. The Campaign's 
focus is to reduce the stressors associated with financial issues by 
providing servicemembers and their families with educational resources, 
counseling, programs, and protections to help them onto the path of 
financial freedom. In empowering our troops and families with the tools 
to promote financial readiness, we will have certainly supported 
mission readiness.
    One key aspect of the Financial Readiness Campaign has been our 
official partnerships with over 20 nonprofit organizations and Federal 
agencies. Each partner has offered forms of assistance to our troops 
and families, either through financial educational programs or other 
key financial resources. Together with our partners and fellow members 
of the Financial Literacy and Education Commission, we are working to 
change the financial culture of the military. This cultural shift 
begins with focusing on the education, awareness, counseling, and 
resources to enhance financial literacy, which we have embodied in the 
Campaign's eight ``Pillars of Financial Readiness,'' which essentially 
represent the campaign's platform:

         Maintaining Good Credit
         Achieving Financial Stability
         Establishing Routine Savings
         Participating in Military Benefits: Thrift Savings Plan and 
        Savings Deposit Program
         Not opting out of Servicemember's Group Life Insurance and 
        securing other appropriate insurance
         Encouraging low-cost loan products as an alternative to 
        predatory loans
         Using low-cost Morale, Welfare, and Recreation programs
         Preserving Security Clearances

    Regarding financial literacy resources and programs, servicemembers 
and their families have always had access to personal financial 
information and counseling through Military OneSource 
(www.militaryonesource.com and 1-800-342-9647). Military OneSource, a 
free 24/7-365 resource, provides support services for all 
servicemembers and their families, including the National Guard and 
Reserve, regardless of duty status. This service offers personalized 
and confidential financial counseling and planning consultations at no-
cost. Military OneSource is especially beneficial to those 
geographically separated from installation services and augments 
services provided at installation family centers.
    We have also implemented other distinct programs which promote 
financial literacy across the military: Financial Readiness Roadshow 
events, Rotational Personal Financial Counselors (PFCs), and on-demand 
financial support.
    Financial Roadshows augment the Military Services' existing 
financial readiness programs and initiatives. An installation commander 
can request a Roadshow at their installation and tailor the event to 
address that installation's particular financial challenges. Once the 
agenda is set, the Office of the Secretary of Defense (OSD) facilitates 
financial guest speakers and specific workshops (which in the past have 
included the topics of retirement and saving for college). Specialized 
workshops for children and youth, delivered by certified and 
credentialed financial experts are also avialable. Throughout the 
event, one-on-one financial counseling is available from PFCs, who can 
remain assigned to the location, as needed, to support the 
installation. To date, OSD has facilitated, in partnership with the 
Military Services, 27 Financial Roadshow events across the country.
    In addition to PFC support provided at the Roadshows, installation 
Personal Financial Managers (PFM) can also request a PFC for rotational 
or surge support to help address financial challenges. PFC rotational 
assignments are available in 30, 60, or 90 day increments, and while 
assigned to an installation, a PFC can teach financial classes, conduct 
individual counseling, or support the PFM and family center as needed.
    On-demand financial support, primarily designed to serve the 
Reserve component due to their geographic dispersion and separation 
from military installations, focuses on providing financial educational 
resources to Guard and Reserve members and families in the form of 
briefings, financial training workshops, one-on-one counseling, and 
resource booths. Since August 2008, we have supported over 700 on-
demand requests for financial support, where 15,000 Guard and Reserve 
members and their families have participated.
    An important aspect of our Financial Readiness Campaign involves 
providing financial education that specifically serves our children and 
youth, since studies have shown that nearly 50 percent of our children 
and youth will join, or seriously consider joining, the military. 
During Military Saves Week 2008, a program the Department sponsors in 
partnership with the Consumer Federation of America to encourage the 
military to save for the future, we successfully launched the first 
ever Military Youth Saves pilot. Military Youth Saves focuses on the 
importance of starting early to save for the future and helps develop 
self confidence and personal skills needed to manage money effectively. 
Since 2008, over 12,000 children and youth have participated in various 
military financial programs.
    Finally, there are indicators that changes in the financial 
behavior of our uniformed men and women are taking place. The recent 
Financial Industry Regulatory Authority Military Financial Confidence 
Survey, released in February 2009, found servicemembers are more likely 
to take an active role in financial planning, have a more realistic 
view than the average American worker of the financial requirements to 
retire, and most noteworthy, military financial education programs and 
services are positively influencing financial behavior. The 
Department's role is to work with the Military Services to continue 
providing the education and resources necessary to support personal 
financial readiness, especially since our members understand the 
importance of taking charge of their financial future.
    Ms. Marin. Army Community Service provides soldiers and families 
with comprehensive life-cycle (entry to retirement) personal financial 
education and counseling programs. Financial Readiness Training is 
mandatory for all soldiers during Basic Training, Advanced Individual 
Training, and their first duty assignment. In classrooms and individual 
counseling sessions, soldiers are taught how to handle their money, 
establish savings goals, and set money aside for emergencies. Soldiers 
are also are informed on payday lending practices, predatory lending 
issues, and protections in payday lending laws.
    Financial Readiness program managers are located at 87 
installations and are certified by the Association for Financial 
Counseling and Planning Education. In 2008, the program conducted over 
16,000 classes with more than 303,000 attendees and provided financial 
counseling for over 59,000 clients. Other online financial and consumer 
education, tools, and links are available at Army OneSource 
(www.armyonesource.com).
    Dr. Rau. The Navy's PFM program takes a collaborative and 
comprehensive approach to education and counseling. The Navy PFM 
program emphasizes proactive, career lifecycle instruction commencing 
with entry into the Delayed Entry Program through to retirement and 
transition to civilian life. Also provided is consultation to best 
facilitate behavior modification. Services include information 
distribution, individual consultation with financial counselors and 
educational classes and workshops. Services are designed to foster 
financial responsibility and accountability with primary emphasis on 
financial independence, sound money management, debt avoidance, and 
long-term financial stability.
    Personal financial fitness services are delivered by a 
collaborative effort made up of Accredited Financial Counselors and 
Educators at the Fleet and Family Support Centers (FFSCs), trained 
servicemembers designated as Command Financial Specialists, and also 
with assistance from partner organizations. For example, partnerships 
between FFSCs and Child Development and Youth Programs at the 
installation level have increased youth education regarding financial 
fitness.
    Statistics show that awareness and utilization of the Navy PFM 
program by servicemembers has increased. During 2008, staff provided 
individual consultation and education to more than 12,000 individuals, 
with classes and workshops provided to almost 175,000 military and 
family members. More than 9,996 family members received financial 
education services during 2008, which represents a 100 percent increase 
over 2007.
    The Association of Financial Counseling, Planning and Education 
recognized the Navy PFM program as the Financial Education Program of 
the Year in 2006. Additionally, the Navy PFM program received 
recognition as an Exemplary Employer Initiative by the Personal Finance 
Employee Education Foundation in 2008.
    General Larsen. The PFM Program offers personal financial 
management services to servicemembers and their spouses to equip them 
with the knowledge, skills, and tools necessary to successfully manage 
their personal finances. PFM Program Specialists provide classes, 
workshops, and extensive one-on-one assistance in the following core 
areas: military pay issues; banking and financial services; developing 
a spending plan; credit management; car buying strategies; housing and 
home buying; insurance and risk management; financial planning for 
deployment; saving and investing; and retirement, estate, and tax 
planning. In addition, DOD has a marketing campaign, ``Military 
Saves'', designed to encourage military families to improve personal 
saving. Personal financial management services are provided by 
certified financial counselor at all 18 major U.S. Marine Corps 
installations.
    Ms. Nesmith. Financial Literacy programs are available throughout 
the tenure of a every airman. This includes mandatory training at 
various career intervals and supplemental financial education that is 
available and voluntary. Mandatory training at basic courses, prior to 
deployment and in supervisor training, focuses on the basic pillars of 
financial education, such as checkbook management, debt management, car 
buying, creating a spend plan, saving for retirement and maintaining 
emergency savings. Supplemental education may include the Savings 
Deposit Program which encourages saving during deployment, basic 
investing, and foreclosure avoidance. Training is typically provided in 
group settings and individualized counsel is available through the 
Accredited Financial Counselors located in Airman and Family Readiness 
Centers worldwide. Supplemental training topics may be added on a 
situational basis due to major life changes or emerging trends, such as 
foreclosure avoidance in locations where national foreclosure rates are 
elevated.

                   suicides and post traumatic stress
    2. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, families are often the first line of defense 
against suicide and post traumatic stress, and play a significant role 
in identifying and helping servicemembers cope with deployment-related 
issues. Additionally, the stresses of deployment can affect the mental 
well-being of spouses and children. What training is given to families 
to identify possible symptoms of depression, anxiety, and other 
psychological health issues, and when is it provided?
    Mr. Myers. The individual Services drive the programs to provide 
information and guidance at individual military installations at the 
request of the servicemembers' family members. The support structure at 
military religious facilities from military chaplains is also a direct 
connection with families of servicemembers in dealing with deployment-
related issues.
    Ms. Marin. The Army offers numerous sources of training for 
families on symptoms of depression, anxiety and other psychological 
health issues. The Army recognizes that we are not in a ``business as 
usual'' environment and that repeated deployments lead to increased 
distress, anxiety, and in some cases, suicide. Deployments, war, and 
psychological problems impact soldiers and families, and the result is 
a higher demand for behavioral health services. We are responding to 
that demand by making a concerted effort to provide training and 
support to soldiers, families, and leadership in the early detection of 
psychological problems and suicide prevention.
    Families are one of our biggest assets in suicide prevention, and 
multiple programs and services have been developed with this 
understanding. Programs include an extensive array of behavioral health 
services to address deployment strain. A summary of programs and 
products is at http://www.behavioralhealth.army.mil/. Programs that 
provide training to assist families with identification of symptoms 
include Army Community Service, Battlemind, the Military Child and 
Adolescent Center of Excellence, Family Assistance for Maintaining 
Excellence, Military One Source, Psychological Health in Schools 
Programs, and the Warrior Resiliency Program.
    Recent efforts focus on the expansion of population-specific 
training materials available to military families through Battlemind, a 
preventive training program intended to strengthen individual 
servicemembers, families, units, communities, and enhance the ability 
to cope with stress. Battlemind offers online training for spouses and 
couples. Through online training at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="25674451514940484c4b416544484041410b4457485c0b484c49">[email&#160;protected]</a>, spouses 
and couples can find brochures and training to prepare them for pre-
deployment and post-deployment. Battlemind also offers training and 
videos for pre-school and adolescent children.
    The Army is also expanding services to children of military 
families to promote child and adolescent wellness through school-based 
behavioral health services. The Military Child and Adolescent Center of 
Excellence at Madigan Army Medical Center, Fort Lewis, WA, is 
standardizing and packaging the best elements of these programs for 
export to additional sites. School-based mental health services aimed 
at youth and families will include: (1) evidence-based classroom 
training such as building resilience and dealing with the anxiety and 
stresses of being an Army youth; (2) student evaluation and treatment 
using the modalities of individual therapy, group therapy, family 
therapy, psychopharmacology, and classroom interventions; (3) parent 
and school education on the effects of deployment and reunion on 
families, handling rumors, crisis interventions, and resilience 
training; and (4) coordination and integration of services in military 
and civilian communities using resources like installation and 
community youth programs, sports organizations, and community service 
groups.
    The Army also employs multimedia to reach out to families and 
provide information and resources on the detection of psychological 
problems. Advertisements on commissary bags and posters are 
disseminated throughout installations, post exchanges, and military 
treatment facilities. The Army is also conducting a study of family 
readiness through the RAND Corporation that will assist in developing 
future initiatives to support soldiers and families. Results from the 
study are expected in September 2011.
    Dr. Rau. Operational Stress Control (OSC) is the Navy's 
comprehensive prevention and awareness initiative to address the 
psychological health needs of sailors and their families and reduce the 
stigma associated with seeking assistance. The initiative is led by 
operational leadership and supported by Navy medicine. OSC provides 
practical decision-making tools for sailors, leaders, and families to 
identify stress responses and mitigate problematic tension. The Stress 
Continuum is an evidence-informed model that highlights shared 
responsibility by sailors, family members, and Navy leadership for 
maintaining optimum psychological health. The model is used to 
recognize and intervene early, when indicators of stress reactions or 
injuries are present, before an individual develops a serious stress 
illness, such as PTSD or depression.
    Working in collaboration with Navy medicine, Fleet and Family 
Support Programs (FFSP) have launched an OSC awareness effort focusing 
on family members. OSC concepts are being incorporated into existing, 
regularly scheduled family support services such as pre-deployment and 
stress management workshops, Family Readiness Groups, Ombudsmen 
training, transition assistance workshops, parenting classes, and 
clinical counseling sessions, to familiarize family members with the 
concepts and stress continuum language. This information provides 
family members a framework from which they can identify behaviors/
symptoms early and speak to someone about obtaining help for 
themselves, their children or their military loved one.
    Project FOCUS is a Navy Bureau of Medicine and Surgery program 
currently implemented at 9 Navy and Marine Corps locations, expanding 
to 14. Project FOCUS addresses difficulties that children and families 
face in relation to multiple deployments and parental operational 
stress and helps children and parents develop critical skills related 
to emotional regulation, problem-solving, communication, and building 
social support.
    Brief, solution-focused clinical counseling provided in FFSC is 
another avenue where military and family members can seek consultation 
and assistance from licensed mental health professionals for commonly 
occurring situations and adjustment issues before more significant 
problems develop that require medical or psychiatric intervention. 
Placement of clinical counselors for children in FFSCs and Behavioral 
Health Consultants in Child Development Centers help identify and 
provide assistance to children who are adversely impacted by their 
parent's deployment.
    General Larsen. The Marine Corps has a family component of its 
Marine Operational Stress Training (MOST) Program which provides 
information to families on prevention and early identification of 
stress problems before deployment, during deployment, at the end of 
deployment, and 60-120 days after deployment. The information is 
tailored to the needs of the families at each point in the deployment 
cycle, and addresses stress problems in both the servicemember and 
family members.
    Ms. Nesmith. Workshops and training are offered for the spouses 
through the Airman and Family Readiness Centers. Sessions are designed 
to offer vital information on topics such as balancing family and work 
life, managing separations, and establishing connections with community 
support agencies. Through these interactions, spouses are able to learn 
to identify behaviors that may be out of the normal.
    DOD provides an ongoing program of counseling and training through 
the Military and Family Life Consultant (MFLC) program. The Air Force 
has fully embraced the MFLC program and found it particularly effective 
in addressing issues centered around family dynamics, job stress and 
marital relationships. Currently there are 94 adult MFLCs in 89 Airman 
and Family Readiness Centers and 98 Child and Youth Behavioral MFCLs at 
80 Air Force installations. Testimonials from staff and family members 
indicate the MFLCs are providing much needed non-medical counseling 
services to our airmen and their families at critical times.

    3. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, is such training also available for families 
of Guard and Reserve members, as well as for parents or siblings of 
unmarried servicemembers?
    Mr. Myers. As is the case for Active Duty servicemembers, the 
individual Services develop information providing services for Reserve 
component and unmarried servicemembers' families.
    Ms. Marin. National Guard and Army Reserve members may use all of 
the training opportunities described in the answer to the previous 
question. There are also a number of training events specifically for 
Guard and Reserve members. In 2008, the Minnesota National Guard 
pioneered a program to improve how soldiers and airmen are reintegrated 
back into their communities. Called ``Beyond the Yellow Ribbon,'' the 
name is a reminder that support of soldiers cannot end when they return 
from deployment. For National Guard and Reserve members and their 
families, the Yellow Ribbon Reintegration Program provides deployment 
support and reintegration programs in all phases of deployment, 
including but not limited to pre-deployment, deployment, 
demobilization, and post-deployment and reconstitution phases.
    Yellow Ribbon pre-deployment activities and events focus on 
providing education and ensuring the readiness of unit members, their 
families, employers, and affected communities. Deployment services and 
events focus on family separation challenges and stressors, especially 
for those serving in a combat zone. Demobilization reintegration 
activities provide information about resources available to transition 
soldiers back to garrison or civilian life and how to connect with 
providers to assist in overcoming the challenges of reintegration. 
Post-deployment or reconstitution provides reintegration activities at 
approximately 30-, 60-, and 90-day intervals.
    The spring 2009 issue of Family Strong: Army Reserve Family 
Programs contains information on suicide prevention, with a message 
from Laura Stultz, wife of Lieutenant General Jack C. Stultz, and a 
pullout card listing risk factors and warning signs of suicide. Toll-
free lifeline numbers are also listed. On October 1, 2008, the Army 
Reserve established a Warrior and Family Assistance Center with the 
slogan, ``Soldiers First, Families Always.''
    Dr. Rau. The Navy Reserve Psychological Health Outreach Program 
provides 2 Outreach Coordinators and 3 Outreach team members to each 
Reserve Region (for a total of 25) deployed into the field to provide 
outreach, support, and intervention to returning Individual Augmentees 
and other reservists to mitigate existing reservist stressors and 
address future concerns. They are key components in our effort to build 
resilient Navy Reserve families. The Returning Warrior Workshop (RWW) 
is conducted on weekends and attended by up to 200 military members and 
other family members including parents or siblings and spouses. It is 
the signature event of the Navy Reserve Reintegration program. 
Attending participants have the opportunity to address personal, family 
or professional situations experienced during deployment and receive 
readjustment and reintegration support from a network of counselors, 
psychological health outreach coordinators, chaplains and FFSC 
representatives. Throughout the weekend, participants benefit from 
considerable counseling opportunities to educate and support the Navy 
family and to assist sailors re-acclimating to their families and 
civilian lives. During this fiscal year, 16 RWWs have been conducted 
that were attended by 2092 military personnel and their guests.
    Navy family readiness works closely with the Reserve Forces Family 
Support Coordinator and the five regional Family Support Administrators 
to facilitate connection of Reserve families to each other, to 
supportive community and family resources, and to improve community 
awareness of Reserve military families' experiences and needs. Family 
Support Administrators liaise with their assigned Navy Operational 
Support Center (NOSC) staffs to ensure Reserve families are supported 
by Navy and other military family support initiatives, such as Military 
OneSource, Joint Family Support Assistance Programs (JFSAP) and State 
National Guard Family Programs. Parents or siblings identified as the 
preferred point of contact for single Reserve component sailors on 
Individual Augmentee assignment are provided aggressive outreach, 
assessment of needs and referral to available family support services 
by their assigned Individual Deployment Support Specialist.
    General Larsen. The family training in the USMC MOST Program, 
above, is provided to spouses and children of both the active and 
Reserve servicemembers. Extended family members are welcome to attend 
as well.
    Ms. Nesmith. Yes. DOD provides an ongoing program of counseling and 
training through the MFLC program. The Air Force has fully embraced the 
MFLC program and found it to be particularly effective in addressing 
issues centered around family dynamics, job stress and marital 
relationships. Currently there are 94 adult MFLCs in 89 Airmen and 
Family Readiness Centers and 98 Child and Youth Behavioral MFCLs at 80 
Air Force installations. Testimonials from staff and family members 
indicate the MFLCs are providing much needed non-medical counseling 
services to our airmen and their families at a critical time.
    The MFLC program is available to Guard and Reserve families as 
requested in support of family day events, reintegration events, and 
other gatherings.

                   military family readiness council
    4. Senator Ben Nelson. Mr. Myers, in the NDAA for Fiscal Year 2008, 
Congress required the establishment of a DOD Military Family Readiness 
Council, to include representatives from each of the Services and 
military family organizations, to review and make recommendations on 
and monitor DOD policy requirements for the support of military family 
readiness, and to evaluate and assess the effectiveness of military 
family readiness programs. According to DOD, the Council has so far 
conducted only one informal meeting, late last year. Have any members 
been formally appointed to the Council?
    Mr. Myers. We have vetted the nominees with the Pentagon's White 
House Liaison Office. Final appointment will follow after completing 
the required security, ethics, and administrative screenings required. 
We anticipate being able to complete this process prior to the 
Council's first formal meeting in August or September.

    5. Senator Ben Nelson. Mr. Myers, has the Council identified any 
priority issues on which to focus in the coming year?
    Mr. Myers. We intend to convene the Council in August or September 
this year, at which it will decide its areas of focus.

                   health care for military families
    6. Senator Ben Nelson. Mr. Myers, according to the DOD, TRICARE 
beneficiary surveys reflect great satisfaction with the health care 
program for military families, but at this hearing the first panel of 
witnesses, military spouses, and a representative from the National 
Military Family Association, all stated that health care, and 
specifically access to care, including mental health care, is among 
military families' top issues. How well does TRICARE meet the medical 
needs of military families?
    Mr. Myers. The Department feels TRICARE greatly meets the medical 
needs of the military family. TRICARE is a robust Health Maintenance 
Organization health plan for our eligible beneficiaries that augment 
the direct care system by providing health care services through a 
large network of primary care and specialty providers. The cost for 
beneficiaries enrolled in TRICARE Prime is low in comparison to 
civilian health plans. Whereas, Active Duty servicemembers and their 
family members do not pay a premium or co-pay; all other beneficiaries 
pay a low premium and co-pay for the care they seek through our network 
providers.
    Since its inception, TRICARE Prime has grown significantly, mostly 
in response to the guaranteed quality and access it provides. Our 
access to care standards are monitored closely to ensure beneficiaries 
are seen in a timely manner. For example, in the Direct Care System, if 
a patient is referred for specialty care not available at a military 
treatment facility, the patient is referred to one of our network 
providers. In the past 2 years, we have placed 1,700 mental health 
professionals in primary care clinics to increase access and reduce the 
stigma associated with visiting a mental health facility. In addition, 
the TRICARE Network has added 10,000 mental health providers, including 
child psychiatrists and psychologists.
    In the quarterly Health Care Survey of DOD Beneficiaries, the 
Department compares performance of the TRICARE Health Plan with 
benchmark metrics from the National Consumer Assessment of Healthcare 
Providers and Systems Benchmarking Database (NCBD), which contains 
results from surveys given to beneficiaries by civilian health plans. 
For the NCBD metric category of ``Getting Care Quickly,'' a measure of 
ease in gaining access to care, TRICARE Prime beneficiaries enrolled to 
the purchased care network have consistently reported average 
satisfaction levels at or above the NCBD benchmark value. Additionally, 
our inpatient, outpatient, and population based surveys show our 
beneficiaries generally indicate favorable experience with access to 
and satisfaction with the Military Health System.
    Beneficiaries have the option not to enroll in TRICARE Prime and 
utilize our TRICARE Standard or Extra plans. TRICARE Standard or Extra 
allow the most flexibility in selection of care from any TRICARE 
authorized provider. Referrals are not required, but some care may 
require prior authorization. The beneficiary can also receive care in a 
military treatment facility on a space-available basis.
    TRICARE continues to be one of the best health care plans in the 
world.

    7. Senator Ben Nelson. Mr. Myers, do you have any specific 
recommendations for improving the military health care system?
    Mr. Myers. The Military Health System provides all beneficiaries 
with the greatest compassion and care, the benefits of the best 
available science, and treatment and support that makes servicemembers 
and their families partners in their own healing. TRICARE managed care 
has improved portability, claims processing, and access to quality 
care. The Department has streamlined its regional contracts, resulting 
in fewer administrative hurdles for beneficiaries and is playing a key 
role in decreasing the stigma of seeking mental health care. We 
anticipate the roll-out of the cutting-edge operation of the TRICARE 
Pharmacy Program, which will simplify the pharmacy benefit by 
consolidating retail and mail order operations this fall. And, we 
applaud the launching of the Defense Centers of Excellence--a 
collaborative global network that promotes resilience, recovery, and 
reintegration for psychological health and traumatic brain injury.

                          dependents education
    8. Senator Ben Nelson. Mr. Myers, quality education for children is 
a very high priority for military families. Congress has long supported 
supplemental Impact Aid to assist local public schools with large 
numbers of military children and DOD schools for military children. How 
does the DOD allocate the funding authorized by Congress each year for 
supplemental Impact Aid to local educational agencies with high numbers 
of military dependents?
    Mr. Myers. The DOD Supplement to Impact Aid Program provides 
financial assistance to local educational agencies (LEAs) heavily 
impacted by the presence of military dependent students. This program 
does not fund DOD schools. LEAs with at least 20 percent average daily 
attendance of military dependent students in the preceding year, as 
counted on their Federal Impact Aid application, are eligible to 
receive funding on an annual basis, when appropriated by Congress.
    The U.S. Department of Education provides the data used to 
determine LEA eligibility for the DOD Supplement Impact Aid Program.
    Funds provided by the DOD Supplement to Impact Aid Program are 
reimbursable in nature; therefore, they may be used by the LEA without 
restriction.
    In fiscal year 2009, 110 LEAs qualified and received Supplemental 
Impact Aid.
    In fiscal year 2008, 114 LEAs qualified and received Supplemental 
Impact Aid.

    9. Senator Ben Nelson. Mr. Myers, when is this funding provided to 
schools enough and, in your view, is it enough?
    Mr. Myers. Impact Aid is a Department of Education program which 
provides funding for a portion of the educational costs of federally-
connected students. Impact Aid is the only Federal education program 
where funds are sent directly to the LEA. The funds, however, are not 
designated for individual children nor earmarked for any specific 
school, but support the eligible district as a whole.
    The Department of Education Impact Aid program has been underfunded 
for years and is a continual source of concern for local school 
districts and military families. Currently the program is 60 percent 
underfunded. Funding has not kept pace with the Consumer Price Index 
which has risen over 70 percent since 1970, while the cost of education 
has escalated more than 100 percent.
    Annual Impact Aid payments vary widely, from less than $50 per 
child to over $4,000 per child in several school districts with very 
high concentration of military connected children residing on a 
military installation.
    The DOD Supplement to Impact Aid Program provides financial 
assistance to LEAs heavily impacted by the presence of military 
dependent students. LEAs with at least 20 percent average daily 
attendance of military dependent students in the preceding year, as 
counted on their Federal Impact Aid application, are eligible to 
receive funding on an annual basis, when appropriated by Congress.
    DOD supports full funding of Impact Aid by the Department of 
Education for all categories of Federal students.

                   support for individuals who deploy
    10. Senator Ben Nelson. Dr. Rau and Ms. Nesmith, while Army and 
Marine Corps servicemembers usually deploy in units, this is not always 
the case, and is more rarely the case for Navy and Air Force 
servicemembers. What support services are made available to Navy and 
Air Force families who have a servicemember deployed as an Individual 
Augmentee or who are serving an ``in lieu of'' mission?
    Dr. Rau. Support includes contact by the FFSC, either by phone or 
in person, assessment of family needs, discussion of available family 
support programs and services nearest to the family, facilitated 
referral to nearby services if requested, and mailing of Individual 
Augmentee (IA) information and materials. An Individual Deployment 
Support Specialist from the FFSC must initiate initial contact within 
10 business days of receipt of a new Individual Augmentee Sailor File. 
The program begins 60 days prior to deployment and ends 180 days post 
deployment. Recurring contact, assessment and support at an interval 
requested by the family is also provided by either a counselor or 
Command representative. Efforts to better reach remotely located 
families impacted by these nontraditional duty assignments have 
included use of information technology to provide virtual family 
discussion groups and workshops, publication of a monthly electronic 
newsletter and of family, sailor, and command IA handbooks. Where 
practicable, deployment support programs and services have been adapted 
and provided specifically for family members of individual deployers. 
To date, FFSC Individual Deployment Support Specialists have served 
over 28,000 families of individual deployers.
    Command Ombudsmen are trained volunteers who serve as a vital two-
way communication link between command leadership and family members. 
Ombudsmen provide personalized support and guidance to families in 
adapting to the challenges of a mobile military lifestyle and extended 
operations necessary to meet the Navy's maritime strategy. There are 
currently over 2,200 registered Navy Family Ombudsmen. FFSCs provide 
training, consultation, coordination and support to Ombudsmen. Command 
Ombudsmen training includes information on the unique challenges and 
issues faced by families of IAs.
    Ms. Nesmith. Air Force provides one-on-one pre-deployment briefings 
to airmen who deploy as Individual Augmentees or in support of Joint 
Expeditionary Taskings. Spouses are encouraged to attend these sessions 
where they learn what services are available to them throughout the 
deployment period and into reintegration. If the spouse cannot attend, 
contact information is requested and the spouse will receive either 
telephone or e-mail with information on available services. Although 
some support services are unit-based, Airman and Family Readiness 
Centers offer parallel services to families of any airman who is 
deployed. Called Hearts Apart, these services include morale calls, 
video and e-mail connectivity, regular get-togethers with other spouses 
and families of deployed members (coffees, dinners, other family-
centered events), and electronic newsletters to ensure continued 
connection between the family and installation support agencies.

    11. Senator Ben Nelson. Dr. Rau and Ms. Nesmith, what follow-up is 
conducted once the individual returns back to his or her unit, 
especially with regard to ensuring access to mental health care and 
assistance in reintegration?
    Dr. Rau. The Navy has a continuum in place to assist the 
redeploying sailor, serving as an Individual Augmentee, with return, 
reunion, and reintegration. This process begins in Kuwait during the 
Warrior Transition Program (WTP) where the returning sailor attends a 3 
day program which allows for decompression and transition from the war 
zone to life back in contiguous United States in a nonthreatening 
environment. Small group discussions are facilitated by accredited 
professionals and focus on topics that include combat and operational 
stress, gear return, and FFSC briefings.
    The next step in this continuum is the completion of the Post-
Deployment Health Assessment (PDHA) and Post-Deployment Health 
Reassessment (PDHRA). The PDHA is either completed at WTP Kuwait or the 
Navy Mobilization Processing Site back in the United States through 
which the sailor will transition home. The PDHRA is conducted at the 
sailor's permanent duty station for active duty or the NOSC for Reserve 
sailors at the 90-180 day point after return from deployment. Both the 
PDHA and PDHRA allow the sailor to report any physical or psychosocial 
concerns that he or she may be having to a health care provider, who 
then ensures the sailor gets the help required.
    The last step in the post-deployment continuum is the RWW. The RWW 
was established to educate and support families and assist sailors' re-
acclimation after deployment. The program consists of various briefings 
and small group discussions facilitated by professionals, including 
chaplains and mental health providers. These workshops have proven to 
be an important step in the demobilization and reintegration process 
for the Total Force and their families. At the RWW, members are 
encouraged to discuss their experiences, family members are directed to 
resources, feedback on the mobilization/demobilization process is 
provided, and attendees are honored for their sacrifices.
    The Navy has provided an additional resource for the Reserve 
Component by establishing the Navy Reserve Psychological Health 
Outreach program. Established in 2008, the program provides early 
identification and clinical assessment of Navy reservists returning 
from deployment who are at risk for stress reactions and injuries. A 
team of five social workers in each of the five Navy Reserve Regions 
provides outreach and educational activities to improve the overall 
psychological health and resiliency of Navy reservists. The social 
workers also serve to identify long-term strategies to improve 
psychological health support services for the Navy Reserve community.
    Ms. Nesmith. During redeployment processing, airmen must complete 
the PDHA, which is a medical self-assessment tool used to review the 
redeploying member's current health and/or mental health, as well as 
provide an opportunity for them to discuss any deployment-related 
health concerns with a medical provider.
    The PDHA self-assessment is completed in theater within 30 days of 
redeployment or not later than 30 days after returning to home station. 
In accordance with DOD requirements, all redeploying personnel must 
have a face-to-face health assessment with a trained health care 
provider, such as a physician, physician assistant, nurse practitioner, 
or independent duty medical technician. This face-to-face encounter is 
required regardless of the individual's self-assessment responses. 
Positive responses (physical/mental health related) or any other 
concerns are addressed during this face-to-face encounter.
    Every effort is made to ensure outstanding referrals are 
appropriately identified, addressed, and followed up by the member's 
primary care manager or mental health professionals at home station.

                           spouse employment
    12. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, employment opportunities for spouses can be 
constrained by the lack of availability of jobs on base and the 
requirements for relicensing in certain professions when moving to 
different States. What services are available to spouses to help in 
searching for jobs when they arrive at a new base, or to help defray 
costs associated with education or training to increase the number of 
employment opportunities open to spouses?
    Mr. Myers. Last year, Congress authorized the Department to assist 
spouses of Active Duty servicemembers in receiving education and 
training required for a degree, credential, or professional licensure 
in order to expand employment and portable career opportunities.
    The Department has implemented the Career Advancement Account 
program to provide spouses up to $6,000 to pay for training, 
professional licensure, or certification programs. To date over 30,000 
spouses have established a Career Advancement Account and over 10,000 
have started their training program, with over 42 percent studying and 
beginning to work in the healthcare field.
    The Career Advancement Account is designed specifically to assist 
spouses as they relocate. If relicensing is necessary, a spouse can 
sign up for a Career Advancement Account and receive up to $6,000 to 
pay the fees associated with the relicensing.
    Once spouses complete training, they are moved into the Career 
Advancement Account placement process for assistance as they move from 
one installation to the next.
    Along with employment assistance, the Department has established 
MilitaryINSTALLATIONS (MI) and Plan My Move (PMM) as companion 
applications sharing one database to provide information on over 360 
large and small installations worldwide and in all States for 
geographically separated families.
    The goal is to educate family members about their new location, 
help them make informed decisions, and get settled quickly, preventing 
stressors on the family and increasing productivity. Relocation is an 
encompassing program that crosses multiple facets of Military Community 
and Family Policy to include financial, special needs, child care, 
spouse employment, education and family advocacy.
    Ms. Marin. The Army Employment Readiness Program provides job 
search assistance, job skills training, and information and referral 
services for soldiers, family members, and eligible military ID card 
holders. The Army Spouse Employment Partnership (ASEP) is a component 
of the Employment Readiness Program and provides Army spouses an 
opportunity to attain financial security and achieve their employment 
goals while helping spouses locate jobs in their communities. The Army 
signed a Statement of Support with 31 Fortune 500 companies and 
military agencies who pledged their best effort to increase employment 
and career opportunities for Army spouses. The Web site, www.msjs.org, 
was launched as a portal for military spouse resumes and a place for 
ASEP partners and registered military spouse-friendly employers to post 
their job vacancies.
    The DOD Military Spouse Career Advancement Account (MyCAA) 
initiative provides education, training, certification, and licensing 
for military spouses to pursue careers in high-demand, high-growth 
portable career fields such as education, health care, financial 
services, homeland security, information technology, hospitality 
industry, business management, and other similar fields. MyCAA, located 
on the MilitaryOneSource Web site, provides up to $6,000 of financial 
assistance for related training, education, licenses, and/or 
credentials. DOD is expanding the MyCAA initiative.
    Dr. Rau. In a 2006 survey of Navy spouses, almost half were 
employed and a majority of spouses of both officer and enlisted worked 
in their chosen career field. A majority of employed spouses were able 
to continue with career progression when relocated. Of the remaining 50 
percent of Navy spouses, over four-fifths of those were not currently 
seeking employment. The Navy spouse survey was replicated this year, 
with the results expected this summer.
    For military family members seeking employment, the Family 
Employment Readiness Program addresses those challenges through 
individualized assistance and educational classes and workshops. We 
provide assistance such as self-directed or staff assisted job search 
in employment resource centers, information and referral services, 
career development and coaching. Workshops and seminars are routinely 
provided and create a framework for further educational exploration in 
areas such as: Resume Writing, Effective Job Search Strategies, 
Interviewing Techniques, Federal Employment Opportunities, Entrepreneur 
Business Opportunities, Personal Skills Assessment, and Financing 
Career Change.
    During 2008, nearly 2,900 Navy spouses were awarded scholarships at 
six Navy pilot locations through joint DOD/DoL Career Advancement 
Account (CAA) partnerships. The CAA program has now been expanded 
world-wide. Fleet and Family Support Program staff conducted over 3,000 
employer education events to market military spouses as solutions to 
hiring needs. Over 11,000 family members were provided individual 
assistance in 2008, while over 12,000 were provided educational classes 
and workshops. Notably, 49 percent of our Navy Child and Youth Programs 
professional workforce are military spouses, which affords them mobile 
career opportunities. More than 2,490 spouses voluntarily reported 
securing employment as a result of Navy wide family support program 
efforts during 2008.
    General Larsen. The Family Member Employment Assistance Program 
(FMEAP) provides free employment assistance for Active Duty, Reserves, 
and Retiree family members (depending on space availability). 
Employment assistance, provided by Certified Workforce Development 
Professionals at all 18 major USMC installations, focuses on career-
coaching to prepare family members to enter, maintain, and sustain 
employment and career growth. In addition, FMEAP provides workshops and 
extensive one-on-one assistance on resume and cover letter writing; 
using internet access and electronic job banks; the Federal employment; 
self-assessments; interview dress and etiquette; employment counseling, 
job search processes, employment networking and referrals; information 
on the current labor market, average salaries and wage trends in their 
area; and government partnerships for employment & training. We have 
completed a Functionality Assessment of our FMEAP Program and have 
identified several promising areas that would expand and improve the 
program, such as engaging family members earlier in the employment 
search; increasing job referrals through partnerships with local and 
national companies; providing follow up assistance after services are 
received; and improving program visibility.
    Ms. Nesmith. Our Air Force programs provide spouses with knowledge 
and skills they can use to develop and maintain a successful career 
within the framework of the mobile military lifestyle. Installation-
level staff works with employers in the community to raise awareness of 
the value of hiring military spouses. Airman and Family Readiness 
Centers provide classes and individual consultation on career planning 
and all phases of the job search, as well as assistance with on-line 
resources and access to computers.
    We are partnering with DOD to support spouse employment initiatives 
through programs such as Spouses to Teachers and My Career Advancement 
Account, which provides up to $6,000 for education, licensure, 
certification, and continuing education for a portable career. We also 
partner with the Air Force Aid Society, who sponsors a Spouse Tuition 
Assistance Program which grants up to $1,500 to a spouse stationed 
overseas to defer the cost of college tuition, and the Spouse 
Employment Training Program which funds up to $10,000 for Airman and 
Family Readiness Center programs that assist spouses with requirements 
for portable careers. In 2009, 32 grant proposals were approved across 
the Air Force. Participants will train in medical transcription, 
pharmacy technology, computers, nursing assistance, and special needs 
education.

                   support for single servicemembers
    13. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, a great deal of attention has been paid to 
military families, and rightly so. Many family support programs target 
the spouses and dependents of servicemembers, but a large portion of 
the military is single. What family members do DOD and the Services 
target for single servicemembers?
    Mr. Myers. The traditional ``Family Support'' programs are now 
called ``Warfighter and Family Services'' (WFS) to emphasize these 
programs are also for non-married personnel. WFS helps single 
servicemembers develop life skills and pursue career opportunities and 
financial stability, and assist during times of personal trauma and 
stress, including natural disasters and with the transition to civilian 
life.
    Single servicemember programs address single's quality of life 
issues and initiatives and support commanders by providing the forum 
through which single's concerns are identified and recommendations for 
improvement are made. Additionally, numerous Morale, Welfare and 
Recreation (MWR) programs specifically target single personnel. These 
include physical fitness and sports facilities and intramural sports, 
free Internet and gaming cafes, libraries--both facility based and on-
line, recreation centers just for active duty, discount ticket and 
travel opportunities, high adventure outdoor recreation programs, auto 
hobby shops, skill development programs, bowling, concerts and other 
entertainment, membership clubs that foster esprit de corps, marinas, 
theaters, golf, and special interest programs such as flying, sky 
diving, rod and gun areas, horseback riding, scuba, and diving.
    The department also provides extensive MWR support for deployed 
personnel including free Internet Cafes, professional entertainment, 
special events, mobile canteens, fitness and sports facilities and 
equipment, and various deployable kits such as ``Recreation in a Box,'' 
``Theater in a Box,'' ``Electronic Games in a Box,'' and ``Library in a 
Box.'' The Military Exchanges operate stores in deployed areas and 
provide phone cards and additional Internet services. There is also 
strong grass roots support from the general public and nonprofits who 
provide large numbers of ``care packages'' for that taste of home.
    The military Services all have extensive renovation plans for 
barracks to ensure adequate living conditions and QOL amenities are 
available for single personnel.
    Ms. Marin. Single soldiers are not overlooked in our morale, 
welfare, and recreation programs. The Army provides a comprehensive 
Better Opportunities for Single Soldiers (BOSS) program to facilitate 
leisure and recreation, community service, and quality of life 
opportunities for its single soldiers.
    BOSS is designed to be the collective voice for single soldiers 
through the chain of command and serves as a tool for commanders to 
gauge the morale of single soldiers. Through BOSS, single soldiers plan 
and participate in recreational activities and community service 
projects that provide soldiers with valuable experience, skills, and a 
sense of community pride and ownership. BOSS activities such as 
whitewater rafting, talent competitions, computer classes, and tours 
are available before, during, and after deployment.
    Dr. Rau. With respect to family members of single sailors, we 
engage a single sailor's preferred point of contact during IA 
assignment or the designated caregivers of seriously wounded, ill and 
injured single sailors. We otherwise provide information to family 
members of single sailors through our family support Web site, command 
ombudsman program, and recently launched Fleet and Family Support 
Programs Facebook page. Military OneSource and MilitaryHOMEFRONT Web 
sites, as well as the Joint Family Support Program, provide resources 
and information which are beneficial for family members of single 
servicemembers.
    All sailors, to include single sailors, have access to services 
provided at FFSCs to include deployment support, relocation assistance, 
clinical counseling, sexual assault and domestic abuse victim advocacy, 
personal financial management, life skills education and transition 
assistance.
    General Larsen. The Marine Corps recognizes that there is a family 
you are born into as well as one you marry into. Our family programs 
are expanding to include the extended family of parents for both single 
and married marines. Our Family Readiness Officers provide accurate 
information to both immediate and extended family members as authorized 
by the individual marine.
    Ms. Nesmith. The Air Force offers a myriad of activities and 
programs available to all authorized patrons to include single 
servicemembers; for example, Tops In Blue, Base Level Talent Contest, 
Four Seasons Outdoor Recreation, Hook Up to Bowling, Link Up to Golf, 
Football Frenzy, Air Force Hoops, Intramural Sports, Air Force Chess, 
Live Green, and the Air Force Gallery Showcase for Artists, Craftsmen, 
and Photographers. In addition, each Air Force installation conducts 
numerous local programs specifically targeted to single airmen as 
dictated by their single servicemember needs.

    14. Senator Ben Nelson. Mr. Myers, Ms. Marin, Dr. Rau, General 
Larsen, and Ms. Nesmith, are mothers, fathers, siblings, or friends 
made aware of resources that may be available to them, as well as their 
loved ones, upon return from a deployment, to better cope with any 
issues that may arise?
    Mr. Myers. The Military Services offer information and referral to 
resources available to family members including parents and siblings 
before, during and after return of a member from deployment. 
Information about the resources is provided during pre-deployment 
workshops and mailings; through command newsletters and outreach from 
rear detachment unit staff and/or family program staff during 
deployment; and during reintegration and post-deployment workshops and 
training. Additionally, parents of servicemembers are eligible for 
information and referral through Military OneSource, 24/7, 365 days a 
year.
    Ms. Marin. The Army uses many service delivery mechanisms to inform 
soldiers and immediate or extended families on available services and 
programs. Army OneSource (www.armyonesource.com) is a focal point for 
information delivery, which provides accurate, up-to-date information 
on a variety of topics for Active Duty, Guard, and Reserve soldiers and 
family members. In fiscal year 2008, Army OneSource had more than 20 
million hits per month. A monthly update of topics related to family 
readiness, the Family Program Newsletter, is currently e-mailed to more 
than 75,000 subscribers who sign up on the Army OneSource Web site.
    Family Readiness Groups (FRGs) also provide a critical link between 
extended families, soldiers, and units before, during, and after 
deployments. FRGs membership is open to soldiers, civilian employees, 
and immediate and extended family members (parents, siblings, fiancee, 
and other loved ones designated by the soldier). Virtual FRGs provide 
all the functionality of an FRG in an ad-hoc, online setting to meet 
the needs of geographically dispersed units and families. The eArmy 
Family Messaging System is another tool for commanders to deliver 
messages through multiple devices such as phone, cell, text, PDA, and 
fax.
    On installations, MFLCs provide informal support to soldiers and 
families to supplement resident counseling services. The MFLCs work 
directly with Army Community Service, Guard Headquarters, and Reserve 
Regional Commands to provide deployment and reintegration support to 
soldiers and their families. Consultants with special skill sets, such 
as financial or child and youth needs, are also available. The goal of 
MFLCs is to prevent family distress by providing education and 
information on family dynamics, parent education, available support 
services, and the effects of stress and positive coping mechanisms.
    Dr. Rau. Outreach efforts in the Navy include informing extended 
family members of programs and services available within the military 
and civilian community when designated by Individual Augmentee Sailors 
as their preferred point of contact. These extended family members 
receive information on deployment support services available through 
interactions with Individual Deployment Support Specialists. OSC 
information is provided to help family members cope and identify any 
stress reactions related to the IA deployment and reintegration 
process. Depending on geographic location, extended family members are 
invited to attend IA family day events, deployment briefings, family 
readiness group events, and RWWs, a signature event of the Navy Reserve 
Reintegration program.
    General Larsen. Extended family members are invited to participate 
in pre-, during- and post-deployment training. Recognizing that many 
are not located near our bases, we are attempting to provide that 
information in an exportable form that is useful to these key 
influencers of our marines.
    Ms. Nesmith. Yes. During the mandatory predeployment briefing, all 
airmen are asked by Airman and Family Readiness Center personnel to 
identify family members or significant others who may require 
assistance during a deployment. Our Airman and Family Readiness Center 
staff maintain monthly contact with family members or significant 
others through a variety of means, including face-to face contact at 
community events specially designed for families of deployed members, 
telephone calls, email, and newsletters.
    Reintegration support is an extension of this service; Air Force 
helping agencies host preparing-for-return workshops to advise family 
members and significant others of expectations and potential behaviors 
when the airman returns. By establishing relationships with families 
and airmen prior to deployment and maintaining contact throughout, 
airmen and families are more aware of the services and agencies 
available to them and are more likely to seek assistance when issues 
arise.

                   exceptional family member program
    15. Senator Ben Nelson. Ms. Marin, Dr. Rau, General Larsen, and Ms. 
Nesmith, the Exceptional Family Member Program (EFMP) was established 
to assist Active Duty servicemembers in providing for the special needs 
of family members before, during, and after relocation required by a 
change of duty assignment to a new location. Implementation of this 
program, however, varies between Services. How does your organization 
reach out to servicemembers who have dependents with special medical 
and educational needs?
    Ms. Marin. The Army EFMP is a mandatory enrollment program based on 
public law and DOD mandates. Soldiers enroll in the program so special 
needs can be considered in the military personnel assignment process. 
The program works with other military and civilian agencies to provide 
comprehensive and coordinated community support, housing, educational, 
medical, and personnel services to families with special needs.
    Each installation has an EFMP manager who coordinates all 
components of the program for the garrison commander. The manager 
ensures parents are linked with appropriate special education school 
officials. Additional community support services include: information 
and referral; advocacy (support groups and rights and responsibilities 
under local, State and Federal laws); transition support for families 
with school-age children; family-find activities; respite care; and 
provision of recreational and cultural programs.
    In February 2009, the Army Family, Morale, Welfare and Recreation 
Command convened an EFMP Summit to develop a plan to improve services 
and support for Army exceptional family members in the following areas: 
assignment process, case management, relocation and transition 
services; access to support services; and availability of external 
support. Implementation of the EFMP Action Plan will be monitored by a 
Department of Army EFMP Committee.
    Dr. Rau. The Navy utilizes a variety of means to develop and 
implement comprehensive outreach to servicemembers who have dependents 
with special needs.

         Eligible Service and family members with special needs are 
        identified and enrolled during routine medical care and 
        suitability screening. At each Military Treatment Facility an 
        Exceptional Family Member Coordinator (EFMC) oversees the EFMP 
        enrollment, assists current and prospective Exceptional Family 
        Member (EFM) families; and provides marketing and training for 
        the EFMP.
         Each FFSC assists families in finding the resources to meet 
        their specific family need.
         Military OneSource offers 24/7/365 consultation. Navy 
        families can call and request information and available 
        medical/educational resources from specialty consultants within 
        their community.
         Navy hosts regional training activities and education and 
        awareness campaigns to provide information regarding EFMP 
        policies, procedures, and other program related resources to 
        servicemembers.
         EFMP resource materials are developed that include Navy 
        manuals, quick guides, and brochures, distributed to FFSCs and 
        Navy Medical Treatment Facilities to increase education and 
        awareness.
         The Navy EFMP webpage provides current policy and referral 
        information as well as links to other Web sites that provide 
        additional resource information for meeting specific needs of 
        the exceptional family member.
         Navy Child and Youth Programs provides contracted respite 
        care through the National Association of Child Care Resource 
        and Referral Agencies (NACCRRA) for families of EFM identified 
        children with highly specialized medical or educational needs.

    General Larsen. By requiring mandatory enrollment for marines with 
exceptional family members, our program is aimed at reaching those 
families who need the support and services of the EFMP and providing a 
continuum of care. First, sponsors with EFMs are assigned to locations 
where services exist to support the family and, thereby, improve their 
overall quality of life. Second, a Marine Corps installation EFMP 
Family Case Worker (FCW) provides direct family case management for the 
sponsor and /or family to provide a continuum of care and to develop 
each families' ability to advocate for their EFM. The Family Case 
Worker is required to contact families who are stabilized, at least 
quarterly, and families who are in a critical phase as much as 
necessary. In addition, family case management and outreach, our EFMP 
program provides family training, a special needs forum, family support 
groups, as making the family aware of local resources.
    Ms. Nesmith. The Air Force's processes to identify families with 
special needs and match assignments accordingly are good, but we are 
focused on providing additional support for the families once they 
arrive at the new duty locations.

                 support for reserve component families
    16. Senator Ben Nelson. Ms. Marin, Dr. Rau, General Larsen, and Ms. 
Nesmith, while family support services seem to exist at most, if not 
all, military installations, they are of minimal help to those Guard, 
Reserve, and Active Duty families who do not live near a major 
installation. What programs has each Service tailored to the specific 
needs of Guard and Reserve families and Active Duty families in more 
remote locations, and how does each Service reach out to those families 
to make them aware of available resources?
    Ms. Marin. Army OneSource (AOS) is the centerpiece of the Army's 
efforts to reach out to families in remote locations. AOS establishes a 
comprehensive, multi-component approach for community support for 
Active, Guard, and Reserve soldiers, families, and employers through 
the entire deployment cycle. AOS includes several delivery options to 
meet the diverse needs of soldiers and families, regardless of where 
they reside, through personal (office visit, telephone) and internet 
services (www.armyonesource.com).
    The AOS portal compiles up-to-date information in a single location 
for soldiers and families to access any time of day, regardless of 
component or physical location. AOS organizes articles, videos, and 
resources in major categories: Family Programs and Services; 
Healthcare; Soldier and Family Housing; Child, Youth and School 
Services; Education, Careers and Libraries; Recreation, Travel and 
BOSS; and Communities and Marketplace. Targeting the geographically 
dispersed, the site heightens awareness of existing programs and 
services, and expands the Army's ability to reach and interact with 
soldiers and families.
    To help establish and strengthen partnerships within local 
communities, this initiative placed AOS Community Support Coordinators 
(CSCs) at 44 locations, to date. CSC's focus is on behavioral health, 
financial, legal, and faith-based community resources in support of the 
geographically dispersed.
    Other outreach efforts include the Army Spouse Employment 
Partnership (ASEP) and MFLCs. The ASEP State and local initiative for 
fiscal year 2010 is to work with CSCs and soldier and family services 
to ensure that Guard and Reserve spouses find employment opportunities 
in outlying areas with our corporate partners. MFLCs support more than 
700 on-demand events for the Guard and Reserve on issues that soldiers 
and families face before and after deployment.
    Dr. Rau. The Navy Reserve Psychological Health Outreach Program 
provides two Outreach Coordinators and three Outreach team members to 
each Reserve Region (for a total of 25). These coordinators and team 
members provide outreach, support, and intervention to returning 
reservists and their family members to mitigate existing stressors and 
to address future concerns. The newly established DOD Yellow Ribbon 
Reintegration Program provides Reserve Component (RC) servicemembers 
and their families support through all phases of the deployment cycle. 
The military services are sharing information regarding their 
deployment support programs so that RC personnel and families can 
attend events as close to their residence as possible. We are also 
using resources provided by Military OneSource, Joint Family Support 
and Assistance Programs, and the State National Guard Family Program 
Offices to deliver this critical information to our remotely located 
families. The Reserve Forces Family Support Coordinator and the five 
regional Family Support Administrators work closely and support RC 
command ombudsmen to ensure good two-way communication between commands 
and families so that the needs of RC families are identified and 
addressed.
    With regard to the Active component, outreach to remotely located 
family members includes command ombudsmen ensuring two-way 
communication between commands and families so that the needs of AC 
families are identified and addressed. Additionally, technology is 
leveraged to provide virtual family discussion groups, regular updating 
of family support information and tools on family readiness Web sites 
and Facebook pages, and use of the Navy Family Accountability and 
Assessment System as a mechanism to provide aggressive outreach, 
recurring assessment and support to remotely located family members of 
individual deployers.
    General Larsen. The Marine Corps' remote and isolated populations 
are primarily a result of either an Active Duty assignment to a remote 
installation (e.g. Barstow, CA, MWTC Bridgeport, CA) or Recruiting 
Substation (RSS), or as a member of the Reserves, whether the Select 
Marine Corps Reserve (SMCR) or Individual Ready Reserve (IRR). In order 
to ensure these family's are afforded the same family programs and 
services on par with those who live aboard or in close proximity to a 
major installation, the Marine Corps has expanded its family readiness 
programs, services and personnel, to include full-time civilian Family 
Readiness Officers (FROs), within various command staffs either aboard 
the remote installations or within the command hierarchy of the Marine 
Forces Reserve component. As part of the Marine Corps' newly-
established Unit, Personal & Family Readiness Program (UPFRP), the 
FRO's primary purpose is to consistently and effectively communicate 
with marines, spouses, and designated family members on matters 
relating to family readiness, which may include but not be limited to, 
readiness and deployment; information and referral to DOD, local, 
State, and Federal family support programs and services; and how to 
access funding in support of family events and/or training. The FRO 
essentially oversees the execution of the commander's family readiness 
strategy to ensure that regardless of location, every family has the 
knowledge and resources to provide for their resiliency within the 
Marine Corps lifestyle. Further, in fiscal year 2009, DOD launched the 
Yellow Ribbon Reintegration Program specifically tailored to ensure 
reservists from all services receive the same family readiness 
preparedness training and support as their Active Duty counterparts. 
The Marine Corps issued MARADMIN 0126/09 to establish the 
implementation and reporting guidance in support of this DOD 
requirement. The Marine Corps EFMP provides a full continuum of 
services for our mobilized marine reservists and family members located 
in remote locations. The two regional EFMP offices located at MCB Camp 
Pendleton and MCB Quantico have been established to meet the needs of 
our families in remote locations.
    Ms. Nesmith. The Air Force provides child care support to Guard and 
Reserve members during drill weekends. The Home Community Care child 
care program is provided at 43 locations throughout the United States, 
and provides 57,000 hours of child care each year in support of 
training. Additionally, working through a national partnership with the 
Boys & Girls Clubs of America, children of Guard, Reserve, and other 
geographically-dispersed airmen can receive child and youth services in 
local clubs at no cost. Air Force regularly meets with program managers 
from Guard and Reserve to identify gaps in service, and then actively 
works to fill those gaps.
    Airman and Family Readiness Centers reach out to communities to 
serve Guard and Reserve airmen and their families. Our staff attends 
drill weekends, annual training events, and other activities to connect 
with Guard and Reserve families. We also meet with community 
organizations to identify and address how best to support our Guard and 
Reserve population, including the State Joint Force Headquarters 
Integrated Network and the Inter-Service Family Assistance Committee. 
Additionally, the on-demand MFLCs provide non-medical counseling 
support and presentations on a variety of topics focused on deployment 
and reintegration, communication, and grief and loss during drill 
weekends, and family events.

                 uniformity of family support services
    17. Senator Ben Nelson. Mr. Myers, Ms. Marin, General Larsen, and 
Ms. Nesmith, spouses have said that service family support programs are 
fragmented and vary greatly by installation. The extent of family 
support given to a unit is largely at the unit commander's discretion. 
What are the DOD and the Services doing to ensure the uniformity of 
services offered across each Service, so that families have access to 
the same support and transition services when they relocate?
    Mr. Myers. To ensure uniformity of family support services offered 
across the military Services, the Department and Services have worked 
to develop Common Output Levels of Support (COLS). These form the 
baseline of service that must be available at each installation. Public 
Law, DOD, and Service policies establish specific requirements to 
assist families with relocation. Each Service has the discretion to 
implement these requirements according to their customs and traditions. 
While outstanding support is provided, the Department knows more needs 
to be done to reduce perceived inequity and fragmentation of services.
    Additionally, the Department augments all military Services by 
providing support which can surge as needed, such as Military OneSource 
and its broad range of services. The Department's Military HOMEFRONT 
offers Plan My Move, a Web site designed to assist families as they 
transition from one installation to another. Military Installations and 
Military Youth on the Move assist school aged youth with issues they 
may face as they transition from one community and school to another.
    Ms. Marin. Relocation Readiness is critical to managing the 
challenges of the mobile military lifestyle. The Army's Relocation 
Readiness Program provides services necessary to support soldiers and 
families during military transitions. Army Community Services provides 
relocation information, guidance, counseling, education, and training. 
Services include access to several online databases that contain 
military installation information, telephone numbers, photos, housing 
floor plans and maps, and calendars to help plan pre- and post-move 
tasks. Individual or group counseling is also available to inbound and 
outbound transferees who require extensive preparation and planning 
before, during, or after moves. Additional education and training 
provides mandatory overseas orientations, re-entry workshops, pre-
arrival information, destination services, lending closets of household 
items, post-move newcomers orientations, services to multicultural 
families, outreach services (identification, counseling, advocacy) for 
waiting families, unit sponsorship training, youth sponsorship, and ACS 
liaison to Citizen Immigration Services.
    The Army, working with our sister Services and DOD, created common 
output level standards (COLS) which standardized installation support 
across joint bases. The COLS are the first building block of DOD's 
common delivery of installation support (CDIS) framework which seeks to 
standardize installation support across all Services. The COLS seek to 
ensure that although each Service is uniquely organized, soldiers and 
families will receive the same world-class support at any joint base.
    General Larsen. The Marine Corps conducts Functionality Assessments 
to evaluate family support functions that cross installation 
boundaries. The results of the assessments are used to develop 
standards and performance measures, and to develop good guidance for 
commanders. Through our on-going program assessments and evaluations, 
the Marine Corps is committed to ensuring an equitable delivery of 
service, regardless of duty station/assignment. This includes the 
expansion of community-based support to our marines and families not 
stationed on or near DOD installations.
    Ms. Nesmith. The Air Force has leaned forward to standardize our 
programs across the force. We recently revised our Key Spouse Program, 
which provides unit-based support to families when airmen are deployed. 
A key focus was to standardize the program to ensure consistency of 
services at our installations. This standardization is being applied to 
other areas such as Personal and Work Life Education, Personnel 
Financial Management, and Spouse Employment and Transition Assistance.
    The Air Force regularly participates in DOD program manager 
meetings with all of the services, as well as quarterly helping 
professional seminars and other concerted efforts to implement common 
output level standards which facilitate uniformity of our programs.

            department of defense education activity schools
    18. Senator Ben Nelson. Mr. Myers, many of the school facilities 
within the DOD Education Activity (DODEA) have exceeded their life 
expectancy and do not meet today's educational standards. Some of the 
deficiencies include roofs in need of repair; heating, ventilation, and 
air conditioning; and needed improvements to support classroom 
technology requirements. What is DOD doing to address the inadequacy of 
its DODEA education facilities?
    Mr. Myers. DODEA is on track in fiscal year 2009 to fund the 
facilities sustainment at the Department's target level of 90 percent, 
in-line with the military services and other DOD agencies. This 
commitment will continue in fiscal year 2010. This is a significant 
increase from the previous years' actual obligation of approximately 70 
percent. Through this commitment, several major roof and HVAC projects 
have been completed. With the additional sustainment funds, DODEA has 
also been able to improve the preventive maintenance support, providing 
a process that will allow more of the major infrastructure building 
systems to meet their designed life expectancy.
    Supplemental Military Construction (MILCON) funds have been 
provided to DODEA to help replace the older, more critically deficient 
facilities. A cost analysis from an independent architectural/
engineering firm indicates these facilities are more cost effective to 
construct new than modernize and maintain. The available MILCON funding 
in fiscal year 2010 increased from $40 million to $195 million, 
allowing two of DODEA's most urgent projects (Kaiserslautern and SHAPE) 
to be included in the fiscal year 2010 MILCON submission.
    DODEA has developed a Facilities Education Specification and 
started the process to standardized designs of schools and educational 
facilities used worldwide. This standardization will maximize the 
limited design funding and save critical time in the design and 
construction process. All future O&M and MILCON projects will 
incorporate these standards.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                            military spouses
    19. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, what are the characteristics of command support and 
military environment that cause some families to succeed and others to 
struggle?
    Ms. Casey. My sense is that the following circumstances all 
contribute to some families being able to cope with the current 
operating environment better than others:

        <bullet> Our 1.1 million person Army is made up of diverse 
        people who come from various backgrounds (with various pre-
        existing issues and different coping mechanisms).
        <bullet> Depending on where they are located, some military 
        families have more consistent access to military facilities and 
        family support programs.
        <bullet> In commands where families are more strongly 
        emphasized, there tends to be more success.
        <bullet> And, some families simply opt out, preferring not to 
        be contacted or included.

    The Army--supported by Congress and others--must continue to assist 
our Army families that are stretched and stressed from 8 years of war. 
We've made progress through the Army Family Covenant and Community 
Covenant--two programs that formalize support to soldiers and their 
families who sacrifice daily. We're also focusing on helping soldiers 
and families become more ``resilient'' in the face of adversity. This 
new resiliency program is called Comprehensive Soldier Fitness.
    Ms. Mancini. Creating a community atmosphere, by building a sense 
of pride, offering relative programs, and listening to the needs of 
your servicemembers and families. NECC (Navy Expeditionary Combat 
Command) realized the need to integrate Family Readiness in to the 
units Fleet Training Readiness Program (FRTP).
    A struggle NECC has discovered in many of our commands is the 
relationship between the command and FFSC (Fleet and Family Service 
Center). It is not institutionalized, rather dependent on the 
personalities of the Command Staff, Ombudsman and FRG Leaders.
    Another struggle NECC experiences is the fact that our commands and 
families are so dispersed geographically, especially for our Reserve 
Units, in order to stay connected often depends on command leadership, 
Ombudsman and family readiness volunteers to reach out and use 
innovative thinking.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. Spousal involvement with military affiliated support 
programs and activities is the key. Getting our young families ``tuned 
in'' and actively engaged in the military way of life is crucial.
    Ms. Moakler. When commanders recognize that family readiness is 
important to mission readiness, families are more involved and feel 
valued. communicating this to the families is key. Committing the chain 
of command to this process is equally important. If the commander 
supports family readiness but platoon level command doesn't buy into 
it, they all is lost.

               financial well-being of military families
    20. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, DOD and Congress have cooperated in recent years in 
efforts to improve the financial I.Q. and decisionmaking of military 
members, including their spouses. How would you evaluate the success of 
these efforts to date?
    Ms. Casey. The support from Congress in this area has been much 
appreciated. While I don't have specific metrics, my sense is that the 
cooperative focus on financial readiness training has helped the 
financial I.Q. and decisionmaking of our military members and their 
spouses. We need to maintain informative training and assistance 
because-when military members make themselves available for it--the 
training and assistance works.
    This issue is certainly one I can evaluate in my future travel and 
dialogue with family members throughout the Army.
    Ms. Mancini. The training is out there, but families must seek it 
out; the need to have info pushed through marketing and command 
leadership training is vital.
    There is a need and want by many, but day care and babysitting is 
not always convenient or even available. If we want these programs to 
be successful we need to pay attention to the lifestyle the majority of 
our servicemembers and families live day to day and accommodate as 
necessary. We need to ask them what their needs are and listen to what 
they say.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. I believe the many classes offered and the availability 
of financial counseling is having a positive impact. In light of the 
current economy it appears many Active Duty members are seeking 
financial counseling. Teaching good money making decisions to our 
younger troops as part of their training is being proactive. The 
biggest problem, however, is that our younger troops are entering the 
military already in debt.
    Ms. Moakler. The National Military Family Association has been at 
the forefront of promoting financial education for our military 
families through various publications such as ``Military Money'' and 
programs such as ``Military Saves.'' We think that there is an 
increased awareness of the importance of having a financial plan for 
our military families. We applaud the innovative program that will add 
additional financial counselors through the Military Family Life 
Consultants and that many of these counselors will be military spouses. 
Increasing availability, removing stigma and promoting the importance 
of these programs for military families can go a long way in improving 
their financial well-being.

    21. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, do you think the influence of predatory lenders has 
diminished, or are the unscrupulous practices we have seen in the past 
still a problem for military commanders and their personnel?
    Ms. Casey. I am aware of predatory lending issues, but it has not 
been an issue voiced in my meetings with military families.
    In partnership with Congress, the Better Business Bureau, and 
others, we must remain vigilant in countering the influence of 
predatory lenders.
    Ms. Mancini. The lenders in military areas have not diminished; we 
are still seeing E1 friendly companies take advantage of our most 
vulnerable sailors. They prey on our commands returning from 
deployment; the overall perception is they are target military 
families, specifically.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. I think the influence of predatory lenders has 
diminished, however their practices are still widely available and 
utilized by our younger military members. Though these businesses may 
not be located as near military installations as they once were; they 
are reaching our personnel and are still a problem.
    Ms. Moakler. Recent Federal legislation has offered protections for 
military servicemembers and their families as well as creating an 
awareness of the dangers of predatory lenders. The increase in programs 
offered through the military banks and defense credit unions as well as 
some commercial lenders who work with the military has helped to 
diminish the influence of these predatory lenders.

                        coordination of services
    22. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, it strikes me that one characteristic of the military 
is that multiple and overlapping services for families now exist--but 
that can be a minus as well as a plus. What can DOD do to do a better 
job of coordinating these services?
    Ms. Casey. DOD does a good job of taking the best practices from 
individual Services and ``making them applicable to all.'' For example, 
when DOD identified successful Army programs such as Army OneSource and 
the Military Family Life Consultant Program, it took ownership of them 
to eliminate Service duplication.
    My sense is that we need to be cautious of a ``one-size-fits-all'' 
approach. There are some family programs that should remain Service-
specific since the needs of each Service population vary. The Army's 
``Family Team Building'' program is one example; it's a program 
uniquely tailored to teach spouses about the Army.
    Ms. Mancini. The continuation of DOD conferences is important for 
voices to be heard. Encouraging more cross-pollination among the 
Service branches will also prevent overlapping or copy cat programs.
    Once again, surveying the servicemembers and families; are FFSC 
services being used, or are they even needed? These surveys need to be 
targeted to the deck plate sailor or lower enlisted servicemembers.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. Communicating and coordinating between support programs 
could alleviate much of this. Now that we have several joint bases it's 
actually creating a myriad of services that can be confusing to 
military families. Each Service does things their way, inter-service 
training and coordination of support program providers is crucial.
    Ms. Moakler. Our association as long been a proponent of Joint or 
Purple programs. We are seeing the results of this in programs like the 
Yellow Ribbon Reintegration program that goes across Services and 
components. Our joint bases are also having to deal with coordination 
of services.
    We hope that the Military Family Readiness Council and the recent 
report that DOD had to do will look at what programs are successful and 
which are redundant. We do feel that local commanders should be able to 
have some leeway in using the programs that are found most successful 
in their areas.

                        support for adolescents
    23. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, we have a generation of military children who have 
known 8 years of war and repeated deployments--and it's not over yet. 
What do we know about the effect of these years on children as they 
grow into adolescence?
    Ms. Casey. We know very little at this point. We do know, though, 
that military children exposed to multiple deployments by their parents 
are coping with increased levels of stress. But, the cumulative effect 
on our military children and adolescents of 8 years of war and repeated 
deployments remains to be seen.
    My sense is that the issues we are seeing today with our military 
children are merely lagging indicators of what we will likely face in 
the future. My biggest concern is that the most challenging issues will 
surface later when families have more time to really reintegrate as 
``dwell time'' increases. Critical, in this regard, will be the 
continuation of support services long after the current operations 
tempo has abated.
    We as a Nation need to be ready to handle these issues because if 
we don't stay out in front of them, we won't be able to react fast 
enough. This means, in part, supporting ongoing independent studies on 
this topic--and even commissioning new ones--so that we can use their 
results to shape future policy programs.
    Ms. Mancini. We don't know yet, but encourage that this topic stay 
in the forefront of mental health professionals and encourage there be 
further and ongoing investigations.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. I don't have any information to answer this question.
    Ms. Moakler. The National Military Family Association is presently 
conducting a study with the RAND Corporation on the effects of 
deployment on children. This study is unique in that it asks both the 
caregiver and the child about their deployment experiences. We hope to 
have final results of the study in the Spring.

    24. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, what more can we do?
    Ms. Casey. We--as a Nation--owe it to our military children to 
provide the best possible environment for them to grow and thrive. This 
environment must include facilities and services that can help them 
deal effectively with the cumulative effects of 8 years of war--to 
include the stress of a repeatedly deployed parent. This environment 
must also include mental health services and resiliency training for 
our children and their parents. It must include teachers, counselors, 
and mentors who have been specifically educated about the unique 
challenges children in the military face. This last point is 
particularly important because many of our children--especially those 
in Guard and Reserve families--are in schools that, traditionally, do 
not have military children as students, so educating school staff about 
the military and what our children are going through is essential.
    Ms. Mancini. Make an effort to talk to deck plate sailors' 
families; talk with military constituents; budget and fund relevant 
family service programs; discard unused or wasteful programs; and fund 
these programs for day care, babysitting, et cetera.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. Create a school voucher program for military children. 
Many families are forced to home school or pay for private school out 
of necessity not choice.
    Ms. Moakler. We can make sure that existing programs continue to be 
funded across all components and that programs that are provided in 
cooperation with community resources are continued and that new 
partnerships are encouraged. The Services are all making use of the 
internet and social networking in an effort to reach out to 
adolescents. We have heard from the children attending our Operation 
Purple camps that the opportunity to interact with other children like 
themselves and creating relationships really helps them through the 
tough times of deployment.

                           spouse employment
    25. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, what are military spouses telling you about what they 
need in order to achieve their own educational and career goals?
    Ms. Casey. Army spouses continue to face challenges in reaching 
their educational and career goals. And, the tough economy is only 
making these challenges greater.
    The Army continues to take steps to help mitigate these challenges. 
Army spouses often tell me that programs like the Employment Readiness 
Program, the post-September 11 GI Bill benefits transferability, and 
the ``My Career Advancement Account'' are invaluable.
    There is still more work to be done, though. As I travel around the 
Army to talk with spouses, I hear concerns about confusing language/
eligibility rules for new educational and career programs. One example 
is the confusion-both in military families and in the public 
educational institutions themselves--about a new law mandating in-State 
tuition and its transferability. Another example involves Executive 
Order 13473, which authorizes noncompetitive appointments in the Civil 
Service for spouses of certain members of the Armed Forces. This 
Executive order has regulatory guidance attached to it by the Office of 
Personnel Management that narrows the eligible pool, which, in 
turn,disappoints and frustrates non-eligible spouses.
    There are so many wonderful education and career programs out 
there. We just need to focus on how we talk about them, which includes 
simplifying the language.
    Ms. Mancini. Moving from place to place makes it difficult to 
continue a career, especially when we are transferred or relocated 
every 2-4 years. While the Spouse Relocation initiative is a good 
start, during deployments our spouses are single parents and find it 
difficult to pursue their education due to lack of funding for 
childcare and tuitions assistance. Marketing the programs offered at 
FFSC and encouraging them to utilize the self help classes, while 
making it more appealing and accessible by assisting these `single' 
spouses with childcare, et cetera.
    Our spouses are the backbone of our commands; they volunteer to 
support their servicemembers and their families, sometimes for years 
and years at a time. College credits for volunteer time could be the 
accelerant needed to encourage them to seek a higher education.
    Encouraging colleges to have accelerated programs for military 
spouses, 0-Bachelor's Degree in 2\1/2\ years.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. Most spouses I speak with find it easier to complete 
their educational goals via online courses. The introduction of the 
Military Spouse Career Advancement Account is assisting many spouses 
complete their career goals in many portable career fields. The key is 
getting the word out and having the program available everywhere.
    Ms. Moakler. Military spouses tell us they need assistance 
transferring their license or certification as they move with their 
servicemember. Many professions are regulated and the receiving State 
often does not accept the sending State's license or certification. 
Military spouses may spend several months becoming recertified, 
licensed or taking more classes before they can even begin to work in 
their new State. In a dual-income society, this is a significant 
financial strain to the family. The DOD State Liaison Office will work 
on tackling this issue next year but it is unclear what types of 
professionals a broad-based piece of legislation will impact. We do 
recognize that the new Career Advancement Accounts help with the cost 
of this certification but it still impacts employment and lost income.

                       family member dental care
    26. Senator Graham. Ms. Casey, Ms. Mancini, Ms. Smith, Ms. Davis, 
and Ms. Moakler, some military families feel that coverage under the 
family dental insurance plan is too limited and restorations cost too 
much. Do you think that military families would be willing to pay an 
increase in premiums in return for broader coverage?
    Ms. Casey. I don't know, as it may vary by family. I will tell you, 
though, that Army families usually prefer flexibility. So, perhaps the 
best approach is to have two tiered option.
    Ms. Mancini. This really depends on how much the increase would be 
and what it would include. It also depends upon what pay grade of 
member you are considering. This doesn't seem feasible for our lower 
enlisted servicemembers and may not benefit them. If they have to 
choose food over dentist premium they will and must choose food. This 
could prove to be irresponsible on the leadership's behalf.
    Once again, surveying the servicemembers and families would give 
you a great start.
    The issue of continuity of dental care, especially orthodontia, 
needs to be looked at. Typically when a family moves the have to start 
over with orthodontic care, which can be extremely costly and 
unnecessary.
    Ms. Smith. [Ms. Smith declined to answer.]
    Ms. Davis. Yes, I believe military families would be willing to pay 
a little more for increased dental services. Some type of optional plan 
should be offered. Those who want to participate can and those who 
don't want to pay for the increased services can opt out.
    Ms. Moakler. I do not believe that military families would be 
willing to pay more. While we know the TRICARE Family Member Dental 
Program provides greater access to care, given scarce dental resources, 
many families do not want to pay anything at all since they believe 
that dental care is a benefit.

                        family support programs
    27. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, how are you systematically evaluating family support 
programs to make sure they are meeting their intended goals?
    Mr. Myers. The Department values ongoing, systematic servicemember 
and family research and evaluation to help guide us in best serving 
families. Along with social science research on families and quality of 
life issues, we have relied on three major sources of data over the 
past several years to help us understand the needs of families.

         (1) Active Duty Spouse Surveys (2006 and 2008) covered a wide 
        range of quality of life issues, including financial well-
        being, effects of deployments on children, spouse employment 
        and education, and feeling about military life. The surveys 
        included spouses from all services and provide the richest 
        source of data we have to date about how families are faring 
        across all the services.
         (2) Three Status of the Forces Surveys a year poll Active Duty 
        servicemembers on their overall satisfaction with the military, 
        retention intentions, perceived readiness, stress, tempo and 
        permanent change of station moves. Two surveys of the Reserve 
        Components are also conducted each year. These surveys allow us 
        to track trends and changes in the quality of life of 
        servicemembers and their families. A rotating set of questions 
        cover quality of life issues, including financial well-being, 
        impact of deployments on children, use of services and programs 
        like Military OneSource and Morale, Welfare and Recreation and 
        family support.
         (3) In May 2000, the Department funded the Military Family 
        Research Institute at Purdue University to conduct basic 
        research on quality of life in military families, with 
        particular emphasis on implication for job satisfaction, 
        performance and retention.

    Our next step is to provide Congress a report on military family 
readiness policies and plans per section 581 of NDAA 08, which we 
anticipate submitting by the end of July 2009. This report will detail 
DOD-wide goals and measurement systems associated with family support 
programs.
    In recognition of the increased burden placed on servicemembers and 
families during the Overseas Contingency Operation, the Department has 
made family readiness a high priority and has redesigned and boosted 
family support. Usage of support programs has expanded as the programs 
respond to the needs of our military families. The upcoming report to 
Congress details, wherever possible, the outcome data on our programs. 
Collection and evaluation of outcome data continues to evolve as we 
build our programs to best serve military members and their families.
    Developing outcome measures remains a work in progress due to the 
difficulties in applying meaningful measures to a military family's 
readiness. In many areas, insufficient data exists to directly link 
program benefits to outcomes for military families. For example, 
outcome data on the various service programs that assist military 
spouses with employment goals has been difficult to systematically 
collect as the services have different delivery systems and different 
data collection methods. Standardizing and collecting program outcome 
measures will be a priority of research in coming years.
    Ms. Marin. In October 2007, the Army unveiled the Army Family 
Covenant (AFC) as their commitment to provide soldiers and their 
families--Active, Guard, and Reserve--with a quality of life 
commensurate with their level of service and sacrifice to the Nation. 
The Army has aggressively improved a broad range of family-oriented, 
quality of life programs to standardize services, increase 
accessibility to health care, improve soldier and family housing, 
ensure excellence in schools, youth and child services, and expand 
education and employment opportunities for families. The Army has made 
significant progress, but there is still much to do.
    As the Army Family Covenant nears its second anniversary, senior 
leaders want to know if improvements and investments in programs and 
services meet the needs of soldiers and families. We are planning a 
series of town hall meetings at seven of our largest installations to 
meet with Family Readiness Group leaders and members to gather first-
hand information from those most affected by deployments about how well 
the Covenant is meeting its commitments. Results from the town halls 
will guide further program and service improvement strategies.
    We also measure the effectiveness of Army support programs by 
regularly surveying soldiers and families to seek opinions, assess 
satisfaction, and most importantly, monitor adaptation to the unique 
challenges of Army life. These trends help us match the capabilities of 
Army programs to the expectations of our soldiers and families--keeping 
the Army strong, ready, and resilient.
    Dr. Rau. Navy family readiness programs and services are 
systematically evaluated through several mechanisms. To meet the DOD 
requirement for triennial inspection of all military family centers, 
Navy Fleet and Family Support Programs (FFSP) implemented an 
Accreditation Program. Accreditation provides detailed analysis of 
program operation, to include identification of strengths and areas for 
improvement. It also provides an external, objective marker that the 
program meets accepted standards for organizational function and 
quality of service and ensures regulatory requirements are met in each 
management function and program area offered. Navy Child and Youth 
Programs (CYP) also conducts a program of unannounced annual inspection 
by qualified Navy child development specialists and accreditation by 
the National Association for the Education of Young Children for Child 
Development Centers and the National Afterschool Alliance for school 
aged care.
    In addition to Navy accreditation processes, FFSC survey customers 
at least twice a year to ensure effective customer service and validate 
that services are useful for participants.
    General Larsen. The Marine Corps evaluates family support programs 
through ongoing assessments, surveys and program evaluations. These 
tools are used to determine program effectiveness and to further 
identify service gaps and program requirements to be elevated to Marine 
Corps leadership.
    Ms. Nesmith. The Air Force uses a multi-layered system to evaluate 
our programs and support network for families. We conduct a biennial 
Community Assessment to gauge awareness and gain feedback regarding 
family support programs. The Community Assessment is reviewed by the 
Air Force Integrated Delivery System, which is comprised of all helping 
agencies to assess and ensure the needs of the community are met 
without duplication of services. Next, input from the Integrated 
Delivery System member agencies and emerging trends from the Community 
Assessment are given priority for review and implementation through the 
Community Action Information Board, which is made up of senior Air 
Force leaders. Of note, the Community Action Information Board and 
Integrated Delivery System are unique to the Air Force.
    We also obtain valuable customer feedback through in-person and 
virtual focus groups as well as the Personal Readiness Inventory, which 
provides information on whether airmen consider themselves to be 
supported by the community and leadership. All of these methods provide 
useful information for us to enhance our programs and assistance, such 
as in the areas of personal finance and couples communication.

    28. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, what have families told you about what works and what 
does not work?
    Mr. Myers. We recognize military families, youth, and communities 
face increasing challenges and obstacles. The Department's ongoing 
systematic servicemember and family research pulses the military 
community and, in turn, proven programs that address the real needs of 
families are offered. The Active Duty Spouse Surveys (conducted in 2006 
and 2008 and every 2 years henceforth), the three annual Status of the 
Forces Surveys for Active Duty members, the two annual Status of the 
Forces Surveys for Reserve component members and targeted research 
projects provide detailed data on what is working for the military 
populace.
    To enhance the established methods for collecting information from 
families, OSD is planning a series of Listening Sessions across the 
Nation and military installations worldwide to gather input from 
military families regarding the status of military family support 
programs. These Listening Sessions will culminate in a national Family 
Summit focused on future military family support and readiness 
programs.
    In collaboration with the Land-Grant Universities (LGU) and their 
Cooperative Extension System (CES), OSD will ask military families how 
family support and readiness programs are working and how they can be 
made better. These ``Voices from Military Families'' community 
listening sessions will allow elected officials, military personnel, 
Defense Department Advisory Committee on Women in the Services, and 
Cooperative Extension staff the opportunity to hear directly from 
America's military families.
    The 106 Land-Grant Universities and their Cooperative Extension 
System (CES) which is based at the United States Department of 
Agriculture (USDA) reaches into each of the nearly 3,100 counties/
parishes across the United States, territories, and military 
installations worldwide. For nearly 100 years, CES has mobilized 
members of communities to identify strengths of current programs, 
current needs, and future opportunities to strengthen families and 
communities.
    CES faculty and staff will serve as facilitators to lead 
discussions both face-to-face and virtually with military families 
throughout 2009. The primary topics addressed at the sessions will 
reflect various concerns affecting military families. Military families 
will also be encouraged to submit their comments via an online 
community Web site. Potential questions to be asked of the participants 
include the following, as well as specific policy related issues to 
better determine their effectiveness for supporting military families.
    Topics to explore with family members:

          1. What current services are you receiving that are 
        beneficial to you and your family?
          2. How are civilian communities meeting your needs?
          3. What needs do you have that are not being met by the 
        military?
          4. Are the people that are providing support able to help 
        you?
          5. What could civilian communities do better to support 
        military families?
          6. What barriers are limiting your ability to access 
        resources?
          7. What are the challenges that your children face in your 
        community?

    The following questions are for families who are geographically 
isolated from installation support:

          1. The Yellow Ribbon law is intended to provide National 
        Guard and Reserve members and their families with sufficient 
        information and opportunities throughout the entire deployment 
        cycle, is it meeting those goals?
          2. The JFSAP authorized by the NDAA of 2007 intended to 
        augment the activities of family support centers with outreach, 
        mobile support services, and coordination of other 
        organizations and activities, is it meeting your needs?

    The input provided during these listening sessions will be 
incorporated into a National Summit on Military Families, November 9-
10, 2009 and the creation of an OSD Military Family Action Plan to 
inform policies and programs.
    Ms. Marin. The Army Family Action Plan (AFAP) is the Army's 
longstanding grassroots mechanism to raise issues from installations to 
Army Senior Leaders. The AFAP is a formal process where the people that 
comprise the Army can inform Army leadership what works, what does not, 
potential solutions to problem areas, and new proposals. AFAP 
encourages soldiers and families to become involved in improving their 
quality of life. For Army Senior Leaders, the AFAP provides real-time 
information and enables commanders to respond rapidly to resolve 
problems and implement good ideas.
    To date, as AFAP celebrates its 25th anniversary, the program has 
achieved 110 legislative changes, 155 DOD or Army policy changes, and 
117 improvements in programs and services. While the AFAP process is 
unique to the Army, it benefits the entire DOD--61 percent of active 
issues impact all military services.
    The top five ``most critical'' active AFAP issues are: Distribution 
of Montgomery GI Bill benefits to family members; Paternity Permissive 
Temporary Duty; In-State College Tuition; Better Opportunities for 
Single Soldiers (BOSS) Staffing at Garrisons; Military Spouse 
Unemployment Compensation; and the Federal Hiring Process for Wounded 
Warriors. The first three issues have been legislated and are in the 
process of being implemented--bringing the grassroots process full 
cycle from installation identification of a problem to Congressional 
remedy.
    Dr. Rau. Sailor, family members, and command participants are 
surveyed on a recurring basis by installation Fleet and Family Support 
Program (FFSP) personnel to determine the effectiveness and quality of 
services offered. Programs are adapted accordingly in response to 
feedback about what does and doesn't work for family members. At the 
enterprise level, we have learned that aggressive outreach, targeted 
marketing, and providing services at times and locations that are 
flexible and convenient increase family member utilization. Family 
members of Individual Augmentees have also told us that deployment 
support services must be adapted to address the unique schedules of 
nontraditional deployment. Navy utilization data and feedback on 
behavioral health services has shown that providing brief, solution-
focused clinical assessment and counseling in FFSP addresses a need 
that is not easily met in the military or civilian sector. Outcome 
indices in the areas of personal financial management and new parent 
home visitation have shown that efforts in these areas are associated 
with the desired behavioral outcomes. The use of technology to provide 
support group discussion to remotely located family members is an 
effective way to assist them.
    General Larsen. Feedback from marines and their families has been 
instrumental in identifying services gaps and areas for improvement. 
Our biggest challenge was the recognition that many of our family 
support programs were built on a peacetime model and not conducive to 
the wartime footing and operational tempo of the Corps. Their direct 
feedback was used to develop transition plans, which resulted in the 
Commandant's support for both funding and execution of plans. Major 
program reforms are underway in the areas of Unit Personal and Family 
Readiness, Exceptional Family Member, Marine Corps Family Team 
Building, and School Liaison Programs. We continue to receive positive 
customer feedback regarding our Marine Corps Exchange support to 
marines and families, as assessed by annual customer satisfaction 
surveys. Additionally, the 2007 Quality of Life in the Marine Corps 
Study, the fourth iteration of this important research, revealed that 
marines and their family members were satisfied with their mission the 
support provided by the Marine Corps. On a positive note, quality of 
life satisfaction did not decrease since the 2002 study and has 
improved in some aspects.
    Ms. Nesmith. Through our biennial Community Assessment and focus 
groups, families expressed satisfaction of our standardization of 
programs and services across Air Force bases. Standardization enhances 
their understanding of programs and services available at all Air Force 
installations and reduces stress associated with relocating to a new 
duty station. Additionally, we have responded to airmen and families' 
request for programs and services tailored to meet the needs of a 
specific duty station or mission, as well as for additional support 
services to families with special needs.

                    training for military commanders
    29. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, in a military environment, commanders and military 
leaders set the tone for every aspect of mission accomplishment--and 
protecting our families is part of our mission. Are commanders 
receiving training on family support needs, especially those stemming 
from multiple deployments? If not, what do you recommend?
    Mr. Myers. Military and family readiness are of key importance to 
commanders. Military family programs partner with commanders to ensure 
members and families are resilient and well prepared for deployment and 
other challenges of military lifestyle. Family programs staff 
understand the military lifestyle, including mission requirements. They 
also understand the quality of life needs of members and families. The 
role of military family programs is to enhance the fit between members 
and their families and the demands of the military mission. Family 
programs staff provide comprehensive, systemic training for commanders 
on family support needs, including those resulting from multiple 
deployments.
    To assist family programs and commanders to address member and 
family quality of life needs resulting from multiple deployments, the 
Department provides on-demand, ``surge'' resources during all phases of 
the deployment cycle (pre-, during, and post). Those resources include 
Military OneSource; MFLCs; and PFCs. Upon request from units, they 
provide consultation, briefings, trainings, and counseling for 
commanders and members and families. MFLCs and PFCs are also assigned 
to installations on 30, 60, and/or 90-day rotations to augment 
installation family programs and medical staffs. MFLCs who specialize 
in children and youth issues work in child development centers and 
children and youth camps.
    In 2007, the Department provided Military OneSource consultants and 
MFLCs to State National Guard Joint Force Headquarters' family programs 
to provide services to members and families who are geographically 
separated from installations. They also provide consultation to 
commands on member and family quality of life needs and resources.
    Ms. Marin. Operation READY (Resources for Educating About 
Deployment and You) is the Army's standard curriculum used by garrison 
Army Community Service (ACS) staff to train members of the Soldier and 
Family Readiness System on roles, responsibilities, and expectations. 
Operation READY provides soldiers, families, and civilians an 
understanding of what deployment resources are available to help them 
cope with the personal, family, and financial demands of deployment. 
Operation READY also includes a comprehensive training program for 
commanders to help them prepare their soldiers, families, rear 
detachment commanders, and Family Readiness Group leaders for 
deployments and reunions. Operation READY materials include Pre-
Deployment Facilitator's Guide; Deployment Cycle Readiness; Soldiers 
and Family Member's Handbook; Rear Detachment Commander's Handbook; 
Family Readiness Group Leader's Handbook; Trauma in the Unit Leader's 
Handbook; Care Team Handbook; Deployment Support Handbook for Children 
and Youth and Facilitator's Guide; Family Readiness Support Assistance 
(FRSA) Handbook and Facilitator's Guide; Family Assistance Center's 
Guide and Reintegration Facilitator's Guide. Training resources and a 
Smart Book are also available on compact disk.
    The Army has also developed a Program of Instruction (POI) 
incorporating key Family Readiness tasks in support of the Army Force 
Generation model. This POI is taught at the Army Training and Doctrine 
Command Battalion and Brigade Pre-Command Courses. The intent is to 
prepare leaders for successful management of Family Readiness Programs. 
This training is also delivered at the Garrison Commander's Course, and 
a similar POI is being developed for Garrison Commander spouses.
    Dr. Rau. The Navy provides life skills training by FFSC personnel 
that is tailored to different levels of command leadership on 
responding to financial issues, sexual assault and domestic violence. 
Other leadership forums are routinely conducted by installation FFSC 
professionals to focus attention on key issues affecting mission 
readiness and family resiliency, including how leaders can best support 
effective preparation and reintegration following deployment. A robust 
offering of town hall meetings hosted by senior Navy officials 
identifies emerging family support needs and response requirements. 
Senior shore station leaders receive training and briefings on a wide 
array of family readiness issues, initiatives, and trends during an 
intensive 2-week training before assuming command of Navy 
installations.
    The Navy's OSC program has specifically been developed to provide 
sailors, leaders, and families with the skills, tools and resources to 
build resilience and promote a culture that encourages seeking help for 
stress-related problems early. A further objective of the program is to 
decrease the stigma associated with seeking psychological help. A 
formal educational program is being developed that will provide 
training to sailors and families throughout their Navy career. This 
curriculum, with the first course coming out at the end of this month, 
will have instructor facilitated and web-based training modules 
beginning with accessions and going through flag officer training; 
corresponding family modules are also under development.
    Realizing that culture change begins with leadership, OSC Awareness 
training was instituted at Navy Command Leadership School and the 
Senior Enlisted Academy in the summer of 2008. Over 1,700 prospective 
Commanding Officers, Executive Officers, Command Master Chiefs and 
Senior Enlisted Advisors, including 180 spouses, have received OSC 
training to date. Awareness training has also been provided to over 
1,200 sailors and their families at Returning Warrior Weekends and at 
FFSCs.
    General Larsen. Unit commanders receive Family Readiness Command 
Team Training that educates the commander on the network of supporting 
capabilities and how to leverage those capabilities should a specific 
need or needs be identified. Additionally, they receive training on the 
established policies and parameters to ensure their unit program is 
providing consistent training and education to their marines and 
families. Unit commanders are accountable for the implementation of a 
robust, applicable and accessible family readiness program. They are 
empowered to identify specific needs of their marines and spouses 
through the Family Readiness Assessment Tool. The data from the 
assessment is compiled from marines and spouses experiences and assists 
the commander with identifying potential family readiness gaps unique 
to his or her command. Once the gaps are identified, then the commander 
can leverage the training received and all available supporting 
entities.
    Ms. Nesmith. Yes, our Airman and Family Readiness Center 
professionals train commanders on family support needs, to include 
those stemming from multiple deployments. Initial training for 
commanders addresses each phase of the deployment cycle and the 
programs and services available to airmen--this training must be 
completed within 90 days of assuming command.
    The training is also customized to address unique aspects of the 
unit's mission, such as rates of deployment and members' personal 
readiness. For sustainment, Airman and Family Readiness consultants, 
assigned to and embedded in a specific unit, partner with the commander 
to identify potential issues and develop appropriate plans of action.

                          casualty assistance
    30. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, benefits for survivors of military personnel who die 
while serving on active duty have been significantly enhanced in recent 
years. At the same time, there have been concerns about the counseling 
and ongoing support provided to widows/widowers who are coping with 
grief and the day-to-day problems of managing their money, accessing 
benefits, and so on. What role is OSD playing today in ensuring that 
the policies in place for support to survivors are adequate and that 
standards of uniformity are achieved?
    Mr. Myers. The primary role of OSD continues to be the overall 
development and issuance of policies and procedures for those programs 
affecting our servicemembers and their families. To ensure these 
policies are adequate, uniform, and meeting the needs of our members, 
greater emphasis has been placed on our oversight role to ensure 
policies are properly implemented, remain current, focused, and 
flexible to adjust to changing needs. A summary of recent changes 
include:

          The Department revised its Instruction on casualty matters, 
        DOD Instruction 1300.18, ``DOD Personnel Casualty Matters, 
        Policies and Procedures'' on January 8, 2008. The first policy 
        statement contained in the revised Instruction says ``Casualty 
        procedures shall be uniform across the Military Departments 
        except to the extent necessary to reflect the traditional 
        practices or customs of a particular Military Department''. A 
        summary of the more significant changes in this updated 
        Instruction includes:

                  The requirement for the Services to develop 
                centralized short and long-term case management 
                programs;
                  The development of core standards for the 
                assignment, training and duties of casualty assistance 
                personnel;
                  The development of common feedback mechanisms for 
                casualty assistance officers and the primary next of 
                kin (PNOK);

                          The casualty officer report doubles as a 
                        checklist for required actions and allows for 
                        the development of various metrics to measure 
                        the effectiveness of assistance officer 
                        training and the timely provision of all things 
                        necessary in the assistance process; and
                          The PNOK survey will measure the 
                        effectiveness and the quality of the assistance 
                        provided

                  Highlights the increased level and priority of 
                support to surviving family members including: legal 
                assistance, transportation support, information on 
                investigations and the availability of grief, 
                bereavement, and financial counseling; and
                  The Inspectors General of the Military Departments 
                conduct inspections of the casualty assistance programs 
                to ensure compliance with the policies, procedures, and 
                standards of this Instruction.

          The Department developed the Defense Casualty Information 
        Processing System (DCIPS). DCIPS is the Department's functional 
        information system for casualty and mortuary business 
        information processes and is the single standard system 
        supporting uniform procedures, accounting and accurate 
        reporting of casualties, ensuring support of family members, 
        benefits tracking, coordinating mortuary affairs, and the 
        return of personal effects and human remains.
          Each military Service assigns an assistance officer to the 
        PNOK to assist them until all benefits and entitlements have 
        been applied for and received or until the PNOK determines that 
        assistance is no longer needed. When assistance is no longer 
        needed, the PNOK is provided a contact number and mailing 
        address that they can call or write anytime in the future for 
        additional assistance or to provide comments on the quality of 
        the assistance provided.
          The Department, in collaboration with the Military Services, 
        developed a Survivor's Guide, ``DOD Survivor's Guide to 
        Benefits--Taking Care of Our Own'' which is provided to the 
        PNOK during the assistance process (copy attached). This Guide 
        reinforces information provided to the family by their 
        assistance officer and provides additional resources for their 
        consideration. A copy is attached.

    To ensure the Department policies and procedures remain current, 
focused, and meeting the needs of our servicemembers and their 
families, we established the DOD Casualty Advisory Board (CAB). The CAB 
is made up of subject matter experts from each of the military 
Services, including the Coast Guard, Joint Staff, and several 
directorates within OSD. A Department of Veterans Affairs 
representative is also a permanent member of the CAB. The CAB is 
responsible for developing and recommending broad policy guidance, 
proposing goals for the military Services to ensure uniform policy 
regarding the care of military members and their families, and ensure 
accurate reporting and accounting for the status of military members 
and applicable civilian personnel. The Board also recommends policy 
during joint operations to ensure uniform and equitable treatment of 
all military members and their families and uniform procedures are 
used. The CAB meets minimum of three times per year and invites 
representatives from other Federal agencies such as the Social Security 
Administration, Department of Education, and non-profit organizations 
who provide care and assistance to our servicemembers and their 
families. More importantly, surviving family members are also invited 
to attend the CAB and provide information first-hand on the quality of 
services received. Their input has proved invaluable as we shape DOD 
policy to address new and emerging needs.
    The Department co-chairs with the Department of Veterans Affairs a 
Joint Survivors Forum which meets three or more times per year. 
Represented at this meeting are the military Service long-term case 
management program managers, non-profit organizations, Service Relief 
Societies, Veterans Service Organizations, and surviving family 
members. Among other issues, this forum serves as an opportunity to 
socialize new initiatives, listen to survivors on their experiences and 
concerns, and address pending legislation or develop a framework to 
initiate legislation.
    Ms. Marin. The Army supports OSD policies and programs for 
survivors of military personnel who die while serving on Active Duty.
    Dr. Rau. Through DOD Instruction 1300.18, OSD provides uniform 
policy, guidance and procedures to the Military Departments and 
Military Services on reporting and recording of personnel casualties 
and notification and assistance to next of kin and beneficiaries/
recipients of survivor benefits. These responsibilities are applicable 
not only to uniformed personnel of the military services, but to 
certain DOD civilian personnel, eligible contractors and other 
designated or covered personnel.
    The instruction establishes a DOD CAB, a central repository for 
casualty information and uniform guidelines for obtaining and 
maintaining emergency notification information, as well as provides 
uniform official casualty terms and definitions.
    The CAB is a permanent body, responsible for developing and 
recommending broad policy guidance, proposing goals for the Military 
Services to ensure uniform policy regarding the care of military 
members and their families, and to ensure accurate reporting and 
accounting for the status of military members and applicable civilian 
personnel. The Board recommends policy during joint operations to 
ensure uniform and equitable treatment of all military members and 
their families and ensures uniform procedures are used.
    OSD tracks the reporting of individual Service casualty information 
through the Defense Casualty Information Processing System (DCIPS), an 
event driven system for the reporting and recording of personnel 
casualty information and the notification and assistance to the next of 
kin through delivery of all survivor benefits, or until the family no 
longer desires or requires further casualty assistance support.
    General Larsen. OSD works closely with all the Service Casualty 
Offices. They have been listened to the concerns of the Service 
Casualty Offices and families and have implemented policy that remains 
current, focused, and flexible to adjust to changing needs of the 
survivors. The working relationship between OSD and the Service 
Casualty Offices has been outstanding. It is through this cooperation 
that changes, like the following, have been successfully implemented 
over the past year:

          DOD revised its Instruction 1300.18, ``DOD Personnel 
        Casualty Matters, Policies and Procedures'' last year;
          DODI established the CAB that brings together subject 
        matters experts from all the Services, and other Departments 
        within DOD and the Department of Veterans Affairs to develop 
        and recommend broad, uniform policy guidance, across all 
        Services regarding the care of military members and their 
        families, and to ensure accurate reporting and accounting for 
        the status of military members and applicable civilian 
        personnel. The CAB meets at a minimum of three times per year. 
        The members discuss new initiatives that can better serve our 
        families. The CAB routinely invites surviving family members to 
        attend the CAB and provide information first-hand on the 
        quality of services received. Their input has proved invaluable 
        as policy is implemented to address new and emerging needs;
          Developed a Casualty Assistance Report that serves as a 
        checklist for the assigned Assistance Officer and provides the 
        Services data elements that can be used to develop metrics to 
        measure policy effectiveness;
          Standardized the required core training topics for all 
        assigned Casualty Assistance Officers;
          Developed the new Survivor's Guide, ``DOD Survivor's Guide 
        to Benefits--Taking Care of Our Own'' which is provided to the 
        primary next of kin during the assistance process. The Guide 
        reinforces information provided to the family by their 
        assistance officer and provides additional resources for their 
        consideration.
          Enabled the Department of Veteran's Affairs Survivor's Forum 
        which Service Casualty Offices and OSD attend, on a quarterly 
        basis. The forum allows family members to discuss their needs 
        with DOVA, OSD, and the Service Casualty Offices, and ensures 
        that the needs of our surviving families are heard and that 
        effective policy is implemented to support them.

    Ms. Nesmith. OSD has taken a very active role in educating the 
Services about changes to benefits and entitlements to survivors or 
servicemembers. The OSD CAB meets quarterly and is one of the best 
forums available to evaluate, revise, and standardize policies and 
benefits. OSD also developed a web-based survivor guide which provides 
an avenue for the Services to get current information to the field.
    In partnership with the Department of Veterans' Affairs, OSD 
spearheaded the Survivors' Forum which consists of Casualty 
representatives from each branch of service, Veterans' Affairs 
representatives, and surviving family members. The Survivors' Forum 
provides an avenue to disseminate policy changes through non-profit 
organizations such as Tragedy Assistance Program for Survivors (TAPS) 
and the Gold Star Congressional Wives.

    31. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, for each Service, describe the resources, including 
the number of dedicated employees on the payroll, whose job it is to 
assist survivors 1, 3, or even 5 years after the member's death?
    Mr. Myers. The Department has a single casualty program manager at 
the YA-03/GS-15 level to manage its casualty affairs program. This 
individual, working in collaboration with the individual Service 
program managers, ensures the Department's policies remain current, 
focused, and flexible enough to adjust to current needs. The individual 
Military Services conduct the day-to-day and long-term case management 
responsibilities with survivors.
    The Department publishes, twice a year, A Survivor's Guide to 
Benefits--Taking Care of Our Own, which is provided to all primary next 
of kin during the assistance process. This Guide makes it clear to 
survivors that assistance, long after the initial assistance has ended, 
is still just a phone call away and casualty assistance is an open-
ended.
    The resources available to the DOD Program Manager are many and 
encompass all family, compensation, health, travel and transportation, 
and mortuary affairs program offices that establish policies and 
procedures directly impacting survivors. The DOD Program Manager also 
serves as a direct point of contact with other Federal Agencies, non-
profit organizations, relief societies, veteran's service organizations 
and others who's mission or program supports families of the fallen.
    Ms. Marin. The Army recognizes that our fallen warriors have paid 
the ultimate sacrifice and that we have a commitment to their families. 
The Survivor Outreach Services (SOS) program delivers on that 
commitment by providing access to short- and long-term support and 
information and services closest to where the Survivor resides. SOS 
staff support local Casualty Assistance Officers to ensure that 
families receive the most current information on benefits and 
entitlements and have access to long-term financial and emotional 
support. SOS provides information and referrals, and links Survivors to 
financial assistance, legal, spiritual, and clinical intervention, as 
needed. SOS support coordinators provide surviving spouses with 
lifetime support and a network of resources for as long as the Survivor 
desires.
    To support Survivors of the Fallen, 100 support coordinators and 
financial counselors will be placed at Army Community Service Centers; 
65 benefit coordinators and trainer staff will be placed at Casualty 
Assistance Centers; 108 support coordinators/benefit counselors will be 
placed at the Army National Guard Joint Forces Headquarters and Family 
Assistance Centers; and 8 support coordinators will be placed at the 
Reserve Regional Readiness Commands. Services will also be augmented 
through partnerships with the civilian sector.
    An SOS web page provides additional information, resources, 
legislative updates, forums, and other valuable information for 
Survivors. An SOS Virtual World Survivor Community is also in 
development which will provide real-time access to resources for 
Survivors in remote areas and reach out to our younger survivor 
population.
    Dr. Rau. The Navy Casualty Assistance Division employs a seasoned 
and highly trained team in Millington, Tennessee billeted for thirty-
six military and civil service casualty assistance experts, equipped 
with the latest information technology, to promptly respond to survivor 
concerns.
    Within the Navy's Casualty assistance structure, 3 branches, 
billeted for an aggregate of 21 staff members, provide expertise most 
closely related to direct survivor assistance. Casualty Operations is 
responsible for oversight of next-of-kin notification, data entry and 
reporting; benefits and entitlements is responsible for the rapid and 
accurate processing and certification of monies owed to designated 
beneficiaries; Navy-Marine Corps Mortuary is responsible for primary 
and secondary coordination efforts and payment for mortuary services. 
Depending upon the exact nature of the assistance required, select 
staff members will assist the survivor.
    Service delivery during the first several months following a death 
is provided by a uniformed, Casualty Assistance Calls Officer who is 
the direct family liaison. The assigned Casualty Assistance Calls 
Officer is supported by local personnel, as well as regional and 
national staffs. Survivors are provided various bulletins, pamphlets 
and booklets along with referral information and contact points for 
assistance. Survivors are encouraged to contact a specific 1-800 number 
answered by the Navy's Casualty Assistance staff to resolve any issues 
or concerns.
    Navy designed, developed and implemented a standardized scientific 
survey instrument 4 years ago to measure the level of support and 
assistance provided to survivors. The Navy's casualty assistance 
program routinely receives superior critiques. This particular survey 
had been adopted by DOD for future use by all Services.
    General Larsen. The Marine Corps recognized the need for and 
implemented its Long-Term Assistance Program (LTAP) in 2005. The LTAP 
is currently staffed with two full-time civil service employees whose 
mission it is to identify and resolve residual issues with the next of 
kin of deceased marines. New proactive outreach methodologies were 
recently implemented to identify trends and shore-up resources 
available through both military and municipal support agencies for the 
next of kin. The LTAP has expanded relationships with TAPS and Military 
OneSource to directly connect survivors with qualified bereavement/peer 
counseling resources. LTAP representatives are available to NOK on an 
indefinite basis. Plans to hire additional staff are currently ongoing 
to ensure we are prepared to meet projected long term requirements.
    Ms. Nesmith. The Air Force's casualty and mortuary assistance team 
includes:

          Casualty Affairs Representatives--86 primary full-time 
        civilian employees with alternates; the alternates may be 
        filled by military members
          Air Force Casualty Services Branch--13 military members and 
        civilian employees
          Air Force Warrior and Survivor Care Office--1 civilian 
        employee and 2 military members
          Air Force Mortuary Officers--95; usually the Force Support 
        Squadron Commander or Deputy
          Air Force Family Liaison Officers--At least one per family 
        who has experienced a death
          Air Force Mortuary Operations Center--13 full-time civilian 
        employees

    The Air Force Resources employs a full-time and trained Casualty 
Assistance Representatives (CAR) at each base who is responsible for 
casualty notification, counseling and administrative processes. Our 
CARs are engaged in the process from start to finish, keeping in 
contact with the families of our deceased members for as long as they 
need our assistance. There is no specified time limit.
    The Air Force Personnel Center Casualty Services Branch at Randolph 
Air Force Base, TX, assists CARs to transfer cases to CARs at bases 
closest locations the beneficiary family may choose to move. This 
ensures assistance is available for as long as it is needed.
    Our Family Liaison Officers (FLOs) also provide close, personalized 
support to families of fallen airmen. FLOs are Active Duty military 
personnel who are appointed on an as-needed basis, but serve full-time 
until their assistance is no longer needed by the family. FLOs are 
trained by the Force Support Squadrons and partner with the Air Force 
Warrior and Survivor Care office to provide much needed assistance to 
the family.
    We also operate 24-hour help lines to assist families regardless of 
how long ago the death occurred. Further, a mortuary officer is 
assigned to each base who partners with the Air Force Mortuary 
Operations Center to assist with mortuary benefits.

                    support for school-aged children
    32. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, more than 90 percent of military dependent school-aged 
children attend local public schools. What are OSD and the Services 
doing to provide assistance to local school districts in areas heavily 
impacted by the presence of military family members?
    Mr. Myers. OSD has fully recognized the importance of providing 
support to local education agencies (LEAs) in providing education to 
school-aged children in military families.
    The Duncan Hunter NDAA for Fiscal Year 2009 (section 553), 
authorized the DOD Education Activity (DODEA) to use its funds to share 
experience and provide programs for LEAs who educate military students.
    We have used this opportunity to establish a competitive grant 
program which will award 35 grants to LEAs in fiscal year 2009 for 
amounts between $300,000 and $2 million. As of July 1, 2009 thirty one 
grant awards have been approved totaling $36,907,000. In addition we 
have used this authority to establish an invitational grant program to 
focus on school districts where there are frequent and/or sustained 
deployments, or that are serving children of servicemembers who have 
been wounded, or where school quality is a concern of the local 
military command. In fiscal year 2009 DODEA will award ten grants with 
awards between $300,000 and $2.5 million. We anticipate providing 
$15,458,000 under this program and are currently reviewing requests 
from eight LEAs.
    In addition to providing money in support of this outreach effort, 
the Department is making its MFLC Program available to LEAs to provide 
non-medical, short term, situational, problem-solving counseling 
services. DODEA's Educational Partnership coordinated with DOD and the 
Military Services extends the program to provide professional, licensed 
and credentialed counselors to support and augment over 100 military 
connected LEAs in SY 2009/10.
    The Department is also partnering with Federal and State agencies 
to support the needs of military children in public schools. In June 
2008, the Deputy Secretaries of Defense and Education signed a 
Memorandum of Understanding (MOU) to create a formal partnership 
between the two departments to support the education of military 
students. The MOU provides a comprehensive and cohesive structure for 
collaboration between the two Federal agencies as well as with local, 
State, and other relevant entities. Through the MOU, the agencies can 
now leverage their coordinated strengths to improve the educational 
opportunities of military connected students.
    The Department, in collaboration with the Council of State 
Governments, has established the Interstate Compact on Educational 
Opportunity for Military Children to resolve many of the school 
transition issues experienced by school-aged children in military 
families. This Compact between States covers key issues encountered by 
military families in four broad categories: eligibility, enrollment, 
placement, and graduation. Examples of these issues include class 
placement, records transfer, immunization requirements, course 
placement, graduation requirements, exit testing, and extra-curricular 
opportunities. The Compact was activated in 2008 when the initial 10 
States adopted it and currently has the approval of 24 States, which 
covers 70 percent of military children in Active Duty families (5-18 
years old). The Department is continuing to work with the remaining 
States and expect most will adopt the Compact within the next few 
years.
    Ms. Marin. The Army is working with DOD, Department of Education, 
and local education agencies to address school transition issues and 
provide assistance to local school districts in areas heavily impacted 
by the presence of military-affiliated school-age children.
    Army School Support Services staff at garrisons provide training to 
parents, students and school personnel, transition assistance for 
mobile military students, and advocacy to promote issues of military 
students. The Army has 144 School Liaison officers serving garrisons, 
local school districts, and Army families.
    Today, more than 385 school districts are signatories to the 
Secondary Education Transition Study Memorandum of Agreement. Twenty-
four States have adopted the DOD Interstate Compact on Educational 
Opportunity for Military Children that promotes reciprocal practices 
such as credit transfer, opportunities to try out for sports teams, and 
graduation requirements so that military students are not negatively 
impacted as they move.
    The Army School Strategy incorporates research-based goals 
developed as a result of current issues and trends in education. The 
strategy employs a multidisciplinary partnership with local public 
school districts for measuring academic, social and emotional support 
for Army children from pre-kindergarten through twelfth grade. The 
strategy also addresses processes for equitable educational experiences 
for all military children, inclusive of special-needs, geographically 
diverse, homeschooled, and gifted and talented students.
    Dr. Rau. Navy commanders use School Liaison Officers (SLO's) under 
Child and Youth Education Services to work with local school districts 
to ensure school personnel are aware of the stressors on military 
families associated with frequent moves and extended deployments. Navy 
School Liaison Officers (SLO) are the primary liaison between community 
schools, commanders, and military parents and are located on all major 
Navy installations. Navy SLO's provide school transition services, 
deployment support, home school linkage, facilitate collaboration and 
communication, and support partnerships in education, and post 
secondary preparations. Delivery of an electronic deployment toolkit or 
``seabag'' for school administrators and staff is scheduled for 2010 to 
better equip them for working with children of deployed sailors.
    General Larsen. DODEA has initiated both invitational and 
competitive grants which will enhance student learning opportunities, 
student achievement, and educator professional development at military-
connected schools experiencing significant military growth between 2007 
and 2009. Approximately $30 million will be awarded. Awards will be 
based on military student enrollment and will range in size from 
$300,000 to $2,000,000, depending on the number of military students at 
the target schools to enhance the education of military students, but 
funds may be used to raise student achievement for all students at the 
target school. USMC's Senior School Liaison participated in DODEA's 
Educational Partnership both as a K-12 Partnership member and as a 
grant reviewer.
    Ms. Nesmith. The Air Force works closely with the DOD Education 
Activity (DODEA) Partnership Branch, which supports local education 
agencies (LEAs) that serve military children. The Partnership Branch is 
charged with advancing the quality of educational programs for the 
school-age children of military families who live inside and outside 
the gate, and easing the transition of military dependents from 
military to civilian schools.
    The Air Force, along with the other services, regularly provide 
DODEA with data on significant changes in military student 
demographics. This information allows DODEA to target their 
consultative services, professional development programs, and grant 
authority to appropriate locations. Additionally, the Air Force 
increased its support of military child education initiatives. School 
liaisons and staff in Airman and Family Readiness Centers and Child and 
Youth Centers provide information and referral services for parents and 
children. As a corporate member, we interface with the Military 
Impacted Schools Association, the Military Child Education Association, 
and National Military Family Association. Also, a senior officer and/or 
civilian employee is appointed at each installation with responsibility 
to attend school board and other LEA meetings and to advocate for the 
needs of military children.

                       flexible spending accounts
    33. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, for several years, this committee has encouraged the 
DOD to set up flexible spending accounts for military families--these 
accounts allow employees to set aside a portion of their earned income 
for certain expenses, such as braces for the kids or child care, with 
favorable tax treatment. Why don't military families have the same 
opportunity?
    Mr. Myers. The Department does not plan to implement flexible 
spending accounts at this time. There are several new provisions in the 
National Defense Authorization Act for Fiscal Year 2009 directed at 
curtailing fees, copayments, and deductibles for servicemembers and 
their families.
    Ms. Marin. The Army supports DOD policies and programs for flexible 
spending accounts for military families.
    Dr. Rau. There is a need for a more thorough assessment of the 
subject before FSAs could be applied in a military setting. Some of the 
issues such an assessment may need to address are:

          FSA benefits and risks for military members, particularly 
        the risk of forfeiture of FSA contributions, and limitations on 
        enrollment periods, both of which would more likely impact 
        military families given that they, unlike their civilian 
        counterparts, often face frequent changes in their employment 
        circumstances outside their control such as change of station 
        moves and lengthy deployments.
          Needs of military families that could be positively effected 
        by an FSA program, such as improving their childcare options 
        given current constraints on DOD-sponsored child care.
          Statutory or regulatory requirements which impede the 
        Department's ability to apply the existing Federal FSA benefit 
        program to the uniformed services. For example, under current 
        OPM regulations, uniformed servicemembers are not eligible to 
        participate in the program because they are not employees as 
        defined in section 8901 (and by reference, section 2105) of 
        title 5, U.S.C.
          Quantitative analysis of the estimated effectiveness of FSAs 
        as military compensation tools, especially their potential 
        impact on recruiting, retention, and readiness.
          Life-cycle costs associated with implementing an FSA 
        program, including investments that may be required to adjust 
        current policies/business practices to accommodate 
        participation by uniformed servicemembers (e.g., current 
        practice requires employees to submit signed claims for 
        reimbursement, this may not be possible for military members 
        when deployed).
          Challenges in resourcing the program given the President's 
        recently announced commitment to reenact ``pay-as-you-go'' or 
        PayGo scoring and his stated objective of pursuing revenue 
        neutral new programs or legislation.

    Completing a thorough assessment is a necessary precursor to FSA 
implementation to ensure the DOD is able to more efficiently and 
effectively allocate resources devoted to quality of life programs--to 
make investments that are based on the actual needs of military 
families and focused on areas of greatest return to the Services.
    General Larsen. The Marine Corps feels that this is a question best 
answered by the DOD.
    Ms. Nesmith. Currently military families are not eligible to 
participate in Federal flexible spending account (FSA) programs. 
Legislation would be required for Service participation.
    The commission for the Tenth Quadrennial Review of Military 
Compensation (July 2008), recommended adoption of health care and 
dependent care FSAs for the military. However, there are disadvantages. 
For example, the account funds are ``use it or lose it'' which means 
unused funds are forfeited by the member. If FSAs were to be developed 
for military members, then further study would be necessary to assess 
how modifications to the current structure could avoid such affects, 
especially in cases of deployment or assignment relocation.

                     support for spouse employment
    34. Senator Graham. Mr. Myers, I am told that the Federal hiring 
preference for military spouses which was proposed by the previous 
administration has not been implemented, is that correct? Last year, 
Senator Nelson and I proposed a legislative solution to this. Do we 
need to propose legislation again this year?
    Mr. Myers. On September 25, 2008, President Bush signed Executive 
Order (EO) 13473 allowing agencies to make noncompetitive appointments 
of spouses of certain members of the armed services. This is an 
appointing authority; it does not grant preference.
    OMB recently released the final implementing regulations for the 
EO. We expect them to be published this week with an effective date of 
September 14, 2009. The Department does not believe we need preference 
and is happy with the noncompetitive appointing authority, as it will 
facilitate spouses entry into Civil Service jobs. The EO by its nature 
is temporary subject to the program goals of the administration. 
Legislation would make this authority permanent and thus would be more 
desirable.

    35. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, what can Congress do to assist military spouses in 
achieving their educational and career goals?
    Mr. Myers. Last year, Congress authorized the Department to assist 
spouses of Active Duty servicemembers in receiving education and 
training required for a degree, credential, or professional licensure 
in order to expand employment and portable career opportunities for 
spouses.
    The Department has implemented the Career Advancement Account 
program to provide spouses up to $6,000 to pay for training, 
professional licensure or certification programs. To date over 30,000 
spouses have established a Career Advancement Account and over 10,000 
have started their training program, with over 42 percent studying and 
beginning to work in the HealthCare field.
    Once spouses complete training, they are moved into the Career 
Advancement Account placement process for assistance as they move from 
one installation to the next.
    The Department would ask Congress to continue supporting this 
important program. The Career Advancement Account provides 
opportunities for military spouses to build a career.
    Ms. Marin. Continued congressional support of the President's 
request for Army spouse educational and career initiatives will ensure 
success of our programs.
    Another program where continued support is essential is the DOD 
Military Spouse Career Advancement Account (MyCAA) initiative. MyCAA 
provides education, training, certification and licensing for military 
spouses to pursue careers in high-demand, high-growth portable career 
fields such as education, health care, financial services, homeland 
security, information technology, hospitality industry, business 
management and other fields. MyCAA provides up to $6,000 of Financial 
Assistance for related training, education, licenses and/or 
credentials. DOD is working to expand the MyCAA initiative.
    Dr. Rau. State and congressional support our military spouses 
through alternative certifications; reciprocal licensing agreements; 
out-of-state license recognition; education and training opportunities; 
and nationally recognized standards or exams for licensure in portable 
careers such as health services, education and financial services. 
Eight States now authorize the American Board for Certification of 
Teacher Excellence program, while 23 States have adopted the Nurse 
Licensure Compact or made similar provision for transferring nurses. 
Efforts to address other opportunities for streamlining certification 
and licensure in health services, education, financial services and 
potentially other occupational areas that military spouses are being 
explored. Opportunities to market military spouses to nationwide 
employers within Congressional districts could also provide local 
solutions to corporate hiring needs.
    General Larsen. A study conducted by the National Military Family 
Association in 2007 revealed several limitations that military spouses 
encounter in attempting to achieve their educational and career goals. 
Obstacles included: balancing education, work and family; the high cost 
of education; frequent moves, deployments; and lack of access or 
understanding of available support resources. We recommend the 
following solutions, based on the results of this study:

          1. Ensure installation education centers have the funding 
        necessary to support spouse education programs and initiatives.
          2. Provide additional child care funding to support child 
        care needs of military spouse-scholars.
          3. Remove housing allowances from FAFSA calculations to allow 
        more spouses to qualify for need based financial aid programs.
          4. Provide tuition assistance to spouses.
          5. Provide an additional education tax credit to military 
        spouses.
          6. Increase funding for DOD and Department of Labor (DoL) 
        Military Spouse Career Advance Accounts (CAA) and expand CAA 
        services to include on-site counseling at the military 
        installation Family Support Centers and/or Voluntary Education 
        centers.

    Ms. Nesmith. To assist military spouses in achieving their 
educational and career goals, Congress can consider continuing and 
increasing funding for the MyCAA program that provides up to $6,000 for 
spouses to train or retrain for portable careers; supporting 
legislation that will allow a spouse leaving a job due to military 
reassignment to qualify for unemployment compensation in any of the 
States; passing and publicizing a non-binding resolution that strongly 
encourages professional and State licensing and certification bodies to 
extend reciprocity to professionals holding credentials from other 
States; and passing legislation or supporting policy that allows for 
expedited recruitment and selection of spouses of members of the 
military forces for appointment to positions (for which they are fully 
qualified) in the competitive service of the Federal civil service.

             key indicators of families in duress--divorce
    36. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, I'm one of those people who think it takes a family to 
raise a child, and we need to do everything possible to keep families 
together. What are the divorce rates among military families? Are they 
increasing?
    Mr. Myers. Divorce rates among military families increased from 2.6 
percent in 2001 to 3.4 percent in 2008. The largest increase is in the 
Army (from 2.17 percent in 2001 to 3.55 percent in 2008). The highest 
rate of divorce is in the Marine Corps (3.66 percent in 2008). Divorce 
rates are higher for female (7.4 percent in 2008) than for male 
servicemembers (2.9 percent in 2008).
    The divorce rates, as reflected above, are the percentage of 
personnel who were married at the beginning of a fiscal year but were 
divorced at the end of that fiscal year.
    Ms. Marin. Army families remain strong and resilient in the face of 
demands they confront as we continue to be a nation at war. The Army is 
committed to resourcing programs that support our soldiers and families 
throughout the deployment cycle.
    The Army has expanded the Strong Bonds program, a commander-
initiated, chaplain-led program that helps Active and Reserve component 
soldiers and families build effective relationship skills. The 
program's mission is to build soldier and family readiness by 
strengthening Army marriages and relationships. It targets not only 
couples and family members, but also single soldiers.
    There are a number of family service programs designed to help 
families cope with long separation, frequent moves, and the dangers of 
loved ones being placed in harm's way. These programs include 
counseling by chaplains, youth services, Army family team building, 
behavioral health, and recreation centers; an Army culture that 
encourages families to care for one another during deployment and 
stressful times; and active involvement and oversight of commanders to 
ensure that soldiers support their families, both financially and 
emotionally.
    Divorce rates for Army enlisted soldiers have increased slightly 
since fiscal year 2002 (3.0 percent to 3.7 percent in fiscal year 
2008), but are fairly constant for Army Officers (1.9 percent in fiscal 
year 2002 to 2.2 percent in fiscal year 2008). However, when divorce 
rates are calculated by gender, we see a considerably different 
picture. Females, especially enlisted females, have reported the 
highest level of divorce over the past several years with an increase 
from 6.7 percent in fiscal year 2002 to the current high of 9.1 percent 
in fiscal year 2008. The Office of the Chief of Chaplains is currently 
funding a survey project that is intended to identify stress indicators 
among enlisted females with the objective of providing more focused 
support programs.
    Dr. Rau. The divorce rate for Navy has remained relatively constant 
from Calendar Year 2004 through Calendar Year 2008 averaging from 3.5 
percent to 3.0 percent. The divorce rate for Calendar Year 2009 is 3.2 
percent when extrapolated with current data.
    The following table reflects the divorce rate for Navy:

------------------------------------------------------------------------
                                     Number       Number    Divorce Rate
          Calendar Year             Married      Divorces   (Percentage)
------------------------------------------------------------------------
2004............................     191,756        6,643           3.5
2005............................     192,218        6,382           3.3
2006............................     190,203        6,638           3.5
2007............................     184,094        6,070           3.3
2008............................     177,510        5,357           3.0
------------------------------------------------------------------------

    This data is provided from Defense Manpower Data Center (DMDC) and 
is pulled from Defense Enrollment Eligibility System (DEERS). The 
number is determined by calculating the number of changes in marital 
status from married to unmarried. The number of divorces is calculated 
monthly. The Navy divorce rate is calculated by dividing the total 
number of divorces by the average monthly married population in the 
Navy.
    General Larsen. The divorce rates for 2008 were 3.7 percent and 
have been slowly rising over the last 3 years. In 2006, the rate of 
divorce was 3.1 percent and was 3.3 percent in 2007.
    Ms. Nesmith. The Air Force divorce rate has ranged from 2.4 to 3.0 
divorces per every 100 marriages from 1990-2006, but increased to 3.3 
in 2007 and 3.4 in 2008.

    37. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, what do we need to do to support families and help 
them work through problems and hopefully become stronger as a result?
    Mr. Myers.
Military Chaplains
    As a member of the commander's staff, chaplains serve as moral, 
ethical, and spiritual advisers to their commanders. Much of the work 
they do is one-on-one with the servicemembers and their families and 
one of their primary responsibilities is to provide marriage counseling 
and marriage enrichment seminars.
Family Support Programs
    Each Service branch sponsors information and support programs for 
servicemembers and their families. You can call or visit any 
installation Army Community Service Center, Marine Corps Community 
Services (MCCS), FFSC, or Airman and Family Readiness Center regardless 
of your branch affiliation. In addition to the support offered on the 
installation, DOD provides non-medical, life coaching through MFLC and 
Military OneSource. MFLCs are Masters or Ph.D. level, licensed, and 
credentialed clinical providers that offer intervention and support to 
military members and their families. Like Military OneSource, they 
provide short-term counseling for every day issues, such as anger 
management, stress, parenting, communication, family relationships, 
deployment, and other military-related topics. The goal of the program 
is to support operational readiness and family readiness. Situations 
requiring mental health treatment are referred to behavioral health 
agencies that treat these conditions.
    With the success of the first phase of the contract, the MFLC 
Program has grown to include additional services and outreach 
capabilities: JFSAP, the Personal Financial Counseling (PFC) Program, 
the IRR Marine Outreach Program, Child & Youth Services Program and 
Victim Advocacy (VA) Services. By expanding to include these programs, 
MFLC consultants provide a comprehensive spectrum of behavioral health 
support to military servicemembers and their families.
    Ms. Marin. A prepared family is better able to manage deployment 
and long-term separations, allowing the soldier to stay focused on the 
mission. A family that receives training and support through Army 
support systems is more likely to prove resilient to the stresses of a 
military lifestyle as they gain skills and understanding needed to 
access Army resources and services.
    Services that help families become stronger include MFLC and 
Military OneSource. MFLCs provide problem-solving and nonmedical 
counseling such as anger management, conflict resolution, parent/child 
communication, relationship issues, deployment stress, reintegration, 
relocation adjustment, and grief and financial counseling. MFLCs help 
servicemembers and families cope with reactions to stressful/adverse 
situations created by deployments and reintegration. MFLCs work 
directly with Army Community Service, Guard Headquarters and Reserve 
Regional Commands. Military OneSource provides private, face-to-face, 
non-medical counseling for short-term problems in neighborhoods 
throughout the United States, Puerto Rico, and the Virgin Islands. 
Military OneSource also provides short-term solution-focused telephone 
consultation services as an alternative to face-to-face counseling. 
Both programs offer up to 12 counseling sessions per issue at no cost 
to users.
    Chaplains and chaplain assistants provide support to all Army 
installations. Their mission includes pastoral care and counseling to 
families under duress and facing problems with marriages and 
relationships. Chaplains are trained in counseling and a number of 
relationship strengthening programs that can be used with singles, 
couples, and families, or retreats focused on relationship building. 
Soldiers and families may also find relationship support in chaplain-
lead religious community worship, religious education, and other 
activities that make up the diverse full-spectrum of services available 
through chaplains. The availability of unit ministry teams in the 
soldier's unit and in the community eliminates barriers to care and 
makes it easy for soldiers and families to initiate casual 
conversations to broach sensitive topics and find the help they need, 
whether provided by the chaplain or available elsewhere in the 
community. Family Life Chaplains have additional marriage and family 
counseling skills and training and are available to equip other 
chaplains or counsel with them to provide marriage enrichment 
counseling, crisis counseling, divorce counseling, and family 
counseling to mitigate the challenges of divorce.
    Dr. Rau. We currently have a very effective support network, 
through Navy FFSCs, which provides a wide-array of life skills 
workshops, such as parenting training, stress management, anger 
management, and couples communication.
    Home visitation services are provided for over-burdened expectant 
mothers and new parents of children, through age three. In the case of 
married parents, one of whom, is a deployed member, and single parents, 
we offer voluntary home visitation services. Licensed mental health 
professionals also provide brief, solution-focused, clinical counseling 
to sailors and family members to address commonly occurring issues such 
as marital discord, parent-child conflict and school/occupational 
issues, which impact family functioning. Further, we provide clinical 
services to individuals, couples and families to identify and resolve 
issues before more significant problems develop. When necessary, our 
Family Advocacy Program provides safety assessment and planning, 
clinical assessment and case management, victim advocacy and 
rehabilitative intervention to military families referred for alleged 
child abuse/neglect or domestic abuse.
    General Larsen. We offer a variety of programs and Counseling 
Services to support families and help them work through problems to 
become stronger. MCCS FAP and the General Counseling Program offers 
classes and services to help individuals, couples and families to 
enrich their relationships. Key concepts covered in these classes 
include danger signs and hidden issues in relationship; using the 
speaker-listener technique to communicate with each other; exploring 
expectations and core beliefs; problem-solving; commitment and 
friendship, fair fighting; conflict resolution; boundary definitions; 
trust and intimacy; anger management, stress management; and the 
prevention of domestic violence and child abuse. Other MCCS programs 
also offer classes/courses and life skills training such as financial 
management, family member employment; educational assistance and 
parenting practices, Pre-Deployment briefs to prepare for family 
separations and Post Deployment briefs to prepare for reintegration to 
family life, all of which affects martial and family relationships. 
Additional counseling services are available to families through 
Military OneSource, TRICARE and Chaplains.
    Ms. Nesmith. The Air Force recognizes each of the three phases of 
deployment (pre-deployment, deployment, and post-deployment) generates 
specific issues for military families. Educating families on the 
changing military environment is essential to how well our families 
adapt to deployments and the military lifestyle.
    To help families work through problems, we offer full-spectrum 
support before, during and after deployments. Focusing on family member 
needs before deployment can strengthen families' abilities to cope with 
stresses of deployment. The Air Force does this by conducting self-
improvement and development workshops using a variety of means to 
connect with family members. We leverage technology to provide online 
support groups, social networks, and other informal events to reach 
family members who prefer alternative settings or do not live near the 
installation.
    We also educate community agencies on the changing demands of the 
military and its effect on families so they can enhance their service 
to our families. For example, families who attend religious 
institutions off base will often seek counseling from that institution. 
Training and educating local clergy on aspects of military life, 
including deployment and long-term separations, will assist them when 
counseling military families.
    We welcome your continued interest in our Family Support 
infrastructure, initiatives, outreach efforts, staffing and technology.

    38. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, I know we are short of mental health professionals. Do 
we have enough chaplains?
    Mr. Myers. Currently, there are some shortages across the different 
branches of our Armed Forces. Chaplains are doing their best to help 
facilitate the free exercise of religion for all of our uniformed 
personnel during the rigors of a long war.
    Ms. Marin. Currently, chaplain positions are filled to funded 
authorizations in the Active component. At the same time, chaplains 
have never been busier with the persistent conflict, multiple tours in 
combat, high stress in the chaplains and the force, frequent 
relocations, and high demands even when not deployed. There are a 
number of initiatives to fund and fill all chaplain and chaplain 
assistant requirements--a shortfall of 122 in the Active component, 22 
in the National Guard, and 10 in the Army Reserve.
    Dr. Rau. Navy Chaplain Corps manning is currently at 94 percent, 
with specific shortfalls at the O-2/O-3 level, which is manned at 92 
percent. Inventory shortfalls are largely attributable to historical 
challenges in recruiting sufficient numbers of chaplains to meet 
requirements.
    The Navy Chaplain Corps, in collaboration with all Enterprises 
across the Navy and with U.S. Marine Corps and U.S Coast Guard, is 
currently conducting a detailed requirements assessment to determine 
the true requirements for religious ministry across the Sea Services. 
Based on analysis completed to date, the President's fiscal year 2010 
budget submission includes an increase in authorizations for 43 
additional chaplains. Completion of the assessment is anticipated by 
the end of fiscal year 2010, the results of which are expected to 
inform future decisions on the size and composition of the Navy 
Chaplain Corps based on validated requirements.
    General Larsen. The Chaplain Corps resides within the Navy. The 
Marine Corps is unaware of any shortfalls within the Chaplain Corps.
    Ms. Nesmith. While not all chaplain positions are fully funded or 
filled, the Air Force Chaplain mission is being effectively 
accomplished. As with other career fields, our Chaplain career field is 
impacted by the strain associated with sustained deployments. We also 
feel the impact of the chronic shortage of Catholic priests, an issue 
that transcends the military Services.

           key indicators of families in duress--child abuse
    39. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, are we seeing any increase in child abuse among 
military families? If so, what are we doing to intervene and prevent 
it?
    Mr. Myers. DOD-wide rates of child abuse and neglect in Active Duty 
families have not increased. In fiscal year 2004 the joint-Service rate 
of reported incidents per 1,000 children substantiated by the DOD 
Family Advocacy Program (FAP) had increased slightly. Since fiscal year 
2004 both OSD and the Services have expanded and enhanced outreach and 
prevention programs targeting vulnerable families, including a campaign 
to prevent shaken baby syndrome, and the use of MFLCs. By fiscal year 
2008 the joint-Service rate of substantiated child abuse and neglect 
incidents per 1,000 children had decreased 27.2 percent since fiscal 
year 2000.
    Overall, the DOD rate of substantiated child abuse and neglect is 
consistently less than half of their counterpart rates in the U.S. 
civilian population as compiled by the U.S. Department of Health and 
Human Services (HHS).
    DOD FAP does not collect information on child abuse and neglect 
reports in the Reserve component. The State child protective services 
agencies retain the responsibility for receiving reports involving non-
Active Duty component families in the civilian community, and 
aggregating the data. DOD FAP is working with HHS to improve such data 
collection.
    Ms. Marin. The Army's rate of substantiated child abuse decreased 
from 6.6 per 1,000 in fiscal year 1998 to 5.5 per 1,000 in fiscal year 
2008--substantially less than the civilian rate of 12.4 per 1,000 
reported by the Department of Health and Human Services.
    The total number of fiscal year 2008 reported child abuse cases was 
6,296. Of these, 2,596 were substantiated cases. However, preliminary 
second quarter fiscal year 2009 data (690) show an increase in 
substantiated cases over first quarter fiscal year 2009 (662), but are 
lower than cases reported in second quarter fiscal year 2008 (712).
    The Army is committed to preventing domestic violence and child 
abuse and neglect by providing a variety of services to strengthen Army 
families and enhance resiliency. The Army's Family Advocacy Program 
(FAP) provides resources to commanders and families to prevent and 
treat family violence. Prevention education is a priority, especially 
for high-risk populations such as single parents, new parents, and 
first-term families. Prevention education includes stress and anger 
management classes, parent support and skills classes, emergency 
placement care, and victim advocacy. If needed, installation victim 
advocates are on call 24/7 to support both victims of domestic violence 
and sexual assault.
    Dr. Rau. Navy data indicates generally decreasing rates of both 
alleged and substantiated child abuse since 2000. The Navy fully 
supports efforts to prevent child maltreatment and domestic abuse in 
military families. FFSCs provide life skills workshops such as 
parenting training, stress management, anger management, and couples 
communication. Home visitation services are provided to over-burdened 
expectant and new parents of children up to age 3. Single parents and 
parents with a deployed member are automatically screened as eligible 
for these voluntary home visitation services. The Navy New Parent 
Support Program uses an evidence-informed home visitation curriculum 
demonstrated to decrease child abuse risk. In 2008, 95 percent of high 
risk families remained abuse-free for 12 months after receiving six 
months of Navy home visitation services. Based on recommendations made 
by the Department of the Navy Fatality Review Team, the Navy has 
implemented primary prevention efforts to reduce child deaths due to 
shaking and the use of unsafe sleeping practices. Licensed mental 
health professionals also provide brief, solution-focused clinical 
counseling to sailors and family members for commonly occurring issues 
such as marital discord, parent-child conflict, or school/occupational 
issues all of which can adversely impact parenting practices.
    General Larsen. Obtaining consistent and quality data from the 
field has been problematic for a number of years. The Personal and 
Family Readiness Division has been inspecting fiscal year 2007 and 
fiscal year 2008 reports of abuse and counseling files aboard Camp 
Pendleton and Camp Lejeune to assure data integrity and to define 
process improvement opportunities. This effort will result in 
standardizing nomenclature, abuse definitions, and reporting 
requirements. Correction of the database and improved, factual 
statistics will additionally ensue from this effort. Although the data 
indicates a decline in substantiated domestic abuse incidents, down 
from 821 in fiscal year 2001 to 397 in fiscal year 2007, there was a 
notable increase in fiscal year 2008--to 505--and early indications 
show the potential for a slight increase in fiscal year 2009.
    Because we know that the military lifestyle is challenging, each 
installation offers unique resources to support the needs of parents 
and children. To prevent child abuse and foster the development and 
sustainment of healthy families MCCS provides a variety of prevention 
and education services, New Parent Support Program (NPSP), and 
encourages families to seek early intervention. The Family Advocacy 
Council (FAC) addresses child abuse issues at each installation. 
Prevention programs are offered through a coordinated community 
response effort with the base and civilian communities. The New Parent 
Support Program offers home based parent education services and 
psychoeducational parenting and play groups. Spouse support groups are 
additionally offered through the Family Team Building. Additional 
counseling services are available to families through Military 
OneSource, TRICARE and Chaplains. The Marine Corps is also partnering 
with UCLA to provide ``''resiliency training'' to families and children 
of marines who are facing the challenges and stress of having a loved 
one at war. This program, ``Families OverComing Under Stress'' (FOCUS) 
is operational at nine Navy and Marine Corps bases, including three in 
California.
    Ms. Nesmith. The DOD has seen a steady decline in family 
maltreatment referrals for the past 10 years; the decrease in the Air 
Force has been significant as well. For example, the total number of 
referrals fell from 8,170 in fiscal year 2005 to 6,335 in fiscal year 
2008. However, there is evidence that child neglect increases during 
deployments, and there is a small increase in child abuse among 
frequent deployers. Our Air Force Family Advocacy Program teammates are 
already training our staffs worldwide on these trends and bolstering 
family maltreatment prevention and intervention measures.

                         dod child care centers
    40. Senator Graham. Mr. Myers, Ms. Marin, Dr. Rau, General Larsen, 
and Ms. Nesmith, Mr. Myers has testified that there is a shortage of 
37,000 child care spaces throughout DOD. If all of the dollars and 
programs in the 2010 request are authorized and appropriated, what 
becomes of that 37,000-space shortfall?
    Mr. Myers. If all of the funding and programs in the 2010 request 
are authorized and appropriated, including the funding in the American 
Recovery and Reinvestment Act, the 37,000 shortage will be reduced by 
approximately 4,600 spaces. This still leaves a significant shortage of 
child care spaces.
    With congressional support over the past several years, the 
Department has reduced the shortage (at one time as high as 58,000 
child care spaces) as a result of an accelerated MILCON program and 
legislative initiatives. The Department will continue to rely on the 
MILCON program; however, the greatest success in increasing child care 
capacity (over 10,000 spaces) has occurred as a result of projects 
funded under the authority granted in section 2810(d), NDAA for Fiscal 
Year 2006 and renewed under section 2809 of the NDAA 2008. This 
legislation authorized the use of minor MILCON for Child Development 
Centers with life-threatening, health threatening or safety threatening 
deficiencies. The Department has utilized the flexibility this 
authority allowed to increase spaces on a rapid basis. By supporting 
DOD families' need for child care, the Department contributes to the 
efficiency, readiness, and retention of the total force and alleviate 
stress on families.
    The Department must also begin to turn its attention to 
recapitalizing the investment. The modular facilities constructed under 
the expanded authority have a 50 year life-span; however, many child 
care facilities are in need of renovations and repairs to ensure 
continued functionality. In order to maintain an adequate facility 
sustainment program for a large child care system, the Department 
estimates the need for 18--20 centers per year to meet the 
recapitalization goals. The Department requests your continued support 
of MILCON funding to ensure the viability of the child development 
program.
    Ms. Marin. The Army's Child Development Center construction program 
constitutes a critical aspect of supporting families with facilities 
needed to meet child care demand. Child care programs are a top quality 
of life issue essential to readiness, morale, and retention of the 
force.
    The Army has a requirement for 358 spaces to be provided through 
MILCON projects after fiscal year 2010 in addition to 1,878 spaces 
which are candidates for Operation and Maintenance Construction funding 
to meet its end-state capability. The Army anticipates having child 
care construction requirements in the future to provide replacement and 
renovations of existing facilities or to address emerging requirements 
(e.g., tour normalization in Korea).
    Dr. Rau. The Navy's share of the 37,000 shortfall is 3,500. The 
fiscal year 2010 requested increase of $7.7 million will satisfy 100 
percent of the shortfall once construction is completed.
    General Larsen. Based on the fiscal year 2010 funding request and 
the ARRA funding, there would be a net increase of 2,100 spaces in 
permanent construction over the next several years.
    Ms. Nesmith. Based on today's known demand, we are on track to 
bring the deficit in Air Force programs from 6,400 spaces to 0 by 
fiscal year 2011.

                              commissaries
    41. Senator Graham. Mr. Myers, Ms. Moakler from the National 
Military Family Association tells us that families consider the 
commissary one of their most important benefits. The savings that you 
reference in your statement will not be achieved if the commissaries 
are not a desirable place to shop. Is there sufficient funding to 
replace and renovate military commissaries?
    Mr. Myers. No. While the Department's policy, that appropriated 
funding pays for commissary construction required by strategic military 
decisions, helped reduce the shortfall in construction funding, the 
shortfall continues to exist. As reported to Congress in January 2009, 
Defense Commissary Agency (DeCA) identified a $549.5 million shortfall 
of commissary surcharge funding. To alleviate the shortfall, DeCA 
identified options for sharing revenue from the sale of exchange items 
in commissaries, seeking alternative funding similar to public-private 
housing initiatives, and alternative funding sources to cover costs of 
anti-terrorism and force protection measures. DeCA continues to explore 
options to reduce the shortfall before consideration will be given to 
increasing the surcharge rate. Those options are being reviewed during 
the development of the fiscal year 2011 budget request.

    [Whereupon, at 4:32 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
